<html>
<title> - HEARING ON PENDING BENEFITS LEGISLATION</title>
<body><pre>[Senate Hearing 110-675]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-675
 
                HEARING ON PENDING BENEFITS LEGISLATION

=======================================================================


                                HEARING

                               BEFORE THE

                     COMMITTEE ON VETERANS' AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 7, 2008

                               __________

       Printed for the use of the Committee on Veterans' Affairs


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate



                   U.S. GOVERNMENT PRINTING OFFICE
42-406 PDF                  WASHINGTON : 2008
----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free(866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001


                     COMMITTEE ON VETERANS' AFFAIRS

                   Daniel K. Akaka, Hawaii, Chairman
John D. Rockefeller IV, West         Richard Burr, North Carolina, 
    Virginia                             Ranking Member
Patty Murray, Washington             Arlen Specter, Pennsylvania
Barack Obama, Illinois               Larry E. Craig, Idaho
Bernard Sanders, (I) Vermont         Kay Bailey Hutchison, Texas
Sherrod Brown, Ohio                  Lindsey O. Graham, South Carolina
Jim Webb, Virginia                   Johnny Isakson, Georgia
Jon Tester, Montana                  Roger F. Wicker, Mississippi
                    William E. Brew, Staff Director
                 Lupe Wissel, Republican Staff Director


                            C O N T E N T S

                              ----------                              

                              May 7, 2008
                                SENATORS

                                                                   Page
Akaka, Hon. Daniel K., Chairman, U.S. Senator from Hawaii
    Opening remarks..............................................     1
    Statement....................................................     7
Nelson, Hon. E. Benjamin, U.S. Senator from Nebraska.............     1
    Prepared statement...........................................     3
Burr, Hon. Richard, Ranking Member, U.S. Senator from North 
  Carolina.......................................................     8
    Prepared statement...........................................     9
Webb, Hon. Jim, U.S. Senator from Virginia.......................    11
Graham, Lindsey O., U.S. Senator from South Carolina.............    13
    Prepared statement...........................................    15
Murray, Hon. Patty, U.S. Senator from Washington.................    16
Brown, Hon. Sherrod, U.S. Senator from Ohio......................    17
Thune, Hon. John, U.S. Senator from South Dakota.................    47

                               WITNESSES

Filner, Hon. Bob, Chairman, House Committee on Veterans' Affairs, 
  Representative from California.................................     5
    Prepared statement...........................................     6
Pedigo, Hon. Keith R., Associate Deputy Undersecretary for Policy 
  and Programs; accompanied by Hon. Jack Thompson, Deputy General 
  Counsel, Department of Veterans Affairs; and Hon. Keith Wilson, 
  Director of Education Service, Department of Veterans Affairs..    18
    Prepared statement...........................................    20
    Response to questions arising during the hearing.............    51
Blake, Carl, Paralyzed Veterans of America.......................    52
    Prepared statement...........................................    54
Cohen, Richard Paul, Executive Director, National Organization of 
  Veterans' Advocates............................................    61
    Prepared statement...........................................    62
Hilleman, Eric A., Deputy Director of the National Legislative 
  Service, Veterans of Foreign Wars..............................    66
    Prepared statement...........................................    68
Kelley, Raymond C., Legislative Director, AMVETS.................    73
    Prepared statement...........................................    75
Smithson, Steve, Deputy Director, Veterans Affairs and 
  Rehabilitation Commission, The American Legion.................    79
    Prepared statement...........................................    81
    Addendum.....................................................    86
Violante, Joseph, National Legislative Director, Disabled 
  American Veterans..............................................    89
    Prepared statement...........................................    90
Weidman, Richard ``Rick,'' Governmental Affairs Director, Vietnam 
  Veterans of America............................................   101
    Prepared statement...........................................   103
Starnes, H. Gerald, U.S. Merchant Marine with service during 
  World War II...................................................   112
    Prepared statement...........................................   115
Charles Dana Gibson, U.S. Merchant Marine with service during 
  World War II, and Maritime Historian...........................   116
    Prepared statement...........................................   118

                                APPENDIX

Baucus, Hon. Max, U.S. Senator from Montana; prepared statement..   127
Boxer, Hon. Barbara, U.S. Senator from California; prepared 
  statement......................................................   127
Klobuchar, Hon. Amy, U.S. Senator from Minnesota; prepared 
  statement......................................................   128
Dole, Hon. Bob and Secretary Donna E. Shalala, Co-Chairs, 
  President's Commission on Care for America's Returning Wounded 
  Warriors; prepared statement...................................   129
Jones, Rick, NAUS Legislative Director, The National Association 
  for Uniformed Services (NAUS); prepared statement..............   131
American maritime labor organizations; letter....................   133
Suter, Ivy B., Chairwoman, U.S. Merchant Marine Academy Alumni 
  Foundation; letter.............................................   134
Allison, Ian T., Santa Rosa, CA; prepared statement..............   135
Jackson, William, Oakland, CA; prepared statement................   136
Gleeson, Mark S., Oakmont, PA; prepared statement................   137
Young, Burt, Lincoln, NE; prepared statement.....................   139


                HEARING ON PENDING BENEFITS LEGISLATION

                              ----------                              


                         WENDESDAY, MAY 7, 2008

                                       U.S. Senate,
                            Committee on Veterans' Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:34 a.m., in 
room 106, Dirksen Senate Office Building, Hon. Daniel K. Akaka, 
Chairman of the Committee, presiding.
    Present: Senators Akaka, Murray, Brown, Webb, Burr, and 
Graham.

     OPENING STATEMENT OF HON. DANIEL K. AKAKA, CHAIRMAN, 
                    U.S. SENATOR FROM HAWAII

    Chairman Akaka. Aloha. This hearing will come to order. 
Good morning. Welcome to this hearing on benefits legislation 
pending before the Committee.
    At this time, I will defer to my colleagues and have them 
give their statements. Then, I will give mine and have the 
Members of the Committee give theirs, as well.
    At this point in time, let me introduce Senator Nelson from 
Nebraska, and ask him to make his statement.
    Senator Nelson.

             STATEMENT OF HON. E. BENJAMIN NELSON, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Nelson. Thank you very much, Senator Akaka.
    Thank you very much for holding this hearing. It is good to 
be here with our colleague, Chairman of the House Veterans' 
Affairs Committee, as well; and I want to thank you for holding 
the hearing on the Belated Thank You to the Merchant Marines of 
World War II Act of 2007, S. 961.
    At this time I would like to enter, with the approval of 
the Committee, the statements of four Merchant Mariners for the 
record. Statement of Burt Young, William Jackson, Mark S. 
Gleason and Ian Allison, all of whom are surviving Merchant 
Mariners.
    Chairman Akaka. Without objection, they will be entered 
into the record.
    [The four letters appear in the Appendix.]
    Senator Nelson. Thank you.
    Well, Mr. Chairman and Members of the Committee, as you 
well know, World War II United States Merchant Mariners bravely 
served alongside America's military. Inspired by patriotism and 
despite the harshest of battle conditions and at great 
sacrifice to their personal safety, the Merchant Mariners 
proudly dedicated themselves to supporting the missions and 
completing their duty to our country without fanfare.
    These brave men volunteered for an essential effort during 
a time of war which eventually would help lead to victory. 
Unfortunately for over 40 years, our Nation has declined to 
acknowledge their contributions and sacrifices.
    World War II Merchant Mariners delivered troops, tanks, 
food, airplanes, fuel and other necessary supplies to every 
theater of the war. Soldiers on the front line would not have 
been able to complete their missions if the Merchant Mariners 
had not braved dangerous waters and delivered the means to do 
so.
    The Merchant Mariners provided critical logistical support 
to the war effort and have been recognized in the Oxford 
Companion to World War II as one of the most significant 
contributions made by any nation to victory in World War II.
    During every invasion, from Normandy to Okinawa, they were 
there--in the most dangerous of waters, in the face of threats 
and attacks from submarines, mines, armed raiders, destroyers, 
aircraft and the elements--the Merchant Mariners were there.
    Though the numbers of the Merchant Mariners were small, 
their risk of dying during service was extremely high. Enemy 
forces sank over 800 Merchant Mariner ships between 1941 and 
1944 alone. About 9,300 mariners were killed, 11,000 were 
wounded, and 663 were taken prisoner.
    At the end of the war, one out of every 26 Merchant 
Mariners serving aboard merchant ships in World War II died in 
the line of duty. The highest casualty rate of any branch of 
the service.
    Merchant Mariners casualties were kept secret during the 
war to keep information about their success from the enemy and 
to attract and keep mariners at sea.
    Unfortunately to this day, 60 years after the end of World 
War II, the Merchant Marine remains the forgotten service.
    Despite their service and support of the war effort, this 
country has dealt this class of World War II veterans a great 
disservice. They were denied benefits under the 1945 GI Bill of 
Rights--benefits granted to all of those who equally, admirably 
served in the Army, Navy, Marine Corps, Army Air Force or Coast 
Guard. Only the U.S. Merchant Marine was excluded.
    Upon signing the GI Bill on June 22, 1944, President 
Franklin D. Roosevelt said, ``I trust Congress will soon 
provide similar opportunities to members of the Merchant Marine 
who risked their lives time and time again during the war for 
the welfare of their country.''
    In 1988 the Merchant Mariners did finally receive a 
watered-down bill of rights, but some portions of the GI Bill 
have never been made available to the veterans of the Merchant 
Marine. No educations were available to Merchant Mariners, no 
low interest home loans, no lifetime compensation for war-
related injuries and disabilities, no use of VA hospitals, no 
priority for local, State and Federal jobs, no Social Security 
for war time service.
    While it is impossible to make up for over 40 years of 
unpaid benefits, this bill will at least acknowledge the 
service of the veterans of the Merchant Marine and offers some 
compensation for their service in World War II.
    S. 961, the Belated Thank You to the Merchant Mariners of 
World War II Act of 2007 would pay each eligible veteran or 
their widow a monthly benefit of $1,000 tax-free. Their average 
age is 83. Many have outlived their savings. This bill would 
provide a small amount of compensation for those who risked 
their lives to contribute to our success in World War II only 
to be forgotten.
    There is overwhelming bipartisan support for this 
legislation. At last count, S. 961 had 59 cosponsors. The House 
passed a modified version of the Merchant Mariners Bill in June 
of last year which had 244 cosponsors.
    Those that fought and lived during World War II have been 
duly labeled as ``Greatest Generation.'' The 230,000-strong 
force of Merchant Mariners are surely part of that ``Greatest 
Generation'' and we owe them a tremendous debt. For the 9500 
still living, we can never make up for years lost, but we can 
address injustice by recognizing their contributions and by 
passing S. 961 this year.
    While I am here, I would also like the opportunity to 
highlight another bill that I have introduced that has been 
referred to the Senate Veterans' Affairs Committee, S. 2701. 
This bill would authorize a National cemetery in eastern 
Nebraska. Currently, there is no National cemetery in that 
region and I believe our Nebraska veterans desire a final 
resting place close to home for their families and loved ones 
to pay respect and honor their service.
    I respectfully request the Committee take action on both 
pieces of legislation.
    Mr. Chairman, I thank you for the courtesies and the 
Members of the Committee for allowing me to testify, and 
particularly, the courtesy for permitting me to go first.
    I thank you very much.
    [The prepared statement of Senator Nelson follows:]
   Prepared Statement of Hon. Ben Nelson, U.S. Senator from Nebraska
    Mr. Chairman, I would like to thank you for holding this hearing on 
the ``Belated Thank You to the Merchant Mariners of World War II Act of 
2007,'' S. 961. At this time, I would like to enter the statements of 
four merchant mariners into the record--the statements of Bert Young, 
William Jackson, Mark S. Gleeson and Ian Allison--all of whom are 
surviving merchant mariners.
    Mr. Chairman, and Members of the Committee, as you well know, World 
War II U.S. Merchant Mariners bravely served alongside America's 
military. Inspired by patriotism, despite the harshest of battle 
conditions, and at great risk to their personal safety, the Merchant 
Mariners proudly dedicated themselves to supporting the missions and 
completing their duty to our country, without fanfare. These brave men 
volunteered for an essential effort during a time of war, which 
eventually would help lead to victory. Unfortunately, for over 40 
years, our Nation has declined to acknowledge their contributions and 
sacrifices.
    World War II Merchant Mariners delivered troops, tanks, food, 
airplanes, fuel and other necessary supplies to every theater of the 
war. Soldiers on the front lines would not have been able to complete 
their missions if the Merchant Mariners hadn't braved dangerous waters 
and delivered the means to do so. The Merchant Mariners provided 
critical logistical support to the war effort and have been recognized 
in the Oxford Companion to World War II as one of the most significant 
contributions made by any nation to victory in World War II.
    During every invasion from Normandy to Okinawa, they were there. In 
the most dangerous of waters, in the face of threats and attacks from 
submarines, mines, armed raiders, destroyers, aircraft, and the 
elements, the Merchant Mariners were there.
    Though the numbers of the Merchant Mariners were small, their risk 
of dying during service was extremely high. Enemy forces sank over 800 
Merchant Mariner ships between 1941 and 1944 alone. About 9,300 
Mariners were killed, 11,000 were wounded, and 663 were taken prisoner.
    At the end of the war, 1 out of every 26 Merchant Mariners serving 
aboard merchant ships in World War II died in the line of duty, the 
highest casualty rate of any branch of the service.
    Merchant Mariners casualties were kept secret during the war to 
keep information about their success from the enemy and to attract and 
keep mariners at sea. Unfortunately, to this day, 60 years after the 
end of World War II, the Merchant Marine remains the forgotten service.
    Despite their service in support of the war effort, this country 
has dealt this class of World War II veterans a great disservice. They 
were denied benefits under the 1945 GI Bill of Rights--benefits granted 
to all those who equally admirably served in the Army, Navy, Marine 
Corps, Army Air Forces or Coast Guard. Only the U.S. Merchant Marine 
was excluded.
    Upon signing the GI Bill on June 22, 1944, President Franklin D. 
Roosevelt said, ``I trust Congress will soon provide similar 
opportunities to members of the Merchant Marine who have risked their 
lives time and time again during war for the welfare of their 
country.''
    In 1988, the Merchant Mariners did finally receive a ``watered down 
bill of rights.'' But some portions of the GI Bill have never been made 
available to veterans of the Merchant Marine.
    No education benefits were available to Merchant Mariners. No low-
interest home loans. No lifetime compensation for war-related injuries 
and disabilities. No use of VA hospitals. No priority for local, State, 
and Federal jobs. No Social Security credit for wartime service.
    While it is impossible to make up for over 40 years of unpaid 
benefits, this bill will acknowledge the service of the veterans of the 
Merchant Marine and offer some compensation for their service in World 
War II.
    S.961, the ``Belated Thank You to the Merchant Mariners of World 
War II Act of 2007,'' would pay each eligible veteran or their widow, a 
monthly benefit of $1,000, tax free. Their average age is 83. Many have 
outlived their savings. This bill would provide a small amount of 
compensation for those who risked their lives to contribute to our 
success in World War II, only to be forgotten.
    There is overwhelming, bipartisan support for this legislation. At 
last count (May 1, 2007), S. 961 had 59 cosponsors. The House passed a 
modified version of the Merchant Mariners bill in June of last year 
which had 244 cosponsors.
    Those that fought and lived during World War II have been duly 
labeled as the ``Greatest Generation.'' The 230,000-strong force of 
Merchant Mariners are surely part of the Greatest Generation and we owe 
them a tremendous debt. For the 9,500 still living, we can never make 
up for years lost, but we can address the injustice by recognizing 
their contributions and by passing S. 961 this year.
    While I'm here, I would also like the opportunity to highlight 
another bill that I have introduced that has been referred to the 
Senate VA Committee, S. 2701. This bill would authorize a National 
Cemetery in Eastern Nebraska. Currently, there is no national cemetery 
in the region. I believe our Nebraska veterans deserve a final resting 
place close to home for their families and loved ones to pay respect 
and honor their service.
    I respectfully request that the Committee take quick action on both 
pieces of legislation.

    Mr. Chairman, I would like to thank you and the Members of the 
Committee for allowing me to testify today.

    Chairman Akaka. I want to thank my friend, Senator Nelson 
from Nebraska, for his remarks. I know how passionate you are 
about this issue and I want to thank you for being here this 
morning.
    Senator Nelson. Sometimes it surprises people that a 
Senator from a landlocked State like Nebraska (with the 
exception of the Missouri River), would take an interest in 
something like the Merchant Marine. But, all across America 
today we appreciate what they did during World War II. We are 
so appreciative and thankful that 9,500 are still with us; and 
it is opportunity and our pleasure, as well, to be able to help 
them at this time in our history.
    So, thank you, Mr. Chairman and Members of the Committee.
    Chairman Akaka. Thank you, Senator Nelson. I know you are 
busy.
    Senator Nelson. Thank you, Mr. Chairman.
    Chairman Akaka. And now I would like to introduce the 
distinguished Chairman of the House Veterans' Affairs 
Committee.
    Congressman Filner has asked to make brief remarks on the 
Merchant Marine legislation, as well.
    This is your time, Congressman Filner.

  STATEMENT OF HON. BOB FILNER, CHAIRMAN, HOUSE COMMITTEE ON 
       VETERANS' AFFAIRS, REPRESENTATIVE FROM CALIFORNIA

    Mr. Filner. Thank you, Senator, Mr. Burr, former colleague, 
Mr. Graham, and Mr. Webb.
    Thank you for allowing me to speak. It has been a great joy 
to work with you, Mr. Chairman, as we represent our respective 
committees. I think we have done a great job.
    In the year and a quarter--almost a year and a half--that 
we have been chairs, we have added close to 40 percent of new 
money for the health care of our veterans. We are about to take 
Mr. Webb's bill of education benefits for our service men for a 
new GI Bill.
    When we first met over a year ago, we talked about some 
injustices that we would also have to remedy. You took a great 
step last week by recognizing as veterans, the Filipino 
Veterans of World War II who helped us win the war in the 
Pacific.
    We have the atomic veterans that we still need to help and 
the Merchant Marine situation is an injustice that we would 
also like to remedy.
    I would like to thank Senator Nelson for introducing the 
counterpart to H.R. 23, which passed the House by voice vote 
last July, and we hope that the Senate will take action.
    I just ask that my statement be part of the record. Mr. 
Nelson covered everything very well.
    I want to point out that the result of being left out of 
the GI Bill meant that the Mariners could not buy a home or go 
to college as their counterparts, eight million of them, were 
doing.
    The jobs that were open paid significantly less and it was 
impossible to, perhaps, become a doctor, lawyer, teacher or 
engineer.
    I know when my father got back from World War II, not only 
did he get some education, we were able to buy a house for the 
first time in our family's history. It allowed us to be part of 
the great middle class and to be able to participate in the 
American dream; yet those who helped us win the war, the 
Merchant Mariners, were left out of that ability.
    It is impossible to make up for 40 years of unpaid 
benefits, but S. 961 will acknowledge the service they gave and 
offer compensation for their lost benefits.
    So again, we had great bipartisan support. As Senator 
Nelson said, 59 senators have already cosponsored. We had 244 
in the House before it passed. Those of you who served in the 
House know how difficult that is to get that many people on to 
a bill.
    Thank you for allowing me to speak, Mr. Chairman. I hope 
this bill will be supported and come to the Senate for a full 
vote so that we can regain our Nation's moral ground and say 
thank you with a compensation for the injustice endured by our 
Nation's Merchant Mariners.
    I thank the chair.
    [The prepared statement of Mr. Filner follows:]
   Prepared Statement of Representative Bob Filner, Chairman, House 
                     Committee on Veterans' Affairs
         s. 961, belated thank you to the merchant mariners of 
                        world war ii act of 2007
    Mr. Chairman and Members of the Senate Committee on Veterans 
Affairs, I appreciate this opportunity to speak on the Belated Thank 
You to the Merchant Mariners of World War II Act of 2007, introduced in 
the Senate as S. 961. The companion bill, H.R. 23, which I introduced, 
was passed by the House of Representatives on July 30th of last year. 
This legislation corrects an injustice that has been inflicted upon a 
group of World War II veterans, the World War II United States Merchant 
Mariners.
    World War II Merchant Mariners suffered the highest casualty rate 
of any of the branches of service while they delivered troops, tanks, 
food, fuel and other needed supplies to every theater of the war. 
Without their service, the troops and weapons and supplies could have 
not been transported to where they were needed. Their chance of dying 
during service was extremely high. Enemy forces sank over 800 ships 
between 1941 and 1944.
    Unfortunately, these brave men were denied their rights under the 
GI Bill of Rights that Congress enacted in 1945. All those who served 
in the Army, Navy, Marine Corps, Air Force or Coast Guard were 
recipients of benefits under the GI Bill. The United States Merchant 
Mariners were not included.
    The Merchant Mariners became the forgotten service. For four 
decades, no effort was made to recognize the contribution made by this 
branch of the Armed Services. The fact that Merchant Seamen had borne 
arms during wartime in the defense of their country seemed not to 
matter. The result of being left out of the GI Bill meant that the 
Mariners could not buy a home or go to college, as their counterparts 
in service were doing. Without a college education, the jobs that were 
open to them paid significantly less and were less fulfilling in many 
cases. It was impossible for them to become a doctor, lawyer, teacher, 
or engineer. And it was impossible to purchase a home, one of the 
stepping stones to the middle class. My father was a World War II 
veteran, and his ability to buy a home for our family changed our 
lives!
    Legislation to benefit Merchant Seamen was finally passed by 
Congress in 1988 when the Seaman Acts of 1988 granted them some 
benefits in the GI Bill of Rights. While it is impossible to make up 
for over 40 years of unpaid benefits,
    S. 961 will acknowledge the service of the Merchant Mariners and 
offer compensation for their lost benefits by paying each eligible 
veteran a monthly benefit of $1000.
    The average age of Merchant Mariner veterans is now 82. Many have 
outlived their savings. A monthly check to compensate for the loss of a 
lifetime of ineligibility for the GI Bill would be of comfort and would 
provide some measure of security for these older veterans, many of whom 
are living on meager funds.
    There is great bipartisan support for this bill among the Members 
of this Congress. 59 Senators and 244 Representatives have cosponsored 
S. 961 and H.R. 23. They realize that it is a question of morality and 
integrity. Is our Nation completely indifferent to the welfare of the 
men who made our success in World War II possible?
    I thank you for granting me this opportunity to speak on the 
importance of S. 961. I urge you to support this legislation and to 
bring it to the full Senate for a vote, so that we can regain our 
Nation's moral ground and can say ``thank you'' with compensation for 
the injustices endured by our Nation's Merchant Mariners!

    Chairman Akaka. Thank you very much for your remarks, 
Congressmen Filner. Your full statement will be included in the 
record.
    Mr. Filner. Thank you, sir.
    Chairman Akaka. Thank you for being here.

         STATEMENT OF HON. DANIEL K. AKAKA, CHAIRMAN, 
                    U.S. SENATOR FROM HAWAII

    Chairman Akaka. We have a lengthy agenda today and it 
reflects the work and commitment of many members on both sides 
of the aisle. Therefore, I will be brief.
    Today we will examine legislation touching on benefits 
provided by VA. In general, the bills before us focus on two 
core parts of VA's mission: providing help to veterans disabled 
while serving their country; and assisting servicemembers as 
they transition from military to civilian life. Both are areas 
in which this Committee has worked and will continue to work as 
we develop another strong package of benefits legislation for 
veterans.
    Before I begin, I want to speak very briefly about the 
items on the agenda that I have introduced. But, before I get 
to that, I want to express my gratitude to our ranking member 
who has worked hard with us on the legislation of this 
Committee and I want to thank him for his cooperation.
    The Cost-of-Living Adjustment Act would increase the rates 
of compensation for veterans with service-connected 
disabilities and the rates of dependency and indemnity 
compensation.
    Many of the more than three million recipients of these 
benefits depend upon the tax-free payments not only to provide 
for their own basic needs but for the needs of their families 
as well.
    S. 2309, the Compensation for Combat Veterans Act, 
addresses something Committee staff identified via their 
oversight efforts.
    A number of cases where service medical records of veterans 
serving in combat areas are missing. As a result, combat 
veterans have had claims denied or unduly delayed. My bill 
would result in faster and more accurate decisions.
    S. 2825, the Veterans Compensation Equity Act would provide 
a minimum disability rating for veterans receiving medical 
treatment for a service-connected disability. This bill would 
ensure that any veteran requiring continuous medication or, for 
example, a hearing aid, would receive at least a 10 percent 
rating for that disability.
    In the area of readjustment benefits, I have introduced two 
bills that would help servicemembers and veterans return to 
their civilian lives.
    Finally, I have introduced two complimentary bills that 
would improve the opportunities available to veterans for home 
ownership.
    As is the case of recession, the biggest hurdle for 
implementation of these bills into law is cost. I am working to 
find appropriate offsets within the Committee's jurisdiction.
    Finally, I am pleased to see S. 22 back on the agenda this 
morning. I have worked hard with Senator Webb to develop this 
proposal, and I believe that the measure, as we have it before 
us this morning, is a good one.
    I thank the witnesses from VA and other organizations for 
coming today to share their views.
    I am cognizant of the fact that there are a substantial 
number of bills under consideration today. Several of them may 
have been recently added to the agenda. Therefore, the 
Committee will hold the record of this hearing open for 2 weeks 
so that witnesses can submit supplemental views on any 
legislative item. It is important that we have your input well 
in advance of our markup. which is tentatively scheduled for 
June.
    I want to again thank all of you for joining us this 
morning and look forward to hearing the testimony of our 
witnesses.
    Let me now ask our ranking member for his statement.
    Senator Burr.

        STATEMENT OF HON. RICHARD BURR, RANKING MEMBER, 
                U.S. SENATOR FROM NORTH CAROLINA

    Senator Burr. Aloha, Mr. Chairman.
    Thank you and thank you to all the witnesses who are here 
today.
    Mr. Chairman, I would ask unanimous consent that my entire 
opening statement be part of the record and I will abbreviate 
as you have so eloquently done.
    Chairman Akaka. Without objection, it will be included.
    Senator Burr. Mr. Chairman, today we are considering 28 
different bills which touch on almost every veterans' benefits 
program, and are sponsored by more than 85 Senators. I think 
this shows that we all want to provide our Nation's veterans 
with the benefits they need, and more importantly, that they 
deserve.
    Before we turn to the witnesses for their views of these 
bills, I want to say just a few words about one bill.
    First is the America's Wounded Warriors Act, which would 
help create a modern less confusing disability system for our 
Nation's wounded warriors.
    Today, the system often requires injured servicemembers to 
go through a lengthy, redundant and bureaucratic process at 
both the Department of Defense and the VA to get their 
disability benefits.
    Each department assigns its own disability rating based on 
the same outdated VA rating schedule and complicated rules 
determine how much of a disability benefit from each department 
an injured veteran can get.
    Over the past several months, we have heard from a number 
of witnesses about the need to update and simplify the system 
so our wounded warriors receive, in a quick and effective way, 
the benefits and services they need to recover and to move on 
with fulfilling and productive lives.
    The Committee heard from General James Terry Scott, 
Chairman of the Veterans' Disability Benefits Commission, who 
recommended that we must realign the disability process so that 
the Department of Defense will be responsible for determining 
fitness for duty and VA for assigning any disability ratings.
    He also stressed the need to update the VA's rating 
schedule to compensate veterans for loss of quality-of-life 
caused by their service-related disabilities and to place more 
emphasis on the rehabilitation of our wounded warriors.
    We heard similar recommendations from the cochairs of the 
Dole-Shalala Commission, former Senator Bob Dole and Secretary 
Donna Shalala. In their views, the experiences of the wounded 
warriors at Walter Reed last year, who endured delays and 
frustration in getting disability benefits, have highlighted 
the need for fundamental change to our system.
    We have also heard from veterans themselves about the need 
to improve the system. As the Iraq and Afghanistan Veterans of 
America put it, and I quote, ``Everyday veterans from the wars 
in Iraq and Afghanistan face serious bureaucratic barriers to 
receiving fair compensation for injuries, and everyone agrees 
that action must be taken to reform the system.'' Unquote.
    Then last month we heard from Deputy Secretary of Defense, 
Gordon England, who talked about the need to create clear 
bright lines between DOD and the VA in terms of 
responsibilities. In his view, if we were to clarify the roles 
of each department by having DOD determine fitness for duty and 
VA handle all other aspects of the disability system, that 
would, and I quote, ``end some of the confusion our 
servicemembers face today.''
    Mr. Chairman, with all of that, I think it should be clear 
to all of us that we need to finally fix the disability system, 
and the Wounded Warriors Act is my effort to start us on that 
path.
    Mr. Chairman, it is impossible for me to comprehend 28 
bills today. I imagine every Member is somewhat overwhelmed. 
This is the collective thoughts and suggestions from over 85 
senators and I appreciate the Chairman keeping the record open 
for 2 weeks so that we can receive additional comments from our 
witnesses, but also, hopefully, additional questions from this 
Committee's Members.
    I stand committed to work with the Chairman as we move 
toward the markup. I think all members are committed to seeing 
that those issues addressed in legislation to help our 
veterans, that we do that as expeditiously as we can.
    Mr. Chairman, I look forward to the witnesses' testimony 
today, to the questions, and, more importantly, the answers 
that are shared with this Committee; and to working with you as 
we move toward the June markup.
    [The prepared statement of Senator Burr follows:]
       prepared statement of hon. richard burr, ranking member, 
                    u.s. senator from north carolina
    Thank you, Mr. Chairman, and welcome to our witnesses. I appreciate 
you all being here today to discuss a long list of bills affecting 
veterans' benefits. Today, we're considering 28 different bills, which 
touch on almost every veterans' benefits program and are sponsored by 
more than 85 Senators. I think this shows that we all want to provide 
our Nation's veterans with the benefits they need and deserve.
    Before we turn to our witnesses for their views on these bills, I 
want to say a few words about two of the bills: First, is the 
``America's Wounded Warriors Act,'' which would help create a modern, 
less confusing disability system for our Nation's wounded warriors.
    Today, this system often requires injured servicemembers to go 
through a lengthy, redundant, and bureaucratic process--at both the 
Department of Defense and VA--to get their disability benefits. Each 
department assigns its own disability rating, based on the same 
outdated VA rating schedule, and complicated rules determine how much 
of the disability benefits from each department an injured veteran can 
keep.
    Over the past several months, we've heard from a number of 
witnesses about the need to update and simplify this system, so our 
wounded warriors receive in a quick and effective way the benefits and 
services they need to recover and to move on with fulfilling, 
productive lives.
    The Committee heard from General James Terry Scott, the Chairman of 
the Veterans' Disability Benefits Commission, who recommended that we 
realign the disability process, so the Department of Defense will be 
responsible for determining fitness for duty and VA for assigning any 
disability ratings. He also stressed the need to update VA's rating 
schedule; to compensate veterans for loss of quality-of-life caused by 
their service-related disabilities; and to place more emphasis on the 
rehabilitation of our wounded warriors.
    We heard similar recommendations from the co-chairs of the Dole-
Shalala Commission, former Senator Bob Dole and Secretary Donna 
Shalala. In their view, the experiences of the wounded warriors at 
Walter Reed last year, who endured delays and frustrations in getting 
disability benefits, ``have highlighted the need for fundamental 
changes'' to the system.
    We've also heard from veterans themselves about the need to improve 
this system. As the Iraq and Afghanistan Veterans of America put it, 
and I quote, ``[e]very day, veterans from the wars in Iraq and 
Afghanistan face serious bureaucratic barriers to receiving fair 
compensation for their injuries'' and ``[e]veryone agrees that action 
must be taken to reform the system.
    Then, last month, we heard from Deputy Secretary of Defense Gordon 
England, who talked about the need to create ``clear, bright lines 
between DOD and Veterans Affairs in terms of responsibility.'' In his 
view, if we were to clarify the roles of each department, by having DOD 
determine fitness for duty and VA handle all the other aspects of the 
disability system, which would ``end some of the confusion our 
servicemembers face today.''
    Mr. Chairman, with all of that, I think it should be very clear to 
all of us that we need to finally fix the disability system. And the 
America's Wounded Warriors Act is my effort to start us on that path.
    This bill would get DOD out of the business of assigning disability 
ratings; it would require a complete update of the VA rating schedule; 
and it would require VA to compensate veterans for loss of quality-of-
life. For veterans discharged due to disability, it would allow them to 
keep all of their benefits from DOD plus their disability benefits from 
VA. And it would authorize new ``transition'' payments, to help cover 
family living expenses so injured veterans can focus on rehabilitation, 
training, and getting back to work.
    I know some of our witnesses have concerns about portions of this 
bill. But I also know that I don't want veterans another five decades 
from now to look back at these Committee hearings and say, ``50 years 
ago they talked about the need to fix the system, but no changes were 
made.
    Mr. Chairman, I believe our veterans deserve better than that. So, 
I hope this bill will provide a good starting point for us to find a 
way to fix the disability system, to ensure better benefits and, more 
importantly, to improve outcomes for veterans who have been injured in 
service to our country.
    The second bill I'd like to comment on is the ``Enhancement of 
Recruitment, Retention, and Readjustment Through Education Act.'' Last 
week, I joined Senator Graham, Senator McCain, and 15 of our colleagues 
in introducing this bill to improve education benefits for military 
personnel and, at the same time, to help strengthen our All-Volunteer 
Force.
    Particularly now, with our Nation at war, it is important that we 
have a robust education program in place, to recognize the service of 
those who wear the uniform and to help our warriors get the education 
they may need to succeed in civilian careers after they leave the 
military.
    It's also important that we provide the Armed Forces with the tools 
needed to attract high-quality recruits and to encourage servicemembers 
to stay for a military career, so our All-Volunteer Force will remain 
the best trained fighting force in the history of the world.
    As the name of this bill suggests, it would address all of those 
goals--recruitment, retention, and readjustment. And it would build on 
existing education programs, to avoid any unnecessary administrative 
burden, delay, or confusion in getting these enhanced benefits to our 
veterans.
    For starters, this bill would help career military personnel 
provide for the education of their families, by expanding the ability 
of servicemembers and members of the Guard and Reserves to transfer 
their un-used education benefits to a spouse or kids. After serving 6 
years, a servicemember may be able to transfer up to 18 months of 
benefits to a spouse or children, and after serving 12 years in the 
military, a servicemember could transfer up to 36 months of benefits to 
children or a spouse. This could mean having $72,000 in benefits to put 
toward the college education of a child.
    Also, it would immediately increase Montgomery GI Bill education 
benefits by 36 percent, which will pay for the average cost of a 4-year 
public college, including tuition, fees, room, and board. And it would 
provide an extra $500 per year for books and other supplies. These 
increases will help ensure that the 10,000 veterans and servicemembers 
going to school in my home State of North Carolina--and veterans across 
the country--can attend State schools debt-free.
    This bill would also boost benefits for all of our Guard and 
Reserve soldiers, whether or not they have been deployed in the War on 
Terror. This means the 2,200 reservists going to school in North 
Carolina would get between a 36 percent and 50 percent increase in 
their education benefits.
    It would also provide even higher benefits to those who have made a 
career of the military, by serving 12 years on active duty or in the 
Guard or Reserves. With this 82 percent increase, total education 
benefits could exceed $74,000 for career military personnel!
    Also, to account for some of the more highly priced private 
colleges, the bill would create a grants program, to allow the 
Department of Veterans Affairs and colleges to join forces to help 
veterans attend those schools debt-free. VA could provide up to $3,000 
extra benefits per year, if the college agrees to take care of some--or 
all--of the veteran's remaining unmet financial need. With this 
program, even expensive private colleges could be well within reach for 
many more veterans.
    In addition, for those willing to serve for a career, the bill 
would encourage the military services to help them obtain an 
undergraduate degree during their service. Also, for servicemembers who 
obtained a degree before joining the military, it would allow them to 
use up to $6,000 per year of their education benefits to repay any 
Federal student loans.
    With these improvements, I think this bill takes a generous but 
balanced approach that will help more military personnel and their 
families attain their educational goals debt-free, and will also 
encourage career military service and help sustain our All-Volunteer 
Force.
    Mr. Chairman, I am committed to working with you and our colleagues 
to advance these and other bills on our agenda that will help improve 
the lives of those who have served and sacrificed for us all. I thank 
you for calling this hearing and look forward to discussing these and 
the other bills with our witnesses today.

    Chairman Akaka. Thank you very much, Senator Burr.
    And now we will hear from Senator Webb.

                  STATEMENT OF HON. JIM WEBB, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Webb. Thank you, Mr. Chairman, and I appreciate all 
the work that you have done and the staff has done in preparing 
this hearing and all the work that I know the witnesses have 
had to put into such a huge number of bills before us.
    I would like to take a few minutes, if I may, and put into 
context where we are on S. 22, particularly since there has 
been what is being called ``competing legislation'' introduced 
by the ranking member and Senator Graham and some others. I 
regret that people would consider this to be competing 
legislation, in a political sense anyway.
    I think what we have attempted to do here over the last 16 
months is to involve everyone in the veterans process in coming 
together and putting forth a comprehensive piece of legislation 
that will truly address the readjustment needs of those who 
have been serving since 9/11. We have reached out to all our 
colleagues. We have reached out to all the veterans groups. We 
have reached out to this Administration, the Department of 
Veterans Affairs, and the DOD.
    We have adjusted this bill. As the Chairman knows, we have 
listened very carefully to comments from the Chairman and from 
staff on a lot of the administrative issues.
    We now have 57 cosponsors including 10 Republicans. From my 
view principal among them on the Republican side is Senator 
Warner. Senator Warner and I, I think, are the only two 
senators who have spent time as executives in the Pentagon. I 
spent 5 years in the Pentagon. Senator Warner had more time 
than I do. Both of us former Secretaries of the Navy. Both of 
us I think are very dedicated to the manpower issues in the 
Department of Defense.
    We have not only your support, Mr. Chairman, but also the 
support of the Chairman of the Armed Services Committee.
    The so-called competitive bill that was introduced, a large 
part of that was involved with criticizing provisions in S. 22. 
Since that has been done, I think it is important to put some 
context into what we are trying to do and what, in my view, 
some of these larger issues are.
    The criticism of our bill has fallen along three lines. One 
is that it is too expensive. The second is that it is difficult 
to administer and the third is that it would affect retention 
in the Department of Defense.
    With respect to the expense of this bill, we have worked 
very hard over 16 months to put restraining provisions in it in 
terms of cost. We have a piece of legislation that I believe is 
very responsible. I do not believe that there were very many 
people at the end of World War II who were saying that the WWII 
GI Bill was too expensive when they were trying to give World 
War II veterans a true first-class chance at their future.
    This is a responsible piece of legislation. This type of 
legislation is going to cost some money, but we have dealt with 
it very responsibly.
    With respect to the administrative parts of this, we have 
met repeatedly with people from the DVA. I would like to hear 
from them when they testify about the cooperation that they 
have received from us and the fixes that we have been able to 
put in this bill as it was reintroduced.
    With respect to the Department of Defense issues, in my 
view there has been a dividing line since 9/11 in terms of how 
the Department of Defense has taken care of its people. It has 
done a very good job managing the career force. It has not done 
a good job in terms of helping people transition back into 
civilian life.
    We tend to make an assumption in this country that, because 
we have an all-volunteer force, we have an all-career force, 
and that is not true. I want to show two charts here just so we 
will understand the motivations behind this bill.
    This chart shows the attrition levels in the United States 
military by the end of one's first enlistment. What that chart 
indicates is that before or at the end of one's first 
enlistment, 75 percent of the Army--of the enlisted people in 
the Army--leave the Army; 70 percent of the Marines leave the 
Marines; and about half of the Navy and the Air Force leave. 
That is to be expected.
    We are a citizen soldiery by tradition in this country. 
But, what that means is, if you are only going to talk about 
issues affecting the career force, you are talking about well 
less than half of the people who go into the military.
    The darker shaded bars on this chart are the people that we 
are principally focusing on.
    The second point raised about retention ignores, in my 
view, as someone who spent a lot of time in manpower, the 
impact that a bill like this would have on recruitment--the 
ability of the Department of Defense to widen its recruitment 
base.
    This chart is taken from an article that was in the Service 
Times 3 weeks ago. What it shows is propensity to serve in the 
military pre-9/11 and today. They take the enlistment eligible 
age group and asked, ``Do you think you might want to go into 
the military?'' Pre-9/11 it was 25 percent; today it is 13 
percent.
    If you look at the Army and the Marine Corps, which are 
carrying the load in Iraq and Afghanistan, 17 percent of 
America's youth had a propensity to serve in the Army before 9/
11. That number is now 8 percent. 13 percent had a propensity 
to serve in the Marine Corps and that number is now 7 percent. 
They have dropped for all of our services.
    I cannot think of a better way to broaden propensity to 
serve than to offer a truly meaningful educational benefit, 
rather than simply taking that smaller demographic (which is 
what DOD is doing right now) and pound on it, which is what has 
been happening to this point.
    We can broaden the recruitment base. We can give first-
class futures to the people who have served and I do not 
believe, as someone who has spent my life around the military, 
that this will affect retention.
    I am sorry to take that much time, Mr. Chairman, but I 
wanted to put some context into this debate.
    Chairman Akaka. Thank you very much, Senator Webb.
    Senator Graham.

             STATEMENT OF HON. LINDSAY O. GRAHAM, 
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator Graham. Thank you, Mr. Chairman.
    This is a very good debate to have. Someone asked me 
yesterday, why do you think Senator Webb introduced his bill? 
To help. I mean, I know why he introduced his bill. He spent a 
lot of time thinking about how to help those who serve, and 
Senator Burr and I and others have had that same motivation. 
So, it is not about one's motivations.
    The reality is the Secretary of Defense does not support S. 
22 and the Veterans Administration does not support S. 22. The 
Education Department has problems with S. 22, in terms of 
basically coming up with a new formula, reinventing the wheel. 
It would require a lot of administrative changes, hiring of 
additional people. Basically, I believe the Montgomery GI 
Benefit Program has served the Nation well and needs to be 
modernized; and we are not going to throw it out. We are just 
going to add components to it and modernize it; so, this is a 
good debate to have.
    The idea of retention to me is important. This is World War 
II we are fighting. This is not Vietnam. This is a global 
struggle with an all-volunteer force, and anything we can do to 
help retain people I think would be great.
    The hallmark of the bill that Senator Burr and I have put 
together is a retention element that I think makes sense given 
the force that we have and the war we are fighting.
    Fifty percent of the people under the current program never 
utilized their GI benefits. Under the current program after 3 
years, you are entitled to $1,100 a month to go to school. That 
was the average cost of a State college in terms of room and 
tuition, where the average today is $1,500.
    So, what we do for people who serve 3 years is bump up to 
$1,500 under Senator Burr and my bill. We also have $500--that 
does not exist today--a year for books because books was not 
covered. The $1,500 is the average monthly cost of room and 
tuition to go to a State college.
    We have a component that if you go to a school that is 
beyond the average cost, that if the school in question that 
has a higher tuition rate than $1,500 would forgive some of the 
tuition, 25 percent, then we will put money on the table for 
the school; and if they will forgive 100 percent, it goes up 
another couple of thousand dollars. So, there is an incentive 
for the school to help the veteran; and when the school helps, 
the government helps.
    But, the main concept that I am most intrigued about and 
like about our approach is transferability. You know, ``three 
and leave''--if you serve your Nation for 3 years or 4 years 
and leave, you have done us all a great service. And under the 
bill that we are proposing, you will get a very hefty benefit 
to go to college. $1,500 a month plus $500 a year for books, 
and I think that is something you have earned.
    But, for those who want to stay on, that would consider 
staying on at a time when we need you to stay on--desperately 
need you to stay in certain career fields--at the 6-year point 
you can transfer half the benefit to your spouse or your child. 
I predict that will make a world of difference to the active 
force, that there will be people really appreciating that 
benefit.
    At the 12-year point, your benefit goes from $1,500 a month 
to $2,000; and you can transfer the entire benefit to a spouse 
or child.
    A lot of people in the military are able to earn their 
degree on active duty. They never have to use their benefits. I 
think it would be a life-changing experience for a lot of men 
and women in the military if they served the 12 years to be 
able to transfer $2,000 a month to a spouse or child to go to 
college. I bet you there would be a lot more than 50 percent 
utilization, and it would help us retain people, and it would 
be an incentive for families to serve our Nation.
    At the end of the day I am very proud of our approach. I 
think it is practical. It does not require reinventing the 
wheel. It is a robust benefit increase and it has a 
transferability component that I think the force needs and the 
Nation needs.
    And there is another concept in here that I think is very 
creative. Right now under the current law if you are an ROTC 
graduate or an academy graduate, you are not entitled to GI 
benefits. So, what we do under this bill is we will allow 
people who will serve 5 years past their initial commitment--
ROTC graduates or academy graduates--become eligible for the 
bill. That helps us with the captains and the majors. We are 
really hurting in that rank structure in the military as far as 
retention.
    So, it would allow people in that rank structure, that 
period of service, to have a benefit they do not have today, 
which they can pass on to their families, because all of them 
are college graduates. They could use it for a post-graduate 
degree or they can transfer it to their spouse and their child.
    I would like to introduce a statement from the sergeant 
majors of each service talking about how this transferability 
component, benefits going from the military member to family 
members, would enhance the quality-of-life and help retention.
    I appreciate this opportunity to speak.
    Chairman Akaka. The matters that you just asked for without 
objection will be included in the record.
    [The prepared statement of Senator Graham follows:]
             Prepared Statement of Hon. Lindsey O. Graham, 
                    U.S. Senator from South Carolina
                          mgib transferability
    MGIB Transferability's importance to military Families is evidenced 
by the fact that it has been a consistent issue in the Army Family 
Action Plan's Top 5 ``Army Critical Active Issues.''
    Transferability was rated as the number 1 Most Critical Active AFAP 
issue in 2003, 2004, and 2005 leading the Army to start a ``pilot 
program'' in FY 2006, offering transferability to soldiers enlisting in 
critical skills.
    In the first year of the program, the Army limited transferability 
to spouses, but based on intense feedback from soldiers in the field, 
the Army opened the program up to spouses and children in November 
2007.
    The authority to transfer MGIB benefits to those with more than 6 
years of service is particularly important to combat adverse retention 
in that cohort. The Department's 2007 Status of the Forces (Active) 
survey data show that the percent of Army members in the grades E5-E6 
who believe that their spouses do not want them to stay on active duty 
has worsened significantly (six percentage points) since 2001. 
Transferability can powerfully assist spouses in improving their 
education, job opportunities, sense of inclusion, and resulting support 
for sustained military service.
Comments by Senior Enlisted Advisors
    The Senior Enlisted Advisors have noted the importance of enactment 
of MGIB Transferability, and its importance to the field and fleet.
            Sergeant Major of the Army (SgtMaj Kenneth O. Preston):
          ``This initiative has been an Army Family Action Plan top 
        topic for several years. Over my tenure in this position, and 
        talking to hundreds of thousands of Soldiers, Leaders and 
        Families, many have asked for this benefit.
          ``The Army did a pilot last year to allow the transfer of 
        MGIB benefits to a spouse only. For those Soldiers who elected 
        to give up a part of their bonus, this was a great retention 
        incentive. More Families want the benefit expanded to children.
          ``In testimony this year, I asked for the Congress to find 
        the funding if possible and support the program. I asked at a 
        minimum for the program to be funded and approved for those 
        Soldiers killed on active duty as a way to help care for the 
        family left behind.
          ``Soldiers are asking for this benefit. My concerns: since 
        only approximately 33 percent of our Soldiers use their MGIB 
        benefits, this initiative makes sense to allow Families to use. 
        If this initiative is approved I have no doubt this 33 percent 
        will go to 100 percent. The additional 66 percent will have to 
        be funded in each year's budget.
          ``Why are only 33 percent using their MGIB benefits? I think 
        most are taking advantage of tuition assistance money--4,500 
        dollars per Soldier per year--to gain their college degrees. 
        Most Soldiers have completed their degrees by the time they 
        leave the service. Hence their MGIB benefits go unused.
          ``My concern is if we get what we ask for, I would hate to 
        lose tuition assistance. I think this would have an even larger 
        impact on retention. We have worked hard to change the attitude 
        of Soldiers and Leaders from, join the Army, do your time and 
        get out and go to college; to, join the Army, go to college and 
        continue to serve. This initiative is part of our lifelong 
        learning strategy of growing the best leaders for the future. 
        To lose this benefit I feel would have long term implications 
        that would hurt the Army and maybe the other services just as 
        much.
          ``I support the transfer of MGIB benefits to families, but 
        with reservations to the conditions this initiative might be 
        approved and where the money to support would come.''
            Sergeant Major of the Marine Corps (SMA Carlton Kent):
          ``Thousands of Marines and their families always bring this 
        subject up to the leadership as we travel around the Marine 
        Corps visiting Marines and their families. If this initiative 
        is approved it would be utilized by numerous Marines to assist 
        their families in attending college. It should not `only' be 
        utilized as a retention tool, but every servicemember should be 
        given the opportunity to transfer their MGIB. The Marine Corps 
        fully supports this initiative! This initiative would assist in 
        our family support efforts. Semper Fi.''
            Master Chief Petty Officer of the Navy (Master Chief Joe R. 
                    Campa):
          ``Within days of the President's mention of this imperative 
        in his State of the Union address, I started fielding calls and 
        responding to questions from Sailors. Based on his remarks, 
        they assume this will become a reality and that it's just a 
        matter of time. Our Sailors and their families view this as a 
        significant quality-of-life improvement.
          ``Since the State of the Union, the topic of transferability 
        of MGIB to family members has been one of the most commonly 
        asked questions I receive from Sailors. In the last 3 months, 
        the subject has been raised in 12 separate all hands' calls in 
        6 different nations in front of more than 20,000 Sailors.
          ``Questions from Sailors were detailed and well-considered. 
        They'd like to know which of their family members will be 
        eligible to receive the benefit. Will it be exclusive to 
        spouses, or are children eligible? They also asked if 
        transferability would be tied to their length of time in 
        service, or if any obligated service would be required.
          ``Our Sailors and their families have been asking for 
        transferability for some time. This generation of Sailors has a 
        greater focus on education and many complete their educational 
        goals on active duty. Giving our Sailors the opportunity to 
        transfer this benefit to family members is viewed as clear 
        recognition of the support and sacrifice of our military 
        families. An increase in retention would be inevitable.''

    Chairman Akaka. Thank you very much, Senator Graham.
    Now, we will hear from Senator Murray.

                STATEMENT OF HON. PATTY MURRAY, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Murray. Thank you very much, Chairman Akaka, 
Senator Burr.
    I appreciate your holding this hearing on a vast array of 
legislation, and I think there is a lot of important bills in 
front of us today. But, before I talk about them, I do want to 
bring up the topic of great concern to everybody here, and that 
is the tragic incidents of veteran suicides and the VA's 
attempt to conceal the true numbers from Congress.
    Mr. Chairman, we all know that there are sincere health 
care professionals across the VA who are doing their very best 
to find and help veterans who might be considering suicide. 
Those health care professionals face tremendous challenges, 
enough challenges with winning the trust of the veterans today 
who are not convinced that the VA is in their corner.
    Their jobs are really made a lot more difficult when they 
are fighting the perception that the VA is more concerned with 
PR than getting the veterans the help and services that they 
need.
    Now, yesterday the VA had the chance to tell the public 
about what happened. Secretary Peake and Dr. Katz testified in 
front of the House Veterans' Affairs Committee about the cover-
up. And based on their testimony yesterday, I have to say, Mr. 
Chairman, that I am greatly concerned about the transparency 
and truthfulness of the Department.
    We all know Congress has to have accurate information if we 
are going to provide the VA with the resources it needs and 
make informed policy decisions. We have got to get this right 
so that the VA benefits programs we are talking about improving 
today have a maximum impact. So, Mr. Chairman, I just want to 
reiterate my concern about that to you.
    Now, we do have a number of bills in front of us. I look 
forward to the hearing on them. I do want to say that I want to 
commend Senator Webb for his tremendous work on the GI Bill. I 
am very proud now to be a cosponsor of that bill.
    I know that the Department of Defense and VA are currently 
opposing it, but I think he has really worked to make this bill 
work for today's world and I really want to commend him for the 
tremendous amount of work and his great presentation that he 
put in front of us.
    I think recognizing the needs of today's forces is 
absolutely critical for retention and I believe his bill does 
that.
    So, thank you very much.
    Chairman Akaka. Thank you Senator Murray.
    Senator Brown.

               STATEMENT OF HON. SHERROD BROWN, 
                     U.S. SENATOR FROM OHIO

    Senator Brown. Thank you, Mr. Chairman, for calling this 
hearing and Senator Burr also. I appreciate the comments of 
several people on S. 22, Senator Webb's GI Bill, and add my 
support.
    Just for a moment, I would like to focus on a smaller 
issue, important to a number of veterans, that also has to do 
with education--S. 1718, the Veterans' Education Tuition 
Support Act.
    As Senator Webb's chart shows, education benefits can be a 
primary incentive for young people to join the military.
    With the increasing prevalence of multiple deployments and 
PTSD and physical injury, servicemembers are more likely to 
face interruptions in their schooling, and the need for 
specialized transition assistance for veterans is growing.
    I held a round table--one of 90 or so I have done around 
Ohio, many of them with veterans on the campus of Youngstown 
State University a few months ago--and heard from students who 
got called to active duty during their college studies. After 
returning home, these students were faced with a bureaucratic 
nightmare when they attempted to resume their academic studies.
    The Veterans Education Tuition Support Act would answer 
those concerns and would help them in a difficult time in their 
lives as they reintegrate into society and want to get ahead 
with their college studies.
    The bill would simply do three primary things. It would 
require colleges and universities to refund 100 percent of a 
student's tuition and fees for any term when they are activated 
for duty and they are pulled out of school in the middle of the 
term.
    It would allow students to resume their education when 
returning with no backsliding in academic status. It would cap 
student loan interest rates during deployment.
    That is not asking much of our colleges and universities, 
our institutions of higher learner, to do that. It is the right 
thing to do. Veterans should not be disadvantaged academically 
or financially. They are disadvantaged in too many ways already 
when they are called to duty; and this is a small step. It is 
something we can do to help an awful lot of people.
    Thank you, Mr. Chairman.
    Chairman Akaka. Thank you very much, Senator Brown.
    Before I call on the first panel, I would like to note for 
the record that the testimony of the Department of Veterans 
Affairs was, once again, late. Lack of advance testimony 
hampers us in our ability to prepare for a hearing. It is 
difficult to properly prepare when we do not know where VA 
stands on the bills before the Committee.
    It is also a violation of the Committee rules. It is 
unacceptable that the Department of Veterans Affairs with its 
vast resources cannot submit testimony on time. Their excuse, 
and I am quoting, ``It was stuck at OMB'' may be true, but that 
means that OMB is being disrespectful not just to the 
Committee, but to the other witnesses as well.
    I realize that the agenda for today's hearing is extensive 
and that some of the items have been added very recently. 
However, that cannot be an excuse for not providing the 
Department's views on the bills that have been available for 
many weeks and months.
    I am very disappointed that your testimony was late and 
hope that this will be the last time that I have to comment on 
this subject. Please relay my views to OMB as well.
    Now, I would like to welcome our principal witness from VA, 
Keith Pedigo, Associate Deputy Undersecretary for Policy and 
Programs. He is accompanied by Jack Thompson, Deputy General 
Counsel, and Keith Wilson, Director of VA's Education Service.
    I thank you for being here today. I look forward to the 
VA's full testimony and we will include it in the record. Thank 
you very much.
    Mr. Pedigo.

STATEMENT OF HON. KEITH PEDIGO, ASSOCIATE DEPUTY UNDERSECRETARY 
  FOR POLICY AND PROGRAMS; ACCOMPANIED BY HON. JACK THOMPSON, 
  DEPUTY GENERAL COUNSEL, DEPARTMENT OF VETERANS' AFFAIRS AND 
HON. KEITH WILSON, DIRECTOR OF EDUCATION SERVICE, DEPARTMENT OF 
                       VETERANS' AFFAIRS

    Mr. Pedigo. Mr. Chairman and distinguished Members of the 
Committee, I am pleased to be here today to discuss a number of 
bills that would affect several benefit programs administered 
by the Department of Veterans Affairs.
    With me today is Mr. Jack Thompson, Deputy General Counsel 
and Mr. Keith Wilson, Director of the Education Program.
    Mr. Chairman, the unnumbered proposal by Senator Webb 
entitled, ``The Veterans Educational Assistance Act of 2007,'' 
would establish a new educational assistance program under 
title 38, U.S. Code.
    In view of the details provided in my written testimony, we 
are unable to support the bill. However, we appreciate your 
efforts, Mr. Chairman, as well as those of Senator Webb to 
address some of the VA's concerns about the challenging 
administrative aspects of previous versions.
    S. 961, the Belated Thank You to the Merchant Mariners of 
World War II Act of 2007, would provide a monthly benefit to 
certain individuals, or their surviving spouses, who served in 
the United States Merchant Marines during World War II.
    While VA recognizes the sacrifices made by the Merchant 
Mariners in World War II, we cannot support this bill because 
of the concerns outlined in my written testimony.
    S. 2090 would require the Court of Appeals for Veterans 
Claims to adopt rules to protect the privacy and security of 
documents retained by or electronically filed with the court. 
VA supports this bill.
    S. 2091 would expand the number of active judges sitting on 
the Veterans Court from seven to nine. We believe that, under 
the current system, the court can effectively manage their 
projected case load within the funds requested in the 
President's 2009 budget.
    S. 2138 would increase the number of assistant secretaries 
and deputy assistant secretaries VA is permitted to have. We 
support this bill.
    S. 2139 would provide entitlement to educational assistance 
under the Montgomery GI Bill for certain members of the 
National Guard and Selected Reserve. VA does not support this 
bill as drafted because of the concerns outlined in my written 
testimony.
    S. 2309 would amend Title 38 in a way that would permit the 
use of lay or other evidence as proof of service connection of 
a combat-related disease or injury. VA does not support this 
bill.
    S. 2550, as proposed to be amended, would authorize VA to 
refrain from collecting all or a part of a debt owed to the 
United States under most programs administered by VA. Based on 
the proposed amendments, VA supports this bill.
    With respect to S. 2573, the Veterans Mental Health 
Treatment First Act, VA does not yet have a cleared position. 
We ask that 
the Committee provide additional time for VA to establish a 
cleared position.
    S. 2617 would authorize a cost of living adjustment in the 
rates of disability compensation and dependency and indemnity 
compensation. We support this bill.
    S. 2674 would implement the recommendation of the Dole-
Shalala Commission to completely restructure the disability and 
compensation systems. Title II of the bill would substantially 
restructure the VA disability compensation program.
    While there are similarities between this bill and the 
Administration's proposal, we prefer the Administration's 
proposal.
    S. 2683 would modify several statutory authorities relating 
to the educational assistance for veterans.
    Mr. Chairman, overall VA cannot support the bill for the 
reasons covered in my written testimony.
    S. 2701 would require VA to establish a national cemetery 
in the eastern Nebraska region. VA does not support this bill 
for the reasons articulated in my written testimony.
    S. 2737 would give the Veterans Court jurisdiction to 
review whether, and the extent to which, the VA schedule for 
rating disabilities complies with applicable requirements of 
Title 38. In view of several concerns that are addressed in my 
written testimony, we do not support this bill.
    S. 2768 would temporarily increase the maximum guaranty 
amount for certain housing loans guaranteed by VA.
    Mr. Chairman, thank you for introducing this bill which 
seeks to provide authorization related to loan limitations 
similar to those established by the recently enacted Economic 
Stimulus Act.
    S. 2825 would require VA to provide a minimum disability 
rating of 10 percent for any veteran requiring continuous 
medication or the use of one or more adaptive devices. VA does 
not support this bill because the Secretary already has the 
authority to provide a minimum disability rating of 10 percent 
for any veteran requiring continuous medication.
    S. 2864 would expand the scope of services that VA may 
provide the veteran using the vocational rehabilitation and 
employment program. Because of concerns outlined in my written 
testimony, we are not able to support this bill.
    S. 2889 contains legislative proposals that the 
Administration recently submitted to Congress as part of the 
annual budget submission.
    Thank you, Mr. Chairman, for introducing the bill.
    The unnumbered housing refinance legislation would increase 
the maximum guaranty amount and reduce the existing equity 
requirement for certain refinance loans.
    Mr. Chairman, thank you for introducing this bill which 
seeks to improve the VA loan guarantee program.
    Mr. Chairman, because S. 1718 and the unnumbered bill 
entitled, ``Preventing Unnecessary Foreclosure for Service 
Members Act of 2008,'' would be implemented by the Department 
of Defense, we defer to that Department regarding the merits of 
the proposal.
    Also S. 2471 would be implemented by the Department of 
Labor and we defer to that Department regarding its merits.
    Mr. Chairman, thank you for introducing the unnumbered 
Veterans Benefits Enhancement Act of 2008 on behalf of VA.
    Mr. Chairman, this concludes my testimony. I and my 
colleagues would be willing to answer any questions that the 
Members of the Committee might have.
    [The prepared statement of Mr. Pedigo follows:]
Prepared Statement of Keith R. Pedigo, Associate Deputy Under Secretary 
   for Policy and Program Management, Department of Veterans Affairs
    Mr. Chairman and Members of the Committee, good morning. I am 
pleased to be here today to provide the Department of Veterans Affairs' 
(VA) views on pending benefits legislation. I will not be able to 
address a few of the bills on today's agenda because VA received them 
in insufficient time to coordinate the Administration's position and 
cost estimates, but we will provide that information in writing for the 
record.
          post-9/11 veterans education assistance act of 2008
    The draft proposal by Senator Webb entitled the ``Post-9/11 
Veterans Educational Assistance Act of 2008'' (a revised version of S. 
22, designated as ARM08A37, as received on May 1, 2008), would 
establish a new educational assistance program under title 38, U.S.C., 
in a new chapter 33. The program would consist of three payment types: 
(1) a lump sum payment to help defray tuition costs; (2) a monthly 
housing allowance; and (3) an annual stipend to help defray costs of 
books and supplies. The benefit is intended for individuals with 
active-duty service on or after September 11, 2001.
    With the Nation at war, we must carefully assess the sufficiency of 
all our programs to meet the needs of today's veterans. In his State of 
the Union address, the President advocated an important enhancement of 
the Montgomery GI Bill, the transferability of entitlement from 
servicemembers to their spouses and children. This Administration 
priority, which has been submitted to Congress as draft legislation, 
would benefit those members committed to a career in service. It is an 
initiative our senior uniformed leaders enthusiastically support and 
one that supports the current makeup and retention of the all-volunteer 
force.
    Evaluation of any further program enhancements must take into 
account all foreseeable consequences, intended and unintended. 
Secretary of Defense Gates has notified Armed Service Committee 
Chairman Levin of the critical elements needed in our education 
programs to strengthen the all-volunteer force. He indicated that 
negative retention effects may begin when the value of the monthly 
education benefit exceeds about $1 ,500. For that reason, and because 
of other concerns stated in my testimony, we are unable to support this 
bill.
    At its highest benefit level, this draft bill would provide the 
amount of tuition and fees for the individual's program of education, 
not to exceed the maximum amount of tuition and fees charged for in-
state students at the State's highest-cost public institution in the 
State in which the student is enrolled. This benefit would be paid 
directly to the school. As discussed below, in certain instances where 
the benefit level does not cover the cost of tuition, VA and the 
educational institution could agree to cover the unmet expense.
    In addition to tuition and fees, the program would pay an annual 
stipend of up to $1,000 for the cost of books and supplies. This 
benefit would be payable in the first month of each enrollment period. 
The bill would also provide a monthly housing stipend of up to an 
amount equal to the basic allowance for housing (BAH) payable by the 
Department of Defense (DOD) (under 37 U.S.C., Sec. 403) to an E-5 with 
dependents in the region of the institution where the student is 
enrolled for individuals pursuing training at half-time or more.
    For active-duty service of less than 36 months, a percentage of the 
maximum tuition payment, housing stipend, and books and supplies 
stipend would be paid, ranging from 40 percent for at least 90 days of 
service, to 90 percent for at least 30 months but less than 36 months 
of service. For those with less than 18 months of active-duty service, 
total creditable active-duty service would not include months of basic 
training or skill training.
    The program would provide 36 months of entitlement that must be 
used during the 15 years following release from the latest period of 
qualifying active duty service of 90 days or more. All programs 
approved for benefits offered by an institution of higher learning 
(IHL) under the Montgomery GI Bill--Active Duty would be approved for 
the purposes of payment of benefits under chapter 33. However, other 
than for individuals who have entitlement to educational assistance 
under the Montgomery GI Bill-Active Duty (MGIB-AD, aka chapter 30), 
Montgomery GI Bill--Selected Reserve (MGIB-SR, aka chapter 1606), or 
the Reserve Educational Assistance Program (REAP, aka chapter 1607), 
there are no provisions in chapter 33 to pay for non-degree courses 
offered by other than IHLs; correspondences courses; or on-the-job, 
apprenticeship, or flight training.
    An individual entering active duty after enactment of this bill 
would be required to elect MGIB-AD and incur the $1200 pay reduction if 
he or she wanted to pursue training offered by institutions or 
establishments that are not IHLs. Those individuals would also be able 
to transfer to chapter 33 at a later date. Individuals who decline 
MGIB-AD and become entitled under chapter 33 would only be able to 
pursue training at an IHL. This requires that individuals decide what 
type of program they wish to pursue prior to making an election for 
which program to credit their active-duty service.
    Individuals who receive a college loan repayment incentive from 
DOD, participate in the Senior ROTC scholarship program, or are cadets 
at service academies could become eligible under chapter 33. However, 
they could not use the period of service they were obligated to serve 
in connection with one of the aforementioned programs to gain chapter 
33 eligibility. Those individuals currently eligible for MGIB-AD, MGIB-
SR, or the REAP could make an irrevocable election to receive benefits 
under chapter 33.
    MGIB-AD individuals electing to receive benefits under chapter 33 
may receive a refund of the $1,200 pay reduction they made to 
participate in MGIB-AD. If an individual used benefits under MGIB-AD, 
the refund would be prorated. Refunds would be payable as an addition 
to the last housing stipend payable before the individual exhausts his 
or her entitlement. In addition, an individual entitled to a ``kicker'' 
under MGIB-AD or MGIB-SR would be allowed to transfer the ``kicker'' to 
chapter 33. Such ``kickers'' would be paid in addition to the monthly 
housing stipend.
    New chapter 33 would also establish the ``Yellow Ribbon G.I. 
Education Enhancement Program.'' Under the ``Yellow Ribbon'' 
provisions, if the benefit level would not cover the cost of tuition, 
VA and the educational institution could agree to cover the unmet 
expense. VA would be limited to matching 50 percent of the unmet costs. 
This benefit would be available only to individuals with 36 months of 
post-September 10, 2001, service or those discharged from active duty 
because of service-connected disability.
    Section 3323 of proposed chapter 33 would require VA and DOD 
jointly to prescribe regulations indicating the manner in which 
servicemembers would be notified of the benefits, limitations, 
procedures, eligibility requirements, and other aspects of chapter 33, 
and when the notification would occur.
    In addition to establishing the new benefit program, this draft 
bill would provide for a temporary increase in rates payable under 
MGIB-AD. During the period August 1, 2008, through September 30, 2009, 
the 3-year MGIB-AD rate would be increased to $1,321, and the 2-year 
rate would be increased to $1,073. There would be no cost-of-living 
adjustment (COLA) for FY 2009. Beginning with FY 2010, the COLA formula 
for rates payable under MGIB-AD would change. VA would no longer use 
the Consumer Price Index-W figure to determine COLAs. Instead, VA would 
base the increase on figures from the National Center for Education 
Statistics. The amount of the increase would be based on the percentage 
of change in the average cost of undergraduate tuition for the previous 
2 academic years.
    We estimate that enactment of this draft bill would result in 
benefit costs of $171.7 million during FY 2008, $17.6 billion for 5 
years, and $64.90 billion over 10 years. In addition, the 
implementation of the program would also entail administrative costs of 
$74.9 million during the first year and $289 million over 10 years.
    We have the following concerns about how the provisions of this 
draft bill would affect the implementation of proposed new chapter 33:

    <bullet> The new education program would become effective on August 
1, 2009. VA does not now have a payment system or the appropriate 
number of trained personnel to administer the program. We estimate it 
would take approximately 24 months to deploy a new payment system. The 
Information Technology (IT) solution should include the capability to 
exchange data with DOD, determine eligibility, automatically generate 
letters, streamline or automate payment calculations, perform 
accounting functions, and authorize the release of all payments. In the 
interim, VA would be forced to manually process such payments. The 
amendments made by the draft bill do not contain provisions to fund VA 
for the significant additional general operating and information 
technology expenses required to administer this program.
    <bullet> Tuition payments would be made in a lump-sum payment 
before the enrollment period begins. If a student does not attend or 
withdraws from the program of education, large overpayments would 
result. In addition, it is not clear from the bill whether the student 
would be eligible for any portion of the benefits disbursed if he or 
she were to withdraw from all or some classes. Payments should be made 
after enrollment is confirmed similar to payments made under Title IV, 
the Higher Education Act of 1965.
    <bullet> Individuals transferring from MGIB-AD who used entitlement 
under MGIBAD would only be eligible for an amount of chapter 33 
entitlement equal to the amount of entitlement they have remaining 
under MGIB-AD. Individuals eligible under REAP or MGIB-SR would not be 
subject to the limitation.
    <bullet> The bill's ``Yellow Ribbon'' provisions would require VA 
to enter into a memorandum of understanding (MOU) with each 
participating educational institution. Entering into numerous MOUs with 
proprietary institutions would be a significant administrative burden. 
In addition, the institutions would not be required to offer assistance 
under this program to all individuals. Therefore, this provision would 
not be equitable to all eligible individuals.
    <bullet> We are concerned about the housing stipend with respect to 
distance education. Housing stipends would be based on BAH rates where 
the school is located, not the student's residence. This could prompt 
some students to enroll in online learning programs at schools with the 
highest BAH rate.
                                 s. 961
    S. 961, the ``Belated Thank You to the Merchant Mariners of World 
War II Act of 2007,'' would provide a monthly benefit to certain 
individuals, or their surviving spouses, who served in the United 
States merchant marine (including the Army Transport Service and the 
Naval Transport Service) during World War II.
    I would like to recognize the sacrifices made by members of the 
United States Merchant Marine Service (Merchant Mariners) during World 
War II and note that we currently treat these individuals as veterans 
by virtue of their service.
    Currently, title 46 of the U.S.C. provides for the payment of 
burial benefits and interment in national cemeteries for certain former 
Merchant Mariners. S. 961 would amend title 46 to require VA to pay to 
certain Merchant Mariners the sum of $1,000 per month, tax exempt. This 
new benefit would be available to otherwise qualified Merchant Mariners 
who served between December 7, 1941, and December 31, 1946, and who 
received honorable-service certificates. The surviving spouse of an 
eligible Merchant Mariner would be eligible to receive the same monthly 
payment provided that he or she had been married to the Merchant 
Mariner for at least 1 year prior to the Merchant Mariner's death. S. 
961 differs from other similar bills introduced for this purpose in 
that it provides retroactive eligibility to the date of enactment of 
this bill, rather than eligibility based on receipt of a certificate of 
honorable service or receipt of a claim for a benefit.
    VA does not support enactment of this bill for several reasons. 
First, to the extent that S. 961 is intended to offer belated 
compensation to Merchant Mariners for their service during World War 
II, many Merchant Mariners and their survivors are already eligible for 
veterans' benefits based on such service. Pursuant to authority granted 
by section 401 of the ``GI Bill Improvement Act of 1977,'' Pub. L. No. 
95-202, the Secretary of Defense has certified Merchant Mariner service 
in the oceangoing service between December 7, 1941, and August 15, 
1945, as active military service for VA benefit purposes. As a result, 
these Merchant Mariners are eligible for the same benefits as other 
veterans of active service. This bill appears to contemplate concurrent 
eligibility with benefits Merchant Mariners may already be receiving 
from VA, a special privilege that is not available to other veterans. 
Further, to the extent that Merchant Mariners may be distinguished from 
other veterans due to the belated recognition of their service, there 
are myriad other groups, listed at 38 CFR Sec. 3.7(x), that could claim 
to have been similarly disadvantaged.
    Second, there can be no doubt that Merchant Mariners were exposed 
to many of the same rigors and risks of service as those confronted by 
members of the Navy and the Coast Guard during World War II. However, 
the universal nature of the benefit S. 961 would provide for 
individuals with qualifying service and the amount of the benefit that 
would be payable are difficult to reconcile with the benefits VA 
currently pays to other veterans. S. 961 would create what is 
essentially a service pension for a particular class of individuals 
based on no eligibility requirement other than a valid certificate of 
qualifying service from the Secretary of Transportation or the 
Secretary of Defense. Further, this bill would authorize the payment of 
a greater benefit to a Merchant Mariner, simply based on qualifying 
service, than a veteran currently receives for a service-connected 
disability rated as 60 percent disabling. Because the same amount would 
be paid to surviving spouses under this bill, there would be a similar 
disparity in favor of this benefit compared to the basic rate of 
dependency and indemnity compensation for surviving spouses as provided 
under chapter 13 of title 38.
    VA estimates that enactment of S. 961 would result in costs of 
$202,540,000 for FY 2009 and $1,140,511,000 over 10 years.
                                s. 1718
    S. 1718, the ``Veterans Education Tuition Support Act,'' would 
amend the Servicemembers Civil Relief Act to provide servicemembers 
reimbursement of tuition for programs of education interrupted by 
military service, deferment of student loans, and reduced interest 
rates for servicemembers during periods of military service. Because 
that Act is implemented by DOD, we defer to that department regarding 
the merits of S. 1718.
                                s. 2090
    S. 2090 would require the U.S. Court of Appeals for Veterans Claims 
(Veterans Court) to adopt rules to protect the privacy and security of 
documents retained by, or electronically filed with, the court. It 
would require the rules to be consistent with other Federal courts' 
rules and to take into consideration the best practices in Federal and 
State courts to protect private information.
    This bill would extend the Veterans Court's existing authority and 
anticipates the upcoming conversion from paper filing to electronic 
filing. The court's current Rules of Practice and Procedure provide 
several tools to safeguard sensitive information. For example, Rule 11 
(c)(2) permits the Veterans Court, on its own initiative or on motion 
of a party, to ``take appropriate action to prevent disclosure of 
confidential information.'' Rule 48 permits the Veterans Court to seal 
the Record on Appeal in appropriate cases. Rule 6 provides: ``Because 
the Court records are public records, parties will refrain from putting 
the appellant's or petitioner's VA claims file number on motions, 
briefs, and responses (but not the Notice of Appeal (see Rule 
3(c)(1))); use of the Court's docket number is sufficient 
identification. In addition, parties should redact the appellant's or 
petitioner's VA claims file number from documents submitted to the 
Court in connection with motions, briefs, and responses.'' This rule 
prevents the public from easily accessing a veteran's Social Security 
number. VA supports efforts to protect Social Security numbers.
    The Secretary supports enactment of S. 2090 because the importance 
of safeguarding sensitive information in a veteran's files cannot be 
overemphasized. The proposal is logical given the impending conversion 
from paper filing to electronic filing, particularly in this 
distressing era of internet data mining and identity theft.
                                s. 2091
    S. 2091 would expand the number of active judges sitting on the 
Veterans Court from seven to nine. We have witnessed the progress that 
the Veterans Court has made in reducing its inventory of cases through 
temporary recall of retired judges. Under the current system, we 
believe the Court can effectively manage its projected caseload within 
the funds requested in the FY 2009 President's Budget.
                                s. 2138
    S. 2138, the ``Department of Veterans Affairs Reorganization Act of 
2007,'' is a VA proposal that would increase from seven to eight the 
number of Assistant Secretaries and from 19 to 27 the number of Deputy 
Assistant Secretaries VA is permitted to have. It would also repeal the 
requirement in current law that VA have a Director of Construction and 
Facilities Management.
    These changes would allow the Secretary to establish within VA the 
position of Assistant Secretary for Acquisition, Logistics, and 
Construction to serve as VA's Chief Acquisition Officer. Each Federal 
agency is required to have four Chief Officers: a Chief Financial 
Officer (CFO), a Chief Information Officer, a Chief Human Capital 
Officer, and a Chief Acquisition Officer (CAO). Currently, VA's 
Assistant Secretary for Management serves as both VA's CFO and CAO.
    VA proposed this bill for several reasons. First, the creation of a 
CAO position within VA would comply with the Services Acquisition 
Reform Act of 2003 (SARA). SARA requires that the head of each agency 
appoint a non-career employee as CAO whose official primary duty is 
acquisition management for the agency.
    Second, the acquisition, logistics, and program management career 
fields have become so technically complex and specialized that these 
critical functions must be an official's primary duty and not an 
ancillary or collateral duty, as it has been for the Assistant 
Secretary for Management at VA. In fact, the Government Accountability 
Office (GAO) has identified a number of ``cautions'' in acquisition and 
has flagged as a serious weakness situations where ``there is no CAO, 
or the officer has other significant responsibilities and may not have 
management of acquisition as his or her primary responsibility.'' VA's 
Inspector General has also identified two of the five major management 
challenges facing VA as ``Financial Management'' and ``Procurement 
Practices.'' Establishing an Assistant Secretary for Acquisition, 
Logistics, and Construction will improve the span of control of the 
Assistant Secretaries by designating one of them to serve principally 
as VA's CFO and another to serve principally as VA's CAO.
    Third, VA's acquisition, supply chain logistics, and program 
management involve billions of dollars of expenditures and thousands of 
VA personnel each year and are critical to VA's continued success. In 
FY 2006, VA spent over $10.3 billion acquiring goods and services, over 
a quarter of VA's total discretionary budget. Many of the goods and 
services VA acquires are critical tools VA's professionals need to 
serve veterans. For example, in FY 2006, VA procured $737 million in 
medical and surgical supplies, $3.5 billion in pharmaceuticals, and 
$1.1 billion in prosthetic devices. An Assistant Secretary with focused 
responsibility for acquisition, logistics, and construction would help 
ensure that consistent and sound decisions are made in these critical 
functions and ensure that they receive the visibility they need at VA.
    Fourth, in 2006 the Secretary re-organized the construction 
function at VA. VA established the Office of Construction & Facilities 
Management as the lead construction, facilities, and real estate 
organization at VA. This office provides advice to senior officials on 
VA's capital facilities programs, major construction programs, 
construction and design standards, and leasing and real property 
management. To continue reform in this area, the Secretary would assign 
this new office as the other major functional areas under the new 
Assistant Secretary. Assigning construction and facility maintenance to 
the same Assistant Secretary makes sense because VA carries out much of 
its construction and facility maintenance by acquiring services.
    The Secretary would use two of the new Deputy Assistant Secretary 
positions in support of the new Office of Acquisition, Logistics, and 
Construction, five in the Office of Information and Technology, and one 
in the Office of Management.
                                s. 2139
    S. 2139, the ``National Guard and Reserve Educational Benefits 
Fairness Act of 2007,'' would provide entitlement to educational 
assistance under the Montgomery GI Bill (MGIB) for members of the 
National Guard and Selected Reserve who, on or after September 11, 
2001, serve at least 20 months of continuous active duty, not less than 
12 months of which must have been in a theater of operations (as 
designated by DOD). Individuals electing to receive benefits under this 
new provision would earn 36 months of eligibility and would be required 
to contribute $1,200 to participate in the program.
    Under current law, members of the Selected Reserve are eligible for 
chapter 30 MGIB benefits if they serve an obligated period of at least 
2 continuous years of active duty in the Armed Forces after June 30, 
1985, followed by 4 years of service in the Selected Reserves. Unlike 
these reservists, the new eligibility category created by S. 2139 would 
not require the reservist to serve at least 4 years in the Selected 
Reserves after completing the active duty requirement to receive the 
full benefit payment. However, 20 months of continuous active-duty 
service would qualify a reservist for full benefits if he or she is 
discharged or released from active duty for ``convenience of the 
government.'' Such reservists are currently entitled to a full-time 
monthly educational assistance rate of $1,101.
    In addition, an individual currently may establish MGIB eligibility 
under 38 U.S.C. Sec. 3011 with an active-duty obligation of less than 3 
years. Such an individual is currently entitled to a full-time monthly 
educational assistance rate of $894. Once again, 20 months of 
continuous active duty would qualify the individual for full benefits 
as long as the obligation to serve was for at least 24 months and the 
discharge was ``for the convenience of the government.''
    DOD must collect $1,200 from reservists who establish eligibility 
under 38 U.S.C. Sec. 3011 or Sec. 3012 no later than 1 year after 
completion of the 2 years of active duty service providing the basis 
for MGIB entitlement.
    Selected Reservists who are ordered to active duty are potentially 
eligible for educational assistance under the chapter 1607 Reserve 
Educational Assistance Program (REAP), established under title10. The 
monthly rate for REAP is determined by the length of active-duty 
service. Service thresholds are 90 days, 1 year, and 2 years. The full-
time monthly rates for the service thresholds are currently $440.40, 
$660.60, and $880.80, respectively.
    This bill would add another eligibility category to the 15 existing 
MGIB eligibility categories separately distinguished by VA under title 
38. Further, this legislation overlaps existing eligibility to 
education benefits provided by title 10, chapter 1607, although it 
provides a greater benefit.
    Many members of the target population, reservists who have served 
20 months of continuous active duty, will have previously received 
chapter 1606 or 1607 benefits. As currently written, S. 2139 would 
provide for retroactive credit for active duty service with payments 
made effective date of enactment. Section 16163(d) of title 10, U.S.C., 
provides that an individual may not use the same period of service to 
gain eligibility under both chapter 1607 of title 10 and chapter 30 of 
title 38. Because some reservists will have previously elected to 
receive chapter 1607 benefits in lieu of chapter 30 benefits, it is not 
clear whether the reservists who received chapter 1607 benefits could 
subsequently elect benefits under the provisions of this bill. If the 
intent is to permit these individuals an opportunity to elect benefits 
under the new provision, it is not clear how VA is to address payments 
that were made under chapter 1607 prior to such election. Reservists 
who are barred from using the same period of service to gain 
eligibility and choose to credit their service under chapter 30 would 
then not be entitled under chapter 1607 and thus would have been paid 
benefits to which they are not entitled. A number of claims will have 
to be re-worked by VA personnel because benefits will need to be 
terminated under chapter 1607 and benefits for the new program 
reissued.
    VA does not support this bill as drafted for the following reasons.
    S. 2139 is not equitable in comparison to other VA benefits. It 
provides for the maximum full-time rate of $1,101 per month and 36 
months of entitlement for 20 months of continuous service, with no 
obligation for continued military service. By comparison, under the 
MGIB, a full 2 years of service in the regular active duty forces 
(regardless of operational theater) would pay a veteran only $894 per 
month without an additional 4-year commitment in the Selected Reserves.
    S. 2139 fails to consider veterans discharged for reasons of 
disability. There are no provisions in the bill for a veteran to 
receive a lesser entitlement should the veteran be discharged prior to 
20 months of continuous service for such reasons. Removing the 
thresholds for having an obligated period of service also removes 
criteria with which to judge and award benefits for service that falls 
short of that required for eligibility.
    Further, this bill would place a significant administrative burden 
on VA. Nearly every veteran currently receiving benefits under REAP or 
chapter 30 (2-year rate), who would fulfill the requirements under this 
bill, would be required to have his or her claim re-adjudicated, and 
benefits payments switched to this program.
    Finally, S. 2139 would base eligibility for the educational 
assistance it provides on certain theaters of operation in which an 
individual served on active duty. Historically, VA education benefits 
have not been based on such criteria, and we believe it inappropriate 
to do so now.
    We regret we are unable to provide an estimate of the cost 
associated with the enactment of this bill at this time.
                                s. 2309
    S. 2309, the ``Compensation for Combat Veterans Act,'' would amend 
38 U.S.C. Sec. 1154(b) to require VA to treat certain veterans as 
having engaged in combat with the enemy for purposes of section 
1154(b), thus permitting the use of lay or other evidence for proof of 
service connection of a combat-related disease or injury. The veterans 
who would qualify for this treatment are veterans who, during active 
service with a U.S. military, naval, or air organization during a 
period of war, campaign, or expedition, served in a combat zone for 
purposes of section 11 2(c)(2) of the Internal Revenue Code of 1986, or 
a predecessor provision of law. In essence, this bill would equate 
service in a combat zone with engaging in combat with the enemy. VA 
does not support this bill.
    Section 11 2(c)(2) of the Internal Revenue Code of 1986 defines 
``combat zone'' as any area that the President by executive order 
designates as an area in which U.S. Armed Forces are engaging or have 
engaged in combat. Section 112 governs the computation of gross income 
for tax reporting purposes based upon service and applies to all 
veterans who serve in a combat zone regardless of actual involvement in 
combat. The executive order designates which geographical areas are 
combat zones and the date of commencement of combat activities.
    Section 1154(b) of title 38, U.S.C., relaxes the evidentiary 
requirements a combat veteran must meet to prove service incurrence or 
aggravation. The language of section 1154(b) makes it clear that its 
purpose is to liberalize the method of proof allowed for claims based 
on injuries incurred or aggravated while engaged in combat with the 
enemy. This provision recognizes the unique circumstances of combat, 
which are not favorable for documentation of injury or illness because 
treatment for such injury or illness may be administered in the field 
under exigent conditions that do not permit concurrent documentation. 
Supporting evidence is often difficult to obtain when such a combat 
veteran later files a claim for service-connected compensation. This 
bill contemplates that all veterans in a combat zone are challenged 
with the same circumstance in documenting treatment for injury or 
illness in the field. Such circumstance does not exist for 
servicemembers who, although serving in a combat zone, have access to a 
medical facility for treatment and whose treatment would be documented 
in service treatment records. The purpose of section 1154(b) was to 
recognize the unique circumstance of actual combat.
    Additionally, the proposed expansion of the phrase ``engaged in 
combat with the enemy'' to include veterans who serve in a general 
combat area or combat zone but did not themselves engage in combat with 
the enemy would mean that a determination as to the circumstances 
consistent with combat could be extended to include all of the common 
experiences that happen while serving in a combat zone. In the absence 
of clear and convincing evidence, lay or other evidence could be used 
to establish service connection for any disease or injury alleged to 
have been incurred or aggravated during service in a combat zone.
    VA cannot estimate benefit costs based upon the potential 
application of the amendment because there are no data to evaluate the 
numbers of claims for service connection filed by veterans who served 
in a combat zone to which this amendment would be applied.
                                s. 2471
    S. 2471, the ``USERRA Enforcement Improvement Act of 2007,'' would 
make several changes to the enforcement of the Uniformed Services 
Employment and Reemployment Rights Act. Because that Act is implemented 
by the Department of Labor, we defer to that department regarding the 
merits of S. 2471.
                                s. 2550
    S. 2550, as proposed to be amended, the ``Combat Veterans Debt 
Elimination Act of 2008,'' would authorize VA to refrain from 
collecting all or part of a debt owed to the United States under any 
program administered by VA (other than a housing or small business 
program under chapter 37 of title 38, U.S.C.) by a servicemember or 
veteran who dies as a result of an injury incurred or aggravated in the 
line of duty while serving in a theater of combat operations in a war 
or in combat against a hostile force during a period of hostilities 
after September 11, 2001, if the Secretary determines that termination 
of collection is in the best interest of the United States.
    In response to the Committee Chairman's request, we provided VA's 
views on this bill, as introduced, in a letter dated February 13, 2008. 
In that letter, we raised certain concerns and suggested revisions. The 
bill, as proposed to be amended, appears to address VA's concerns. 
Accordingly, VA supports S. 2550, as proposed to be amended.
    We estimate that enactment of this bill would result in additional 
benefits cost of $5,000 for FY 2009, and a 10-year cost of $50,000. In 
determining the costs, VA used the amount of debt of 21 fallen 
servicemembers. In relative terms, the total amount of accumulated debt 
over almost 4 years of collecting the information is so small, and the 
pattern of that accumulation so sporadic, that we would have little 
expectation of a material increase in the amount of benefit 
indebtedness.
                                s. 2617
    S. 2617, the ``Veterans' Compensation Cost-of-Living Adjustment Act 
of 2008,'' would authorize a cost-of-living adjustment (COLA) in the 
rates of disability compensation and dependency and indemnity 
compensation (DIC). This bill would direct the Secretary of Veterans 
Affairs to increase administratively the rates of compensation for 
service-disabled veterans and of DIC for the survivors of veterans 
whose deaths are service related, effective December 1, 2008. 
Consistent with the President's FY 2009 budget request, the rate of 
increase would be the same as the COLA that will be provided under 
current law to Social Security recipients, which is currently estimated 
to be 2.5 percent. We believe this COLA is necessary and appropriate to 
protect the benefits of affected veterans and their survivors from the 
eroding effects of inflation. These worthy beneficiaries deserve no 
less.
    We estimate that enactment of this bill would cost $687.2 million 
during FY 2009, $4.2 billion over the 5-year period FY 2009 through FY 
2013, and $9.2 billion over the 10-year period FY 2009 through FY 2018. 
However, the cost is already assumed in the budget baseline, and, 
therefore, enactment of this provision would not result in any 
additional cost.
                                s. 2674
    S. 2674, the ``America's Wounded Warriors Act,'' would implement 
the recommendation of the President's Commission on Care for America's 
Returning Wounded Warriors (``Dole-Shalala Commission'') to 
``Completely Restructure the Disability and Compensation Systems.''
    VA defers to DOD with regard to title I of S. 2674, which would 
amend chapter 61 of title 10, U.S.C., to create an alternative 
disability retirement system for certain servicemembers.
    Title II would completely restructure the VA disability 
compensation program. Section 201 would require VA to conduct a study 
to determine the amount of compensation to be paid for each rating of 
disability assignable to veterans for service-connected disabilities. 
It would require VA to ensure that its determinations reflect current 
concepts of medicine and disability and take into account loss of 
quality-of-life and average loss of earning capacity resulting from 
specific injuries. In conducting the study, VA could take into account 
the findings, determinations, and results of any completed or on-going 
study or report that is applicable. Section 201 also would require VA 
to submit to the Committees on Veterans' Affairs of the Senate and 
House of Representatives a report that would include VA's findings 
under the required study, as well as VA's findings with respect to 
matters covered by the study arising from the report of the Veterans' 
Disability Benefits Commission (VDBC) and the reports of such other 
independent advisory commissions that have studied the same matters. 
The report would be due to the Committees not later than 270 days after 
commencement of the required study.
    Section 202 of the bill would require VA to conduct a study to 
determine the appropriate amounts and duration of transition payments 
to veterans who are participating in a rehabilitation program under 
chapter 31 or chapter 17 of title 38, U.S.C. In conducting the study, 
VA could take into account the findings, determinations, and results of 
any completed or on-going study or report that is applicable. Section 
202 also would require VA to submit to the Committees on Veterans' 
Affairs of the Senate and House of Representatives a report that would 
include VA's findings under the required study, as well as VA's 
findings with respect to matters covered by the study arising from the 
report of the VDBC and the reports of such other independent advisory 
commissions that have studied the same matters. The report would be due 
to the Committees not later than 270 days after commencement of the 
required study.
    These two sections are similar to section 201 of the 
Administration's proposal to implement the report of the Dole-Shalala 
Commission. VA supports efforts to improve procedures for disability 
retirement of servicemembers, to enhance authorities for the rating and 
compensation of service-connected disabilities, and to develop 
procedures to encourage completion of vocational rehabilitation plans 
under chapter 31. However, we do not believe that enactment of these 
sections is necessary in light of actions already undertaken by VA to 
study the same matters as these sections would require. In February 
2008, VA entered into a contract with Economic Systems, Inc., of Falls 
Church, Virginia, to study the appropriate levels of compensation 
necessary to compensate veterans for loss of earning capacity and loss 
of quality-of-life caused by service-related disabilities and the 
nature and feasibility of making long-term transition payments to 
veterans separated from the Armed Forces due to disability while such 
individuals are undergoing rehabilitation under chapter 31 or chapter 
17. These studies are expected to be completed by August of this year. 
We will provide the Committees with copies of these studies.
    Section 203 of S. 2674 would require VA to conduct a study to 
identify factors that may preclude veterans from completing their 
vocational rehabilitation plans and actions VA may take to assist and 
encourage veterans in overcoming such factors. The study would examine: 
(1) measures used in other disability systems to encourage completion 
of vocational rehabilitation plans; (2) any survey data available to VA 
that relate to matters covered by the study; (3) the results of the 
studies required by sections 201 and 202 of this bill; (4) the report 
of the VDBC; and (5) the report of the Dole-Shalala Commission. The 
study would also consider the extent to which bonus payments or other 
incentives may be used to encourage completion of vocational 
rehabilitation plans under chapter 31 and such other matters VA 
considers appropriate. Not later than 270 days after commencement of 
the study, VA would be required to submit to the Committees on 
Veterans' Affairs a report including the findings of the study and any 
appropriate recommendations and proposals for legislative or 
administrative action needed to implement the recommendations.
    There is no similar provision in the Administration's proposal. 
However, the Administration's proposal would authorize the payment of 
bonuses as an incentive to completing a vocational rehabilitation 
program. Thus, S. 2674 would further the same objective as the 
Administration's proposal. In addition, we believe that the study 
conducted by Economic Systems, Inc., which is already in progress, is 
consistent with the intent of this section.
    Section 204 of the bill would require VA, not later than 1 year 
after the later of the dates of the reports required by sections 201(f) 
and 202(e) \1\ of the bill, to submit to Congress a proposal including 
a statement of purpose of the disability compensation and transition 
payments that would be required pursuant to enactment of section 207 of 
the bill, a statement of the amounts of compensation for service-
connected disability that would be required pursuant to enactment of 
that section, and a statement of the amounts and duration of transition 
benefits to be payable pursuant to enactment of section 207 of this 
bill to veterans participating in a rehabilitation program under 
chapter 31 or chapter 17 of title 38. The rates, amounts, and duration 
of these benefits would be exempt from judicial review. We do not 
support enactment of this section; we prefer the Administration's 
proposal.
---------------------------------------------------------------------------
    \1\ The bill itself incorrectly references section 202(d).
---------------------------------------------------------------------------
    The new compensation system would apply to veterans who have a 
disability rated as service-connected under chapter 11 of title 38, 
U.S.C. on the effective date of the new chapter 12 compensation system, 
and who file a claim with respect to such disability or another 
disability on or after that date, as well as to veterans who do not 
have a disability rated as service-connected under chapter 11 of title 
38, U.S.C. on the effective date of the new chapter 12 compensation 
system, and who file a claim with respect to disability on or after 
that date. The disability rating for claims filed under chapter 12 
would have to take into account all service-connected disabilities. The 
new chapter 12 compensation system would become effective, if at all, 
at most 85 days after VA submitted to Congress its proposal as to 
amounts of compensation and amounts and duration of transition benefits 
that are payable under the system. An award or increase of compensation 
with regard to a compensation claim filed during the 3-year period 
beginning on the effective date of implementation of the new VA 
compensation system could be retroactive for 3 years from the date of 
application or administrative determination of entitlement, whichever 
is earlier.
    The new VA compensation system would also include transition 
payments to cover living expenses for disabled veterans and their 
families, consisting of either 3 months of base pay if the veterans are 
returning to their community following retirement and not participating 
in further rehabilitation or longer-term payments to cover family 
living expenses if they are participating in further rehabilitation 
under chapter 31 or chapter 17. VA would also have authority to make 
transition payments to eligible veterans who are retired or separated 
under the alternate DOD system.
    Section 208 of S. 2674 would also add a new chapter 14 to title 38, 
U.S.C., which would permit a veteran retired under the new DOD system 
and entitled to compensation under new chapter 12 to elect a 6.5-
percent reduction in the entire amount of compensation to provide a 
supplemental survivor benefit for a surviving spouse or child(ren). A 
survivor would be entitled to 55 percent of the veteran's total 
compensation payable at the time of the veteran's death. Also under 
section 208, if a veteran elects to provide a survivor benefit to the 
veteran's child(ren) rather than spouse, VA would have to notify the 
veteran's spouse of the veteran's election.
    VA has the following concerns regarding title II of S. 2674.
    Currently, 2.7 million veterans are in receipt of VA disability 
compensation under chapter 11 of title 38, U.S.C. By simply filing a 
compensation claim when or after chapter 12 goes into effect, all of 
these veterans would become eligible for compensation under chapter 12, 
and all of their service-connected disabilities would have to be 
rerated under the rating schedule applicable to chapter 12. Our initial 
review of new chapter 12 indicates that benefits under the new VA 
compensation system would be far more favorable than benefits under 
current chapter 11. As a result, VA could be overwhelmed with claims by 
veterans seeking to have their service-connected disabilities 
compensated under new chapter 12.
    VA would be required to submit to Congress its proposals regarding 
amounts of disability compensation and the amounts and duration of 
transition benefits not later than 1 year after submitting the later of 
its reports on compensation and transition benefits. VA would have 270 
days from commencement of each study to report to Congressional 
committees on the study results. VA would have to wait for completion 
of the compensation study before drafting a rating schedule. As a 
result, VA would have approximately 15 months to draft a rating 
schedule compensating for loss of earnings and quality-of-life, propose 
it through notice-and-comment rulemaking, consider comments received, 
and issue a final rule. This is insufficient time considering the scope 
and complexity of the rating schedule.
    The requirement that the Secretary of Veterans Affairs propose the 
amounts of disability compensation and the amounts and duration of 
transition benefits is insufficiently prescriptive for VA to formulate 
a proposal that will achieve the statutory objectives. The bill should 
provide more specific guidance in this regard. The legislature must 
give specific guidance to executive agencies when authorizing them to 
establish entitlement programs administratively. In addition, if S. 
2674 were enacted and later challenged on constitutional grounds, the 
provision purporting to exempt the rates, amounts, and duration of 
these benefits from judicial review may be unavailing because Federal 
courts generally will interpret statutory provisions to avoid the 
serious constitutional questions that would arise if a statute were 
construed to deny any judicial forum for a colorable constitutional 
claim.
    Although it would require VA to study actions VA could take to help 
and encourage veterans to overcome impediments to completing their 
vocational rehabilitation plans, S. 2674 would not authorize an 
achievement bonus payable upon completion of certain milestones of a 
chapter 31 vocational rehabilitation program. We believe that such 
payments are necessary to serve as incentives to encourage veterans to 
remain in the VA vocational rehabilitation program and complete their 
vocational rehabilitation objectives.
    S. 2674 would authorize a survivor benefit that would be based upon 
a percentage of a veteran's compensation for loss of quality-of-life as 
well as earnings loss. Compensation for the effect of a disability on 
the veteran's quality-of-life would be similar to damages for pain and 
suffering awarded to an injured person in a tort lawsuit. Compensation 
for a veteran's survivors under title 38, U.S.C., on the other hand, is 
intended to replace the economic loss to the veteran's survivors 
resulting from the veteran's death. It would therefore be inconsistent 
to calculate survivors benefits under new chapter 14 based in part upon 
the compensation paid to a veteran for pain and suffering rather than 
based upon the loss to the veterans' survivors caused by loss of the 
veteran's earning capacity.
    S. 2674 does not authorize VA to provide services to family members 
of eligible veterans as necessary to facilitate the family members' 
assistance in treatment, rehabilitation, or long-term care of the 
veteran, i.e., education concerning the veteran's injuries and expected 
progress and caregiver training, counseling, and psychological 
services. Because the Administration's proposed bill does authorize 
such services, we favor that bill over S. 2674.
    All in all, we prefer the Administration's proposal to S. 2674.
                                s. 2683
    S. 2683 would modify certain statutory authorities relating to 
educational assistance for veterans, as follows:
    <bullet> Limit the accelerated-pay provisions of the Montgomery GI 
Bill-Active Duty educational assistance program (38 U.S.C. chapter 30) 
to non-degree programs;
    <bullet> Eliminate sunset provisions for certain work-study 
opportunities: (1) outreach activities; (2) work performed at a State 
veterans home; and (3) work performed at a national or State veterans 
cemetery; and
    <bullet> Authorize funding for State approval agency (SAA) 
contracts to be paid out of General Operating Expenses (GOE) rather 
than out of the Readjustment Benefits (RB) account and authorize 
amounts to be appropriated for this purpose for FY 2009 through 2011, 
and beyond.
    Section 1 of S. 2683 would limit the accelerated payment provisions 
of 38 U.S.C. Sec. 3014A(b)(1) to eligible individuals enrolled in a 
program of study that does not lead to a degree. This change would more 
closely align the accelerated payment provisions of chapter 30 with the 
newly enacted accelerated payment provisions of chapters 1606 and 1607 
of title 10, U.S.C. Accelerated payment provisions were added to the 
chapter 1606 and 1607 provisions as part of the National Defense 
Authorization Act (Public Law 110-181), approved by the President on 
January 28, 2008.
    VA objects to limiting accelerated payment provisions to non-degree 
programs because it could be detrimental to veterans. Many degree 
programs at institutions of higher learning, including those outside of 
the high-technology sector, have high costs. Of the total number of 
accelerated payments for chapter 30, 25 percent are in a program that 
leads to a degree from an institution of higher learning. We believe 
limiting accelerated payment to non-degree programs would prevent 
veterans from pursuing degree programs that would allow maximum benefit 
from the educational assistance entitlement they have earned.
    VA supports the provisions of section 2 of the bill, which would 
eliminate the sunset dates for certain qualifying work-study 
activities. We believe that making these changes to 38 U.S.C. 
Sec. 3485(a)(4) will promote administrative efficiency.
    We do not object to the provisions of section 3 of the bill that 
would authorize the funding of SAA contracts with GOE funds. However, 
we note that the President's FY 2009 budget request does not include 
funds for this new GOE requirement; hence, additional funds would need 
to be appropriated.
    We estimate that enactment of S. 2683 would result in net savings 
to RB of $1.2 million during the first year, $6.5 million over 5 years, 
and $13.9 million over 10 years. Furthermore, this bill would authorize 
funding for SAA contracts to be paid from GOE funds rather than RB 
funds. The amounts authorized for SAA reimbursement would be $22 
million for FY 2009, $24 million for FY 2010, $26 million for FY 2011, 
and amounts as may be necessary for fiscal years after FY 2011.
                                s. 2701
    S. 2701 would require VA to establish a national cemetery in the 
eastern Nebraska region to serve the needs of veterans and their 
families in the eastern Nebraska and western Iowa regions. Section 2(b) 
would require VA to consult with Federal, State, and local officials 
before selecting a site for the cemetery. Additionally, section 2(c) 
would require VA to submit to Congress a report on the establishment of 
the cemetery, including a schedule and estimated costs for the 
establishment of the cemetery.
    VA does not support S. 2701. Under current VA policy, the need for 
a new national cemetery to serve eastern Nebraska and western Iowa is 
not sufficient to warrant the establishment of a new national cemetery 
in the eastern Nebraska region.
    VA's policy is to establish national cemeteries in areas with the 
largest concentration of unserved veterans. In May of 2002, VA 
transmitted to Congress Volume 1: Future Burial Needs, as mandated by 
Public Law 106-117, and specific criteria to serve as the basis for 
deciding where to establish new national cemeteries: in areas with an 
unserved veteran population threshold of 170,000 within a 75-mile 
service radius. With passage of Public Law 108-109, Congress endorsed 
this policy by naming in statute the six geographic areas meeting this 
criterion. This policy has enabled VA to focus resources on serving 
areas in which high concentrations of veterans do not have access to a 
burial option. To support construction of a new national cemetery in 
the eastern Nebraska region (i.e., Bellevue), the bill cites VA's 
Future Burial Needs Report. This report was submitted to Congress on 
May 15, 2002, in response to the Veterans Millennium Health Care and 
Benefits Act (Public Law 106-117) and includes a list of geographic 
areas with relatively greater needs for new national cemeteries. On the 
list is the Omaha, Nebraska, area with an estimated unserved veteran 
population of 115,000. However, the unserved veteran population in the 
Omaha area has actually declined since submission of VA's Future Burial 
Needs Report. Based on VA's VetPop 2007 model, we now estimate there 
are approximately 110,000 unserved veterans residing within a 75-mile 
radius of Bellevue, Nebraska, who are eligible for burial in a national 
cemetery. This number is significantly less than the 170,000 population 
threshold required to establish a new national cemetery.
    The bill also cites a study by the Metropolitan Area Planning 
Agency in Omaha. The study, which was undertaken in October 2005, 
references an eligible veteran population of over 170,000 for the area. 
VA does not agree with this finding. Although we have not reviewed the 
study, we conjecture that the study includes groups VA does not 
consider eligible for burial in a national cemetery.
    The VA State Cemetery Grants Program can provide an additional 
burial option for veterans in eastern Nebraska and western Iowa. 
Through this program, VA may provide up to 100 percent of the costs for 
establishing or expanding a State veterans cemetery, including the cost 
of initial operating equipment. Currently, the State Cemetery Grants 
Program has received applications for the establishment of four State 
veterans cemeteries that would serve Nebraska and the western Iowa 
region. Cemeteries are proposed for Alliance and Grand Island, 
Nebraska; Fort Riley, Kansas; and Des Moines, Iowa. VA would be happy 
to assist the State of Nebraska in exploring a State veterans cemetery 
option to serve the Bellevue region.
    Besides objecting to S. 2701 because the need for a new national 
cemetery in the eastern Nebraska region is not sufficient to warrant a 
new national cemetery in that region, we note that the cost of 
establishing a new cemetery is considerable. Based on recent 
experience, the cost of establishing new national cemeteries ranges 
from $500,000 to $750,000 for environmental compliance requirements; $1 
million to $2 million for master planning and design; $1 million to $2 
million for construction document preparation; $5 million to $10 
million for land acquisition, if required; and $20 million to $30 
million for construction. The average annual cost of operating a new 
national cemetery ranges from $1 million to $2 million.
                                s. 2737
    S. 2737, the ``Veterans' Rating Schedule Review Act,'' would give 
the Veterans Court jurisdiction to review whether, and the extent to 
which, the VA Schedule for Rating Disabilities (rating schedule) 
complies with ``applicable requirements of chapter 11'' of title 38, 
U.S.C..
    VA opposes S. 2737 for the following reasons. First, extending the 
Veterans Court's jurisdiction to include review of the rating schedule 
for compliance with applicable statutes would likely increase 
litigation, over both the validity of rating schedule provisions and 
the scope of the jurisdictional extension itself. Every claim in which 
VA grants service connection involves consideration of some portion of 
the schedule for purposes of rating the service-connected disability, 
as does every claim for an increased rating. S. 2737 would essentially 
expose the rating schedule to judicial review in every such claim 
appealed to the Veterans Court. Any case in which the court feels that 
a rating-schedule provision prevents a veteran from receiving the full 
amount of compensation to which the court considers the veteran 
entitled could be viewed as posing a reviewable conflict between the 
rating schedule and some statute in chapter 11. If S. 2737 were 
enacted, the number of appeals to the Veterans Court could skyrocket, 
an increase in case load the Veterans Court could ill afford. According 
to the Veterans Court's annual reports, the court's caseload has 
doubled since 1998. Adding the increase of appeals resulting from the 
jurisdictional extension to the already growing case load could delay 
final resolution of all appeals before that court.
    A change in the court's jurisdiction would itself stimulate 
litigation. Undoubtedly, claimants' counsel would test the limits of 
the court's jurisdiction, giving rise to protracted litigation of 
uncertain outcome. The courts are still grappling with the parameters 
of the Veterans Claims Assistance Act of 2000 notice provisions some 8 
years after the passage of that statute. Besides burdening the courts, 
S. 2737 would require additional VA resources to handle the increase in 
litigation resulting from judicial review of whether the rating 
schedule complies with chapter 11 requirements.
    Second, S. 2737 would permit piecemeal review of individual rating 
classifications, which are matters particularly within VA's expertise. 
Establishing the criteria for rating disabilities and the rates of 
compensation payable under those criteria depends on gathering and 
analysis of medical facts, matters of technical and medical judgment, 
including judgment about what disabilities and levels of disability 
should be included in the schedule. The prevention of piecemeal review 
was Congress's rationale in originally proscribing review of the rating 
schedule in the Veterans' Judicial Review Act. Congress intended that 
no court should substitute its judgment for the Secretary's as to what 
rating a particular type of disability should be assigned.
    Third, S. 2737 would create a jurisdictional inconsistency. The 
bill would permit the Veterans Court to decide whether the VA rating 
schedule is consistent with statutes in chapter 11, but the United 
States Court of Appeals for the Federal Circuit (Federal Circuit) would 
remain without jurisdiction under 38 U.S.C. Sec. 502 to review an 
action of the Secretary relating to the adoption or revision of the 
rating schedule. Nonetheless, the Federal Circuit would have 
jurisdiction under 38 U.S.C. Sec. 7292(a) to review a Veterans Court 
interpretation of statute or regulation. Thus, the Federal Circuit 
would be barred from reviewing the content of the rating schedule on 
direct review but could review a Veterans Court decision on whether the 
rating schedule complies with chapter 11 requirements, which would 
likely require review of the content of the rating schedule.
    Finally, under current case law, the Veterans Court is not totally 
without authority to review the rating schedule. The Federal Circuit 
has held that 38 U.S.C. Sec. 7252(b) bars judicial review of the 
content of the rating schedule and the Secretary's actions in adopting 
or revising the content. However, the Federal Circuit has also held 
that the courts, including the Veterans Court, have jurisdiction to 
review the correct interpretation of rating-criteria content, the 
Secretary's actions in adopting or revising the criteria for compliance 
with the Administrative Procedure Act, and constitutional challenges to 
the rating schedule.
    We cannot estimate the costs that would result from enactment of S. 
2737.
                                s. 2768
    S. 2768 would temporarily increase the maximum loan guaranty amount 
for certain housing loans guaranteed by VA. Currently, the maximum 
guaranty amount is 25 percent of the Freddie Mac conforming loan 
limitation, for a single family home, as adjusted annually. This means 
that the current VA maximum guaranty is $104,250 on a no-downpayment 
loan of $417,000. In high-cost areas, defined by Freddie Mac as Alaska, 
Guam, Hawaii, and the Virgin Islands, the maximum guaranty amount is 
$156,375 on a no-downpayment loan of $625,500.
    S. 2768 would provide VA similar authorizations related to loan 
limitations such as those established by the recently enacted Economic 
Stimulus Act, Public Law 110-185. Specifically, it would increase the 
maximum guaranty amount to be equal to 25 percent of the higher of: (1) 
the Freddie Mac conforming loan limit, or (2) 125 percent of the area 
median price for a single-family residence, not to exceed 175 percent 
of the conforming loan limit. The higher guaranty amounts would be 
authorized through calendar year 2011. An increase in the maximum loan 
limit generally translates to more purchasing power for veterans. VA 
supports the increase in loan guarantee limits through December 31, 
2008, consistent with the Economic Stimulus Act's other loan 
provisions. However, we need additional analysis to determine how the 
change in limit would affect our loan program beyond that date.
                                s. 2825
    S. 2825, the ``Veterans' Compensation Equity Act of 2008,'' would 
require VA to provide a minimum disability rating of 10 percent for any 
veteran requiring continuous medication or the use of one or more 
adaptive devices prescribed by a licensed health care provider for a 
service-connected disability.
    VA does not support this bill. Providing a minimum 10 percent 
evaluation if continuous medication or the use of an adaptive device is 
required for otherwise noncompensable disabilities is an action already 
within the Secretary's authority in constructing VA's Schedule for 
Rating Disabilities. Therefore, legislation is unnecessary.
    For the purpose of estimating costs, we assume that S. 2825 would 
primarily affect veterans with service-connected hypertension rated 
zero percent or with hearing loss rated zero percent (the largest and 
most readily identifiable groups of veterans that this bill would 
affect) and that only veterans with a combined evaluation of zero 
percent to 50 percent would receive an increase in combined degree of 
disability as a result of this measure. Veterans with higher combined 
degrees of disability would not likely receive an increase as a result 
of S. 2825. There are 264,095 veteran cases whose combined rating would 
increase by 10 percent due to an increased rating for either hearing 
loss or hypertension.
    VA estimates that enactment of S. 2825 would result in benefit 
costs of $591.8 million in the first year, $3.3 billion over 5 years, 
and $7.5 billion over 10 years.
                                s. 2864
    S. 2864, the ``Training and Rehabilitation for Disabled Veterans 
Enhancement Act of 2008,'' would expand the scope of services that VA 
may provide to veterans who are entitled to vocational rehabilitation 
or independent living services under chapter 31 of title 38, U.S.C., to 
include services and assistance designed to improve a veteran's 
quality-of-life. The bill also would remove the current statutory 
limitation on the number of new entrants into programs of independent 
living in any fiscal year. The current limit is 2,500 veterans.
    VA supports efforts to improve the quality-of-life for veterans 
with service-connected disabilities and to remove the limitation on the 
number of veterans who may enter programs of independent living so that 
all veterans who need those services may receive them. However, we are 
concerned about defining ``quality-of-life,'' for purposes of the bill.
    Consistent with Vocational Rehabilitation and Employment (VR&E) 
regulations and policy, the independent living program is designed to 
improve quality-of-life by providing services and assistance that 
result in decreased reliance on outside supports, decreased 
restrictions to living independently in the community, and increased 
independence in activities of daily living. The introduction of the 
phrase ``and to improve a veteran's quality-of-life'' in title 38, 
U.S.C., would require rulemaking in the related sections of the Code of 
Federal Regulations to define that phrase. We believe that an attempt 
to comprehensively define what services may be provided to ``improve a 
veteran's quality-of-life'' may be too prescriptive and may ultimately 
result in a reduction in the scope of services available under a 
program of independent living. For this reason, and because no offsets 
are provided for increased direct costs, we do not support S. 2864 in 
its present form.
    No additional costs to VR&E are anticipated as a result of 
including language regarding improvement of a veteran's quality-of-
life. This is consistent with current services and assistance that 
result in the veteran's decreased reliance on outside supports, 
decreased restrictions to independent living in the community, and 
increased independence in activities of daily living. Removing the 
limitation on the number of veterans who may enter independent living 
programs each fiscal year, however, would result in additional 
caseloads and additional costs. We estimate that enactment of S. 2864 
would result in additional benefit costs of $877,000 in FY 2009, 
$12,971,000 over 5 years, and $47,563,000 million over 10 years.
                                s. 2889
    S. 2889, the ``Veterans Health Care Act of 2008,'' contains 
legislative proposals that the Administration recently submitted to 
Congress as part of the annual budget submission.
    Section 7 would make permanent VA's authority to verify the 
eligibility of recipients of, or applicants for, VA need-based benefits 
and services using income data from the Internal Revenue Service and 
the Social Security Administration. The existing authority has been 
instrumental in correcting amounts of benefits payments and determining 
health care eligibility, co-payment status, and enrollment priority 
assignment; however, this authority expires on September 30, 2008. 
Expiration of this authority would interrupt the income verification 
process.
    VA estimates that enactment of section 7 would result in net 
discretionary savings of $8.2 million in FY 2009 and $270 million over 
10 years.
    Section 8 would direct the Secretary to increase administratively 
the rates of disability compensation for veterans with service-
connected disabilities and of dependency and indemnity compensation for 
the survivors of veterans whose deaths are service related, effective 
December 1, 2008. As provided in the President's FY 2009 budget 
request, the rate of increase would be the same as the COLA that will 
be provided under current law to Social Security recipients, which is 
currently estimated to be 2.5 percent. We estimate that enactment of 
this section would cost $687.2 million during FY 2009 and $9.2 billion 
over the 10-year period FY 2009 through FY 2018. This cost is already 
assumed in the Budget baseline and would not result in any additional 
cost.
    We believe this proposed COLA is necessary and appropriate in order 
to protect the affected benefits from the eroding effects of inflation. 
The worthy beneficiaries of these benefits deserve no less.
                                s. 2938
    S. 2938, the ``Enhancement of Recruitment, Retention, and 
Readjustment Through Education Act of 2008,'' would increase the rates 
of basic Montgomery GI Bill (MGIB) education benefits for active-duty 
personnel, increase education benefits for National Guard and Reserve 
soldiers, expand the authority for servicemembers to transfer their 
education benefits to spouses and dependent children, allow 
servicemembers to use a portion of their MGIB education benefit to 
repay Federal student loans, allow service academy graduates and Senior 
Reserve Officers' Training Corps officers MGIB educational assistance 
benefits if they continue serving for at least 5 years beyond their 
initial commitment, and create the College Patriots Grant Program, a 
matching program for VA and colleges to provide supplemental 
educational grants to qualified individuals.
    The bill would provide transferability under all education programs 
VA administers for active duty servicemembers and reservists. Benefit 
transferability is an Administration priority, advocated by the 
President in his State of the Union address that would benefit those 
members committed to a career in service. It is an initiative our 
senior uniformed leaders enthusiastically support and one that is 
supportive of the current makeup and retention of the all-volunteer 
force. Under S. 2938, servicemembers who have served 6 years may 
transfer one half (18 months) of their educational benefits to a 
dependent child or spouse. For those who have served 12 years or more, 
the individual may transfer all of the educational benefits to a 
dependent child or spouse. In addition, this bill would provide 
increased benefits to all members of the active duty and Selective 
Reserve forces. The monthly benefit for a veteran with 3 years of 
active duty would be $1,500, which exceeds the average 4-year cost of 
tuition, fees, room, and board at a public institution. Additionally, a 
higher benefit rate would be payable to those who have served 12 years 
or more. Such members would receive $1,650 monthly, with that amount 
increasing gradually to $2,000 monthly in FY 2011. VA defers to DOD 
regarding how S. 2938 will affect recruitment and retention of the all-
volunteer force.
    VA could administer most of the provisions (excluding 
transferability) in the bill within our current information technology 
(IT) environment. VA anticipates a significant increase in the number 
of transferability claims. To ensure proper accounting procedures are 
followed, enhancements to the system would be necessary to automate 
system accounting. Rather than adding a new program, the bill would 
enhance existing programs. This would provide for smoother 
implementation, reduced risk of education claim backlogs, and untimely 
education claim adjudications.
    VA estimates that the enactment of S. 2938 would result in direct 
costs to VA of $668.3 million during the first year, $6.6 billion for 5 
years, and $15.0 billion over 10 years. In addition, VA estimates 
receiving reimbursement for DOD of $930 million in FY 2009, $5.3 
billion for 5 years, and $10.0 billion over 10 years for programs 
administered by VA but funded from DOD's Education Benefit Trust Fund. 
VA also estimates requiring an additional 48 FTE to implement the bill 
in the first year at a cost of $3.8 million. The Administration is 
willing to work with the Congress to address the costs of this bill. 
There follows a discussion of the specific provisions of the bill, in 
which we also note several concerns and offer a few suggested technical 
changes.
    Section 3 of the bill would require DOD, in consultation with VA, 
to develop a plan that would enable both Departments to better 
coordinate current educational assistance programs, as well as develop 
new ones, to ensure that each career member of the Armed Forces has the 
opportunity to earn a bachelor's degree before completing his or her 
active duty service and retiring from the Armed Forces. DOD would be 
required to submit a report detailing the plan to Congress no later 
than August 1, 2009.
    Section 4 of S. 2938 would increase the rates of basic educational 
assistance under the Montgomery GI Bill--Active Duty (MGIB-AD) program. 
Rates would be classified as follows: (1) one tier for individuals with 
a 3-year service obligation, but who served at least 12 years of active 
duty; (2) another for individuals with a 3-year obligation, but who 
served less than 12 years; and (3) a final tier for those with a 2-year 
obligation. The full-time, 3-year benefit rate for those with over 12 
years of service would increase to $1,650 per month in FY 2009; to 
$1,800 in FY 2010; and to $2,000 in FY 2011. The full-time, 3-year 
benefit rate for those with less than 12 years service would increase 
to $1,500 per month in FY 2009. The full-time, 2-year benefit rate 
would increase to $950 per month in FY 2009. Cost-of-living adjustments 
(COLA's) would not be provided in the fiscal years with specified 
rates; however, COLA's would be provided in subsequent fiscal years. 
The rate increases would be effective October 1, 2008.
    Section 5 of this measure would create a stipend for recipients of 
education benefits under the MGIB-AD education program. Individuals 
attending an approved program of education at an institution of higher 
learning (IHL) would be eligible to receive a stipend based on their 
training time. An individual attending an IHL at least half-time would 
be eligible to receive a stipend at the annual rate of $500. Those 
individuals attending at less than half-time would be eligible to 
receive a stipend at the annual rate of $350. This section would be 
effective 1 year after the date of enactment. Individuals often change 
their training schedule throughout the year, as well as attend school 
for only part of a year. Thus, it is unclear whether VA would need to 
prorate this stipend based on enrollment changes.
    Section 6 of S. 2938 would increase the rates of educational 
assistance for individuals receiving education benefits under the 
chapter 1606, MGIB--Selected Reserve (MGIB-SR) education program. The 
monthly rate for full-time pursuit of a program of education would be 
increased from the current rate of $317 to $634; the three-quarter-time 
rate would be increased from $237 to $474; and the half-time rate would 
be increased from $157 to $314. These rate increases would be effective 
on October 1, 2008. COLA's in these rates would not be provided for FY 
2009; however, COLA's would be provided for the educational assistance 
payable for subsequent fiscal years.
    Section 7 of this bill would increase the rates of educational 
assistance for individuals receiving education benefits under the 
Reserve Educational Assistance Program (REAP). The bill would link the 
new REAP rate to the proposed MGIB-AD increased rates (as provided 
under section 4 of this measure) using the current percentages (40, 60, 
or 80 percent, respectively) of the 3-year obligated-service MGIB-AD 
rate, based on the time the REAP benefit recipient served on active 
duty. Individuals who serve at least 12 years in the Selected Reserve 
would receive a percentage of the 12-or-more-year rates as proposed in 
the MGIB-AD increase. All others would receive a percentage of the 
less-than-12-year proposed rate. This amendment would take effect 
October 1, 2008.
    Section 8 would modify and enhance the provisions of titles 10 and 
38 for the MGIB-AD and MGIB-SR programs and REAP to authorize certain 
individuals on active duty or serving as members of the Selected 
Reserve to transfer their entitlement to educational assistance 
benefits to their dependents. This measure would eliminate the current 
requirement under the MGIB-AD program that an individual have a 
critical military skill or be in a Military Occupational Specialty that 
requires a critical military skill to be eligible to transfer a portion 
of such individual's entitlement. Instead, at the time of the request 
for transfer of entitlement, the individual would have to have 
completed 6 years of service and meet such other requirements as DOD 
might prescribe. This provision would allow such eligible individuals 
with less than 12 years of active-duty service to transfer up to 18 
months of entitlement. Those with more than 12 years of active-duty 
service could transfer any number of unused months of entitlement. The 
bill also would exclude transferred entitlement for consideration as 
marital property. This section would be effective October 1, 2009.
    Section 9 of S. 2938 would allow individuals with entitlement to 
MGIB-AD educational assistance benefits to elect to have all or a 
portion of their benefit dollars paid toward Federal student loans 
accrued under title IV of the Higher Education Act of 1965. The amount 
payable could not exceed the monthly benefit the individual is eligible 
to receive at the time of the payment toward the Federal student loans. 
The individual would have to be on active duty when the loan is repaid, 
and payments would be limited to no more than $6,000 in a 12-month 
period and would be paid monthly. This section would be effective 1 
year after the date of enactment. As drafted, the bill would require VA 
to make such payments monthly. To require payments to be made with this 
frequency would unduly complicate the process and be administratively 
burdensome.
    Section 10 of this measure would allow individuals who are 
commissioned after graduating from a Service Academy or following 
completion of a Senior Reserve Officer's Training Corps program under 
chapter 103 of title 10, U.S.C., after September 30, 2009, to qualify 
for MGIB-AD educational assistance benefits. The individual would be 
required to serve at least 5 years of continuous active duty in 
addition to the period of service for which he or she is obligated in 
connection with their commission. This section would be effective 
October 1, 2009.
    Section 11 of the bill allows certain VEAP-era personnel who first 
entered on active duty as members of the Armed Forces on or after 
January 1, 1977, but before July 1, 1985, an opportunity to make an 
irrevocable election to receive benefits under the MGIB-AD program. In 
addition, within 1 year of this election, an individual who decided to 
make such election must have contributed $2,700 to DOD. The individual 
must also have completed the requirements of a secondary school diploma 
(or equivalency certificate) or completed the equivalent of 12 semester 
hours in a program of education leading to a standard college degree. 
The open eligibility period would run from October 1, 2009, to 
September 30, 2010.
    Section 12 of S. 2938 would create the College Patriots Grant 
Program whereby VA and an institution of higher education (IHE) through 
a partnership could provide supplemental educational grants to assist 
qualified individuals to meet the cost of attendance at that IHE. Under 
the program, Federal assistance would be made available to an IHE that 
has determined that a qualified individual has an unmet financial need 
for which the IHE is providing a portion of that unmet need. This 
provision would be effective 1 year after the date of enactment. 
Program outreach for the College Patriot Grant Program would be 
conducted by VA in coordination with the Department of Education and 
DOD. The administrative requirements to initiate such a program would 
be significant, and we recommend that the necessary resources be 
provided.
                unnumbered housing refinance legislation
    S. xxxx would increase the maximum guaranty amount for certain 
refinance loans, sometimes referred to as ``regular'' refinances, and 
would reduce the existing equity requirement for such loans from 10 
percent to 5 percent. In general, a regular refinance loan is one in 
which a veteran refinances a loan not already guaranteed by VA. The law 
currently limits VA's guaranty to $36,000 on regular refinance loans 
and limits the loan-to-value ratio (LTV) to 90 percent of the value of 
the security. This means that the maximum loan amount a veteran 
effectively may borrow with a VA guarantee is $144,000 and that a 
veteran who has no equity in his or her home may obtain a regular VA 
refinance loan for only 90 percent of the home's appraised value.
    The change proposed by S. xxxx would increase the maximum guaranty 
amount on regular refinances by tying such amount to the Freddie Mac 
Conforming Loan Limit. This means that a veteran who meets VA's 
underwriting criteria could obtain a guaranty of as much as $104,250 on 
a loan of $417,000.
    Furthermore, S. xxxx would change the existing LTV requirement for 
regular refinance loans by increasing the limit from 90 percent to 95 
percent of the home's appraised value.
               unnumbered foreclosure relief legislation
    S. XXXX, the ``Preventing Unnecessary Foreclosure for 
Servicemembers Act of 2008,'' would amend the Servicemembers Civil 
Relief Act to protect against mortgage foreclosures for certain 
disabled or severely injured servicemembers. Because that Act would be 
implemented by DOD, we defer to that department regarding the merits of 
this proposal.
              unnumbered benefits enhancement legislation
    Mr. Chairman, thank you for introducing S. xxxx, the ``Veterans' 
Benefits Enhancement Act of 2008,'' on behalf of VA. Titles I and II of 
this bill would expand and enhance veterans' benefits, as noted below.
Title I--Education Benefits
    Section 101 of S. xxxx would eliminate the requirement that 
educational institutions providing non-accredited courses must report 
to VA any credit that was granted by that institution for an eligible 
person's prior training.
    Under current law, State approving agencies approve, for VA 
education benefits purposes, the application of educational 
institutions providing non-accredited courses if the institution and 
its courses meet certain criteria. Among these is the requirement that 
the institution maintain a written record of the previous education and 
training of the eligible person and what credit for that training has 
been given the individual. The institution must notify both VA and the 
eligible person regarding the amount of credit the school grants for 
previous training.
    VA proposes to eliminate that notification requirement as it 
pertains to VA. VA will still have oversight, just as it does with 
accredited courses. VA will review records during compliance visits to 
assure the institution is evaluating and appropriately reducing program 
requirements because of credit given for prior training.
    Removing the reporting requirement would shorten claims processing 
time because VA would not have to review each claim for the presence of 
such notice and, if not submitted, have to check with the school and 
student to assure the requirement has been met. It would also permit 
more cases to be processed through VA's Electronic Certification 
Automated Processing (ECAP) program. The ECAP system cannot process 
claims where proper credit reporting is at issue because those cases 
require manual development and review by a veteran's claims examiner. 
The more claims VA can process through the ECAP system, the more timely 
VA beneficiaries will receive their benefits.
    Following up with schools for the written notification burdens the 
school certifying official and student, as well as VA. Often the school 
certifying official, who is responsible for reporting a veteran's 
enrollment, is not the individual who evaluates credit. The certifying 
official has no control over how long it takes the school to accomplish 
the review and granting of prior credit.
    Further, several of VA's stakeholders, including the National 
Association of Veterans' Program Administrators, have recommended that 
VA review school records to determine granting of prior credit during 
compliance visits rather than require the school to submit written 
reports. Eliminating this requirement would streamline the 
administration of educational assistance benefits and improve the 
delivery of benefits to veterans, reservists, and other eligible 
individuals.
    There would be no costs associated with enactment of this section.
    Section 102 of this bill would reduce from 10 days to 5 days the 
current waiting period required prior to the student's affirmation of 
an enrollment agreement with an educational institution to pursue a 
program of education exclusively by correspondence.
    Under current law, an enrollment agreement signed by a veteran, 
spouse, or surviving spouse is not effective unless he or she, after 10 
days from the date of signing the agreement, submits a written and 
signed statement to VA affirming the enrollment agreement. If the 
veteran, spouse, or surviving spouse at any time notifies the 
institution of his or her intention not to affirm the agreement, the 
institution, without imposing any penalty or charging any fee, promptly 
refunds all amounts paid.
    The statutory 10-day period is twice the requirement of the 
Distance Education and Training Council (DETC) accrediting body 
standard, which states that institutions will allow a full refund of 
all tuition expenses paid if a student cancels within 5 days after 
enrolling in a course. Reducing the affirmation waiting period to 5 
days would make the statute consistent with the DETC standard and 
eliminate confusion. It would also permit eligible individuals to begin 
their programs sooner. Should they decide at any time not to affirm the 
enrollment agreement, the eligible individuals would still be entitled 
to a refund of all amounts paid.
    Finally, this proposal would allow VA to strengthen its partnership 
with the National Association of State Approving Agencies, which has 
had this issue high on its list of legislative priorities.
    There would be no costs associated with enactment of this section.
    Section 103 of the bill would eliminate the requirement that an 
individual must file an application with VA when that individual 
remains enrolled at the same school but changes his or her program of 
study.
    Under current law, a student who desires to initiate a program of 
education must submit an application to VA in the form prescribed by 
VA. If the student decides a different program is more advantageous to 
his or her needs, that individual may change his or her program of 
study once. However, additional changes require VA to determine that 
the change is suitable to the individual's interests and abilities. It 
is rare for VA to deny a change of program, especially if the student 
is continuing in an approved program at the same school.
    Under this provision, VA would accept the new program enrollment 
based on the certification of such enrollment from the school without 
requiring additional certification from the student. VA would still 
have oversight of program changes by reviewing school records when VA 
conducts its compliance visits. Again, this requirement would be 
eliminated for program changes only when the student remains enrolled 
at the same school.
    Section 103 also would allow VA to increase the number of claims 
processed using the ECAP program without manual review by a veterans 
claims examiner. Thus, since VA could award benefits based only on the 
school's certification, without having to wait for additional 
certification from the student, VA could award benefits more timely and 
with less of a public information collection burden.
    There would be no costs associated with enactment of this section.
    Section 104 of the bill would eliminate the requirement that wages 
be earned by veterans pursuing self-employment on-job training 
authorized under section 301 of Public Law 108-183. That section 
expanded the chapter 30 Montgomery GI Bill program by authorizing 
educational assistance benefits for full-time on-job training (OJT) of 
less than 6 months needed for obtaining licensure to engage in a self-
employment occupation or required for ownership and operation of a 
franchise.
    Currently, all the provisions of title 38, U.S.C., that apply to 
VA's other OJT programs (except the requirement that a training program 
has to be for least 6 months) apply to franchise-ownership OJT, 
including the requirement that the trainee earn wages that are 
increased incrementally. Through contact with the International 
Franchise Association, VA has determined that OJT for new franchise 
owners does not involve the payment of wages. Thus, if franchise OJT 
programs are not exempted from the current title 38 wage requirements, 
no franchise-ownership OJT program will ever be approved for VA 
benefits.
    VA has determined that no direct costs would result from enactment 
of this proposal. The estimated costs for implementing the section 301 
authority have been included in the budget base each year since its 
enactment.
Title II--Other Benefits Matters
    Section 201(a) of the bill would explicitly authorize VA to stay 
temporarily its adjudication of a claim pending before either a VA 
regional office (or other agency of original jurisdiction) or the Board 
of Veterans' Appeals (Board) when the stay is necessary to preserve the 
integrity of a program administered under title 38, U.S.C.
    It is widely accepted that courts and administrative adjudicative 
agencies generally have the authority to manage their case loads and to 
stay cases as necessary for proper management. VA has historically used 
such authority sparingly to avoid waste and delay and to ensure 
consistency on important issues of law, usually when VA has appealed a 
controlling adverse decision by the U.S. Court of Appeals for Veterans 
Claims (Veterans Court). However, the Veterans Court recently curtailed 
this authority in Ramsey v. Nicholson, 20 Vet. App. 16, (2006), and 
Ribaudo v. Nicholson, 20 Vet. App. 552 (2007) (en banc), effectively 
assuming supervisory control of VA's adjudication docket.
    In Ramsey, the Veterans Court held that VA could not stay cases 
while it appealed the Veterans Court's decision in Smith v. Nicholson, 
19 Vet. App. 63 (2005), which required VA to pay benefits in a manner 
VA believed to be unauthorized by law and which VA had appealed to the 
Federal Circuit. Ramsey would have required VA to pay those benefits, 
irrespective of VA's position on appeal, if VA had not prevailed in its 
Federal Circuit appeal soon after Ramsey was issued. Had VA's appeal 
not been resolved so quickly, VA would have been required to grant 
claims pursuant to Ramsey while the Federal Circuit reviewed the 
appeal, and many veterans would have received benefits to which they 
were not entitled under the law.
    Similarly, in Ribaudo, the Veterans Court held that VA could not 
stay cases while it appealed Haas v. Nicholson, 20 Vet. App. 257 
(2006). Haas is a significant decision, with broad and costly 
implications, in which the Veterans Court ordered VA to presume that 
veterans who served exclusively on ships off the shores of Vietnam were 
nevertheless exposed to defoliants (including Agent Orange) that were 
sprayed only over land. In Ribaudo, the Veterans Court granted VA's 
request for a stay of cases, but only after holding that VA's own 
authority did not allow it to effect such a stay, thereby placing under 
the control of the Veterans Court VA's entire docket of claims affected 
by Haas, claims over which the Veterans Court does not yet have direct 
jurisdiction.
    Section 201(a) would also require VA to issue regulations 
describing the factors it will consider in determining whether and to 
what extent such stays are warranted and would permit claimants to seek 
review of a stay in the Federal Circuit. Because the Federal Circuit 
has exclusive jurisdiction over appeals from the Veterans Court, it is 
in the best position to determine whether a case should be stayed 
pending such an appeal.
    Under section 201(c), these new provisions would apply to benefit 
claims received by VA on or after the date of enactment and to claims 
received by VA before that date but not finally adjudicated by VA as of 
that date.
    Section 202(a) of the bill would clarify that the Board has the 
authority to decide cases out of docket-number order when a case has 
been stayed or when there is sufficient evidence to decide a claim but 
a claim with an earlier docket number is not ready for decision.
    Current law requires that ``each case received pursuant to 
application for review on appeal shall be considered and decided in 
regular order according to its place upon the docket.'' Section 202(a) 
would clarify that compliance with that requirement does not require 
the Board to refrain from deciding a case unaffected by a stay simply 
because that case has a higher docket number than a stayed case. 
Expressly authorizing the Board to decide cases out of docket order, 
when a later case is ready for decision sooner than an earlier case, 
would reflect current Board practice of allowing later cases that are 
ready for decision to proceed while earlier cases are still being 
developed. The Veterans Court's Ribaudo decision rested in part on its 
interpretation of current law, and the express recognition of the 
Board's practice will clarify that that statute does not relieve VA of 
its duty to decide administrative appeals quickly and efficiently.
    Under section 202(b), this provision would apply to benefit claims 
received by VA on or after the date of enactment and to claims received 
by VA before that date but not finally adjudicated by VA as of that 
date.
    The provisions in sections 201 and 202, governing staying of claims 
and management of the Board's docket, would save the benefit costs and 
administrative expenses associated with granting benefits under court 
precedents that are later overturned on appeal. The amount of savings 
cannot be predicted, because it would depend upon the nature of the 
court decisions at issue, the extent to which those decisions compel 
payments or other expenses, and the number of claimants affected. 
However, VA has estimated that the Veterans Court's decision in Haas 
will result in approximately $22.9 million in administrative costs and 
approximately $2.1 billion in benefit costs in the initial year of 
implementation.
    Section 203 of the bill would eliminate the disparity between 
eligibility for burial and eligibility for a memorial headstone or 
marker. It would extend eligibility for memorial headstones or markers 
to a veteran's deceased remarried surviving spouse whose remains are 
unavailable for burial, without regard to whether any subsequent 
remarriage ended, and would ensure that the burial needs of veterans 
and their survivors are more adequately met.
    Current law authorizes VA to furnish an appropriate memorial 
headstone or marker to commemorate eligible individuals whose remains 
are unavailable. Individuals currently eligible for such memorial 
headstones or markers include a veteran's surviving spouse, which 
includes ``an unremarried surviving spouse whose subsequent remarriage 
was terminated by death or divorce.'' Thus, a surviving spouse who 
remarried after the veteran's death is not eligible for a memorial 
headstone or marker unless the remarriage was terminated by death or 
divorce before the surviving spouse died. However, a surviving spouse 
who remarried after the veteran's death is eligible for burial in a VA 
national cemetery without regard to whether any subsequent remarriage 
ended.
    Enactment of this provision would result in only nominal benefit 
costs.
    Section 204 of this bill would make permanent the authority given 
by section 704 of Public Law 108-183 that allows VA to contract for 
medical disability examinations using appropriated funds other than 
funds available for compensation and pension. Currently, that authority 
will expire on December 31, 2009.
    This change would provide VA with flexibility needed to effectively 
utilize supplemental and other appropriated funds in responding to 
unanticipated needs and emergencies. The demand for medical disability 
examinations has increased beyond the limited number of requests that 
the current system was designed to accommodate. The rise in demand is 
largely due to an increase in the complexity of disability claims, an 
increase in the number of disabilities claimed by veterans, and changes 
in eligibility requirements for disability benefits. The permanent 
authority to provide examinations to veterans through non-VA medical 
providers would continue this important resource for VA in providing 
high-quality patient care and improving benefit delivery.
    We estimate that enactment of section 204 would have no significant 
financial impact.
    Section 205(a) of the bill would extend full-time and family 
Servicemembers' Group Life Insurance (SGLI) coverage to Individual 
Ready Reservists (IRRs), individuals referred to in 38 U.S.C. 
Sec. 1965(5)(C). It would correct an oversight in the Veterans' 
Survivor Benefits Improvements Act of 2001, which provided such 
coverage for Ready Reservists, referred to in section 1965(5)(B), but 
not for IRRs. IRRs should be provided comparable coverage because many 
of them have been called up to serve in Operation Enduring Freedom or 
Operation Iraqi Freedom.
    Section 205(b) would provide that a dependent's SGLI coverage would 
terminate 120 days after the date of the member's separation or release 
from service, rather than 120 days after the member's SGLI terminates, 
as currently provided. Under current law, a member retains SGLI 
coverage for 120 days after separation or release from service, but a 
dependent retains coverage for 120 days after that, for a total of 240 
days after the member's separation from service, twice the period of 
coverage for most insureds. This provision would correct that inequity.
    Section 205(c) would clarify that VA has the authority to set 
premiums for SGLI coverage for the spouses of Ready Reservists based on 
the spouse's age. This provision would correct an inconsistency between 
38 U.S.C. Sec. 1969(g)(1)(A), which does not require identical premiums 
for coverage of active duty members' spouses, and section 
1969(g)(1)(B), which may be read to imply that identical premiums for 
coverage of Ready Reservists' spouses are required. This change would 
make the law consistent with VA practice.
    Section 205(d) would clarify that any person guilty of mutiny, 
treason, spying, or desertion, or who, because of conscientious 
objections, refuses to perform service in the Armed Forces or refuses 
to wear the uniform of the Armed Forces, forfeits all rights to 
Veterans' Group Life Insurance (VGLI), as well as SGLI. This provision 
would be consistent with public policy and would eliminate a 
distinction between SGLI and VGLI insureds that has no rational basis.
    There would be no costs associated with enactment of this section.
    Section 206 of the bill would authorize the Secretary to provide 
Specially Adapted Housing (SAH) grants to active duty servicemembers 
who reside temporarily with a family member. Public Law 109-233 
authorized the Secretary to provide such assistance to veterans by 
adding a new section 2102A to title 38, U.S.C. However, the new section 
did not expressly include active-duty servicemembers, nor did it amend 
section 2101(c), the section that provides eligibility to active duty 
servicemembers for other SAH grants.
    This amendment also would ensure that, absent express language to 
the contrary, active duty servicemembers would be covered by future SAH 
benefit program amendments. Due to the structure of chapter 21, active 
duty servicemembers on occasion have been overlooked, inadvertently, in 
the course of amending the SAH program. For instance, a renumbering of 
SAH provisions in Public Law 108-454 inadvertently omitted the 
provision that created SAH eligibility for active duty servicemembers. 
Similarly, Public Law 109-233, failed to include authority for VA to 
assist active duty servicemembers temporarily residing with family 
members. This proposal would correct the latter oversight and, by 
amending section 2101(c) more broadly, would make the inclusion of 
otherwise eligible active duty servicemembers the rule, rather than the 
exception.
    There would be no costs associated with enactment of this section.
    Section 207 of the bill would designate the VA office established 
to support contracting with small businesses, which was required by 
section 15(k) of the Small Business Act (15 U.S.C. Sec. 644(k)), as the 
Office of Small Business Programs, to more clearly represent that 
office's scope of authority. The name would not reflect any change in 
emphasis or support for disadvantaged small businesses, but rather 
would clarify that the Office of Small Business Programs has the full 
range of authority over many other small business programs. The new 
title would capture the overarching nature of the program, which 
encompasses the small disadvantaged business, the service-disabled 
veteran-owned small business, the veteran-owned small business, the 
qualified historically underutilized business zone small business, the 
women-owned small business, and the very small business programs.
    There would be no costs associated with enactment of this section.

    This concludes my statement, Mr. Chairman. I would be happy to now 
entertain any questions you or the other Members of the Committee may 
have.

    Chairman Akaka. Thank you very much for your statement. As 
I said, your full statement will be included in the record.
    I am going to ask Senator Burr for his questions, then 
Senator Webb and Senator Graham and Senator Murray, and I will 
follow-up with my questions.
    Senator Burr.
    Senator Burr. Thank you, Mr. Chairman. Again, thank you to 
the VA for being here. And if I could take the opportunity to 
reiterate what the Chairman said. I guess our choice when 
testimony does not come on time is just not to have people 
testify. That may be what the Department of Veterans Affairs is 
attempting to do, not have to come up here and do it, and maybe 
sort of egging us on to just ignore you.
    I have committed to the Chairman before and I will stay 
committed that something is going to change. The testimony has 
to come and I realize and have been lobbied not to say this 
because there were additions to the hearing today from the 
standpoint of legislation.
    We do not get delays. We do not get the opportunity to say, 
well, I am not going to be ready for tomorrow so we will just 
put it off or delay when it happens, nor does any agency of the 
Federal Government.
    I am sorry that the three of you have to sit there and take 
this because I know with every ounce of knowledge that I have 
it is not your fault and all I can do is ask you to be an 
effective communicator back through the chain to say that this 
cannot happen any more. It must stop.
    I will be very brief. In your testimony, you stated that 
the 15-month timeframe in S. 2674 would not provide enough time 
to draft a new rating schedule that compensates for loss of 
earnings and loss of quality-of-life and to issue final 
regulations implementing it.
    My question is simple. If 15 months is not enough time, how 
much is enough?
    Mr. Pedigo. Mr. Burr, I would ask Mr. Keith Wilson, the 
Director of the Education Program, to take that question.
    I am sorry, sir. Are you talking about the rating schedule?
    Senator Burr. Yes, S. 2674.
    Mr. Pedigo. Well, the biggest problem in getting new 
guidance out is getting through the regulatory process. At best 
it takes 6 to 9 months to get a set of regulations out.
    The regulations that would be required to implement this 
bill would be far in excess of the complexity of what we have 
done in the VA disability program for many years. And so, there 
would be much greater public interest. We could have many more 
stakeholders' input to take into consideration in an effort to 
get a final package of regulations issued.
    So, 15 months would be really pressing us if we had to 
accomplish something of this magnitude in that period of time.
    Senator Burr. As a follow-up. Once VA's ongoing studies are 
complete, how long do you anticipate it would take before any 
suggested changes are, in fact, implemented?
    Mr. Pedigo. It is difficult to anticipate how those studies 
might end up guiding us, but my expectation is there would be 
some aspects that would come out of these studies that would be 
fairly easy to implement and that perhaps we could implement 
some of them almost immediately after analyzing the study and 
concluding that that is the direction that we want to go in.
    Unfortunately, we are anticipating that most of the 
outcomes of those studies would require regulations which, as I 
previously said, is a very protracted process.
    Senator Burr. Mr. Chairman, I thank you.
    Chairman Akaka. Senator Webb.
    Senator Webb. Thank you, Mr. Chairman.
    First off, just to round the record here from a couple 
things that Senator Graham had said. I would just like to make 
sure we are clear on this.
    Our bill also addresses the issue of Naval Academy and ROTC 
graduates. Once they have fulfilled their initial obligation, 
they would be eligible as would everyone else to receive 
benefits under S. 22.
    With respect to transferability, I have been doing 
veterans' law off and on for 31 years now. This is a concept 
that has been around a long time.
    When I was a Committee counsel on the House Veterans 
Committee back in the late 1970's, the cautionary word on 
transferability was, you must be very careful if you are ever 
taking a benefit away from a veteran even if you are giving it 
to a family 
member.
    You never know what the circumstances are inside a family 
environment. You never know how someone is going to want to use 
an educational benefit as they readjust even after a military 
career.
    My father went to night school for 26 years. He was a 
career military officer. He graduated from college my senior 
year in high school. I know he would have been tempted to 
transfer his GI Bill benefits that he was using at night if 
that were on the table.
    But, the point is, number 1, it is a contested concept; and 
point number 2 is that a form of it is already in the law. 
Senator Warner passed an amendment in 2001 allowing the 
Department of Defense to conduct transferability pilot programs 
at the discretion of every service secretary going to critical 
MOSs.
    If this is such a needed program in the Department of 
Defense, the question becomes why no one did it. It is still in 
the law right now. The only service that has even done it has 
been the Army and they started in 2006 and I think out of a 
potential of about 17,000 people in critical MOSs there are 
only 300 people who picked up on it.
    I would just say a word of caution there about jumping into 
transferability as a broader concept and I do not quite 
understand how all of a sudden the Department of Defense is 
saying this is one of their top needs when it had the authority 
to conduct transferability pilot programs for 7 years.
    I would like to ask the witnesses, Mr. Wilson, have you 
been working with us on the technical aspects of S. 22?
    Mr. Wilson. Yes, sir.
    Senator Webb. How would you describe the cooperation.
    Mr. Wilson. The cooperation has been very good. We have had 
a lot of productive meetings and made progress on several of 
the technical issues we had concerns on.
    Senator Webb. And in terms of the ability to implement a 
piece of legislation like this, have you found that our staff 
has worked well with you and made this a doable situation.
    Mr. Wilson. They have worked well with us. We have made a 
lot of progress. I believe the degree of risk has been lessened 
by that progress.
    When we talk about the risks with implementation, there are 
some things that we simply do not know and will not know for 
some time. So, I would hesitate to say that yes, we can 
implement. What I would be able to say, though, is that the 
risks have been significantly mitigated.
    Senator Webb. And the ultimate legislation also has certain 
requirements that would be put on DVA and DOD, as well. Is that 
not that correct?
    Mr. Wilson. That is correct. The major challenge for us in 
what has been referred to this morning as competing legislation 
would be the transfer of entitlement provisions and that would 
be an administrative issue we have with the accounting.
    Senator Webb. Right. And that is not in our bill.
    Mr. Wilson. That is correct.
    Senator Webb. Does the Administration have a position on 
the other bill? Do you support this other bill.
    Mr. Wilson. We have not taken a formal position.
    Senator Webb. So, you have no position on the other bill?
    Mr. Wilson. That is correct.
    Senator Webb. Thank you, Mr. Chairman.
    Chairman Akaka. Thank you very much, Senator Webb.
    Senator Graham.
    Senator Graham. Thank you, Mr. Chairman. This is a good 
debate to have. The military community is going to get a better 
benefit if we can find some common ground here.
    Why do you all oppose S. 22?
    Mr. Wilson. The VA has--our main concern is administrative 
issues. I am talking from the administration perspective of the 
program itself.
    Senator Graham. Right.
    Mr. Wilson. There are also administration concerns about 
the impact on recruitment and retention. My expertise is within 
the administrative concerns that we have with the bill.
    Senator Graham. Basically, they would come up with a new 
formula. Is that correct?
    Mr. Wilson. Correct.
    Senator Graham. Tell us how that would work--some of the 
disparities that may come from that formula.
    Mr. Wilson. The manner in which we make payments now, which 
is the same manner we have made since the Korean war era GI 
Bill, is that we make monthly payments based largely on a 
training time as an individual whether they are full time 
training, part time training, et cetera.
    S. 22 would replace that mechanism with a mechanism by 
which we would administer three different benefit payment 
types. One payment would cover tuition and fees. Another 
payment would be the living stipend and another payment would 
be a books and supplies stipend. And those would go out at 
varying times of the year.
    Senator Graham. Would there be a difference based on where 
the veteran lived?
    Mr. Wilson. Yes. The payment(s) would be unique to the 
individual and the costs that the individual has concerning 
their tuition and fees charges and their living expenses. 
Tuition and fees would be capped at the highest, at the level 
of the highest in-state public tuition within each State. We 
would pay up to that amount.
    The living stipend would be based on the location of the 
school in which the participant is training and that is tied to 
DOD's basic allowance for housing zones. There are about 300 of 
those zones.
    So, the total benefit that would be paid out would be 
unique to that individual's situation.
    Senator Graham. Are there any disparities between States 
that jump out at you in terms of what one State's tuition would 
be versus another for a State school?
    Mr. Wilson. I do not have that information available right 
with me. I can provide that. What I can comment on is that the 
living stipend does vary greatly. That varies from about $2,700 
a month to about $730 a month depending on the zone.
    Senator Graham. And as I understand the current law, and 
Senator Burr and I have been working with a lot of people like 
Senator Webb to try to figure out how to get this benefit 
improved. The current amount paid is $1,100 per month after 3 
years of service, is that correct?
    Mr. Wilson. That is correct. The Chapter 30 benefit for 3 
months of service and full time training is $1,101.
    Senator Graham. And that used to be the average cost of 
tuition and room and board, right.
    Mr. Wilson. Going back some years, yes, I believe that 
would be correct.
    Senator Graham. That would be State school. The average 
cost today is $1,500 a month, is not that correct.
    Mr. Wilson. That is correct.
    Senator Graham. So, that is what the bill would do, pay the 
average cost--the transferability aspect to it.
    You know, we can have this debate. It is an honest debate. 
I mean, Mr. Chairman, I would like to submit to the record the 
comments by the senior enlisted advisors of the Army, the 
Marine Corps and the Navy supporting this concept. I personally 
believe that our military members could make this choice. They 
would make an intelligent choice. It would be a choice they can 
handle, which does not currently exist, which would also help 
retention.
    Do you have any comment about the transferability component 
of the bill in terms of administration.
    Mr. Wilson. The only concern we have concerns the 
accounting mechanism. We do not have a robust accounting 
mechanism right now because we have paid very few claims under 
the current transfer of entitlement provisions and we simply 
have not had to stand up a significant system to account for 
those.
    Senator Graham. Anything we can do to help you there, just 
let us know.
    Thank you, Mr. Chairman.
    Chairman Akaka. Thank you very much, Senator Graham.
    Chairman Akaka. Senator Murray.
    Senator Murray. Thank you, Mr. Chairman.
    Mr. Pedigo, in your prepared statement you state a number 
of reasons why the Administration does not support S. 22. 
However, several of those objections have either been 
accommodated in the most recent version or refuted by our 
veterans service organizations.
    Obviously everybody in this room wants to do everything we 
can to help our servicemen and women when they come home and 
readjust to the civilian population and we have a number of 
panelists on the second panel, I know, who are going to be 
airing their views when you are done.
    But, I do want to ask you about a couple of your 
objections.
    First of all, your statement objects to Senator Webb's bill 
primarily on the grounds that the bill would provide a benefit 
that would be so large it would result in negative retention 
effects, and I would like for you to explain to this Committee 
what appears to be the VA's foundational premise regarding this 
bill which is basically, do you view the Montgomery GI 
education benefit as primarily a retention tool or as a 
readjustment benefit for our servicemen and women?
    Mr. Pedigo. Senator, I think it would be a little bit of 
both. Clearly there are some aspects of it that would help 
retain some troops. However, we think it also contains some of 
the original GI Bill aspects that would allow us to say that it 
also was a readjustment benefit.
    Senator Murray. I heard Senator Webb's opening remarks 
about retention. He made very good remarks about how we need to 
recruit and retain individuals and young people today wanting 
to get education and this would be a great recruitment tool.
    It is interesting to me that the Administration is fighting 
this so hard. If retention truly is something that they are 
concerned about, it seems to me they ought to be focusing on 
dwell times and length of service and re-deployment, but that 
would be just an aside.
    Let me just say that this panel has got a number of VSOs 
who are going to be testifying.
    Ray Kelly of AMVETS is here and he says they wholly support 
this bill. They called the education benefit the greatest 
recruitment tool and the rationale for so many of our 
servicemembers to join the ranks of our military.
    Joe Violante of the Disabled American Veterans says in his 
testimony that the GI Bill for the 21st Century is in 
accordance with the ``GI Bill for the 21st Century'' set forth 
in the Independent Budget for fiscal year 2009, and that the 
DAV supports it.
    Eric Hilleman of VFW says it enhances military strength 
while providing an educational benefit that equips a generation 
of veterans to face the challenges of war.
    Carl Blake of Paralyzed Veterans of America says they 
support the bill and says it will return the GI Bill to the 
level established after World War II.
    Now, of course, all the VSOs advocate on behalf of veterans 
they represent. It goes without saying. They are very patriotic 
and they want the best for our military, especially, of course, 
at the time of war.
    How do you justify the Administration's assertion that this 
bill is too generous when all of these veterans organizations 
feel that it is necessary for a strong military and the proper 
acknowledgment of the service that our veterans have given to 
this Nation.
    Mr. Pedigo. Senator Murray, clearly we respect the 
positions of the veterans service organizations that assist us 
in so many ways and help their constituent veteran members.
    Let me just make this clear. While we have a number of 
concerns about S. 22, the biggest concern would be the 
transferability aspect. As Mr. Wilson said and as Senator Webb 
articulated, there has been much progress made in the last 
couple of months in resolving some of the administrative issues 
that have concerned us so much on previous versions.
    At this point I think that the primary issue--not to mean 
the only issue, but the primary issue--that we are concerned 
about is the lack of transferability.
    Senator Murray. OK. I appreciate that.
    Let me ask another question in my last one-half minute that 
I have and that is about the backlog of claims and appeals that 
have been raised is a significant hindrance for a lot of our 
veterans. Thousands of new appeals are filed with U.S. Court of 
Appeals for Veterans Claims every year.
    Now, this Committee was asked by the Court of Appeals for 
Veterans' Claims to look into raising the number of judges from 
7 to 9 in order to alleviate that pressure and help the 
processing of these appeals.
    Chairman Akaka has introduced S. 2091 to do that. It is a 
bill that is supported by a number of the VSOs, but you say in 
your testimony that under the current system you believe that 
the court can effectively manage its projected caseload.
    Can you explain to this Committee why the Court of Appeals 
for Veterans' Claims would ask for this increase if it did not 
need the extra help.
    Mr. Pedigo. I cannot speak for the court, Senator Murray, 
but I can say that the Administration has observed that the 
court has been making some progress in the last couple of years 
in handling the number of appeals that they have received by 
taking advantage of some of the former judges who are willing 
to come back and assist. And the Administration believes that 
the amount of money budgeted in the President's fiscal year 
2009 budget is going to be sufficient to allow the court to add 
some resources to take care of the workload.
    Senator Murray. We will be looking at that and I do not 
know that I agree with that. I think that there is a serious 
backlog. The Court of Appeals has asked for additional judges 
to deal with this. This Committee has responded with the right 
effort to do so. I hope that OMB is not just looking at 
everything in terms of cost but actually in terms of real cost 
to veterans who are waiting in line.
    Thank you, Mr. Chairman.
    Chairman Akaka. Thank you very much, Senator Murray.
    Mr. Pedigo, many veterans have claims improperly denied 
while others wait months for records of combat to be located. 
According to VA employees at regional offices, passage of my 
legislation S. 2309 would decrease the pending time for an 
average claim by 2 to 3 weeks. The Administration opposes this 
bill.
    Have you looked at how this bill might reduce the backlog 
of claims.
    Mr. Pedigo. Mr. Chairman, our look at this bill has not 
focused strongly on the impact it would have on claims.
    Our real concern is that it would open up the evidentiary 
requirements of our disability compensation program by allowing 
veterans who served in a combat zone to take advantage of the 
same relaxed evidentiary requirements that we have 
traditionally given to veterans who were actually in combat.
    So, we have concerns that some inequities could be created 
here and that we might be placed in a situation where we would 
have no choice but to take positive action on claims that, in 
fact, may not really be capable of being substantiated.
    Chairman Akaka. I understand that PriceWaterhouseCoopers is 
conducting a study for you that is due this summer to evaluate 
whether VA should reorganize its acquisition functions. My 
question to you is, is it premature for VA to propose a 
reorganization of this significance without the benefit of the 
results of this study?
    Mr. Pedigo. Mr. Chairman, let me ask Mr. Thompson if he is 
able to address that question.
    Mr. Thompson. Yes. Mr. Chairman, I think we are confident 
that the results of the report will not argue against an 
enhanced bureaucracy, if you will, for the procurement 
oversight by the Department.
    So, while we do not know yet what the full implications of 
those findings are, we are confident that what the 
Administration has proposed will not be inconsistent with the 
results when they come in.
    Chairman Akaka. Thank you for your response.
    Now that my friend and colleague, Senator Thune, has 
arrived, he will be making some brief remarks on his 
legislation.
    So, it is good to have you here and let me ask you to give 
your statement at this time.
    Senator Thune.

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Thank you, Mr. Chairman and Ranking Member 
Burr, Senator Webb, Senator Graham.
    I appreciate very much the opportunity to be before you 
today and thank you for your leadership on veterans' issues and 
for giving me an opportunity to speak in support of my bill, 
Senate Bill 161, the Veterans Disability Compensation Automatic 
Cost of Living Adjustment Act.
    The bill has the bipartisan support of Senator Tester and 
Senator Snow and I very much appreciate their support.
    It is a pleasure to come before this Committee to offer 
testimony on what I consider to be an extremely important 
issue. I would respectfully request the Committee pass S. 161 
in a timely manner so that the full Senate may consider it.
    The bill would automatically increase the rates of 
disability compensation and dependency and indemnity 
compensation by the same rate for which Social Security 
increases its rate each year.
    Passing this legislation provides automatic cost of living 
adjustments to benefits each year for two groups of great 
Americans, those who have been disabled in military service to 
their country and survivors of those who have given their life 
in military service to our country.
    This legislation not only protects these benefits from 
inflation but also sends a strong message of support from 
Congress to those deserving individuals.
    Everyone understands that inflation erodes the purchasing 
power of all Americans. Everywhere we look it seems prices are 
going up. In the last 10 years the average rate of inflation 
has been around 3 percent a year and now it takes over $130 to 
purchase what you could purchase for $100 10 years ago. Now 
that may not sound like much, but it means a lot to those who 
are on fixed incomes.
    These price increases especially affect disabled veterans 
and their families, as they may be unable to work long hours or 
at all, due to their service-connected disabilities.
    Additionally, many veterans' survivors also depend on cost 
of living adjustments to keep pace with inflation. Now to be 
fair, I am not arguing that Congress has stood idly by and not 
acted on cost of living adjustments.
    Indeed, this is not the case as annual COLA bills have been 
passed on time every year. In fact, the results, if you look at 
the results of votes cast on similar cost of living adjustments 
for disabled veterans measures in the past 5 years: in 2007 the 
Senate passed it by unanimous consent; the House by a vote of 
418 to zero. 2006 again, by a unanimous consent in the Senate 
and 2005, 2004, 2003, in every case by unanimous consent. I 
could go on, but I think the point is made.
    Ultimately the question is this, if we pass this measure 
every year with such overwhelming support, why can we not just 
make it automatic.
    Furthermore, our Social Security recipients receive an 
automatic COLA increase every year with no requirement of an 
act of Congress. I think it is only fair that our disabled 
veterans receive the same automatic COLA increase.
    Passing this measure gives our disabled veterans piece of 
mind in knowing their benefits will maintain purchasing power. 
I think passage of this measure would send a powerful message 
to our disabled veterans, their survivors and their families. 
It sends a message that we value the sacrifices that they have 
made for the good of all Americans and sends the message that 
we thank them for their service.
    It is also important to consider the Congressional Budget 
Office already assumes a COLA increase for disabled veterans in 
its base line, and, therefore, I have informally informed my 
staff that Senate Bill 161 would have no budgetary effect and 
no cost associated with its passage.
    Chairman Akaka and Ranking Member Burr, I respectfully ask 
that the Committee promptly act on this legislation so it can 
be passed with what I think would be overwhelming support in 
the full Senate.
    Thank you again for holding this hearing and for all that 
you do on behalf of America's veterans.
    Thank you, Mr. Chairman.
    Chairman Akaka. Thank you very much, Senator Thune. We do 
have you on the agenda and it will be looked at in June.
    I am going to ask, are there any second round questions?
    Senator Burr. Mr. Chairman, I just have two very quick 
questions while Mr. Wilson is here, as I think he is the expert 
at the table relative to education.
    I realize that this is a Department of Education issue, 
but, under S. 22, would veterans still be eligible for Pell 
grants?
    Mr. Wilson. Our understanding is they would.
    Senator Burr. Now, given that S. 22 is comprehensive, which 
I think Senator Webb has made that perfectly clear. I commend 
him for the bill. He supplied a formula where every veteran who 
qualifies can choose the institution they want to go to and 
their education is paid for--administered and paid for--by the 
Department of Veterans Affairs under the new framework.
    Given that the Department of Education cannot use VA 
benefits to determine qualification, would that not mean that 
veterans could then take the $4,700 that increases each year 
and this would be over and above the full tuition and housing 
allowance and book stipend that they are currently provided 
under S. 22?
    Mr. Wilson. That is our understanding of the language right 
now. It would have no impact on the way VA benefits are counted 
or not counted for the Department of Education programs right 
now.
    Senator Burr. And your understanding of the Graham Bill 
would be an increase from $1,100 to $1,500 a month indexed 
annually, the new book stipend and the $4,700 of Pell grants on 
top of going toward the education?
    Mr. Wilson. Correct.
    Senator Burr. One last thing as it relates to the issue of 
retention--and I think this is probably a DOD issue, but I 
think you are appropriate because you have examined the full 
breath of all the legislation. Currently, the Department of 
Defense uses education kickers for retention. In other words, 
they offer a servicemember additional education credits, 
additional education money to stay in the military for some 
period of time.
    Is it your assessment that if the full education is paid 
for, kickers are no longer a successful retention tool?
    Mr. Wilson. It would be hard for me to understand where the 
kickers would be put under S. 22. I do not believe there is any 
language that would prohibit that from happening. Kickers can 
continue as they are now. I understand exactly where you are 
going and we have had questions along the same lines.
    Senator Burr. The likelihood is they no longer would be 
designed for educational benefits because the full education 
package is there?
    Mr. Wilson. Correct.
    Senator Burr. I thank the witnesses and I thank you, Mr. 
Chairman.
    Chairman Akaka. Thank you very much, Senator Burr.
    Senator Webb. Mr. Chairman, if I may.
    First of all, just to clarify that last point, we have 
always had the DOD kickers. It is an incentive to keep people 
in the military, career force, allow them to get educated. We 
had them when we had the draft, when we had the Vietnam GI 
Bill. They generally go to officers.
    This is a program we are trying to design very heavily for 
that two-thirds of the people we were talking about who do not 
stay in.
    I want to ask Mr. Pedigo to clarify something that he said 
earlier.
    When you say that your Department's number 1 concern about 
S. 22 is transferability, does that mean you are generally 
supportive of the other parts of S. 22?
    Mr. Pedigo. Yes. What I said was VA's primary concern was 
transferability.
    Senator Webb. Right. But, other than that----
    Mr. Pedigo. And I believe I also said that that does not 
mean that is the only concern. There are obviously some other 
issues that we have concerns with: primarily still some 
remaining implementation concerns; as well as possibly some 
cost concerns.
    Senator Webb. But, when you were asked, you said the 
principal concern of Department of Veterans Affairs is the lack 
of a transferability provision.
    Mr. Pedigo. If we were to rank the concerns, that would 
probably be right at the top.
    Senator Webb. Were you aware before I mentioned it a little 
while ago that transferability is presently an option in the 
law?
    Mr. Pedigo. Yes, Senator, I was aware of that.
    Senator Webb. Do you care to comment about the fact that no 
one in the Department of Defense, nor service secretary really 
has chosen to exercise their legal option almost this entire 
Administration other than a minuscule program in the Department 
of the Army.
    Mr. Pedigo. Well, what you just stated was my understanding 
too--that the Army has had a small program providing for 
transferability--but that it has not gone beyond that.
    Senator Webb. So, I am a little at a loss here to 
understand how this--not to you specifically, but in general--
as to how this has become sort of the driving concept when it 
has been available since 2001 and two of the three service 
secretaries have not even exercised their legal option to 
conduct a pilot program.
    Mr. Pedigo. Senator, I really do not want to speak any 
further on this issue because it really is something that the 
Department of Defense needs to address. And I do not believe I 
am in a position to have a full understanding.
    Senator Webb. All right. And for the record, I think what I 
said needs to be said. It is kind of confusing for people who 
have worked in this area for a long time to see something that 
is available in the law not exercised even as a pilot program, 
and suddenly its a driving component.
    It kind of fits into the other concerns that I and a number 
of other people have had about who we are really trying to take 
care of here when they put a GI Bill in place.
    We have two-thirds, pretty near, of people who are 
enlisting, leaving the military at or before the end of their 
first enlistment and they are falling through the cracks. And 
these are the people we really are trying to help here.
    Thank you, Mr. Chairman.
    Chairman Akaka. Thank you very much, Senator Webb.
    Senator Burr. Mr. Chairman, can I be recognized for one 
more minute in the effort to clarify, because I think we will 
have a lengthy debate on the two options. I hope we will. And 
we will end up with a new benefit, I am convinced of that.
    But, my understanding of current law allows for 
transferability if the determination is made--if a 
servicemember has served for 6 years and that servicemember 
makes an agreement to serve for 4 more years--and the 
transferability option is for 50 percent transferability and is 
only applicable to those categories that are of critical need.
    So, just for full disclosure, there is not a blanket 
opportunity for DOD to go out and offer transferability. The 
caveats are: certain length of service, certain additional 
commitment, people that fill specific critical needs within 
DOD. So, there is a big difference between that and 
transferability for every veteran based upon years of service.
    Senator Webb. Well, the Senator is correct although there 
is another provision in the law. There are actually two other 
provisions in the law.
    One is that the transferability in the current law is 
available only if the service secretary decides to implement it 
for critical military occupational specialties.
    The point that I have been making here is that the service 
secretaries had this option since the end of 2001 when Senator 
Warner introduced this provision and had not elected it, even 
in terms of putting into place a pilot program. The Senator is 
correct: that it is not the same thing as broad-ranging, 
although we are talking about this benefit as a retention 
benefit. So, you would assume that even in your bill, it is 
going to go to the career force.
    Senator Burr. I would also assume that the Secretary has 
made a determination that kickers have been more effective than 
implementation of transferability based upon the restrictions 
on the length of time for the transferability to be applicable 
or for the critical skills, and we will have this debate, I am 
sure.
    Chairman Akaka. Senator Graham.
    Senator Graham. No more questions, Mr. Chairman.
    Chairman Akaka. Thank you very much. Let me ask my final 
question and I will submit any others for the record.
    Mr. Pedigo, in site visits to regional offices, Committee 
staff frequently documented lack of service medical records as 
the basis for a denial or delay in processing claims of OIF 
veterans. This is contrary to your testimony. Even the benefits 
delivery at discharge sites reported difficulty in obtaining 
service medical records.
    Do you have data on the number of claims of veterans 
serving in combat zones that are denied or delayed because of 
missing service medical records?
    Mr. Pedigo. Mr. Chairman, I do not know the answer to that 
but I would be happy to go back and have staff check that out 
and submit an answer for the record.
    Chairman Akaka. Thank you very much.
    Before we move on here, I want to thank Keith Wilson for 
his work with the Committee staff on S. 22. This has been a 
great help and we look forward to continuing to work with you 
for clarification and advice.
    I want to thank this first panel for your responses, your 
testimony, and your remarks. You have been helpful. We have 
much to do and we will continue to work together. Any further 
questions will be submitted for the record.
    [The responses to questions for the record follow:]
   Responses to Questions for the Record addressed to Keith Wilson, 
     Director of Education Service, Department of Veterans Affairs
    Question 1. Provide the in-state tuition and fees costs broken down 
by State to see the variance between States.
    Response. VBA does not have access to this information. We defer to 
Department of Education for this data.

    Question 2. Provide data on the number of claims denied due to the 
absence/inability to obtain service treatment records.
    Response. VBA does not track denials due to the absence of or 
inability to obtain service treatment records. VA has specific 
procedures in place to trace missing records. The duty to assist a 
veteran with prosecution of his or her claim is clarified in 38 Code of 
Federal Regulations (CFR) 3.159 and the claims processing manual, M21-
1MR, Part I, Chapter 1, Duty to Assist.
    If VA is unable to obtain important evidence such as a veteran's 
service medical records, VA requests alternative documents to support 
the claim for benefits. For example, VA can request a search of 
military unit sick logs, morning reports, or Surgeon General Office 
reports for records of military hospitalization. Additionally, VA will 
ask the veteran for any alternative records that may contain some 
evidence to support the claim for benefits. Such evidence may include 
statements from other servicemembers, letters written during service, 
photographs taken during service, State or local accident reports, 
private medical reports, prescription records, or insurance examination 
records.
    Ultimately, VA is governed by 38 CFR 3.102, in which a broad 
interpretation of available facts are applied and any reasonable doubt 
is resolved in favor of the veteran. This is particularly true in the 
absence of official records and when a claimed disability allegedly 
arose under combat or similarly strenuous conditions. Claims examiners 
are required to apply the benefit of the doubt in any case when records 
are missing. After a decision on a claim, the veteran must be notified 
of the application of the benefit-of-the-doubt rule and told how VA 
weighed the positive and negative aspects of the available evidence.

    Chairman Akaka. Thank you very much.
    I welcome some of our witnesses to the second panel. Here 
joining us this morning are Carl Blake, Paralyzed Veterans of 
America.
    Richard Paul Cohen, National Organization of Veterans' 
Advocates.
    Eric Hilleman, Veterans of Foreign Wars.
    Ray Kelley, AMVETS.
    Steve Smithson, The American Legion.
    Joe Violante, Disabled American Veterans.
    Rick Weidman, Vietnam Veterans of America.
    Welcome to all of you. Thank you for being here.
    Mr. Blake, will you please begin with your testimony.

    STATEMENT OF CARL BLAKE, NATIONAL LEGISLATIVE DIRECTOR, 
                 PARALYZED VETERANS OF AMERICA

    Mr. Blake. Thank you, Mr. Chairman.
    Mr. Chairman, Senator Burr, Senator Webb, on behalf of 
Paralyzed Veterans of America, I would like to thank you for 
the opportunity to testify today. Given the scope of the bills 
considered here, I will limit my comments to just a few of the 
bills.
    As we did during the first session of the 110th Congress, 
PVA supports S. 22.
     PVA, in conjunction with many of the veterans service 
organizations here, including The Independent Budget, have 
advocated for returning the GI Bill to the level established 
following World War II. We believe that S. 22 accomplishes that 
goal.
    PVA appreciates the efforts being given to updating and 
modernizing the VA disability system. In fact, we have been 
very involved with a number of the commissions that have been 
charged over the last couple of years, particularly the 
Veterans Disability Benefits Commission and the Dole-Shalala 
Commission, with the developing real solutions to the problems 
facing the Veterans Benefits Administration.
    We recognize that the claims processing system is in need 
of change. However, we believe that the current system is a 
fundamentally good system. As such, we oppose S. 2674.
    The majority of our concerns with this legislation rest 
with the establishment of the enhanced VA disability 
compensation system outlined in Title II. I refer you to our 
written statement for the broader explanation of our concerns.
    We believe that the most incomprehensible provision of this 
legislation is a requirement for the VA to reevaluate veterans 
on an as-determined basis.
    It is important to point out that the VA already has the 
authority to reevaluate veterans for a particular disability. 
In fact, the VA uses this authority quite frequently based on 
objective medical evidence.
    The VA chooses to no longer reevaluate a veteran when the 
objective medical evidence compiled over a period of time 
proves that the veteran's condition has stabilized.
    It astounds us that this legislation will call for a 
procedure that would so overwhelm the disability evaluation 
system that it would likely crumble under the weight.
    By creating this reevaluation process, the claims backlog 
would never be reduced and only continue to grow at an enormous 
rate. Moreover, the VA could not even begin to address the rate 
of growth that would occur in the claims backlog given its 
current staffing and resource levels.
    We believe that a completely new disability system in the 
VA is unnecessary, and in fact, we believe the report released 
by the Veterans Disability Benefits Commission reaffirms that 
point.
    PVA supports S. 2864, a bill to improve the outcome of the 
vocational rehabilitation and employment program of the VA and 
to eliminate the cap on the number of veterans enrolled in the 
independent living program. Many members of PVA have benefited 
from the vocational rehabilitation and independent living 
services offered by the VA.
    In fact, PVA places such an importance on vocational 
rehabilitation that last year we designed our own vocational 
rehabilitation program to further support what the VA is 
already doing and to go above and beyond current services, 
something we have actually discussed with this Committee 
previously.
    In partnership with VA and Health Net Federal Services, PVA 
opened its first vocational rehabilitation office in the SCI 
Center of the VA Medical Center in Richmond, Virginia in July 
of 2007. Buoyed by our rapidly growing caseload in Richmond, 
the establishment of productive relationships with the Veterans 
Health Administration and VR&E, PVA just recently opened a 
second vocational rehabilitation office in Minneapolis under 
the corporate sponsorship of TriWest Health Care Alliance.
    While PVA sees some merit in portions of S. 2938, we 
generally oppose this legislation because we do not believe 
that it accomplishes our goal of returning the GI Bill to the 
level established following World War II.
    We cannot argue with the fact that the legislation intends 
to increase the rates of educational assistance available to 
servicemembers and veterans.
    Furthermore, we generally support the idea of 
transferability of GI Bill benefits to a dependent. However, we 
believe that this opportunity should be offered to any 
servicemember or veteran eligible for GI Bill benefits.
    However, we oppose this legislation. First, we 
fundamentally disagree with the notion that realigning the GI 
Bill with the post World War II benefit would negatively impact 
retention. It is a shame that honorable service establishing 
eligibility for GI Bill benefits is no longer sufficient under 
the guise of this legislation. This legislation then implies 
that if a servicemember is not willing to consider extended 
service or a career in the military, then the Federal 
Government should have less of an obligation to provide him or 
her with an education.
    Mr. Chairman, Ranking Member Burr, again I would like to 
thank you for the opportunity to testify. We appreciate the 
efforts of this Committee to address the many benefits 
available to the men and women who have served and continue to 
serve and I would be happy to answer any questions that you 
might have.
    [The prepared statement of Mr. Blake follows:]
   Prepared Statement of Carl Blake, National Legislative Director, 
                     Paralyzed Veterans of America
    Chairman Akaka, Ranking Member Burr, and Members of the Committee, 
on behalf of Paralyzed Veterans of America (PVA) I would like to thank 
you for the opportunity to testify today on the proposed benefits 
legislation. The scope of benefits issues being considered here today 
is very broad. We appreciate the Committee taking the time to address 
these many issues, and we hope that out of this process meaningful 
legislation will be approved to best benefit veterans.
      s. 22, the ``post-9/11 veterans educational assistance act''
    As we did during the first session of the 110th Congress, PVA 
supports S. 22, the ``Post-9/11 Veterans Educational Assistance Act.'' 
This bill would enhance the current educational benefits for the men 
and women who have served on active duty since September 11, 2001. PVA, 
in conjunction with many veterans service organizations, including the 
co-authors of The Independent Budget--AMVETS, Disabled American 
Veterans, and Veterans of Foreign Wars--have advocated for returning 
the GI Bill to the level established following World War II. We believe 
that S. 22 accomplishes that very goal.
    The dollar amount of educational assistance would be equal to the 
established charges of an approved institution. This would give the 
veteran a greater selection of institutions to pursue their education 
since they would not be restricted to less expensive institutions. An 
additional amount of funding would be paid for room and board, and a 
monthly stipend would be paid to the student for other expenses. 
Tutorial assistance would also be available, and would be paid for a 
period up to 12 months to help the student with difficult courses. This 
amount would not be taken from the student's entitlement. The bill 
allows the veteran up to 15 years to take advantage of these benefits. 
This is an important addition since many returning veterans may not be 
emotionally ready right away to start school. This educational package 
offers the veteran many incentives to encourage them to enroll in 
school or continue with their educational program.
  s. 161, the ``veterans' disability compensation automatic cola act''
    While PVA principally supports the concept of this legislation, we 
believe that passage of the bill could be detrimental to the 
legislative process. It certainly makes sense to have an automatic 
adjustment for disability compensation. However, because of the 
politics associated with all forms of legislation before Congress--
including veterans' issues--many veterans' benefits and health care 
improvements are ultimately approved because they are attached to the 
COLA bill--legislation that is deemed ``must-pass.'' More often than 
not, the VA COLA bill becomes the only vehicle to advance other 
important veterans' legislation. By eliminating this piece of 
legislation from the Congressional agenda, Congress and veterans' 
service organizations lose an important tool to improve benefits and 
health care services for veterans.
 s. 961, the ``belated thank you to the merchant mariners of world war 
                                ii act''
    Although we recognize the sacrifices that these brave men made in 
service to the Nation during World War II and we support the intent of 
this legislation, we have some concerns with the proposals it makes. 
The importance of their sacrifices cannot be overstated. While 
suffering extremely high casualty rates during the war, they delivered 
troops, tanks, food, airplanes, fuel and other needed supplies to every 
theater of the war.
    However, PVA believes that this bill would be very costly to the 
Department of Veterans Affairs (VA). We believe that the money needed 
to provide this new monthly benefit would reduce the ability of the VA 
to continue to provide the wide-ranging scope of benefits that it 
already manages.
    We also do not understand how the amount to be provided as a 
monthly benefit was determined. As it stands, if this legislation was 
enacted, a merchant mariner would be entitled to a payment equal to 
veterans who have a 70 percent compensable service-connected 
disability. Furthermore, the surviving spouses of these veterans would 
be entitled to a benefit nearly equal to the amount provided to the 
surviving spouses of veterans with service-connected disabilities. 
Although we do not dispute the idea that these veterans should receive 
some type of benefit, we do not believe that the recommendations of 
this legislation are equitable with similar programs. We are not 
certain that this legislation maintains the priority that the VA 
follows for providing compensation benefits.
        s. 1718, the ``veterans education tuition support act''
    PVA supports the provisions of S. 1718, the ``Veterans Education 
Tuition Support Act.'' This legislation would provide for reimbursement 
to servicemembers of tuition for programs of education interrupted by 
military service, for deferment of student loans, and for reduced 
interest rates for servicemembers during that service. In recent years, 
Congress has taken important steps to update the Servicemembers' Civil 
Relief Act so as to provide proper protections to servicemembers when 
they serve on active duty. The need for these improvements has been 
more pronounced with Operation Enduring Freedom and Operation Iraqi 
Freedom (OEF/OIF) due to the high number of National Guardsmen and 
Reserve soldiers being called to active duty. These men and women are 
seeing some of the highest activation rates in history in support of 
the War on Terror.
    It is a shame to think that active duty service and deployments to 
war could have a negative impact on the education of servicemembers, 
but that is exactly what is happening. This legislation would ensure 
that these brave men and women are not punished for their service. It 
would protect their right to attain higher education. It would also 
provide them a period of readjustment before their bills for education 
come due, while also allowing them the opportunity to return to the 
institution that they previously attended.
                                s. 2090
    PVA fully supports the proposed legislation that would ensure 
privacy protection and security for records being handled by the United 
States Court of Appeals for Veterans Claims. This legislation would 
provide consistency for privacy and security procedures in the Court 
with other Federal courts.
                                s. 2091
    PVA supports the proposed legislation that would increase the 
number of active judges sitting on the United States Court of Appeals 
for Veterans Claims from seven to nine. We would like to provide a 
couple of recommendations as it relates to this potential change. 
First, if two new judges are added to the Court, it is important to 
ensure that the terms of the first two are appropriately staggered. We 
believe that one judge should serve for no more than five or 7 years 
and the other judge should serve 10 to 12 years. This will ensure that 
the first two new judges and all subsequent judges will not leave the 
Court at the same time.
    We would also recommend that Congress take more care to encourage 
the nomination of judges who have some prior experience in Veterans 
Law. Similarly, Congress could also ensure that the Court maintain an 
experienced and skilled central legal staff that would be in a position 
to assist newly appointed judges. With skilled legal staff and 
experienced Veterans Law judges, the transition to a nine-member Court 
would be eased.
   s. 2138, the ``department of veterans affairs reorganization act''
    PVA has no official position on S. 2138, the ``Department of 
Veterans Affairs Reorganization Act.'' This legislation would establish 
a new position in the VA management structure--Assistant Secretary for 
Acquisition, Logistics, and Construction. We only wonder what the 
motivation is for creating this new position and potentially adding 
more layers to the complex VA bureaucracy.
s. 2139, the ``national guard and reserve educational benefits fairness 
                                 act''
    As stated in The Independent Budget for FY 2009, ``since September 
11, 2001, more than 600,000 individuals who serve in National Guard and 
Reserve forces have been mobilized for a variety of military, police, 
and security actions * * * Guard and Reserve recruiting, retention, 
morale, and readiness are already at considerable risk.'' With the 
ever-increasing strain being placed on these men and women, it is 
important that Congress take steps to upgrade benefits and support 
programs available to them. Foremost of these are education benefits 
under the GI Bill. It is time that the men and women serving in the 
National Guard and Reserves receive GI Bill benefits commensurate with 
their sacrifices. With this in mind, PVA supports S. 2139, the 
``National Guard and Reserve Educational Benefits Fairness Act.''
         s. 2309, the ``compensation for combat veterans act''
    PVA fully supports S. 2309, the ``Compensation for Combat Veterans 
Act.'' This proposed legislation is in accordance with a recommendation 
included in The Independent Budget for FY 2009. As stated in The 
Independent Budget:

        While VA recognizes the receipt of certain medals as proof of 
        combat, only a fraction of those who participate in combat 
        receive a qualifying medal [qualifying medals include combat 
        badges and medals received for valor]. Further, military 
        personnel records do not document combat experiences except for 
        those who receive certain medals. As a result, veterans who are 
        injured during combat or suffer a disease resulting from a 
        combat environment are forced to try to provide evidence that 
        does not exist or wait a year or more while the Department of 
        Defense conducts research to determine whether a veteran's unit 
        engaged in combat.

    It is important to note that this legislation would not eliminate 
or alter in any way the requirement that a veteran's claim for 
disability have an official diagnosis or that a clear connection 
between that claimed disability and military service exists. It would 
simply relieve the burden placed on veterans who served in a combat 
theater of proving that the claimed disability was combat-related. As 
it currently exists in law, service in a combat zone or theater does 
not necessarily meet the threshold that the VA has established for 
recognizing a combat veteran. This loophole needs to be changed to 
benefit the veteran and we believe this legislation will accomplish 
that task.
          s. 2471, the ``userra enforcement improvement act''
    PVA supports S. 2471, the ``USERRA Enforcement Improvement Act of 
2007.'' This legislation will reduce the waiting times for USERRA cases 
and mandate that the Secretary of the VA refer these cases to the 
Attorney General's office within 15 days of receiving a complaint from 
a veteran. The Attorney General must then decide within 45 days if they 
will initiate an action and represent the veteran. Expediting this 
process is essential to indicate to veterans that the law created to 
protect their jobs while they serve the country is being enforced. 
Currently veterans do not file complaints because they lack confidence 
in the law.
         s. 2550, the ``combat veterans debt elimination act''
    PVA principally supports S. 2550, the ``Combat Veterans Debt 
Elimination Act.'' However, we have a couple of concerns with the 
proposal. First, we believe that the legislation should afford the same 
benefit to any servicemember who might have been killed while serving 
in the line of duty. We do not think that a special distinction should 
be made between a servicemember who was killed in a combat theater and 
a servicemember who was killed while serving at his or her home duty 
station. We would ask: ``What is the difference between having a tank 
roll over on the individual in Iraq or Afghanistan and a tank roll over 
on the individual at Fort Hood, Texas?'' The benefit of this 
legislation should be afforded to any servicemember killed while 
serving this Nation honorably.
    Second, we wonder why a special exception is made in this 
legislation for certain debts to be collected. As we understand the 
bill, the only debt that the VA will be permitted to collect upon a 
servicemember's death is a home loan or small business loan.
 s. 2617, the ``veterans' compensation cost-of-living adjustment act''
    PVA supports S. 2617, the ``Veterans' Compensation Cost-of-Living 
Adjustment Act of 2008.'' This bill would increase the rates of 
compensation for veterans with service-connected disabilities and the 
rates of dependency and indemnity compensation for widows of certain 
disabled veterans. As we have done in the past, we oppose again this 
year the provision rounding down the cost-of-living adjustment to the 
nearest whole dollar. Continuing to round down these benefits year 
after year only serves to erode the value of them. Furthermore, this 
provision forces veterans to bear some of the burden of cost-savings 
for the Federal Government.
            s. 2674, the ``america's wounded warriors act''
    PVA appreciates the effort being given to updating and modernizing 
the VA disability system. In fact, we have been very involved with a 
number of the Commissions that have been charged over the last couple 
of years--particularly the Veterans' Disability Benefits Commission and 
the Dole-Shalala Commission--with developing real solutions to the 
problems facing the Veterans Benefits Administration. We recognize that 
the claims processing system is in need of change. However, we believe 
that the current system is a fundamentally good system. As such, we 
oppose S. 2674, the ``America's Wounded Warriors Act.''
    The majority of our concerns with this legislation rest with the 
establishment of the ``enhanced VA disability compensation system'' 
outlined in Title II. Section 201 and Section 202 call for studies that 
essentially lay the groundwork for this new compensation system. 
Section 201 calls for the VA to conduct a study to determine the rates 
of compensation that should be paid to a veteran for a service-
connected disability under the new chapter 12, title 38, U.S.C. The 
proposed legislation specifically outlines certain factors to consider 
to include the nature of injuries and combination of injuries for which 
disability compensation is paid under other disability programs; how 
that concept applies to commercial disability insurance; the extent to 
which quality-of-life and loss of earnings are independently taken into 
account under other disability programs; the effect of an injury or 
combination of injuries on average loss of earning capacity and a 
veteran's quality-of-life; the measurement of the effect of an injury 
or combination of injuries on a veteran's psychological state, loss of 
physical integrity, and social inability to adapt; and the extent to 
which disability compensation for veterans may be used as an incentive 
to encourage them to seek and undergo appropriate medical treatment and 
vocational rehabilitation. Section 201 calls for a similar study as it 
relates to veterans' transition benefits.
    We believe that these studies are redundant and unnecessary. The 
Veterans' Disability Benefits Commission spent nearly 3 years studying 
most, if not all, of these very concepts. Even the Dole-Shalala 
Commission examined these concepts, albeit in a much more hasty 
fashion. Moreover, the VA has already contracted with a private firm to 
conduct a study to address many of these concepts.
    PVA opposes the suggestion in the conduct of these studies that the 
VA would be required to consider the appropriate injuries to be covered 
under the new disability rating schedule. This is clearly an attempt to 
remove certain injuries and illnesses from the ratings schedule that 
some people believe should not be included. However, we believe that 
the list of all injuries and illnesses included in the existing ratings 
schedule have validity based on medical evidence.
    Furthermore, we adamantly oppose any suggestion that age should be 
a determining factor when considering average loss of earnings 
capacity. This concept ignores the fact that in many cases, veterans, 
and older Americans in general, work well past the arbitrary age of 
retirement. To punish these veterans by taking away compensation based 
on an arbitrary age limit is patently unfair.
    PVA has also long opposed the notion that 21st century medicine and 
technology somehow makes an individual less disabled. To then use 
disability compensation as an incentive to seek treatment is 
counterproductive. Unfortunately, this very idea is implied by the 
desired findings of the studies to be undertaken in Section 203 of the 
proposed legislation. The fact is that the vast majority of 
disabilities and illnesses outlined in the VA's schedule for rating 
disabilities are incurable.
    Last, as it relates to these required studies, we believe that a 
fair comparison cannot be made between the VA disability compensation 
system and other disability compensation systems used around the 
country. During discussions with the Veterans' Disability Benefits 
Commission, PVA explained that VA disability compensation is a benefit 
provided because an individual became disabled in service to the 
country. Compensation reflects the debt of gratitude this Nation owes 
the men and women who served in uniform and recognizes the challenges 
they will face every day as a result of their service, both 
economically as well as socially. Nearly all other disability 
compensation programs studied during the Commission's work were shown 
to address simply loss of earnings or economic capacity.
    PVA also has serious concerns about the approval process for the 
new disability evaluation system outlined in Section 205. The 
legislation sets up an all or nothing proposition for approval of the 
system. Such a process provides for no adjustment to the new approach 
once it is presented to Congress. Representatives and senators would be 
forced to simply say they support or oppose the system as a whole, 
notwithstanding any good or bad aspects of the proposal submitted by 
the Secretary of Veterans Affairs. In our view, this does not reflect 
good legislative process.
    PVA is concerned about provisions of Section 207 of the bill as 
well. Under this section, the ``enhanced VA disability compensation 
system'' would include ratings based on average loss of earning 
capacity and quality-of-life. However, veterans included under the old 
disability system in Chapter 11 of Title 38, would not receive benefits 
based on loss of quality-of-life. This creates a serious inequity among 
disabled veterans. We believe that if quality-of-life payments are 
going to be a part of a compensation package, then it should not be 
restricted to only those veterans choosing to be classified under the 
new disability system.
    PVA believes that the most incomprehensible provision of this 
legislation is the requirement for the VA to reevaluate veterans on an 
as determined basis. It is important to point out that the VA already 
has the authority to reevaluate veterans for a particular disability. 
In fact, the VA uses this authority quite frequently based on objective 
medical evidence. The VA chooses to no longer reevaluate a veteran when 
the objective medical evidence compiled over a period of time proves 
that the veteran's condition has stabilized.
    The legislation also provides for the opportunity to adjust a 
veteran's disability rating under Chapter 12. The VA will be required 
under Section 1207 to adjust a veteran's rating in accordance with 
reevaluations as well as due to changes that might have been made to 
the rating schedule since the veteran was last evaluated. Meanwhile, 
the legislation includes contradictory language that addresses this 
very point. Under the heading ``Preservation of Rating,'' a veteran 
under Chapter 11 cannot have his or her disability rating reduced due 
to a change in the ratings schedule. However, a veteran under Chapter 
12 with the same disability may have his or her disability rating 
reduced.
    This reevaluation process also essentially eliminates any 
protections veterans may have as it relates to the long-term status of 
their disability. It is very likely that many VA regional offices--
particularly those that have come under scrutiny in recent years for 
low-balling veterans' disability ratings and by extension compensation 
rates--would see this as an opportunity to reduce any protected rating 
that can be justified. This is wholly unacceptable.
    It also astounds us that this legislation would call for a 
procedure that would so overwhelm the disability evaluation system that 
it likely could not survive. By creating this reevaluation process, the 
claims backlog would never be reduced and only continue to grow at an 
enormous rate. Many veterans' claims would never leave this vicious 
cycle. Moreover, the VA could not even begin to address the rate of 
growth that would occur in the claims backlog given its current 
staffing and resource levels. Such a process would likely destroy the 
current VA claims process.
    Given the concerns outlined here, we must reiterate our opposition 
to this bill. We believe that a completely new disability system in the 
VA is unnecessary. In fact, we believe the report released by the 
Veterans Disability Benefits Commission reaffirms that point. This is 
not to say that meaningful reforms cannot be made to the current 
system, but not at the expense of veterans and their families, 
particularly those who have served in previous conflicts.
                                s. 2683
    PVA supports S. 2683, a bill that will modify certain authorities 
that VA has in the provision of educational benefits. First, the bill 
addresses current statute that allows the use of educational assistance 
under the Montgomery GI Bill (MGIB) for education leading to employment 
in the high technology industry. However, the original intent for this 
legislation was to provide assistance for short duration courses that 
lead to certification in technical fields. PVA supports this provision 
as it will reinforce the point that the MGIB is not only a recruitment 
tool, but a transition tool as well.
    Likewise, PVA supports the provisions of the legislation that 
address the expanded scope of work that could be assigned to 
individuals participating in VA work study programs. The original 
public law specifically added to acceptable activities certain outreach 
services programs, activities relating to hospital and domiciliary care 
to veterans in State homes, and activities relating to the 
administration of national or State veterans' cemeteries. However, due 
to the fact that this program had a delimiting date, it was allowed to 
slip last year. This legislation would make this opportunity permanent.
                                s. 2701
    PVA, at the national level, has no official position on this 
legislation which authorizes the VA to establish a national cemetery in 
the eastern region of Nebraska to serve veterans in eastern Nebraska 
and western Iowa. We would note that the Great Plains Chapter of PVA, 
located in Omaha, Nebraska, does support this proposal. According to VA 
information, there is currently only one national cemetery located in 
Maxwell, Nebraska. With the rate that veterans are dying today, 
particularly World War II veterans, it is imperative that the VA be 
able to provide a suitable burial location for these men and women.
         s. 2737, the ``veterans' rating schedule review act''
    PVA generally supports S. 2737, the ``Veterans' Rating Schedule 
Review Act.'' We would like to point out up front that the text of the 
long title of the bill is not consistent with the text of the bill. We 
believe the title incorrectly refers to section 1151 of title 38 when 
it is meant to refer to Section 1155.
    As we understand it, the proposed legislation will permit 
challenges to the rating schedule when not in compliance with 
``applicable'' requirements of chapter 11 of Title 38. The only 
question we have is how far review of whether the rating schedule is in 
compliance with ``applicable'' requirements of chapter 11 (compensation 
for service-connection disability or death) will extend. However, a 
broad reading of such review may not be a bad thing.
    Furthermore, while not addressed in this proposed legislation, we 
believe that Congress will also need to amend section 7292 of title 38 
to give the Federal Circuit the authority to review decisions of the 
Veterans Court relating to Section 7252(b)(2)(B). If this change is not 
made, the Veterans Court's decisions on these issues would be non-
reviewable. We believe that this could ultimately be harmful for 
veterans filing claims.
    We would also like to suggest that you consider amending section 
502 of title 38 to give the Federal Circuit the authority to review 
revisions of the rating schedule. Veterans and veterans' service 
organization representatives could then bring challenges to proposed 
amendments to the rating schedule which are not in compliance with the 
``applicable'' requirements of chapter 11. Rule challenges can be a 
more effective way to correct situations where the VA is arguably not 
complying with a statute as opposed to individual cases which can take 
years and may be subject to facts which are not favorable to a clear 
presentation of a legal issue.
                                s. 2768
    PVA supports S. 2768, a bill that would provide a temporary 
increase in the maximum loan guaranty amount for certain housing loans 
guaranteed by the VA. In light of the current difficulties in the 
housing market, any benefit that can be provided to veterans and their 
families when they purchase a home is vital. We believe that this 
proposed change in the law could help many more veterans, including the 
newest generation of veterans from Iraq and Afghanistan, to realize the 
dream of owning a home.
    The home loan guaranty was last increased with the enactment of 
Public Law 108-454, the ``Veterans Benefits Improvements Act of 2004.'' 
At that time, the maximum guaranty amount was increased to 25 percent 
of the Freddie Mac conforming loan limit. The current Freddie Mac 
conforming loan limit is approximately $417,000, which allows the VA to 
guaranty up to $104,250 for a veteran's home loan. However, the 
recently enacted Economic Stimulus Act increased the Freddie Mac loan 
guarantee limit to $730,000, but it failed to provide a similar 
increase for the VA home loan guaranty. This proposed legislation will 
correct that oversight.
           s. 2825, the ``veterans' compensation equity act''
    PVA has no specific objection to this proposed legislation. This 
legislation would allow for a minimum disability rating of 10 percent 
for veterans who are on continuous medication or who require the use of 
one or more adaptive devices, such as a hearing aid. We believe that 
this legislation seems to address the inconveniences to quality-of-life 
that veterans face when they have to follow a medication regime or use 
an assistive device. We believe this legislation could certainly be 
beneficial to individuals who struggle at the bottom of the ratings 
schedule.
            s. 2864, the ``training and rehabilitation for 
                  disabled veterans enhancement act''
    PVA supports S. 2864, a bill to improve the outcome of the 
vocational rehabilitation and employment (VR&E) program of the VA and 
to eliminate the cap on the number of veterans enrolled in the 
independent living program. Many members of PVA have benefited from the 
vocational rehabilitation and independent living programs offered by 
the VA. We believe that VR&E is critical to the reintegration of 
severely disabled veterans into civilian life. The primary mission of 
the VR&E program is to provide veterans with service-connected 
disabilities all the necessary services and assistance to achieve 
maximum independence in daily living and to the maximum extent 
feasible, to become employable and to obtain and maintain suitable 
employment.
    In fact, PVA places such an importance on vocational rehabilitation 
that last year we designed our own vocational rehabilitation program to 
further support what the VA is already doing, and to go above and 
beyond current services. The concept of the program is to provide 
vocational rehabilitation services under a PVA--corporate partnership 
that augments the many existing vocational programs. PVA believes that 
by introducing veterans with SCI disability to vocational 
rehabilitation counselors specializing in SCI disability that are able 
to provide extensive vocational-oriented services early in the medical 
rehabilitation process and who can continue to provide services as 
needed, the productivity and employment rates for this group of 
veterans will improve.
    In partnership with VA and Health Net Federal Services, PVA opened 
its first vocational rehabilitation office in the SCI Center of the VA 
Medical Center in Richmond, Virginia in July 2007. Buoyed by our 
rapidly growing caseload in Richmond, the establishment of productive 
relationships with the Veterans Health Administration and VR&E, PVA 
just recently opened a second vocational rehabilitation office in 
Minneapolis under the corporate sponsorship of TriWest Health Care 
Alliance. We are confident that our continuing efforts in this 
initiative as well as the continuing efforts of our VA partners will 
result in the 85 percent unemployment rate among PVA members and other 
severely disabled veterans becoming a sad statistic of the past.
    We are particularly pleased that the proposed legislation will 
repeal the limitation on the number of veterans enrolled in the VA's 
programs of independent living services and assistance. Currently, no 
more than 2,500 veterans can be enrolled in the independent living 
program in a give fiscal year. The cap that was placed on this program 
many years ago was an arbitrary number that was not aligned with the 
programs workload at that time and that gave no consideration to future 
workloads. The consequence of this cap is that as VR&E approaches the 
cap limit each year, they must slow down or delay delivery of 
independent living services for new cases until the start of the next 
fiscal year. While VR&E may not bump up against the cap every year, 
they have in some years and at those times veterans with severe 
disabilities who have been determined eligible and entitled to the VR&E 
program in the mid to late summer have had to wait until October to 
receive full services. It is absolutely time for this cap to be 
eliminated.
               s. 2889, the ``veterans health care act''
    PVA supports the designated sections of S. 2889 being considered. 
We would refer the Committee to our comments regarding S. 2617 as it 
relates to Section 8 of this proposed legislation.
       s. 2938, the ``enhancement of recruitment, retention, and 
                  readjustment through education act''
    While PVA sees some merit in portions of the proposed legislation, 
we generally oppose this legislation because we do not believe that it 
accomplishes our goal of returning the GI Bill to the level established 
following World War II. We cannot argue with any legislation that 
intends to increase the rates of educational assistance available to 
servicemembers and veterans. Furthermore, we generally support the idea 
of transferability of GI Bill benefits to a dependent; however, we 
believe that this opportunity should be offered to any servicemember or 
veteran eligible for GI Bill benefits, not just those who have served a 
minimum of 6 years.
    However, we oppose the legislation for several reasons. First, we 
fundamentally disagree with the notion that realigning the GI Bill with 
the post-World War II benefit would negatively impact retention. It is 
a shame that honorable service establishing eligibility for GI Bill 
benefits is no longer sufficient under the guise of this legislation. 
This legislation implies that if a servicemember is not willing to 
consider extended service or a career in the military, then the Federal 
Government should have less of an obligation to provide him or her with 
an education. As such, we wholeheartedly disagree with the concept that 
the legislation advances which forces retention on servicemembers in 
order to take advantage of an increased benefit level.
    Moreover, the GI Bill is a recruitment tool. With a good benefit 
comes improved recruiting. Unfortunately, this legislation ignores that 
fact. Meanwhile, it seeks to create different classes of veterans 
simply based on the length of their service and the benefits to which 
they would be eligible. PVA has long opposed any suggestion that one 
veteran's service is any more honorable than another veteran's service 
simply because he or she served longer.
               the ``veterans benefits enhancement act''
    PVA cannot offer a specific position on the proposed ``Veterans 
Benefits Enhancement Act.'' However, we would like to express serious 
concern with a couple of provisions included in the legislation--
Section 201 and 202. PVA opposes these provisions of the legislation. 
Both provisions are intended to allow the Secretary to ignore decisions 
by the Court of Appeals for Veterans Claims (the Court) while they seek 
appeal to the Federal Circuit or legislation to overturn a court 
decision. The Secretary has an adequate remedy in situations where he 
believes the Court has issued a decision contrary to law or which 
otherwise adversely affects the ``integrity of the program.'' He can 
simply seek the authority from the Court to stay cases before the 
agency where it is believed appropriate or seek expedited review by the 
Federal Circuit. If a particular court decision truly threatened the 
``integrity of a program,'' the Courts would almost certainly give the 
Secretary's view due consideration. As it stands, we are unaware of any 
similar Federal agency which has legislative authority to ignore court 
decisions. Such authority would be extraordinary.
    PVA appreciates the efforts of this Committee to address the many 
benefits available to the men and women who have served and sacrificed 
so much for this country. We is pleased that the Committee has chosen 
to make education benefits for servicemembers and veterans a central 
them of the legislation on the agenda. We look forward to working with 
you to advance these measures through the Congress so that 
servicemembers, veterans and their families can begin to take advantage 
of these meaningful changes.

    Thank you again for the opportunity to testify. I would be happy to 
answer any questions that you might have.

    Chairman Akaka. Thank you, very much Mr. Blake.
    Mr. Cohen.

 STATEMENT OF RICHARD PAUL COHEN, EXECUTIVE DIRECTOR, NATIONAL 
              ORGANIZATION OF VETERANS' ADVOCATES

    Mr. Cohen. Thank you, Mr. Chairman, Senators Burr and Webb.
    I am going to confine my comments today to those bills that 
are of particular importance to the operation of the Veterans 
Benefits Administration and the Court of Appeals for Veterans 
Claims since those are the areas in which our members have most 
expertise.
    I would like to start with the Veterans' Benefits 
Enhancement Act of 2008 and specifically with two sections 
contained therein, Section 201 and Section 202, both of which, 
hidden in plain sight, give undue power to the VA.
    Section 201 would insert a new section into title 38, U.S. 
Code, Section 501(a), which would allow the VA the right and 
the power to stay the adjudication of claims when they deem it 
necessary. This would increase the backlog in the VA not 
decrease it. So, it is a bad idea in that regard.
    Second of all, it will stall the development and 
adjudication of claims of veterans, some of whom are gravely 
ill.
    Finally, we do not trust the VA to protect the veterans' 
interest. Rather, we think the VA will protect its own 
interests. It is not just our members and veterans who do not 
trust the VA.
    If you look at the Ribaudo case where the VA first, on 
their own, attempted to stay the operation of Haas and refused 
to adjudicate claims of Blue Water veterans; then, when the VA 
was challenged on that in the court, they reluctantly came into 
court and asked for a stay. That is still stayed.
    There are many vets who have filed claims which are not 
getting adjudicated. Many of them have cancer, which is caused 
by Agent Orange exposure. They cannot get determinations on 
their claims because of the stay. The VA now wants the right to 
do that themselves.
    The Nemer case also talks about Agent Orange exposure and 
notes that the performance of the VA has contributed 
substantially to our sense of national shame.
    Likewise, Section 202 would amend title 38, U.S. Code, 
Section 7107(a)(1) and would allow the Board of Veterans' 
Appeals to ignore their own docket. Ignoring docket numbers 
would just add to the backlog by allowing the DVA to decide 
whether they were going to decide a case or not, with no 
recourse provided to the veteran. This would add to the docket, 
would add to the backlog and is poor docket management. And 
quite frankly, NOVA cannot understand why the VA would ask for 
this power.
    The next thing I would like to go to is Title II of 
America's Wounded Warriors Act, S. 2674, concerning incentives 
for treatment which is contained in Sections 201(b)(6) and 203.
    In our testimony at length, NOVA explained why there may be 
unintended consequences in terms of the reluctance of veterans 
to participate in treatment if they are put into this kind of 
program. There is also an unintended consequence of a financial 
disincentive and a financial penalty. And third off, it would 
create different classes of veterans, those who were in 
treatment first and those who are not.
    NOVA wants veterans to get treatment, but we are concerned 
that some of these ideas, which are thought to contain 
financial incentives, may work against what we are all 
interested in.
    NOVA is also opposed to Section 201(c)(2)(D) which would 
create different classes of veterans based on the date claims 
are filed. That idea was rejected by the Veterans Disability 
Benefits Commission because it is a bad idea.
    Likewise, we agree with the PVA that periodic review of 
ratings is unjustified.
    NOVA does approve of S. 2737 to amend Section 7252(b) to 
provide a limited review of the schedule of ratings to see if 
the schedule complies with chapter 11.
    NOVA also approves of adding judges to the Veterans Court. 
We have previously testified in favor of that, and we would 
also encourage the legislation to increase security of court 
records.
    Thank you for the opportunity to testify. I will be happy 
to answer any questions.
    [The prepared statement of Mr. Cohen follows:]
Prepared Statement of Richard Paul Cohen, Executive Director, National 
               Organization of Veterans' Advocates, Inc.
    Mr. Chairman and Members of the Committee: Thank you for the 
opportunity to present the views of the National Organization of 
Veterans' Advocates, Inc. (``NOVA'') on legislation pending before the 
Committee.
    NOVA is a not-for-profit Sec. 501(c)(6) educational organization 
incorporated in 1993 and dedicated to train and assist attorneys and 
non-attorney practitioners who represent veterans, surviving spouses, 
and dependents before the Department of Veterans Affairs (``VA''), the 
United States Court of Appeals for Veterans Claims (``CAVC'') and 
before the United States Court of Appeals for the Federal Circuit 
(``Federal Circuit'').
    NOVA has written many amicus briefs on behalf of claimants before 
the CAVC and Federal Circuit. The CAVC recognized NOVA's work on behalf 
of veterans when it awarded the Hart T. Mankin Distinguished Service 
Award to NOVA in 2000.
    The positions stated in this testimony have been approved by NOVA's 
Board of Directors and represent the shared experiences of NOVA's 
members, as well as my own 15-year experience representing claimants at 
all stages of the veteran's benefits system from the VA Regional 
Offices to the Board of Veterans' Appeals to the CAVC and the Federal 
Circuit.
    Because of space and time constraints, and in the interests of 
concentrating on those areas in which our members have the most 
expertise and the most information to add to the dialog, NOVA will 
limit its comments to those bills which directly impact the operation 
of the Veterans Benefits Administration and the CAVC.
                      s. 2090, s. 2091 and s. 2737
    In an effort to decrease the time required to prepare the record 
for appeals, the CAVC has implemented Miscellaneous Order No. 03-08, 
adopting new Rules 10 and 28.1. Pursuant to these new rules, the VA 
will scan a veteran's entire VA claims file onto a disk to create the 
``Record Before the Agency.'' Thus, the veteran's confidential and 
sensitive information will be transformed into electronic data. Because 
the CAVC is preparing for the electronic filing of records (including 
personal data such as military service records, past and present 
medical treatment records, and veterans' personal statements, etc.), 
briefs and motions and for remote access to these same electronically-
filed documents, there is an increased risk of unauthorized disclosure 
of confidential information unless precautions are taken. NOVA supports 
S. 2090 because it seeks to protect and secure veterans' private 
information in these electronically-filed documents, a serious concern 
to NOVA members and veterans alike.
    Consistent with our testimony before this Committee on November 7, 
2007, NOVA continues to support S. 2091. As NOVA predicted, the number 
of notices of appeals filed with the CAVC continues to increase, with a 
record-setting high of 4,643 appeals filed during FY 2007. Because this 
trend of increased appellate filings will likely continue, NOVA support 
S. 2091, which would authorize adding two more judges to the CAVC. 
These two new judges will help shorten the time a veteran's appeal 
waits for a judge to render a decision. NOVA applauds Congress' 
proactive steps in this area to date and further suggests Congress 
consider implementing legislation that would add two judges for every 
two thousand additional appeals filed.
    NOVA also supports S. 2737 because it seeks to amend 38 U.S.C. 
Sec. 7252(b), which provides for limited review of the Schedule of 
Ratings for disabilities to determine whether it complies with the 
provisions of Chapter 11. Currently, the CAVC has no jurisdiction to 
review the Schedule of Ratings, which is utilized by the VA to 
determine the appropriate percentage of a veteran's disability and thus 
the amount of VA compensation to be paid. This legislation (S. 2737) 
would correct this problem, as highlighted by the case of Wanner v. 
Principi, 370 F.3d 1124, 1129 (Fed. Cir. 2004), which held that the 
statutory scheme ``excludes from judicial review all content of the 
ratings schedule as well as the Secretary's actions in adopting or 
revising that content.''
    For example, because of the Court's limited jurisdiction, veterans 
are precluded from arguing that the ``acoustic trauma'' requirements 
contained in the diagnostic code for tinnitus is contrary to 38 U.S.C. 
Sec. 1110. This principle also has been applied in later cases, such as 
Jones v. Principi, 18 Vet. App. 248 (2004) (rejecting challenge to 
failure to provide for separate ratings for multiple scars under 
diagnostic code 7804); and Byrd v. Nicholson, 19 Vet. App. 388 (2005) 
(rejecting challenge to the Schedule of Rating regarding exclusion of 
periodontal disease). It is appropriate to open the CAVC's jurisdiction 
to include consideration of well-supported challenges to the VA's 
rating schedule.
                                s. 2309
    NOVA supports the modification to 38 U.S.C. Sec. 1154(b) which 
provides that a service member who served in a combat zone will be 
considered to have been in combat with the enemy. Establishing combat 
with the enemy can be a crucial first step in proving exposure to 
combat stressors, which is essential for receipt of VA service-
connected benefits for medical conditions such as Post Traumatic Stress 
Disorder (PTSD). This legislation would eliminate the incredible 
barriers facing veterans who were in combat, but whose service records 
do not include such designations (e.g., Combat Infantry Badge (CIB) or 
a purple heart) and who only knew their service buddies by nicknames. 
These barriers frustrate a veteran's later attempts to establish what 
occurred during his or her service in a combat zone.
    To truly benefit servicemembers who have difficulty proving that 
their PTSD is related to their military service, NOVA suggests a 
different modification of Sec. 1154(b). If the intent is to 
significantly assist combat veterans in receiving the benefits they 
earned, the current proposal will not bring about its intended purpose 
because 38 U.S.C. Sec. 1154(b) does not provide a presumption that a 
veteran is entitled to benefits for a service-connected injury or 
disorder even for those veterans whom the VA concedes engaged in combat 
with the enemy. Rather, Sec. 1154(b) has been interpreted as providing 
only a presumption of service incurrence which still requires proof of 
medical nexus, Dalton v. Nicholson, 21 Vet. App. 23 (2006). In order to 
accomplish the intended result, Sec. 1154(b) needs the following 
addition:

        `(3) In the case of a veteran who has been diagnosed with PTSD 
        after military service and who engaged in combat with the enemy 
        as defined in (2) above, a connection between PTSD and active 
        military service shall be presumed and may be rebutted only by 
        clear and convincing evidence to the contrary.'
                                s. 2573
    Although NOVA recognizes Congress' benevolent intent to encourage 
veterans to agree to treatment and rehabilitation which may prove 
beneficial, NOVA opposes S. 2573, ``Veterans Mental Health Treatment 
First Act'' primarily because of its likely unintended detrimental 
financial and treatment consequences. Section 1712C will impose upon 
veterans the ``Hopson's choice'' of treatment and a stipend or the 
standard VA treatment and compensation program. Veterans who have a 
diagnosis of service-connected PTSD and whose service-connected mental 
condition severely impairs their ability to earn a living will be 
forced to choose between the treatment first path or the path to 
receive adequate VA compensation.
    Specifically, S. 2573 proposes that, a veteran who is married, and 
who has a disability which would be rated at 100 percent would forfeit 
the right to VA compensation of $2,699 per month in exchange for 
receiving only $2,000 at the beginning of the program and $3,000 at the 
conclusion and $500 per month during the program. Thus, over a year-
long program, such a veteran would forfeit $21,388, (i.e., $32,388 less 
$11,000), and the veteran's family would be forced to live on $11,000 
for that year. According to the Diagnostic and Statistical Manual of 
Mental Disorders, Fourth Edition, Text Revision (``DSM-IV-TR'') 
veterans with PTSD may habitually attempt to avoid thoughts or 
conversations associated with the trauma (DSM-IV-TR, C.(1)). They may 
also have markedly diminished interest or participation in significant 
activities (DSM-IV-TR, C.(4)) and irritability or outbursts or anger 
(DSM-IV-TR, D.(2)). Thus, the medical community recognizes that such 
veterans may reject all treatment if treatment is compelled. 
Furthermore, ``[m]ost empirical studies or trials conducted to date 
show no relationship between compensation seeking, PTSD disability 
status, and treatment outcomes.'' IOM (Institute of Medicine) and NRC 
(National Research Council), 2007. ``PTSD Compensation and Military 
Service.'' Washington, DC: The National Academies Press, pages 183-184.
    Finally, this bill would create two classes of veterans and two 
programs of treatment: (1) the treatment first veterans; and (2) the 
simultaneous benefits and treatment veterans. It follows that all 
veterans would not be in the same treatment plans for the same 
conditions and that caregivers will come, however subconsciously, to 
stigmatize the non-treatment first veterans.
                                s. 2617
    NOVA supports the Cost of Living Adjustments provided in S. 2617, 
but, additionally, supports the across the board immediate 25 percent 
increase for loss of quality-of-life which was recommended by the 
Veterans' Disability Benefits Commission (``VDBC'') in its October 2007 
report, ``Honoring the Call to Duty: Veterans' Disability Benefits in 
the 21st Century.''
                                s. 2674
    NOVA generally supports Title II of America's Wounded Warrior Act, 
but with reservations concerning that portion of Sec. 201 (i.e., (b)(6) 
and (c)(2)(F)), and Sec. 203, which suggest a study of whether 
disability compensation may be used as an incentive to encourage 
veterans to undergo appropriate treatment and vocational 
rehabilitation. This is especially inappropriate if the veteran's 
disability compensation is contingent on the veteran getting treatment 
at a VA facility. Where and when a veteran seeks treatment is his/her 
personal choice. Veterans do not always seek treatment at a VA 
facility--especially if they have the means (i.e., disability 
compensation) to go to a private doctor. As explained above, with 
respect to S. 2573, NOVA is concerned that the implementation of such a 
program would have the unintended consequence of discouraging veterans 
from applying for benefits which they deserve.
    NOVA also opposes (c)(2)(E) which would create different classes of 
veterans according to their age at the time they file their claim. Any 
attempt to revise the existing payment scale based on the veteran's age 
at the date of the initial claim conflicts with the VDBC's conclusion 
that it ``does not concur with the recommendation'' to investigate 
whether to including factors such as the veteran's age would improve 
the ability of the rating schedule to predict earnings losses. (VDBC 
235.) A review of VDBC's tables 7.2, 7.3 (VDBC 226, 227) reflects the 
conclusion that veterans who enter the VA disability system up to age 
55 do not present a problem in terms of income parity. Moreover, 54.6 
percent of veterans receiving initial VA disability awards are 55 years 
old or younger. (VDBC 101, Table 5.2.) Indeed, NOVA agrees with the 
VDBC's position that it ``does not support a policy of considering age 
or other vocational factors in individual rating determinations'' and 
does not believe that including factors such as age would improve the 
ability of the rating schedule to protect earnings losses because such 
determinations are unjustified and unfair to our WWII, Korean War and 
Vietnam veterans and to officers who are generally older than the 
enlisted troops under their supervision. (VDBC 235.)
    Because Sec. 1205 appears to represent an unwarranted renunciation 
of the concepts of protected and permanent and total ratings (38 U.S.C. 
Sec. 110; 38 U.S.C. Sec. 1521; 38 CFR Sec. 3.951(b); 38 CFR 
Sec. 3.343(a)), NOVA opposes the broad discretion for periodic 
reevaluation and adjustment of disability evaluations contained in that 
section. Moreover, as found by the Institute of Medicine with respect 
to ratings for PTSD, ``It is not appropriate to require across-the-
board periodic reexaminations for veterans with PTSD service-connected 
disability.'' IOM and NRC 2007. ``PTSD Compensation and Military 
Service.'' The National Academies Press, page 195.
                                s. 2825
    NOVA supports S. 2825 because it seeks to add language to 38 U.S.C. 
Sec. 1155, which would establish a minimum rating of 10 percent for a 
veteran who requires continuous medication or the use of an adaptive 
device is equitable. NOVA supports this proposed legislation because it 
is equitable and takes into account the real world limitations and 
restrictions imposed by chronic impairments which have previously 
slipped through the cracks and been non-compensatible.
           the ``veterans' benefits enhancement act of 2008''
    The ``Veterans' Benefits Enhancement Act of 2008'' includes at Sec. 
201 a modification of 38 U.S.C. by inserting Sec. 501A which would 
grant the VA the authority, in the exercise of its own unsupervised 
discretion, to stay the adjudication of claims whenever it determines 
the stay to be ``necessary.'' NOVA opposes S. 201 modifications as an 
unjustified intrusion into the jurisdiction of the CAVC by divesting 
the CAVC of its inherent jurisdiction to grant or deny such stays. 
Moreover, granting the VA the power to stay claims adjudication is 
dangerous because in actual terms, it would give the VA unfettered 
power to stall the development and consideration of hundreds of 
thousands of veterans' claims for benefits whenever the VA deems it 
necessary. Based on the vast experience of NOVA's members in assisting 
veterans with their appeals, it is NOVA's position that the VA cannot 
be trusted to exercise its use of this powerful tool in the best 
interest of our Nation's veterans.
    NOVA's primary concern regarding this issue is highlighted by the 
VA's history of opposition to adjudicating the claims of critically-ill 
Navy veterans for benefits based upon illnesses caused by Agent Orange 
exposure. Thus, in the case of Ribaudo v. Nicholson, 21 Vet. App. 137 
(2007), after the Court held unlawful and rescinded the unilateral stay 
instigated by the VA Secretary and imposed by the Chairman of the Board 
of Veterans' Appeals on the processing of appeals, the VA reluctantly 
resorted to the courts to obtain a stay of its obligation to continue 
adjudicating claims under the principles set forth in Hass v. 
Nicholson, 20 Vet. App. 257 (2006), appeal docketed, No. 07-7036 (Fed. 
Cir. Nov. 8, 2006). In Ribaudo, the VA asserted that the harm to the VA 
of continuing the adjudication of claims outweighed the harm to 
veterans ill with cancers resulting from their exposure to Agent Orange 
during Navy service off the coast of Vietnam. Another example of the VA 
utilizing procedural bureaucracy to the detriment of veterans was 
criticized by the United States Court of Appeals for the Ninth Circuit 
which observed that the performance of the VA regarding the 
administration of benefits for diseases caused by Agent Orange exposure 
has contributed substantially to our sense of national shame, because 
the VA continues to resist payment of benefits through obstructionist 
bureaucratic opposition, Nehmer v. U.S. Dept. of Veterans Affairs. 494 
F.3d 846, 849, 865 (9th Cir. 2007).
    Similarly, NOVA is concerned about the effect of Sec. 202 which 
would amend 38 U.S.C. Sec. 7107(a)(1) to allow an earlier BVA docket 
number to be ignored if ``the earlier case has been stayed'' or if 
``the earlier case has been delayed for any reason.'' There is no 
justification for departing from time-honored procedures of docket 
management to provide the BVA with complete discretion to juggle the 
docket and, without the possibility of challenge, to stay or delay a 
veteran's appeal and cause appeals to languish for many years longer 
than the usual 2-year waiting period until the veteran dies.

    Chairman Akaka. Thank you very much, Mr. Cohen.
    Mr. Hilleman.

STATEMENT OF ERIC A. HILLEMAN, DEPUTY DIRECTOR OF THE NATIONAL 
         LEGISLATIVE SERVICE, VETERANS OF FOREIGN WARS

    Mr. Hilleman. Thank you, Mr. Chairman, Senator Burr, 
Senator Webb.
    On behalf of the 2.3 million members of the Veterans of 
Foreign Wars and our Auxiliaries, I would like to thank this 
Committee for conducting this hearing on the numerous veterans' 
bills that we review today.
    Due to the number of bills and the relatively short period 
of time since receiving notices, we were unable to fully review 
each bill in its entirety, but we would be happy to do so for 
the record.
    While the bulk of these bills address the needs of veterans 
today, we would like to focus on one of the VFW's highest 
legislative priorities for the 110th Congress, the GI Bill.
    For many years the Veterans' of Foreign Wars has advocated 
for a 21st Century GI Bill in the spirit of the original World 
War II GI Bill. Our top five recommendations for improving this 
life- changing benefit are: number 1, increasing the GI Bill 
rates to cover the full cost of education, tuition, room, board 
and fees.
    Number 2, eliminate the current qualifying impediment to 
Guard and Reserve soldiers which reward only the longest 
continuous tour of active duty. Our troops deserve a benefit 
that aggregates on a monthly basis and awards a percentage 
based on equitable benefit for equitable service.
    Number 3, repeal the $1,200 Montgomery GI Bill buy-in 
charged to active duty troops during the first year of their 
enlistment.
    Four, allow servicemembers to utilize their earned benefits 
throughout the duration of their lives, removing the 10-year 
delimiting date.
    And five, remove all laws and rules limiting veterans from 
accessing college financial aid due to military service income 
and/or GI Bill benefits.
    Of the bills pending before this Committee, two make 
dramatic changes to the current GI Bill.
    First, let me offer our continued support for S. 22, the 
Post-9/11 Veterans Education Assistance Act of 2007.
    This bill makes incredible strides to cover the full cost 
of education at any institution in the Nation. It substantially 
fulfills our top four priorities for the GI Bill and makes our 
fifth priority irrelevant.
    It would cover tuition at the highest in-state institution, 
provide housing, fees and books for our veterans. Further, it 
provides a dollar-for-dollar match for private schools that 
forgive tuition above the highest in-state rate cap.
    It recognizes the tens of thousands of Guard and Reserve 
soldiers who have actively served multiple tours in Iraq and 
Afghanistan. It allows our Guard and Reserve veterans to 
aggregate these multiple tours in benefit toward a full-time 
active duty GI Bill benefit.
    It lengthens the post-service usage period from 10 to 15 
years from the date of discharge and establishes a post-service 
benefit for the Guard and Reserve. At its core, this bill is a 
promise of a full ride scholarship at any institution in the 
Nation.
    The second bill before this Committee on the GI Bill is S. 
2938, the Enhancement of Recruitment, Retention, and 
Readjustment through Education Act of 2008.
    While this bill improves the current GI Bill, it falls far 
short of meeting our priorities for the GI Bill. We are 
encouraged by the intention of this bill and we recognize that 
Congress is committed to improving the current GI Bill.
    S. 2938 seeks to improve active duty full-time 
reimbursement rate and increase it to $1,500 a month and 
provide a $500 book stipend, totaling $14,000 a year. This bill 
covers the current in-state national average cost in fiscal 
year 2009, but would fall $400 short in the following year.
    This bill does not reflect the real costs of education and 
would cover far less of the real costs with each passing year 
as it is pegged to the Consumer Price Index not the real cost 
of education.
    Further, this bill does not reward the valiant service of 
Guard and Reserve soldiers that have served multiple tours in 
Iraq and Afghanistan.
    Simply put, it does not address our top five priorities for 
the GI Bill and, therefore, we cannot support S. 2938.
    The original World War II GI Bill is hailed as one of the 
most monumental pieces of legislation in the 20th Century.
    Many in Congress since have recognized the importance and 
have strove to improve the current GI Bill. The VFW recognizes 
the value of each of these various proposals and we urge you to 
examine these bills on a bipartisan spirit with an eye toward 
enacting a robust GI Bill that fully realizes the debt of honor 
that we owe our young men and women in uniform.
    We call on Congress to pass a GI Bill for the President's 
signature by the 4th of July, so in celebration of the birth of 
a Nation, we may also celebrate the GI Bill as a grateful 
Nation's thanks to the patriots that have suspended their 
freedoms to protect ours.
    Mr. Chairman, Members of this Committee, this concludes my 
testimony and I would be happy to answer any questions you may 
have.
    Thank you.
    [The prepared statement of Mr. Hilleman follows:]
   Prepared Statement of Eric A. Hilleman, Deputy Director, National 
   Legislative Service, Veterans of Foreign Wars of the United States
    Mr. Chairman and Members of the Committee: On behalf of the 2.3 
million members of the Veterans of Foreign Wars of the United States 
and our Auxiliaries, I would like to thank this Committee for 
conducting this hearing on the numerous veterans' benefit bills. Due to 
the number of bills and the relatively short period since receiving 
notices, we were unable to fully review each bill in its entirety. We 
would be happy to comment on any other bills for the record. While the 
bulk of these bills address the needs of veterans today, we would like 
to focus on one of the VFW's highest legislative priorities for the 
110th Congress, the GI Bill.
    For many years the VFW has advocated for a 21st Century GI Bill 
that mirrors the original WWII GI Bill. Our top five recommendations 
for improving this life-changing benefit are:

    <bullet> Increase the GI Bill rates to cover the full cost of 
education: tuition, room, board, fees, and a cost-of-living stipend.
    <bullet> Eliminate the current qualifying impediment for Guard and 
Reserve soldiers, which reward the longest continuous tour of active 
duty. Our troops deserve a benefit that aggregates on a monthly basis 
and pays a percentage of the active-duty benefit with an equitable 
benefit.
    <bullet> Repeal the $1,200 MGIB buy-in charged to active-duty 
troops during the first year of their enlistment.
    <bullet> Allow all servicemembers to utilize earned benefits 
throughout the duration of their lives, removing the 10-year delimiting 
date.
    <bullet> Remove all laws and rules limiting veterans from accessing 
college financial aid due to military service income and/or GI Bill 
benefits.

    These recommendations reflect the needs of veterans and the 
original spirit of the GI Bill. In 1944, President Franklin Roosevelt 
signed into law the Serviceman's Readjustment Act, known as the GI Bill 
of Rights. This bill helped millions of Americans realize the American 
dream. Nearly 12 percent of Americans served in uniform between 1945 
and 1956 and more than 8 million returning veterans received debt-free 
college educations, low-interest home mortgages and small-business loan 
assistance. In 1947, half of the Nation's college students were 
veterans. For many, they were the first in their families to further 
their education beyond high school. Today the WWII GI Bill is credited 
with creating the middle class.
    Subsequent wartime GI Bills were not nearly as robust as the WWII 
bill. The Vietnam-era GI Bill was a scaled-down version of the WWII 
bill. Nearly 6.8 million veterans out of 10.3 million eligible veterans 
used their benefit. Education benefits during the Vietnam era aided 
veterans in their transition from active duty to civilian life, but the 
benefit fell short of the WWII version.
    The current MGIB is not meeting the need of our veterans. The 
inflationary rate of higher education is much greater than Consumer 
Price Index (CPI), to which the current MGIB is pegged. Over time, this 
disparity in inflation is causing the current GI Bill rate to erode.
    It is time for a new GI Bill. It is time to revitalize the American 
dream and provide the 1 percent of our population that dons the uniform 
a life-changing benefit.
    The VFW has long advocated for the creation of a GI Bill for the 
21st Century in the fashion of the original WWII bill. We envision a 
transition benefit that will be a lasting contract with our veterans. 
The VFW wants:

    <bullet> A GI Bill that increases military recruitment efforts, 
broadening the socioeconomic makeup of the military, and strengthening 
our national security by attracting an increased number of young 
talented recruits--many of whom may not have considered military 
service.
    <bullet> A powerful transition assistance program, allowing 
veterans to readjust to civilian life, improving their ability to care 
for themselves and their families, and becoming the leaders of 
tomorrow.
    <bullet> A GI Bill that recognizes the unique sacrifices of the 
hundreds of thousands of Guard and Reserve soldiers who have served in 
Iraq, Afghanistan, the Horn of Africa, during Katrina and other 
national/international emergencies; and is proportional to their Active 
Duty counterparts.

    We are not a nation at war; we are a nation with a military at war. 
Many troops have been to Iraq and/or Afghanistan multiple times. Some 
Guard and Reserve units are serving their second or third tours in 
country. Now is the time to honor their service with a GI Bill for the 
21st Century, providing them with opportunities to become future 
leaders of our Nation.
    Pause for one moment and consider the quality-of-life that WWII GI 
Bill recipients passed on to their children and grandchildren. We as a 
nation need to recognize the indirect benefits our families received 
thanks to the education, housing and small business investment benefits 
a grateful nation gave to the Greatest Generation.
    Many in Congress have recognized the importance of improving the GI 
Bill and have introduced bills toward this end. The VFW recognizes the 
value of each of these various proposals. We urge you to examine these 
bills in a bipartisan spirit and with an eye toward enacting a robust 
GI Bill that fully realizes the debt of honor we as a nation owe are 
young men and women in uniform. We call on Congress to pass a GI Bill 
for the president's signature by the 4th of July. So, in celebration of 
the birth of our Nation, we may also celebrate the GI Bill as a 
grateful Nation's thanks to the patriots that have surrendered their 
freedoms to protect ours.
       s. 22, post-9/11 veterans education assistance act of 2007
    This legislation enhances military strength while providing an 
educational benefit that equips a generation of veterans to face the 
challenges of tomorrow. The VFW has long advocated for a GI Bill in the 
spirit of the original WW II bill, which would cover tuition at the 
highest State institution, housing, fees, books, and provide a cost-of-
living stipend.
    This legislation accomplishes these goals and more. It provides a 
dollar-for-dollar match for private schools that forgive tuition above 
the highest in-state rate cap. It recognizes the tens of thousands of 
Guard and Reserve soldiers who have actively served multiple tours in 
Iraq and Afghanistan. It allows our Guard and Reserve veterans to 
aggregate multiple months of service toward an equitable percentage of 
the full time active duty benefit. It lengthens the post-service usage 
period from 10 to 15 years from date of discharge and establishes a 
post-service benefit for the Guard and Reserve. At its core, this bill 
is a promise of a full ride scholarship at any institution in the 
Nation. The VFW enthusiastically supports this bill.
   s. 161, veterans' disability compensation automatic cola act, and 
 s. 2617, veterans' compensation cost-of-living adjustment act of 2008
    Both these bills would make a cost-of-living adjustment in the 
rates of disability compensation, dependents compensation, the clothing 
allowance and DIC rates. This adjustment would be linked to the rate of 
increase of the Social Security benefit. We support this annual 
adjustment as it allows our disabled veterans and their dependents to 
keep pace with the rising costs of goods and services, which is 
especially difficult lately with the rise in food and fuel prices. It 
is a small increase, but it makes a positive difference in the lives of 
thousands.
    We would note that we continue to oppose the rounding-down of 
compensation to the lowest dollar, which was instituted several years 
ago as a budget reduction measure. We feel that this unfairly penalizes 
those who have given much to this country, and that Congress and the 
Administration should look to other areas to balance the budget, 
instead of using the backs of veterans.
    S. 161 also includes a provision, which would make the cost-of-
living adjustment permanently benchmarked to the Social Security Rates. 
We have no objection to this provision.
         s. 961, belated thank you to the merchant mariners of 
                        world war ii act of 2007
    This bill would amend title 46, United States Code, to provide 
benefits to certain individuals who served in the United States 
merchant marine during WWII.
    The VFW recognizes the heroic service of Merchant Mariners during 
WWII. Their sacrifices and heroic efforts were instrumental in winning 
the Second World War. We cannot, however, support this legislation to 
pay a monthly benefit of $1,000 to these merchant mariners or to their 
surviving spouses, which would be in addition to any current veterans' 
benefit that would be otherwise payable. We believe that this payment 
would be disproportionate, in terms of recognition and benefits, to 
what other veterans who have gone in harm's way in service to the 
country currently receive. With regard to their service as Merchant 
Mariners, and the proposal that they should be recognized for this 
Merchant Marine service in addition to being recognized as veterans, or 
for a period extending beyond the currently recognized dates of WWII, 
the VFW has not taken a position on this matter.
            s. 1718, veterans education tuition support act
    The VFW is pleased to support S. 1718, the Veterans Education 
Tuition Support Act. This bill would amend the servicemembers Civil 
Relief Act to provide reimbursement to servicemembers of tuition for 
programs of education interrupted by military service, for deferment of 
student's loans and reduced interest rates for servicemembers during 
periods of military service. It would also prohibit a court from 
allowing a creditor to exceed the 6 percent limit on interest charged 
against student loan indebtedness. During this time of war, with 
members of the Armed Forces as well as their families under tremendous 
psychological stress and financial strain, this measure would provide a 
well-deserved measure of monetary relief and protection while actively 
encouraging our men and women in uniform to pursue essential 
educational goals.
 s. 2090, a bill to protect the privacy and security concerns in court 
                                records.
    This bill would protect privacy and security concerns in court 
records. The VFW supports this legislation; it is consistent with the 
privacy and security rules adhered to by other Federal courts.
    s. 2091, a bill to increase the number of court's active judges.
    S. 2091 would increase the number of active judges to the Court of 
Veterans Appeals for Veterans' Claims from seven to nine. The VFW 
supports this legislation as a way to decrease the growing number of 
appeals that contribute to the growing backlogged. We believe that the 
addition of two judges called to serve on behalf of veterans is a 
positive step in helping to protect the interest of those filing claims 
for disability benefits. We encourage the committee to move this 
legislation quickly.
   s. 2138, department of veterans affairs reorganization act of 2007
    The Department of Veterans Affairs Reorganization Act was 
introduced by request. It makes changes to the number and scope of VA's 
assistant and deputy assistant secretaries. It also clarifies that two 
of the duties of the assistant secretaries shall be ``construction 
capital'' and ``acquisition.''
    The VFW has no objection to this legislation.
 s. 2139, national guard and reserve educational benefits fairness act 
                                of 2007
    The VFW lends its support to S. 2139, the ``National Guard and 
Reserve Educational Benefits Fairness Act of 2007.'' This bill provides 
educational assistance under the Montgomery GI Bill for members of the 
National Guard and Reserve for extended service on continuous active 
duty that includes prolonged service in certain theaters of operation. 
Thousands of Reserve soldiers have returned from mobilizations longer 
than 20 months, including extended deployments in Iraq or Afghanistan, 
to find that while their length of service qualifies them for Chapter 
30 benefits, due to Army procedures their orders fall short of the 
current 730-day threshold and rendering them ineligible for full 
educational benefits. This bill would remedy this fundamental injustice 
by amending Chapter 30 of title 38 to eliminate the 730-day order 
requirement for members of the Selected Reserve who have served at 
least twelve months in combat theaters of operation. In eliminating 
eligibility for benefits based solely on length of actual service, this 
bill recognizes their contribution and sacrifice through educational 
benefits, the most valuable benefits veterans receive.
             s. 2309, compensation for combat veterans act
    S. 2309 would amend title 38, United States Code, to clarify the 
service treatable as service engaged in combat with the enemy for 
utilization of non-official evidence for proof of service-connection in 
a combat-related disease of injury. The VFW supports this legislation. 
This amendment to 38 U.S.C. 1154 eases the evidentiary requirements on 
veterans while relieving development burdens on DOD and VA.
  s. 2471, uniformed services employment and reemployment rights act 
              (userra) enforcement improvement act of 2007
    The VFW supports this bill, which would work to improve the 
enforcement of the USERRA of 1994. This legislation would require the 
Secretary of VA, upon receiving a complaint, to notify the veteran of 
his or her rights. The legislation would also likely increase the 
completion time of USERRA claims, as it would require expedition of 
referrals in certain cases to both the Attorney General and Special 
Counsel. The legislation would also require the Attorney General or 
Special Counsel to notify the veteran within 45 days of receiving 
referral whether they will act as the veteran's attorney.
    The VFW believes that this legislation will help clarify the length 
and complicated USERRA process. Also, the bill would set forth more 
reporting requirements for the departments overseeing USERRA cases.
         s. 2550, combat veterans debt elimination act of 2008
    The VFW supports this legislation prohibiting the Secretary of 
Veterans Affairs from collecting certain debts owed to the United 
States by members of the Armed Forces and veterans who die because of 
an injury incurred or aggravated on active duty in a combat zone.
    While the VFW does support this benefit, we would like to see it 
expanded to include all active duty military that die while serving 
their country. It is our belief that we should not to distinguish 
between the locations of deaths, but honor all of these men and women 
proudly serving our country in a time of war.
                s. 2674, america's wounded warriors act
    The America's Wounded Warriors Act would improve and enhance 
procedures for the retirement of members of the Armed Forces for 
disability and improve and enhance authorities for the rating and 
compensation of service-connected disabilities in veterans. VFW 
supports the recommendations made in Title I of the bill--Reform of 
Military Disability Retirement System & Aid to Families.
    We especially applaud the change that would eliminate the offset 
between VA and DOD compensation payments and reform the military 
disability retirement system by simplifying the claims process and 
eliminating the need for duplicative DOD/VA ratings and disability 
examinations. We also support Section 103(a), which calls on DOD to 
study TRICARE benefits for those retired under Chapter 61 of title 10 
U.S.C. VFW believes that all members regardless of time in service and 
level of disability should be provided TRICARE benefits. And we hope 
that the study makes those recommendations to DOD.
    VFW does not support provisions in Title II--Modernization of VA 
Disability Compensation System. This section does nothing to expedite 
claims process or improve quality within VA. A ``new, modern'' 
disability compensation system may be different but not necessarily 
better for veterans. In our view, this legislation would create a new 
rating schedule adding and deleting disabilities with new rates of 
compensation applied. Creating a second compensation program requires 
massive retraining within VA, which we believe will further exacerbate 
current backlogs and delays. While some veterans may benefit from this 
legislation, significant members of veterans young and old could be 
harmed.
    We firmly believe that a one-time adjustment of the current 
schedule will not be sufficient to keep pace with the changing nature 
of ``quality-of-life'' and the evolving science of medicine, 
technology, and warfare. We would like to see a permanent advisory 
committee made up of medical professionals, and other stakeholders to 
oversee the continuous updating of the current ratings schedule. Any 
single plan to revamp the current rating system will make things only 
marginally simpler and easier on the VA bureaucracy and will occur at 
the expense of the rights and benefits of at least some veterans, 
dependents and survivors. Any such plan is simply unacceptable.
        s. 2683, gi bill miscellaneous improvements act of 2008
    We support S. 2683, the ``GI Bill Miscellaneous Improvements Act of 
2008,'' introduced by Chairman Akaka of this committee. Firstly, this 
bill corrects a misapplication of rules determining educational 
accelerated payments that are made to individuals pursuing any courses 
in the high technology sector including associate and degree programs 
as well as the intended ``short-term'' programs. It would also make 
permanent authority established under Public Law 107-103 expanding the 
scope of work that could be assigned to individuals participating in VA 
work-study programs. This encompasses such activities as certain 
veteran outreach services programs, activities relating to hospital and 
domiciliary care to veterans in State homes, and activities relating to 
the administration of national or State veterans' cemeteries. Last, 
this bill would authorize appropriations for VA payments to State 
Approving Agencies (SAAs). Since 1988, VA payment for the services of 
SAAs has been made only out of funds available for readjustment 
benefits, a mandatory funding account, and has thus been subject to 
funding caps. We concur that in authorizing appropriations for the 
SAAs, the program will be able to justify increases in the current 
funding level beyond the current or future caps.
    s. 2701, a bill to direct the secretary of veterans affairs to 
 establish a national cemetery in the eastern nebraska region to serve 
       veterans in the eastern nebraska and western iowa regions.
    This bill would direct the Secretary of VA to establish a national 
cemetery in Nebraska to serve veterans in the eastern Nebraska and 
western Iowa regions. The VFW supports this legislation as it would 
provide an estimated 172,500 veterans residing in this area a final 
resting place. It fulfills the requirement by VA under the Veterans 
Millennium Health Care and Benefits Act (Pub. L. 106-117) of a 
population threshold of 170,000 people living within a 75-mile radius 
of a State cemetery. The VFW's Department of Nebraska has worked 
diligently with the VA to encourage the establishment of this cemetery 
as many family members of veterans have to drive over 4 hours to the 
closest national cemetery. We encourage the committee to approve a 
national cemetery for this region.
               s. 2737, veterans ratings schedule review
    It would amend title 38, U.S.C., granting jurisdiction to the U.S. 
Court of Appeals for Veterans Claims to review compliance of the 
schedule. It applies to ratings for disabilities under section 1155 of 
that title with statutory requirements applicable to entitlement to 
disability compensation under chapter 11 of the same title.
    The VFW believes that while this may benefit some veterans it has 
the potential to introduce further judicial chaos into the VA 
compensation program. We are concerned that this legislation may stem 
from the complaints of a few plaintiffs' attorneys and would ask that 
the committee hold a separate hearing to review the efficacy of this 
proposal.
  s. 2768, a bill to provide a temporary increase in the maximum loan 
guaranty amount of certain housing loans guaranteed by the secretary of 
                           veterans affairs.
    This bill would provide a temporary increase in the maximum amount 
of a loan guaranty for housing loans guaranteed by the VA. The VFW 
applauds this legislation as it will correct an inequity in the 
Economic Stimulus package which provided a temporary increase in Fannie 
Mae, Freddie Mac, and FHA home loan guarantees to 125 percent of medium 
home prices in metropolitan areas, while neglecting the VA home loan 
program. This guaranty would raise the VA amount from $417,000 to about 
$520,000 as well as exempting homeowners from down payments or need for 
private mortgage insurance. It would also extend the VA increase 
through 2011, which offers some relief for homeowners during this time 
of economic uncertainty.
           s. 2825, veterans compensation equity act of 2008
    The VFW is pleased to support this bill, which would require a 
minimum disability rating for veterans receiving medication or 
treatment for a service-connected condition. Under current law, there 
are cases where a veteran receives medical treatment or adaptive 
devices for a condition found to be service-connected, but that are not 
compensable. One example of this is a hearing aid. Veterans suffering 
from hearing loss who use an aid often receive disability ratings below 
the 10 percent threshold for compensation. This is unfair.
    We believe that if the disability is severe enough to warrant the 
need of a prosthetic or adaptive device, the disability should be 
compensable. In the cause of a hearing aid, there are major 
inconveniences including the artificial nature of the hearing 
restoration and the problems associated with wearing one that should 
require a compensable award. There are other conditions, such as 
hypertension, which can require continuous medication--daily changes in 
a veteran's life--that should also grantee a minimum compensation 
award.
    We support this legislation and the small, but meaningful 
difference it would make in the lives of those service-connected 
veterans.
      s. 2864, training and rehabilitation for disabled veterans 
                        enhancement act of 2008
    The VFW strongly supports S. 2864. This important legislation would 
help severely injured veterans in three ways. First, it would repeal 
the limitation of the number of veterans enrolled in programs of 
independent living services. Second, it would make the Independent 
Living program mandatory. Finally, it would concentrate on increasing 
the quality-of-life for theses veterans.
    As the war continues to produce injuries, independent living 
becomes a reality for more and more servicemembers. As of 2001, the 
Independent Living cap was raised to $2,500. The VFW believes the cap 
removed, as the VA has found this cap is causing a delay in services to 
severely disabled veterans. Our veterans should not wait for their 
service-connected injuries to be treated.
    The VFW appreciates Senator Akaka's rigor in ensuring that severely 
injured veterans receive treatment that will pursue an increased 
quality-of-life for the Nation's veterans.
   s. 2938, enhancement of recruitment, retention, and readjustment 
                     through education act of 2008
    Due to the constraints of this hearing, we were unable to fully 
review this bill in its entirety. We would be happy to comment on this 
bill for the record.
s. 2951, a bill to require reports on the progress of the secretary of 
  veterans affairs in addressing causes for variances in compensation 
       payments for veterans for service-connected disabilities.
    Due to the constraints of this hearing, we were unable to fully 
review this bill in its entirety. We would be happy to comment on this 
bill for the record.
 s. 2961, a bill to enhance the refinancing of home loans by veterans.
    Due to the constraints of this hearing, we were unable to fully 
review this bill in its entirety. We would be happy to comment on this 
bill for the record.
   draft bill, preventing unnecessary foreclosure for servicemembers 
                              act of 2008
    Due to the constraints of this hearing, we were unable to fully 
review this bill in its entirety. We would be happy to comment on this 
bill for the record.
         draft bill, veterans benefits enhancement act of 2008
Titles I & II only
    Due to the constraints of this hearing, we were unable to fully 
review this bill in its entirety. We would be happy to comment on this 
bill for the record.
draft bill, a bill to make stillborns insurable dependents for purposes 
        of servicemembers' group life insurance (sgli) program.
    VFW has no objection to draft legislation, which would amend title 
38, U.S.C., to make a stillborn child an insurable dependent under the 
SGLI program. The loss of a child, at any age, is very difficult and 
tragic event for a family. While monitory compensation will not replace 
or lessen the emotional strain of such a devastating event. This 
provision would provide a measure of support military families at an 
extremely troubling time.
 draft bill, a bill to require a report on the inclusion of severe and 
   acute post traumatic stress disorder (ptsd) among the conditions 
    covered by the traumatic injury protection coverage under sgli.
    Due to the constraints of this hearing, we were unable to fully 
review this bill in its entirety. We would be happy to comment on this 
bill for the record.

    Thank you, this concludes our testimony. We welcome any questions 
this committee may have.

    Chairman Akaka. Thank you very much, Mr. Hilleman.
    Now we will hear from Mr. Kelley.

                STATEMENT OF RAYMOND C. KELLEY, 
                  LEGISLATIVE DIRECTOR, AMVETS

    Mr. Kelley. Chairman Akaka, Ranking Member Burr, Senator 
Webb, thank you for holding this hearing today.
    S. 22 is the most comprehensive veterans education reform 
bill, and for that reason AMVETS wholly supports this 
legislation.
    AMVETS supports S. 161.
    AMVETS does not oppose the idea of S. 961, but during the 
time of war when veterans are in greater need, we believe that 
this funding could be spent more appropriately.
    AMVETS supports all the provisions in S. 1718.
    It is important to protect the privacy and security of our 
veterans. Therefore, AMVETS supports the provisions in S. 2090.
    Allowing two additional judges to sit full time on the U.S. 
Court of Appeals for Veterans Claims will assist in reducing 
the current Court of Appeals backlog. Therefore, AMVETS 
supports this bill.
    AMVETS is unclear of the intent of S. 2138. Therefore, we 
hold no position at this time.
    AMVETS supports the provisions of S. 2139.
    We support the spirit of S. 2309, but believe it may have 
implications that are not the intent of the bill. Therefore, we 
recommend changing the language to arrive at the desired 
intent.
    S. 2471 will assist in ensuring USERRA laws are upheld; 
AMVETS supports this legislation.
    AMVETS will be more inclined to support S. 2550 if the 
types of indebtedness were outlined more specifically and if it 
included, ``any death that occurred in the line of duty.''
    AMVETS supports S. 2617.
    We oppose S. 2674. Title I of this bill would amend title 
10, U.S. Code, to provide for a new disability retirement 
system. AMVETS does not oppose the idea of the change, but 
rather the method in which it will be enacted.
    AMVETS believes this provision could be studied separately 
from the rest of S. 2674 and then could be implemented 
independently.
    AMVETS believes that age should not be a factor in 
determining loss of earnings. Disability compensation should 
not be used as an incentive for veterans undergoing 
rehabilitation or treatment.
    Our biggest concern with 2674 is the requirement for the 
Secretary to reevaluate all veterans who are receiving 
compensation. There are two overlying problems with this 
provision. First, reevaluations will compound the backlog of 
claims that currently exist by causing every veteran to 
routinely reenter the claims process.
    Second, if every veteran is required to periodically be 
reviewed, it would eliminate the permanent and total status for 
veterans. Removal from this status would adversely affect 
surviving spouses and their family members of the permanent and 
total rated veteran.
    Currently, spouses and veterans who have been rated 
permanent and total for more than 10 years will receive DIC. 
Also Survivors and Dependents Educational Assistance and 
CHAMPVA would be jeopardized by these reviews.
    Again, AMVETS adamantly opposes S. 2674.
    We continue to support provisions for veterans to receive 
accelerated payments for educational assistance. AMVETS 
supports S. 2683.
    We support S. 2701 which will establish a national cemetery 
to serve veterans in eastern Nebraska.
    We generally support the spirit of S. 2737 but feel that it 
raises more questions and would prompt further amendments to 
Sections 502 or 7292 of title 38.
    S. 2768 would temporarily increase the maximum loan amounts 
for certain housing loans guaranteed by VA. AMVETS supports 
this bill.
    S. 2938 seeks to improve retention and recruitment by 
enhancing educational benefits for servicemembers and veterans. 
AMVETS supports some of the provisions in this bill. However, 
our organization supports S. 22 as the educational enhancement 
bill for our veterans.
    AMVETS has not had time to fully review the other pieces of 
legislation and will submit those for the record.
    Mr. Chairman, this concludes my testimony. I am happy to 
respond to any questions you may have.
    [The prepared statement of Mr. Kelley follows:]
               Prepared Statement of Raymond C. Kelley, 
                 National Legislative Director, AMVETS
    Chairman Akaka, Ranking Member Burr, and Members of the Committee: 
Thank you for holding this hearing to discuss pending legislation.
                                 s. 22
    S. 22, the ``Post-9/11 Veterans Educational Assistance act of 
2007,'' is the most comprehensive and appropriate veterans educational 
reform bill, and for these reasons AMVETS wholly supports this 
legislation. The post WWII GI Bill allowed what is known as the 
Greatest Generation to achieve that greatness. It is an embarrassment 
to know that the greatest recruitment tool and the rationale for so 
many of our servicemembers to join the ranks of our military has eroded 
to nothing more than lip service to the true financial burden borne by 
our veterans to obtain their degrees.
                                 s. 161
    S. 161, the ``Veterans' Disability Compensation Automatic COLA 
Act'' allows for automatic annual increase in rates of disability 
compensation and dependency and indemnity compensation. Veterans whose 
earning power is compromised or completely lost as a result of service-
connected disabilities must rely on VA compensation for necessities of 
life, as must surviving spouses. Erosion of these rates due to 
inflation has a detrimental impact on recipients with fixed income. 
These benefits must adjust to increase with the increases in the cost 
of living. It is for all these reasons that AMVETS wholly supports this 
legislation.
                                 s. 961
    S. 961, the ``Belated Thank You to Merchant Mariners of World War 
II Act of 2007'' provides a monthly benefit payment of $1,000 and a 
certificate of honorable service to Merchant Mariners or surviving 
spouses of those who served in World War II. AMVETS is not wholly 
opposed to this bill, although we would prefer those monies be 
appropriated for veterans of the Armed Forces.
                                s. 1718
    AMVETS supports S. 1718, the ``Veterans Education Tuition Support 
Act,'' that will amend the Servicemembers Civil Relief Act to provide 
increased financial protection to servicemembers who are college 
students and who are called to active duty. By adding Section 707 to 
the Servicemembers Civil Relief Act, oversights that adversely effect 
college students who are called to active duty will be corrected. 
Currently, if a student-veteran disenrolls from college due to military 
obligations they are at the mercy of the school to refund any tuition 
and fees that have already been paid for that quarter or semester. This 
legislation will mandate said reimbursement and allow the veteran to 
re-enroll at the same status upon returning to school. Furthermore, 
this bill will allow servicemembers to defer student loan repayment 
while deployed and ensure that the interest rate is held at no more 
than 6 percent providing parity with other loan obligations that can be 
reduced due to their service.
                                s. 2090
    AMVETS sees S. 2090 as an administrative update to provide 
protection under HIPAA for documents filed electronically that will be 
otherwise made public information. It is important to protect the 
privacy and security of our veterans; therefore, AMVETS supports the 
provisions in S. 2090.
                                s. 2091
    Allowing two additional judges to sit full time on the U.S. Court 
of Appeals for Veterans Claims will assist in reducing the 151,000 
claims that are currently backlogged. Therefore, AMVETS supports this 
bill.
                                s. 2138
    AMVETS is unclear of the intent of this bill; therefore we hold no 
position on S. 2138 at this time.
                                s. 2139
    S. 2139, the ``National Guard and Reserve Educational Benefits 
Fairness Act of 2007'' provides educational assistance under the 
Montgomery GI Bill for members of the National Guard and Reserve who 
serve extended periods of continuous active duty that include a 
prolonged period of service in certain theaters of operation and for 
other purposes. While AMVETS does not oppose anything in this bill, our 
organization supports Senator Webb's GI Bill, S. 22.
                                s. 2309
    As a coauthor of The Independent Budget, AMVETS supports S. 2309 in 
clarifying Section 1152(b) of title 38 U.S.C., but under a more 
critical eye AMVETS would consider an amendment that would allow the 
Secretaries of the VA and DOD to determine what should be considered a 
combat zone. This change in thought came from the realization that some 
members of the military could be within the combat theater of operation 
without stepping foot into the country in which hostile activities are 
taking place.
                                s. 2471
    S. 2471 improves the Uniformed Services Employment and Reemployment 
Rights Act of 1994 by reforming the complaint process and expanding 
reporting requirements with respect to enforcement. AMVETS wholly 
supports this legislation and the affect it would have to ensure 
employers are following current regulations. It is important for 
veterans to understand employee eligibility and job entitlements. With 
such a large new veteran population due to Operation Enduring Freedom 
and Operation Iraqi Freedom, AMVETS supports any measure that seeks to 
assist veterans to understand their rights and compels employers to 
notify them of said rights.
                                s. 2550
    Without the inclusion of home and small business loans AMVETS is 
unclear to which debts the bill refers. AMVETS would be more inclined 
to support this legislation if the types of indebtedness were outlined 
more specifically and included any death that occurs in the line of 
duty.
                                s. 2617
    In partnership with The Independent Budget, AMVETS supports S. 
2617, which will provide cost-of-living adjustments to those who are 
receiving compensation and pensions through the VA.
                                s. 2674
    S. 2674 the ``Americas Wounded Warriors Act,'' consists of 
provisions that will establish a new retirement system for members of 
the military who become disabled, and a new compensation system for 
service-connected disabilities. AMVETS opposes this bill. In each of 
the titles there are provisions that are either incomplete, unnecessary 
because of redundancy, or are a detriment to our disabled veterans' 
financial security.
    Title I of this legislation amends title 10, U.S.C., to provide for 
a new disability retirement system, but what the legislation does not 
provide for is an explanation of what this new system will look like, 
but requires a study to determine how to best implement this new 
system, with Congress enacting provisions from the report of the 
Secretary of Defense. If Congress does not enact provisions pertaining 
to the retirement system the Secretary of Defense will determine who is 
eligible for care and who is not. AMVETS believes the retirement 
provision of this bill could be separated from the compensation portion 
of the legislation.
    Title II of S. 2674 calls for a study to consider the loss of 
earnings and loss of quality-of-life under the new rating schedule. 
There is already a study underway to evaluate these issues, so an 
additional study would be redundant and unnecessary. AMVETS also 
believes that using age as a factor for average loss of earnings is a 
contradiction. If compensation is adjusted for age a young veteran 
would be compensated at a higher rate than an older veteran. If age is 
used as a factor for loss of earnings than it must only be used to find 
the median loss of earnings over a life time and not as a sliding scale 
that will change the amount of compensation a veteran receives over 
their life time.
    Also, AMVETS disagrees with using disability compensation as an 
incentive for veterans to undergo treatment. Disability compensation 
should not be seen or used as anything other than a payment to cover 
the difference in loss of earning capacity. To promote rehabilitation 
AMVETS suggests studying and understanding the reasons why veterans do 
not participate in rehabilitation services that are currently provided.
    The biggest concern AMVETS has with S. 2674 is that a statute will 
be put in place that will require the Secretary to reevaluate all 
veterans who are receiving compensation. There are two overlaying 
problems with this provision. First, reevaluations would compound the 
backlog of claims by causing every veteran to routinely reenter the 
claims process. This will put unimaginable stress on an already weak 
claims system. Currently, the Secretary has the discretion to review 
cases as needed. AMVETS believes this existing provision is sufficient 
for conducting reviews.
    Second, if every veteran is required to be periodically reviewed it 
would eliminate the permanent and total status for veterans. Removal of 
this status would adversely affect surviving spouses and family members 
of the permanent and total rated veteran. Currently, spouses of a 
veteran who has been rated as permanent and total for 10 years will 
receive dependency and indemnity (DIC). This benefit would be 
eliminated by virtue of reviews. Also, Survivors and Dependents 
Educational Assistance and CHAMPVA are provided when a veteran is rated 
permanent and total. Because of the mandatory review of this 
legislation, both of these benefits would no longer be provided and put 
disabled veterans' families in a position where they will not have 
insurance or assistance for college.
                                s. 2683
    S. 2683 would allow veterans to receive accelerated payments of 
basic educational assistance leading to employment in high technology 
industry that does not lead to an associate or higher degree. It also 
repeals the delimiting periods for expansion of work-study allowance 
opportunities as well as authorizes appropriations for amounts for 
reimbursement of expenses of State and local agencies in administration 
of education benefits. AMVETS supports this legislation and the 
positive effect it will have for veterans seeking post secondary 
education.
                                s. 2701
    AMVETS supports S. 2701 which would establish a national cemetery 
to serve veterans in eastern Nebraska. According to the bill, an 
independent analysis conducted by the Metropolitan Planning Agency 
concluded that 172,500 people reside in a 75 mile radius of Bellevue, 
NE. This number falls within the threshold set by the Department of 
Veterans Affairs and it is for this reason that AMVETS wholly supports 
this legislation.
                                s. 2737
    AMVETS generally supports the spirit of this legislation, but feels 
that it raises more questions in resolving this matter. Making 
amendments to Section 503 and Section 7292 will provide reviewability 
by both the Circuit Courts and by the veterans or their 
representatives.
                                s. 2768
    AMVETS supports S. 2768, the temporary increase in maximum loan 
guaranty amounts for certain housing loans guaranteed by the Secretary 
of Veteran Affairs. This legislation corrects the VA Home Loan Guaranty 
exclusion from the Economic Stimulus Act. The Veterans Benefits Act of 
2004 increased the guaranty amount to 25 percent of the Freddie Mac 
conforming loan limit. The Economic Stimulus Act of 2008 raised the 
Fannie Mae and Freddie Mac limits, however left the VA limit of 
$417,000 in place. AMVETS supports raising the VA guaranty in this time 
of economic uncertainty.
                                s. 2825
    S. 2825, ``Veterans' Compensation Equity Act of 2008'' provides a 
disability rating of at least 10 percent to any veteran requiring 
continuous medication or the use of one or more adaptive devices such 
as hearing aids. AMVETS wholly supports this legislation as indicated 
by its inclusion in the Independent Budget for fiscal year 2009. 
Currently the VA Schedule for Rating Disabilities does not provide a 
compensable rating for hearing loss at certain levels severe enough to 
require hearing aids. AMVETS believes providing a compensable rating 
for this condition would be consistent with minimum ratings provided 
elsewhere when a disability does not meet the rating formula 
requirements but requires continuous medication.
                                s. 2864
    AMVETS supports changing the language of title 38, sections 3104, 
3109, and 3120 to include the language ``and to improve such veteran's 
quality-of-life'' therefore we support S. 2684. Removing the cap on 
enrollment and provisions to improve success in vocational 
rehabilitation are critical in improving the lives and providing 
independent living for many veterans.
                                s. 2889
    Section 7 of S. 2889 would repeal title 38, section 5317 and allow 
the Secretary of Veterans Affairs to continue to obtain information 
from the Secretary of the Treasury or the Commissioner of Social 
Security for the purpose of verifying income. AMVETS supports this 
measure as it will qualify many low income veterans for benefits.
    Section 8 of S. 2889 calls for increase in rates of disability 
compensation and dependency and indemnity compensation. According to 
section 8, dollar amounts for disability compensation, clothing 
allowance, and DIC rates shall increase at the same percentage by which 
benefit amounts payable under title II of the Social Security Act are 
increased. AMVETS supports this section as it is important for 
disability payments and other benefits increase as the cost of living 
in the United States increases. Without such increases, disabled 
veterans will not be able to maintain a comfortable living.
                                s. 2938
    S. 2938 seeks to improve retention and recruitment by enhancing 
education benefits for servicemembers and veterans. AMVETS supports 
some provisions of this bill, including the transfer of education 
benefits to dependents after 12 or more years of service. AMVETS also 
supports the immediate increase of education benefits outlined in this 
bill; however our organization supports Senator Webb's new GI Bill, S. 
22.
                 senator akaka's housing refinance bill
    This piece of legislation increases the maximum percentage of loan-
to-value of refinancing loans subject to guaranty from 90 to 95 
percent. Because of declining home prices in many markets, people who 
had a 90 percent loan-to-value ratio some years ago might have found 
themselves shut out of the refinancing market. AMVETS fully supports 
this measure which allows veterans and servicemembers to take advantage 
of refinancing options that would not be available to them at a 90 
percent loan-to-value ratio.
          senator menendez's bill to provide plot allowances 
                        for spouses and children
    This legislation allows for a plot allowance of $300 for spouses 
and dependent children of a veteran buried in a State cemetery on or 
after the date of enactment of this measure. While AMVETS is not 
opposed to the bill, we would first like to see the recommendations of 
the Independent Budget.
senator boxer's bill to include severe and acute ptsd among conditions 
           covered under servicemembers' group life insurance
    While AMVETS supports this legislation and its effort to research 
the effects of PTSD and ensure that veterans are compensated 
appropriately, we are hesitant to make an official stance without 
seeing the final draft of the legislation. This legislation requires 
the Secretary of Defense to provide a report to the Secretary of 
Veterans Affairs as to the feasibility and advisability of including 
severe and acute Post Traumatic Stress Disorder (PTSD) as a direct 
result of military service in a combat zone among the conditions 
covered by traumatic injury protection coverage under Servicemembers' 
Group Life Insurance. It also requires the report to include the 
effects of financial strain incurred by family members of the Armed 
Forces who suffer from severe and acute PTSD.
senator baucus's bill to address variances in compensation payments for 
              veterans with service-connected disabilities
    AMVETS supports this legislation and its effort to create 
uniformity in disability ratings for service-connected disabilities and 
compensation payments.
senator casey's ``disabled veterans home ownership preservation act of 
                                 2008''
    As it stands now, AMVETS supports the idea behind the Disabled 
Veterans Home Ownership Preservation Act of 2008. We agree that 
servicemembers who become seriously injured or ill during their 
military service should be given a 1-year protection from foreclosure 
after their service ends. AMVETS would like to see the final draft of 
this legislation however before taking an official stance on the bill.
      senator vitter's bill to address insurable dependents under 
                  servicemembers' group life insurance
    AMVETS supports Senator Vitter's legislation to include stillborn 
children as insurable dependents under Servicemembers' Group Life 
Insurance (SGLI).
     senator akaka's ``veterans' benefit enhancement act of 2008''
    While AMVETS supports the enhancement to benefits outlined in Title 
One and Title Two of the Veterans' Benefit Enhancement Act of 2008, we 
would like to see the final draft of this legislation before reaching a 
final opinion.

    Chairman Akaka, this concludes my testimony. I am happy to respond 
to any questions the Committee may have.

    Chairman Akaka. Thank you very much, Mr. Kelley.
    Mr. Smithson.

STATEMENT OF STEVE SMITHSON, DEPUTY DIRECTOR, VETERANS AFFAIRS 
       AND REHABILITATION COMMISSION, THE AMERICAN LEGION

    Mr. Smithson. Good morning, Mr. Chairman and Members of the 
Committee.
    I appreciate the opportunity to appear before you this 
morning to offer The American Legion's views on the various 
bills being considered by the Committee today.
    The American Legion is generally pleased with the intent of 
many of these bills. There are several draft bills we did not 
receive in time to thoroughly review that will be addressed in 
an addendum to my written statement. Also, page 2 of my written 
statement submitted to the Committee is missing. So, my 
addendum will also include that page.
    Due to the time constraints this morning, I am going to 
limit my oral remarks to S. 2309 and S. 2674.
    S. 2309, the Compensation for Combat Veterans Act. The 
purpose of this bill is to amend title 38, U.S. Code, to 
clarify the service treatable as, ``service engaged in combat 
with the enemy'' for the utilization of non-official evidence 
for proof of service-connection in combat-related disease or 
injury.
    The American Legion supports the intent of this bill. 
Unless the veteran was wounded or received a specific 
commendation, decoration or badge such as Combat Infantry Badge 
or Combat Action Ribbon or an award for valor, it is often very 
difficult to establish that a veteran engaged in combat with 
the enemy in order to trigger the combat presumptions under 
title 38, U.S.C., Section 1154(b).
    We must recognize, however, that the very meaning of the 
term ``engaged in combat with the enemy'' has taken on a whole 
new meaning as the nature of warfare in today's world has 
changed. This is especially true of service in the combat 
theaters of Iraq and Afghanistan.
    Due to the fluidity of the battlefield and the nature of 
the enemies' tactics, there is no defined front line or rear 
safe area.
    Military personnel in non-combat occupations and support 
roles are subjected to enemy attacks such as mortar fire, 
sniper fire and improvised explosive devices just as their 
counterparts in combat arms-related occupational fields.
    Unfortunately such incidents are rarely documented making 
them extremely difficult to verify. Servicemembers who received 
a combat-related badge or award for valor automatically trigger 
the combat related presumptions of title 38, U.S.C., Section 
1154(b).
    But, a clerk riding in a Humvee who witnessed the carnage 
of an IED attack on his convoy does not automatically trigger 
such a presumption and proving that the incident happened or 
that he or she was involved in that incident, in order to 
benefit from the presumption afforded under Section 1154(b), 
can be extremely time-consuming and difficult.
    Given the evolving nature of modern warfare, as reflected 
in the enemy's unconventional tactics in Iraq and Afghanistan, 
the American Legion is of the opinion that it not only makes 
sense to clarify the definition of ``engaged in combat with the 
enemy'' under title 38, U.S.C., Section 1154(b), in order to 
adapt to the new realities of modern warfare it is essential 
that we do so not just for those serving now, but for those who 
have served in the past and those who will serve in the future.
     We would also like to note that a provision similar to S. 
2309 is addressed in Title I of H.R. 5892, currently pending in 
the House of Representatives.
    As a basic intent of S. 2309 and H.R. 5892 is essentially 
the same, we are hopeful that any differences in these two 
bills are worked out and a final product defining ``engaged in 
combat with the enemy'' in a manner that is consistent with the 
realities of combat in today's world is passed by Congress and 
subsequently enacted into law.
    S. 2674. This legislation proposes sweeping changes of both 
the Department of Defense disability retirement system and the 
Department of Veterans Affairs disability compensation system, 
and it is comprised with two titles. My written statement 
addresses several of American Legion's concerns with this 
legislation. My remarks this morning will expand on one of our 
major concerns.
    As proposed in this legislation, veterans in the current VA 
disability system will remain in that system for payment 
purposes but can elect to opt into the new system or will 
automatically be put into the new system upon filing a new 
claim. The underlying premise here is that the new system will 
be more beneficial for veterans than the old system.
    However, many of the specifics of the new system including 
the rating schedule and payment levels will not be known until 
all the mandated studies are completed and the subsequent 
recommendations adopted and put into place.
    The American Legion is concerned that there will 
undoubtedly be a number of veterans for whom it would be more 
advantageous to remain under the current system, but, 
nonetheless, enter the new system without fully realizing the 
possible disadvantages. Unfortunately this legislation does not 
contain any safeguards to protect those who would be adversely 
impacted by entering the new 
system.
    We, therefore, urge the inclusion of language in this 
legislation that protects the claimant from the reduction of 
benefits established under the old system, especially in those 
cases where the veteran has been so rated for a period of 20 
years or more, or those with disabilities deemed by VA to be 
permanent and total in 
nature.
    At the very least, VA needs to be directed to provide clear 
notice to veterans that entering the new system does not 
guarantee an increase in benefits and could actually result in 
reduction of benefits.
    The American Legion also strongly opposes Section 207(b)(3) 
of this bill that amends the current law that generally 
prohibits the reduction of disability rating that has been in 
effect for 20 years or more.
    We see no need to make such a change that is obviously 
designed to allow for reduction of benefits and would 
undoubtedly have an adverse impact on many service-connected 
disabled veterans under the proposed new system.
    Mr. Chairman, that concludes my testimony. I would be happy 
to answer any questions you or Members of the Committee may 
have.
    [The prepared statement of Mr. Smithson follows:]
Prepared Statement of Steve Smithson, Deputy Director, Veterans Affairs 
           and Rehabilitation Commission, The American Legion
    Mr. Chairman and Members of the Committee: Thank you for this 
opportunity to present The American Legion's views on the bills being 
considered by the Committee today. The American Legion commends the 
Committee for holding a hearing to discuss these important and timely 
issues.
          s. 1718, ``veterans education tuition support act''
    The purpose of this bill is to identify the current plight that 
returning college-bound servicemembers have been unjustly enduring from 
some institutions of higher learning. S. 1718 recognizes the complete 
transformation of the Reserve Components into an operational force. 
Activations and intermittent duty such as training or duty in support 
of operations are now an obligation of service.
    The American Legion supports the proposed bill to amend the 
Servicemembers Civil Relief Act (Public Law 108-189) that will prohibit 
unfair penalties on members who are called to active-duty service while 
enrolled in institutions of higher education. A refund of tuition and 
fees pre-paid by a servicemember to a university for classes not taken 
due to performance of military obligations is long overdue. The 
American Legion is concerned that activations during the middle of a 
course is extremely disruptive and while this legislation aims to 
correct injustices financially, in most cases the veteran must restart 
the course and has lost valuable time due to deployment.
    This legislation also aims to allow a servicemember the opportunity 
to reenroll with the same educational and academic status that they had 
when activated. In a sense, it will be as if the servicemember never 
left college and therefore with not be penalized.
    The American Legion supports S. 1718.
                                s. 2090
    The purpose of this bill is to protect privacy and security 
concerns in court records.
    The American Legion supports this bill. Given the rise in identity 
theft during the last several years, proper information security has 
become extremely important. This bill is both appropriate and timely.
                                s. 2091
    The purpose of this bill is to increase the number of active judges 
for the United States Court of Appeals for Veterans Claims.
    The American Legion supports this bill. Given the large number of 
cases appealed to the Court and the Court's recent need to recall 
retired judges to help with the caseload, it is reasonable to increase 
the number of active judges from seven to nine as proposed in this 
legislation.
 s. 2138, ``department of veterans affairs reorganization act of 2007''
    The purpose of this bill is to amend title 38, United States Code 
(U.S.C.), to establish within the Department of Veterans Affairs the 
position of Assistant Secretary for Acquisition, Logistics, and 
Construction, and for other purposes.
    The American Legion does not have an official position on this 
bill.
      s. 2139, ``national guard and reserve educational benefits 
                         fairness act of 2007''
    The purpose of this bill is to provide educational assistance under 
the Montgomery GI Bill for members of the National Guard and Reserve 
who serve extended period of continuous active duty that include a 
prolonged period of service in certain theaters of operation. Although 
this bill is a step in the right direction by providing benefits for 
time served, The American Legion is concerned that it fails to 
recognize those veterans that complete their tours honorably, but not 
serve an aggregate of 20 months, and do not meet the other requirements 
of eligibility. These veterans have served their country honorably yet 
are excluded from earned benefits.
    Furthermore, The American Legion also believes that a servicemember 
or veteran should have the authority to transfer their educational 
benefits to family members, such as their spouse and children. This is 
an earned benefit that should be used at their discretion and based on 
family need. This transferability option would show the thanks of a 
grateful nation to the servicemember or veteran. Transferability also 
recognizes the importance of family support to the servicemember or 
veteran because, although the Nation recruits the servicemember, it re-
enlists the family for continued service by the servicemember in the 
Armed Forces.
    The American Legion supports the primary concept of this bill and 
supports benefits for time spent on Federal activation at the full time 
active duty rate.
           s. 2309, ``compensation for combat veterans act''
    The purpose of this bill is to amend title 38, U.S.C., to clarify 
the service treatable as service engaged in combat with the enemy for 
the utilization of non-official evidence for proof of service-
connection in a combat-related disease or injury.
    The American Legion supports the intent of this bill. Given the 
evolving nature of modern warfare, as reflected in the enemy's 
unconventional tactics in Iraq and Afghanistan, the very term ``engaged 
in combat with enemy'' takes on a whole new meaning. On today's 
battlefield there is no longer a safe or rear area. Personnel in 
traditional support roles are subject to the same attacks and dangers, 
such as rocket and mortar attacks, sniper fire and improvised explosive 
devices, as are their combat arms counterparts. It makes sense to 
clarify the definition of ``engaged in combat with the enemy'' under 
title 38, U.S.C., section 1154(b) to recognize this fact.
        s. 2471, ``userra enforcement improvement act of 2007''
    The purpose of this bill is to amend title 38, U.S.C., to improve 
the enforcement of the Uniformed Services Employment and Reemployment 
Rights Act of 1994, and for other purposes.
    The American Legion is deeply concerned with the protection of 
recently separated military veterans employment and reemployment 
rights. Furthermore, the American Legion believes the Federal 
Government must demonstrate zero-tolerance of illegal and egregious 
hiring practices that ignore USERRA provisions. Currently, veterans are 
filing claims after the non-compliance employment or employment events 
occur, but due to delayed resolution of the claims, many veterans are 
experiencing unnecessary financial hardships from the time of grievance 
to final determination. This bill will impose timely, realistic 
deadline on Federal agencies responsible to process USERRA claims.
    The American Legion supports this bill which will strengthen 
veterans' employment and reemployment rights.
       s. 2550, ``combat veterans debt elimination act of 2008''
    The purpose of this bill is to amend title 38, U.S.C., to prohibit 
the Secretary of Veterans Affairs from collecting certain debts owed to 
the United States by members of the Armed Forces and veterans who die 
as a result of an injury incurred or aggravated on active duty in a 
combat zone, and for other purposes.
    The American Legion supports this legislation.
        s. 2573, ``veterans mental health treatment first act''
    The purpose of this bill is to amend title 38, U.S.C., to require a 
program of mental health care and rehabilitation for veterans for 
service-related Post Traumatic Stress Disorder (PTSD), depression, 
anxiety disorder, or a related substance use disorder, and for other 
purposes.
    The American Legion supports S. 2573.
  s. 2617, ``veterans' compensation cost-of-living adjustment act of 
                                 2008''
    The purpose of this bill is to increase, effective as of December 
1, 2008, the rates of compensation for veterans with service-connected 
disabilities and the rates of dependency and indemnity compensation for 
the survivors of certain disabled veterans. The amount of increase 
shall be the same percentage as the percentage by which benefit amounts 
payable under title II of the Social Security Act (42 U.S.C. 401, et 
seq.) are increased effective December 1, 2008.
    The American Legion supports this annual cost-of-living adjustment 
in compensation benefits, including dependency and indemnity 
compensation (DIC) recipients. It is imperative that Congress annually 
considers the economic needs of disabled veterans and their survivors 
and provide an appropriate cost-of-living adjustment to their benefits, 
especially should the adjustment need to be higher than that provided 
to other Federal beneficiaries, such as Social Security recipients.
              s. 2674, ``america's wounded warriors act''
    The purpose of this bill is to amend titles 10 and 38, U.S.C., to 
improve and enhance procedures for the retirement of members of the 
Armed Forces for disability and to improve and enhance authorities for 
the rating and compensation of service-connected disabilities in 
veterans, and for other purposes.
    This legislation proposes sweeping changes of both the Department 
of Defense (DOD) disability retirement system and the Department of 
Veterans Affairs (VA) disability compensation system and is comprised 
of two titles.
Title I--Reform of Military Disability System & Aid to Families
    This title seeks to establish a new disability retirement system, 
paying a lifetime annuity to those determined to be unfit for continued 
military service as a result of an injury or disease incurred or 
aggravated in the line of duty. DOD would no longer assign disability 
ratings for the purpose of determining eligibility to medical 
retirement or medical severance payments. For those found unfit for 
military service, the annuity would be based on the member's rank and 
years of service. There would also be no offset between the annuity 
payment and future VA compensation payments.
    This title also directs the Secretary of Defense to conduct a study 
to determine lifetime eligibility to medical and dental care under 
TRICARE under the new system. If Congress subsequently fails to 
establish legislation governing TRICARE eligibility, the Secretary of 
Defense would establish eligibility by regulation no later than the 
effective date of implementation of the new system. The American Legion 
supports the proposed changes to the military's disability retirement 
except for the provision regarding eligibility to lifetime medical and 
dental care under TRICARE. The American Legion supports the provision 
in the House of Representatives companion bill, H.R. 5509, wherein 
retired pay under the new system is treated as retired pay for all 
purposes under the amended title, including for purposes of eligibility 
for medical and dental care. We urge that this provision be amended to 
be consistent with the version in H.R. 5509.
Title II--Modernization of VA Disability Compensation System
    The specifics of a new VA compensation system, including the amount 
of compensation payments, quality-of-life and transition payments, as 
well as development of a new rating schedule, will be the subject of a 
series of studies culminating with a report and proposals to Congress. 
The legislation specifically directs the Secretary of Veterans Affairs 
to consult with veterans' service organizations (VSO) in conjunction 
with the studies. VA's report on the studies is due to Congress in 7 
months and, within 9 months following submission of the report, VA is 
required to submit a proposal to Congress detailing the new 
compensation and transition payment rate structure. Congress, prior to 
the new system going into effect, would have the ability to review the 
proposed new payment rates and vote on a privileged measure to formally 
reject them. However, in the absence of such a formal rejection by 
Congress, the new rates would go into effect.
    This title contains some promising aspects, such as the inclusion 
of the VSO community in the study process as well as the establishment 
of quality-of-life and transition payments. There are, however, some 
proposals in this legislation which give rise for concern and actual 
opposition in some instances.
    For example, the legislation specifically directs the VA Secretary 
to address the following in its study:

        The nature of injuries and combination of injuries for which 
        disability compensation is payable under various disability 
        compensation programs of the Federal Government, State 
        governments, and other countries.
        To the extent applicable, the nature of injuries and 
        combination of injuries for which disability compensation is 
        payable under commercial disability insurance.

    Military service is inherently different from any other form of 
employment and examining other disability compensation and insurance 
programs for the purpose of drawing comparisons to the disability 
compensation program administered by the Department of Veterans Affairs 
is not appropriate. Moreover, The American Legion would strongly oppose 
any attempt to adjust VA's compensation program so it more closely 
resembles other compensation programs, as specifically referenced in 
the legislation, as such an adjustment would most likely result in a 
reduction or restriction of current VA disability benefits.
    In determining the amounts of compensation under the study, the VA 
Secretary is specifically directed to consider the following:

        The appropriate injuries or combination of injuries to be 
        covered by the new schedule for rating service-connected 
        disabilities.
        The appropriate level of compensation, including an age-
        appropriate level of compensation at time of initial filing of 
        claims, under that schedule for loss of earnings.

    The American Legion opposes any attempt to limit the chronic 
disabilities or illnesses for which a veteran is eligible to establish 
service connection. The American Legion also opposes the use of age in 
determining the level or amount of compensation as the amount of 
compensation should be based on the severity of the condition, 
regardless of age, as is the current practice.
    This legislation also makes the attempt to insert congressional 
oversight directly into the process by allowing Congress to formally 
reject VA's proposal detailing the new compensation and transition 
payment rate structure. While this provision may appear to be 
promising, the method to reject the proposal, a joint resolution of the 
House and Senate, is a very involved process and it is likely that the 
Secretary's proposals will take effect without any congressional 
action.
    Additionally, as proposed in the legislation, veterans in the 
current system will remain in that system (for payment purposes) but 
can elect to opt into the new system or will automatically be put into 
the new system upon the filing of a new claim. The American Legion is 
concerned that there will undoubtedly be a number of veterans for whom 
it would be more advantageous to remain under the current system but, 
nonetheless, enter the new system without fully realizing the possible 
disadvantages. We, therefore, urge the inclusion of language in this 
legislation that protects the claimant from the reduction of benefits, 
established under the old system, especially in those cases where the 
veteran has been so rated for a period of 20 years or more (such a 
designation currently prohibits the reduction in rating except where 
the rating was based on fraud). At the very least, VA needs to be 
ordered to provide clear notice to veterans that entering into the new 
system does not guarantee an increase in benefits and could actually 
result in the reduction of benefits. The American Legion also strongly 
opposes section 207(b)(3) of this bill that amends the current law that 
generally prohibits the reduction of a disability rating that has been 
in effect for 20 years or more. We see no need to make such a change 
that is obviously designed to allow for reduction of benefits and would 
undoubtedly have an adverse impact on many service-connected disabled 
veterans under the proposed new system.
                                s. 2683
    The purpose of this bill is to amend title 38, U.S.C., to modify 
certain authorities relating to educational assistance benefits for 
veterans, and for other purposes. Historically, The American Legion has 
encouraged the development of essential benefits to help attract and 
retain servicemembers into the Armed Services, as well as to assist 
them in making the best possible transition back to the civilian 
community. S. 2683 aims to better serve veterans and ultimately assist 
them in financial stability.
    As stated earlier, The American Legion supports providing 
servicemembers and veterans the authority to transfer their educational 
benefits to family members, such as their spouse and children. This is 
an earned benefit that should be used at their discretion and based on 
family need.
    The American Legion proudly supports this bill.
                                s. 2701
    The purpose of this bill is to direct the VA Secretary to establish 
a national cemetery in the eastern Nebraska region to serve veterans in 
the eastern Nebraska and western Iowa regions
    The American Legion supports the policy of the National Cemetery 
Administration (NCA). The area defined in this bill seems to meet the 
NCA's criteria for establishing a new veterans' cemetery.
    The American Legion supports this bill.
           s. 2737, ``veterans' rating schedule review act''
    The purpose of this bill is to amend title 38, U.S.C., to grant 
jurisdiction to the United States Court of Appeals for Veterans Claims 
(CAVC or Court) to review the schedule of ratings for disabilities 
under section 1151 of that title with statutory requirements applicable 
to entitlement to disability compensation under chapter 11 of that 
title, and for other purposes.
    The American Legion supports the intent of this bill, which is to 
allow the CAVC to be able to determine whether sections of part 4 of 38 
Code of Federal Regulations comply with chapter 11 of title 38, U.S.C. 
Permitting the Court to perform such a review is important because a 
regulation should be consistent with, and never be able to override a 
Federal statute.
                                s. 2768
    The purpose of this bill is to provide a temporary increase in the 
maximum loan guaranty amount for certain housing loans guaranteed by 
the Secretary of Veterans Affairs. Presently, the Veterans Benefits Act 
of 2004 increased VA home loan eligibility for qualified veterans for a 
home loan up to $417,000. Qualified veterans purchasing a home in the 
high cost areas of Alaska, Guam, Hawaii and the U.S. Virgin Islands may 
obtain a no-down payment home loan of up to $625,500. This increase in 
the maximum loan guaranty amount offered by S. 2768 should become 
permanent.
    The American Legion supports this bill.
         s. 2825, ``veterans' compensation equity act of 2008''
    The purpose of this bill is to amend title 38, U.S.C., to provide a 
minimum disability rating for veterans receiving medical treatment for 
a service-connected disability.
    The American Legion fully supports this legislation. It is 
reasonable to conclude that service-connected conditions that do not 
meet the schedular's requirements for a compensable evaluation but, 
nonetheless, require regular treatment, cause economic impairment and 
should therefore be afforded a minimum rating of 10 percent.
     s. 2864, ``training and rehabilitation for disabled veterans 
                       enhancement act of 2008''
    The purpose of this bill is to amend title 38, U.S.C., to include 
improvement in quality-of-life in the objectives of training and 
rehabilitation for veterans with service-connected disabilities, and 
for other purposes.
    The American Legion endorses this bill which will increase the 
number of service-connected disabled veterans who would benefit 
directly from the services this program currently provides and 
ultimately aid in their recovery from the wounds of war.
                               conclusion
    Thank you again, Mr. Chairman, for allowing The American Legion to 
present comments on these important measures. We will provide the 
Committee with additional views on those draft bills we did not have 
time to thoroughly review. Those draft bills include: the Housing 
Refinance legislation; the bill directing the Secretary of Veterans 
Affairs to provide a plot allowance for spouses and children of certain 
veterans who are buried in State cemeteries; the bill to require 
reports on the progress of the Secretary of Veterans Affairs in 
addressing causes for variances in compensation payments for veterans 
for service-connected disabilities; the bill to make stillborns 
insurable dependents for purposes of the Servicemembers' Group Life 
Insurance program; and the bill to require a report on the inclusion of 
severe and acute Post Traumatic Stress Disorder among the conditions 
covered by traumatic injury protection coverage under Servicemembers' 
Group Life Insurance. In addition, we support S. 22; we have no 
position on S. 961; we do not support S. 2938; and we have no position 
on sections 3 and 7 regarding S. 2889.
    As always, The American Legion welcomes the opportunity to work 
closely with you and your colleagues on enactment of legislation in the 
best interest of America's veterans and their families.
                                 ______
                                 
                                Addendum
    Mr. Chairman and Members of the Committee: Thank you for this 
opportunity for The American Legion to present its views on various 
veterans legislation being considered by this Committee.
       s. 2951, ``report on variances in compensation payments''
    The purpose of this bill is to require reports on the progress of 
the Secretary of Veterans Affairs in addressing causes for variances in 
compensation payments for veterans for service-connected disabilities.
    The American Legion supports this legislation.
 s. 2984, ``veterans benefits enhancement act of 2008'' title i and ii
    The purpose of this bill is to amend title 38, United States Code 
(U.S.C.), to expand and enhance veterans' benefits, and for other 
purposes.
Title I
    The American Legion does not have any official position regarding 
the provisions of this title.
Title II
            Sections 201 & 202
    The American Legion strongly opposes section 201 of this bill, 
giving the Department of Veterans Affairs (VA) authority to temporarily 
stay the adjudication of claims pending before the Board of Veterans' 
Appeals (BVA) or the agency of original jurisdiction when the Secretary 
of Veterans Affairs determines that a stay is necessary to preserve the 
integrity of a program administered under title 38, U.S.C. Basically, 
this section would allow VA to simply disregard a court decision, it 
does not agree with, while it appeals the decision to a higher court. 
We oppose such a measure on two points. First, it's not necessary as VA 
currently has the option of going through the appropriate court to 
request a stay in instances where VA feels a stay is necessary to 
preserve the integrity of a program. Moreover, to allow VA to simply 
ignore court decisions and stay the adjudication of various claims at 
will, without seeking proper approval or authority to do so, would 
undermine the judicial process. The American Legion also opposes 
section 202, which would amend title 38, U.S.C., to allow the BVA to 
decide a particular case before another case with an earlier docket 
date if the earlier case has been stayed, or if a decision on the 
earlier case has been delayed for any reason and the later case is 
fully developed and ready for a decision. This proposed change would 
allow the BVA to use its own discretion to disregard the docket date of 
appeals and is contrary to the reason appeals are assigned a docket 
number and decided in docket order in the first place.
            Section 205
    First, this section would offer to those in the mobilization 
category of the Reserves within the Individual Ready Reserve, the 
option to be covered by Servicemembers Group Life Insurance (SGLI), 
instead of only the option to be covered by Veterans Group Life 
Insurance (VGLI) as is now the case. The American Legion supports this 
provision, which corrects an omission in previous legislation. These 
individuals are in an essentially on-call status because of their 
professional or occupational specialties, and can be sent to active 
duty at any time. The option to be insured under SGLI allows them 
access to dependent coverage and to SGLI's much lower group premium 
rates. We believe this addition to be correct and fully justifiable.
    Next, this section presents two technical corrections to the rules 
concerning SGLI dependent coverage. First, the present wording of title 
38, U.S.C., in regards to dependent SGLI coverage stipulates dependent 
coverage will terminate 120 days after the servicemembers coverage 
terminates. As SGLI coverage for servicemembers terminates 120 days 
after separation from service, this permits dependent coverage to 
continue even after the servicemember's SGLI coverage has ended. The 
provision of S. 2984 in this regard would simply even these time 
periods up and correct the current discrepancy in coverage periods. 
Second, premiums for SGLI dependent (spousal) coverage are actually age 
based as is necessitated by sound actuarial principles, and cannot be 
the same for all members in this category. S. 2984 properly removes 
such incorrect wording from the statute to reflect SGLI's premium 
structure in this area.
    Last, this section seeks to change the current SGLI statute so that 
coverage under Veterans Group Life Insurance (VGLI), the follow-on 
program to SGLI for continuation of such life insurance coverage after 
active duty, is also eliminated, as the SGLI benefit itself presently 
is, for those convicted of mutiny, treason, spying, desertion or 
conscientious objection to military service, a logical inclusion 
apparently simply overlooked previously.
    The American Legion has no objections to these corrections to the 
involved insurance portions of title 38, U.S.C., and believes them 
proper and correct on their face, their justification self-evident, and 
that such should be enacted to correct the present errors in the law as 
described.
    The American Legion does not have positions on the provisions of 
sections 203, 204, 206, and 207 of this legislation.
        s. 2550, ``combat veteran debt elimination act of 2008''
    The purpose of this bill to amend title 38, U.S.C., to prohibit the 
Secretary of VA from collecting certain debts to the United States in 
the case of veterans who die as a result of a service-connected 
disability incurred or aggravated on active duty in a combat zone, and 
for other purposes.
    The American Legion supports S. 2550.
                     s. 2934, burial plot allowance
    The purpose of this bill is to direct the VA Secretary to provide a 
plot allowance for spouses and children of certain veterans who are 
buried in State cemeteries. The American Legion supports this bill as 
we do not believe there should be discrimination against families of 
veterans who choose to bury their deceased hero in a State veterans' 
cemetery and do not receive a plot allowance but would get a plot 
allowance if they buried their veteran in a national cemetery.
    A veteran's family often has little choice but to choose a State 
cemetery to bury their loved one in because of distance and other 
factors. Passage of this bill would reflect a common sense approach to 
helping a grieving family.
   s. 2946, expansion of dependent coverage under sgli for stillborn 
                                children
    The purpose of this bill is to amend title 38, U.S.C., to include a 
stillborn child to be regarded as an insurable dependent under the 
Servicemembers Group Life Insurance (SGLI) program. SGLI currently 
provides free $10,000 coverage for dependent children.
    The American Legion supports the inclusion of stillborn children 
for the purpose of this coverage. The intent of the dependent coverage 
benefit under SGLI is to provide a much needed financial assistance to 
servicemembers for the related financial expenses (funeral costs, etc.) 
who suffer the traumatic loss of a dependent child. We believe it is 
self-evident that such assistance should also be provided in the case 
of stillborn children, and that the definitions for such as provided in 
the proposed legislation are both reasonable and proper. The American 
Legion does not believe the frequency of these cases to be such that 
any significant financial impact would be experienced by the SGLI 
program.
                 s. 2961, housing refinance legislation
    The purpose of this bill is to amend title 38, U.S.C., to enhance 
the refinancing of home loans by veterans.
    The American Legion is very supportive of this bill.
     s. 2965, proposal to require a review on including ptsd under 
                    sgli traumatic injury protection
    The purpose of this bill is not to establish a benefit per se, but 
seeks to require a report be conducted by the VA Secretary in concert 
with the Secretary of Defense, to determine the feasibility of 
including Post Traumatic Stress Disorder (PTSD), of a ``severe and 
acute'' level, in the schedule of disabilities used for ascertaining 
coverage under the Servicemembers Group Life Insurance (SGLI) Traumatic 
Injury (TSGLI) Protection group policy rider. Such PTSD would be 
required to result from direct military service in a combat zone, and 
be of a severity level that precludes the member from performing the 
daily activities of living after the member is discharged/released from 
military service.
    The proposed legislation cites the unique circumstances both of 
military service in general and combat service in particular, the 
financial strain on military family members of those suffering such 
severe disability, and the recovery time and the hardship of the 
recovery process involved. We would also mention here the time needed 
for making a claim for VA compensation benefits, and the time involved 
in the VA adjudication process prior to reaching a rating decision and 
the subsequent start of compensation payments. One of the purposes of 
the TSGLI benefit is to provide the disabled servicemembers meeting its 
traumatic injury criteria a significant cash payment to assist them and 
their families in handling the immediate financial needs following such 
injury, given the time involved for the start of other benefits, such 
as VA compensation.
    The American Legion strongly agrees with the intent of this 
proposal, and observes that such a VA/DOD study is long overdue. 
Information continues to come to light that PTSD, along with Traumatic 
Brain Injury (TBI) has reached extraordinarily high levels among those 
with service in the Iraq and Afghanistan theatres. Recently, on April 
17, 2008, the RAND Corporation released the first comprehensive private 
sector study of these matters titled, ``Invisible Wounds of War: 
Psychological and Cognitive Injuries, Their Consequences and Services 
to Assist Recovery,'' and among its conclusions estimated PTSD 
disabilities to varying degrees have affected as many as 300,000 
veterans of Iraq and Afghanistan service, out of some 1.6 to 1.7 
million servicemembers deployed to those areas since October 2001, 
along with some 320,000 estimated TBI cases. Such a state of affairs 
can only be expected to continue as operations in those theatres are 
maintained on an on-going basis. It is increasingly obvious a major 
health crisis has occurred in the PTSD and TBI areas where veterans of 
Iraq and Afghanistan service are concerned, and that steps to address 
this should be undertaken as soon as possible.
    A particular point of concern, we would also like to note here is 
the definition of ``severe and acute'' PTSD in connection with coverage 
under TSGLI. While being one of the issues to be determined under the 
proposed report, we believe such PTSD disability should fall within the 
provisions of a VA service-connected disability rating for PTSD of 
between 50 percent to 70 percent, with a related Global Assessment of 
Functioning (GAF) score in the 50 to 40 range or less. PTSD evaluations 
in these ranges comprise severe symptoms and/or serious social and 
occupational impairments and, as severity increases, include such 
conditions as severe impairments in communication and judgment, plus 
delusional and suicidal behavior.
 s. 2981, ``disabled veterans home ownership preservation act of 2008''
    The purpose of this bill is to amend the Servicemembers Civil 
Relief Act to provide a 1-year period of protection against mortgage 
foreclosures for certain disabled or severely injured servicemembers, 
and for other purposes.

    The American Legion supports this bill.

    Chairman Akaka. Thank you very much, Mr. Smithson.
    Now, Joe Violante.

 STATEMENT OF JOSEPH VIOLANTE, NATIONAL LEGISLATIVE DIRECTOR, 
                   DISABLED AMERICAN VETERANS

    Mr. Violante. Aloha, Mr. Chairman and Members of the 
Committee.
    On behalf of the 1.3 million members of the Disabled 
American Veterans, I am honored to appear before you today to 
discuss the legislative measures pending before this Committee.
    S. 2091 would increase the court's number of active judges. 
Before DAV could support an increase of two more judges, we 
would request that this Committee require the court to include 
the following items in an annual report:
    The number of appeals filed; the number of petitions filed; 
the number of applications filed for attorney fees and costs; 
the number and type of dispositions; the median time from 
filing to disposition; the median time from the filing of 
briefs to disposition; the number of cases disposed by the 
clerk, a single judge, multi-judge panels and the full court; 
the number of oral arguments; the number and status of pending 
appeals and applications for equal access to justice fees; a 
summary of any service performed by recalled retired judges 
during the fiscal year; and the number of cases pending longer 
than 18 months.
    S. 2674 consists of two sections: the provisions of Title I 
address retirement of members of the Armed Forces for 
disability; and the provisions of Title II address compensation 
of veterans for service-connected disabilities.
    Title II, Section 201, requires the Secretary of Veterans 
Affairs to examine a number of factors in conducting a study.
    The bill requires those studies to reflect current concepts 
of medicine and loss of earning capacity from specific 
injuries. The Secretary would also be required to consider 
which injuries the new rating schedule would cover, the level 
of compensation for loss of quality-of-life, as well as 
standards for determining quality-of-life. Additionally, the VA 
is to study the level of compensation for loss of earning 
capacity that takes into account the age of a veteran.
    The foregoing studies are unnecessary because the Secretary 
has already contracted to conduct the study that takes into 
account most of the items listed in this section of the bill.
    While DAV does not oppose innovative treatment plans with 
real health-related benefits, using compensation as an 
incentive to undergo treatment is discriminatory against 
veterans.
    Instead of using disability compensation as an incentive, 
Congress should focus on removing the barriers to accessing 
treatment and vocational rehabilitation. Those barriers include 
obstacles such as access to child care and ability to receive 
time off work, to mention a few.
    The bill modifies Section 1155 by providing that ratings 
under the existing compensation system will continue to be 
based on average impairment of earning capacity. For veterans 
receiving compensation under the enhanced VA disability 
compensation system, the ratings must reflect average loss of 
earnings and quality-of-life. This bill still creates two 
classes of veterans.
    Section 207 provides that as frequently as the Secretary 
considers it appropriate, the Secretary must reevaluate and, if 
necessary, adjust the disability rating for any veteran 
receiving compensation under new Chapter 12.
    As my colleagues have pointed out, this will only enhance 
the current backlogs; and also with regards to permanent and 
total, it will have some unintended consequences regarding DIC, 
educational benefits, and for dependents in CHAMPVA.
    Section 207(b)(3) of the bill amends Section 110, which 
currently prohibits the reduction of a disability rating that 
has been in force for 20 or more years. This change will allow 
VA to continue to periodically reevaluate a veteran's 
disability. To now revoke the 20-year protection is highly 
precarious and unfair. Older veterans will suffer more 
unnecessary instability in their lives and younger veterans 
will never achieve that stability.
    S. 2951 would require reports on the progress of the 
Secretary of Veterans Affairs in addressing causes for 
variances in compensation payments to veterans for service-
connected disabilities. DAV supports this legislation.
    Title II of the Veterans Benefits Enhancement Act of 2008 
deals with provisions that would, amongst other things, permit 
VA to temporarily stay adjudication of claims while waiting 
pending court decision. The DAV opposes this provision of the 
bill.
    The Secretary currently has that authority. He can approach 
the court to get a stay. We do not believe that giving the 
Secretary carte blanche ability to stay cases will benefit 
anyone.
    Mr. Chairman, that concludes my testimony. On behalf of the 
DAV, we hope that you will consider our recommendations; and I 
will be pleased to answer any questions from you or the 
Committee Members.
    [The prepared statement of Mr. Violante follows:]
               Prepared Statement of Joseph A. Violante, 
       National Legislative Director, Disabled American Veterans
    Mr. Chairman and Members of the Committee: On behalf of the 1.3 
million members of the Disabled American Veterans (DAV), I am honored 
to appear before you today to discuss the legislative measures pending 
before this Committee.
                                s. 2938
    The ``Enhancement of Recruitment, Retention, and Readjustment 
Through Education Act of 2008,'' proposed by Senator Graham (R-SC), 
would amend titles 10 and 38, United States Code (U.S.C.), to improve 
educational assistance for members of the Armed Forces and veterans in 
order to enhance recruitment and retention for the Armed Forces. Under 
title 38, U.S.C., chapter 30, this bill proposes to provide a veteran 
who served on active duty in the Armed Forces for 12 or more years, the 
following: A monthly rate of $1,650 for months occurring during fiscal 
year 2009, $1,800 for fiscal year 2010; and $2,000 for fiscal year 
2011. Veterans who served less than 12 years would receive $1,500 
beginning in fiscal year 2009. The bill also proposes an annual stipend 
of $500 for veterans pursuing an approved program of education at or 
above the half-time rate, and an annual stipend of $350 for less than 
the half time rate.
    Currently, veterans with only 2 years of active service receive a 
reduced rate of educational benefits. However, those veterans with 2 
years of service as well as those with three or more, receive a cost-
of-living increase based on the consumer price index. This proposed 
legislation would eliminate the cost-of-living adjustment for veterans 
with less than 3 years of obligated service, which is effectively a 
reduction of benefits. The rate set by this bill regarding those with 
less than 3 years of service is $950 beginning in fiscal year 2009, 
which is approximately the level of benefits forecast for that fiscal 
year based on the current scale that takes into account a cost-of-
living adjustment. Under this proposed legislation, educational 
benefits are capped at $950 beginning in fiscal year 2009 for those 
veterans with less than 3 years of service. The DAV questions the 
reasons for this reduction of benefits.
    Further, the DAV believes this bill focus more on retention of 
servicemembers than on educational benefits for those that have served. 
This places the legislation outside the mission scope of the DAV. We 
therefore take no position on this legislation.
                                 s. 22
    The ``Post-9/11 Veterans Educational Assistance Act of 2008,'' S. 
22, amends title 38, U.S.C., to establish a program of educational 
assistance for members of the Armed Forces who serve in the Armed 
Forces after September 11, 2001. The provisions listed herein apply to 
former servicemembers with three or more years of active service, but 
also include many veterans who served less than 3 years of active duty, 
to include those who served at least 30 consecutive days and then 
discharged for a service-connected disability.
    Under the provisions of this bill, VA would pay an amount equal to 
the ``established charges for the program of education, except that the 
amount payable * * * may not exceed the maximum amount of established 
charges regularly charged * * * for full-time pursuit of approved 
programs of education for undergraduates * * *.'' This amount would be 
in accordance with the ``public institution of higher education 
offering approved programs of education for undergraduates in the State 
in which the individual is enrolled * * *.'' This would further be 
applicable to the ``highest rate of regularly-charged established 
charges for such programs of education among all public institutions of 
higher education in such State offering such programs of education.''
    This legislation also provide a monthly stipend equal to the 
monthly housing allowance received by military servicemembers holding a 
rank of E-5 and applicable to the zip code area wherein the school is 
located. Under this bill, a qualified veteran would have 15 years to 
use his/her education benefits.
    This bill is in accordance with the ``GI Bill for the 21st 
Century'' set forth in The Independent Budget for Fiscal Year 2009, 
published by the Independent Budget veterans' service organizations. 
Because of this, as well as the section of this bill entitling those 
veterans who serve at least thirty days of active duty and who were 
discharged because of a service-connected disability, the DAV supports 
this bill.
                                 s. 161
    S. 161, introduced by Senator Thune (R-SD) on January 4, 2007, 
provides for annual cost-of-living adjustments (COLAs) to be made 
automatically each year in the rates of veterans' disability 
compensation and rates of dependency and indemnity compensation. This 
measure would index COLAs for veterans and survivor compensation 
programs to Social Security increases, thereby eliminating the need to 
introduce, and pass, and enact a veterans COLA bill each year. DAV 
supports this measure.
                                 s. 961
    S. 961, introduced by Senator Ben Nelson (D-NE) on March 22, 2007, 
amends title 45, U.S.C., to provide benefits to certain individuals who 
served in the United States Merchant Marines during Word War II. DAV 
opposes this legislation, which would provide far greater benefits to 
Merchant Marines who have no disabilities than many veterans receive 
for severe service-connected disabilities. Our opposition to this bill 
in no way indicates what we undervalue the contributions made by the 
brave individuals who served as Merchant Marines during World War II, 
and played a vital role in our ultimate victory in that war.
                                s. 1718
    S. 1718, introduced by Senator Brown (D-OH) on June 27, 2008, 
amends the Service-Members Civil Relief Act to provide for 
reimbursement to servicemembers of tuition for programs of education 
interrupted by military service, for deferment of students loans and 
reduced interest rates for servicemembers during periods of military 
service, and for other purposes. This bill proposes to provide a 13-
month transition period for servicemembers to reenroll in a program of 
education and to begin paying back student loans undertaken for a 
program of education. The bill also institutes a 6 percent interest 
rate cap on student loans while a member is deployed on active duty, 
and requires education program providers to make reasonable 
accommodations to their students who are members of the Armed Forces 
and who discontinue a program of education because of a deployment.
    Many veterans enrolled in education programs are recalled to duty 
and deployed to Iraq or Afghanistan return with service-related 
disabilities. These veterans above all else, are affected by the 
restraints this bill intends to loosen. Because of the potential 
benefits this bill will provide, especially to those returning from 
deployment with service-related disabilities, the DAV does not oppose 
the favorable consideration of the bill.
                                s. 2090
    S. 2090, introduced by Chairman Akaka (D-HI) by request on 
September 25, 2007, would protect privacy and security concerns in 
records at the United States Court of Appeals for Veterans Claims (the 
Court).
    If enacted, S. 2090 would initiate legislation that authorizes the 
Court to establish rules governing the privacy and security of certain 
information concerning the Court's electronic filing system. Many 
Federal Courts now operate under an electronic filing (e-filing) 
system. Congress has authorized appropriations for the Court to begin 
utilizing an e-filing system that is expected to be in progress by June 
2008. Currently e-filing for applications for attorney fees and costs 
under the Equal Access to Justice Act is operational. However, there is 
currently no legislation authorizing the Court to promulgate rules 
regarding the privacy and security of electronic records.
    Essentially, S. 2090 empowers the Court to prescribe rules as it 
determines necessary to carry out its pending functions under an e-
filing system. The proposed legislation does not dictate to the Court 
any details requiring inclusion in such rules, but merely authorizes 
the Court to prescribe such rules ``consistent to the extent 
practicable with rules addressing privacy and security issues 
throughout the Federals Courts.'' DAV has no opposition to S. 2090.
                                s. 2091
    S. 2091, introduced by Chairman Akaka by request on September 25, 
2007, would increase the number of the court's active judges.
    If enacted, S. 2091 would increase the Court's number of active 
judges from seven to nine. While the DAV does not have a current 
resolution from its membership on this specific legislation, we 
question the need for more judges at this time.
    Before DAV could support an increase of two more judges, we would 
request that this Committee require the Court include the items 
mentioned below in its annual report. Until this information is made 
available to Congress, it is, in our estimation, premature to expand 
the number of judges to nine full-time active judges.
    DAV believes that Congress should require an annual report from the 
Court that requires the following information:

    (1) The number of appeals filed.
    (2) The number of petitions filed.
    (3) The number of applications filed under section 2412 of title 
28, U.S.C.
    (4) The number and type of dispositions, including settlements, 
cases affirmed, remanded, denied, vacated and appealed to the Federal 
circuit.
    (5) The median time from filing to disposition.
    (6) The median time from the filing of briefs to disposition.
    (7) The number of cases disposed by the Clerk of the Court, a 
single judge, multi-judge panels and the full Court.
    (8) The number of oral arguments.
    (9) The number and status of pending appeals and petitions of 
applications for Equal Access to Justice Act fees.
    (10) A summary of any service performed by recalled retired judges 
during the fiscal year and an analysis of whether any of the caseload 
guidelines established under section 7257(b)(5) of title 38, U.S.C., 
were met during the fiscal year.
    (11) The number of cases pending longer than 18 months.

    Until the Court reports on the above items, DAV cannot determine 
whether additional judges are needed and therefore, cannot support 
additional judges on the Court.
                                s. 2138
    S. 2138, introduced by Chairman Akaka by request on October 4, 
2007, would amend title 38, U.S.C., to establish within the Department 
of Veterans Affairs (VA) the position of Assistant Secretary for 
Acquisition, Logistics, and Construction, and would increase the number 
of authorized Assistant Secretaries and Deputy Assistant Secretaries. 
DAV has no resolution on this matter and, therefore, we have no 
position.
                                s. 2139
    S. 2139, introduced by Senator Klobuchar (D-MN) on October 4, 2007, 
amends title 38, U.S.C., to provide educational assistance under the 
Montgomery GI Bill for members of the National Guard and Reserve who 
serve extended periods of continuous active duty that include a 
prolonged period of service in certain theaters of operation. This bill 
provides that reservists or National Guard soldiers who serve on active 
duty for at least 20 months on or after September 11, 2001, and who 
serve a period of not less than 12 months in a theater of operations 
designated by the Secretary of Defense will, under certain 
circumstances, be entitled to educational benefits under title 38, 
U.S.C., chapter 30. This bill does not involve educational or 
vocational benefits specifically designed for veterans with 
disabilities, and is therefore outside the mission scope of the DAV. 
However, the bill does provide enhancement of educational service 
provided by VA. The DAV, therefore, does not oppose the bill.
                                s. 2309
    S. 2309, introduced by Chairman Akaka on November 6, 2007, amends 
title 38, U.S.C., section 1154, to clarify service treatable as that 
which a veteran engaged in combat with the enemy, and allowing for 
utilization of non-official evidence for proof of service connection 
for a combat-related disease or injury. The DAV supports this bill; 
however, we suggest amendments. This legislation establishes that a 
veteran who ``during active service * * * served in a combat zone for 
purposes of section 112 of the Internal Revenue Code of 1986, or a 
predecessor provision of law, shall be treated as having engaged in 
combat with the enemy in active service for purposes of that paragraph 
during such service in that combat zone.'' The legislation as currently 
written would allow, for example, an Iraqi War veteran who only served 
in Bahrain and was consequently never in danger of being exposed to 
combat the same consideration as an Iraqi War veteran who served inside 
the combat theatre of operation.
    We, therefore, suggest an amendment to this legislation that would 
still consider a class of veterans as having been exposed to combat, 
but suggest that those veterans with service inside the borders of the 
combat theatre of operation receive such consideration, such as those 
serving inside the borders of Iraq, Afghanistan, Vietnam, etc.
                                s. 2471
    S. 2471, introduced by Senator Kennedy (D-MA), improves the 
enforcement of the Uniformed Services Employment and Reemployment 
Rights Act of 1994. DAV has no opposition to the favorable 
consideration of this measure.
                                s. 2550
    S. 2550, introduced by Senator Hutchinson (R-TX) on January 23, 
2008, would amend title 38, U.S.C., to prohibit the Secretary of 
Veterans Affairs from collecting certain debts owed to the United 
States by members of the Armed Forces and veterans who die as a result 
of an injury incurred or aggravated on active duty in a combat zone. 
Although DAV does not have a resolution on this issue, we would not be 
opposed to its favorable consideration by this Committee.
                                s. 2617
    S. 2617, introduced by Chairman Akaka on February 8, 2008, would 
increase effective as of December 1, 2008, the rates of compensation 
for veterans with service-connected disabilities and the rates of 
dependency and indemnity compensation for the survivors of certain 
disabled veterans. The ``Veterans' Cost-of-Living Adjustment Act of 
2007,'' would increase the rates of compensation for veterans with 
service-connected disabilities; however, within the bill is a provision 
that ``[e]ach dollar amount increased under paragraph (1), if not a 
whole dollar amount, shall be rounded to the next lower whole dollar 
amount.'' While the DAV supports the overall intent of this bill, we 
have testified for the past several years that rounding down the 
adjusted rates to the next lower dollar amount will gradually erode the 
value of benefits and they will not keep pace with the rise in the cost 
of living. Rounding down veterans' cost-of-living adjustments unfairly 
targets veterans for convenient cost savings for the government. The 
DAV supports S. 2617, but we urge the Committee to strike the provision 
regarding the rounding down of the COLA. DAV has a long-standing 
resolution opposing the rounding down of our COLA. This resolution, 
Resolution 100, was passed again by the delegates at our last National 
Convention assembled in New Orleans, LA, August 11-14, 2007.
                                s. 2674
    S. 2674, introduced by Senator Burr on February 28, 2008, consist 
of two sections-title I and title II. The provisions of title I address 
``retirement of members of the Armed Forces for disability,'' and the 
provisions of title II address ``compensation of veterans for service-
connected disability. Each title consists of various sections that we 
will address independently.
    Title I of the bill amends chapter 61 of title 10, U.S.C., which 
currently governs retirement or separation from the military for 
physical disability. The bill proposes to divide chapter 61 into three 
subchapters. The first subchapter contains the provisions of the 
existing retirement system (the ``old system''). The second subchapter 
contains the provisions of the new retirement system created by this 
bill, and the third subchapter would contain administrative provisions 
that apply to both retirement systems.
    Members retired for disability after the effective date of this 
legislation would be subject to retire under the new system created by 
this bill, and members retired prior thereto would be subject to the 
old system. However, members retired after October 7, 2001, but prior 
to the effective date of this legislation could make an irrevocable 
choice between the two systems. Those eligible to convert to the new 
system after discharge must do so via the respective Board for 
Correction of Military Records (BCMR).
    The bill, however, does not outline the details of the new military 
retirement system. Instead, the bill requires the Secretary of Defense 
to conduct a study to determine whom and under what circumstances a 
member retired under the new system will receive medical and dental 
care. Congress will then enact provisions of law with respect to who is 
entitled to such medical and dental care only after the report of the 
Secretary of Defense.
    If Congress fails to enact any provisions of law specifying the 
category(ies) of retired servicemembers eligible for health care by the 
date of implementation of the ``enhanced Department of Veterans Affairs 
(VA) disability compensation system'' provided for in title II of this 
bill, then the Secretary of Defense will have sole discretion to 
determine who is eligible for such care. The DAV cannot blindly support 
any piece of legislation that allows for such carte blanche rulemaking, 
especially considering the Defense Department's historical propensity 
for abuse of both discretion and authority concerning this Nation's 
sick and injured servicemembers.
    A more acceptable approach would be outlining which classes of 
service retirees are eligible for medical and dental care within the 
legislative language. It would also be more acceptable to construct 
legislation wherein improvements in transition benefits are not 
dependent on the creation of a new VA disability compensation system.
    Title II implements what the bill calls the ``enhanced VA 
disability compensation system.'' Section 201 in title II of the bill 
requires the Secretary of Veterans Affairs (the Secretary) to examine a 
number of factors in conducting a study, including: The injuries for 
which disability compensation is paid under other programs; the extent 
to which quality-of-life and loss of earnings are separately taken into 
account in those other programs; the effect of injuries on earnings, 
quality-of-life, psychological state, physical integrity, and ability 
to adapt socially; and the extent to which disability compensation may 
be used as an incentive to undergo treatment or rehabilitation. Section 
202 requires a similar study on transition benefits.
    The bill requires those studies to reflect current concepts of 
medicine and loss of earning capacity from specific injuries. The 
Secretary would also be required to consider which injuries the new 
rating schedule would cover; the level of compensation for loss of 
quality-of-life as well as standards for determining loss of quality-
of-life. Additionally, the VA is to study the level of compensation for 
loss of earning capacity that takes into account the age of a veteran, 
and the extent to which disability compensation may be used as an 
incentive to undergo treatment and vocational rehabilitation.
    First, the foregoing studies are unnecessary because the Secretary 
has already contracted with Economic Systems, Inc. to conduct a study 
that takes into account most of the items listed in this section of the 
bill. A second study, apart from being redundant, would be an unwise 
use of departmental resources.
    The substance of some of these studies are also quite concerning to 
us. For example, the ``Secretary would be required to consider the 
appropriate injuries to be covered under the new disability rating 
schedule'' of which Congress must later approve or disapprove. We feel 
this language is aimed at removing those disabilities that some feel 
should not be in the rating schedule. If that is the case, numerous 
scenarios exist that provide a valid basis for all disabilities 
currently in the rating schedule.
    These studies also suggest using age as a determining factor when 
considering average loss of earnings capacity. This provision negates 
the practice that all disabled veterans are compensated based on the 
``average'' loss of earning capacity. Ultimately, we feel this suggests 
compensating an older veteran at a lower rate than a younger veteran 
for the same disability. However, we also realize the intent behind 
this may be to compensate a younger veteran at a higher rate 
(temporarily) because of findings from the Veterans Disability Benefits 
Commission indicating younger veterans suffer increased rates of 
earnings' loss throughout their life when faced with disabilities 
earlier in life.
    The inherent problem with such an approach would be determining at 
what age a veteran would no longer be entitled to a higher rate of 
compensation. Many individuals in today's society who are in relative 
good health choose to continue working well into their 80's, such as 
many senators and congressmen. This approach would inevitably create 
unfairness.
    Therefore, age must ultimately be left out of any determination 
concerning the average loss of earning capacity. Compensating older 
veterans at lower payment rates than younger veterans, while at the 
same time boasting a new compensation system based on 21st century 
medicine and 21st century technology is self-contradicting. Access to 
21st century medicine cures very few conditions; however, it does 
extend the lives of people that once would have lived much shorter 
lives because of disability, thereby allowing them to continue working 
beyond the average retirement age if they desire, or if they are 
capable.
    While the DAV does not oppose innovative treatment plans with real 
health-related benefits, using compensation as an incentive to undergo 
treatment is discriminatory against veterans. Furthermore, the 
underlying assumption is that 21st century medicine is likely to cure 
veterans' disabling conditions. That is unfortunately not the case. For 
example, musculoskeletal disabilities such as gunshot wounds, joint 
replacements, degenerative disc disease, and arthritis; injuries to 
sensory organs such as hearing loss and blindness; injuries to the skin 
such as disfiguring and debilitating burn scars; systemic diseases such 
as diabetes; digestive system disabilities such as Crohn's disease, 
abdominal injuries such as gunshot wounds resulting in adhesions of the 
peritoneum, hepatitis, or bowel section removal; and diseases and 
injuries to the central and peripheral nervous systems such as multiple 
sclerosis, amyotrophic lateral sclerosis, or combat injuries resulting 
in paralysis of long nerves, are not curable.
    The logistics required for such changes would be nearly impossible 
with VA's current workforce. Perhaps more important is the way such a 
law would be perceived by the veteran community. The disabled veteran 
community will view the current proposal as another way of saying that 
veterans are being less than honest or that by making it harder to 
qualify for disability payments, less will be entitled to such 
payments. The DAV is not insinuating that such a mindset exists behind 
this proposal. Nonetheless, the scars of the past do not heal quickly, 
or do not heal at all. Various sections of society have severely 
scrutinized disabled veterans for the benefits they receive, albeit 
more so in the past than the present. This provision, as well as others 
in this bill will open those old wounds.
    Instead of using disability compensation as an ``incentive'' to 
undergo treatment or vocational rehabilitation, Congress should focus 
on removing the barriers to accessing treatment and vocational 
rehabilitation. Those barriers include obstacles such as access to 
childcare and ability to receive time off work, to mention a few 
examples.
    Section 207 of the bill modifies title 38, U.S.C., section 1155, by 
providing that ratings under the existing compensation system will 
continue to be based upon average impairment of earning capacity. For 
veterans receiving compensation under the ``enhanced VA disability 
compensation system,'' the ratings must reflect average loss of earning 
capacity and quality of life.
    The DAV realizes the intent of this bill is not to create two 
compensation systems, but rather to avoid it. We appreciate that 
mindset, and understand that once the new system under this bill goes 
into effect, there would be only one system under which any benefit is 
paid. Nonetheless, this bill still creates two ``classes'' of veteran. 
For example: veterans under the new system would receive a quality-of-
life payment for an identical disability that does not warrant such a 
payment under the old system; veterans under the old system would 
receive compensation for disabilities which no longer exist in the new 
system.
    This provision is inherently unfair. Only those veterans rated 
under the ``new system'' will receive a ``quality-of-life payment.'' 
This appears to be an incentive for every veteran to choose entrance 
into the new system. If VA and Congress give quality-of-life payments 
serious consideration, then there is no justifiable reason to provide 
such payments only to those that fall under the new system or that 
otherwise choose to convert to the new system. If this provision is not 
meant to entice veterans into the new compensation system, then what 
justification is there for not providing such payments to all disabled 
veterans?
    Section 207 of the bill also creates, amongst others, a new 
statute--title 38, U.S.C., section 1207--which provides that, as 
frequently as the Secretary considers it appropriate, the Secretary 
must reevaluate and, if necessary, adjust the disability rating for any 
veteran receiving compensation under new chapter 12.
    Under this section, not only will VA be forced to ``adjust'' a 
veteran's rating in accordance with repeat examinations, but will also 
be required to adjust the rating in accordance with changes made to the 
rating schedule incorporated since that veteran's last examination. 
This renders moot the first sentence in the new section 1155(e) that 
states: ``an adjustment in the Rating Schedule will not result in a 
veteran's existing disability rating being reduced * * *.'' This 
sentence creates a fallacy via section 1155(e) resulting in the 
potential that a veteran could get reduced based on perceived 
improvement then reduced further in the same rating based on a change 
in the rating schedule. In the alternative, a veteran with no 
improvement may nonetheless receive a reduced rating based solely on a 
change in the rating schedule. Worse yet, depending on changes in the 
rating schedule since a veteran's last examination, he/she could 
actually receive a reduced rate of compensation even though the 
veteran's disability increased in severity. The DAV cannot agree with 
this.
    When VA chooses not to re-evaluate a particular disability, it is 
usually because that veteran has already undergone multiple 
examinations over the course of many years. Therefore, VA bases the 
determination not to re-evaluate a veteran's disabilities upon 
objective medical evidence. There is no conceivable harm to the 
interest of the veteran or the government in this practice. This 
provision attempts to fix what is not broken.
    Likewise, this requirement would cause irreparable harm to the 
efficiency and management capability of the claims process, in part by 
causing the backlog of claims to increase exponentially. No claim 
(apart from disabilities such as amputation and the few wherein a 
medical examiner opines as stable) would ever be put to rest. 
Therefore, hundreds of thousands of self-perpetuating claims would be 
added to the backlog each year. The number of pending claims would 
climb into the millions very rapidly. There would be no cost-savings 
realized because of the logistics required. The VA does not, and will 
not, have the number of claims adjudicators and compensation and 
pension examiners necessary to control the inevitable result of this 
provision.
    Continual re-examinations are also unnecessary. Veterans Health 
Administration procedures already require VHA to notify the appropriate 
regional office whenever a service-connected disabled veteran receives 
medical care for a service-connected disability. The regional office 
concerned is then to consider to what extent, if at all, the medical 
report will affect that veteran's disability rating. These procedures 
are outlined in VA's Health Care Adjudication Manual, M-1. Likewise, 
regulations requiring VBA to accept such reports as claims can be found 
at title 38, Code of Federal Regulations, section 3.157 (2007).
    This and the following provision will also have severe unintended 
consequences that must be considered. One such consequence is a barrier 
to death benefits under title 38, U.S.C., section 1318. This statute 
allows a surviving spouse to receive dependency and indemnity (DIC) 
benefits if the veteran spouse was rated permanent and totally disabled 
(P&T) for no less than 10 consecutive years prior to death. The effect 
of these provisions will ultimately result in many veterans evaluated 
as P&T receiving reduced rates of compensation, whether or not the 
propriety of such reductions are lawful, which will be up for debate in 
many cases. These reductions will interrupt the 10-year window of their 
P&T ratings resulting in VA denying surviving spouses DIC benefits 
under section 1318.
    Two other consequences of equal if not greater severity is the 
termination of benefits under title 38, U.S.C., chapter 35, Survivors 
and Dependents Educational Assistance (DEA), and the VA Civilian Health 
and Medical Program (CHAMPVA) under title 38, U.S.C., Section 1781 and 
title 38, Code of Federal Regulations, Section 17.270. Each of these 
benefits are established when, inter alia, a veteran is rated by VA as 
P&T.
    DEA provides educational opportunities to children whose education 
would otherwise be impeded or interrupted because their veteran-parent 
suffers from a severe service-connected disability. The objective is to 
provide educational assistance to aid children in attaining the 
educational status they might normally have aspired to and obtained but 
for the disability of such parent. Similarly, DEA provides educational 
assistance for veterans' spouses with a service-connected total 
disability, permanent in nature, to assist them in supporting 
themselves and their families at a standard of living to which the 
veteran, but for the veteran's service disability, could have expected 
to provide for the veteran's family.
    Likewise, CHAMPVA benefits provide a totally disabled veteran with 
the means to ensure that his/her family has access to health care 
insurance. Many such veterans are not military retirees otherwise 
eligible for TRICARE benefits, and are unemployed; therefore, they 
usually do not have other private health care coverage. In these 
circumstances, these families are dependent solely on CHAMPVA for 
health insurance.
    This and the following provision would prevent many families from 
ever establishing entitlement to such benefits because of the perpetual 
nature which the claims process will become. Worse yet, is that many 
families currently utilizing DEA and CHAMPVA benefits will have future 
entitlement to those benefits severed at the most critical times, 
during the course of attending school or obtaining potential life 
saving medical care.
    A veteran rated totally disabled will not require an actual rating 
reduction in order to lose these benefits. There are two vital 
triggering mechanisms that determine entitlement to these benefits, at 
least pertaining to this discussion--a rating of permanent and total. 
Therefore, when a veteran enters the new system proposed by this bill, 
either voluntary or involuntary, that veteran will be re-evaluated 
thereby losing the permanent rating status required for entitlement to 
both DEA and CHAMPVA.
    Nonetheless, many veterans will receive a rating reduction under 
this system, usually for no other reason than a misapplication of the 
law. The cumulative effect will result in a totally disabled veteran's 
family losing a large portion of their household income, potentially 
their only income, followed by a revocation of vital health insurance 
and education benefits. The veteran in this scenario will also lose 
entitlement to dental care at the VA.
    Ultimately, through reduced compensation resulting in poverty for 
entire families, compounded by a revocation of health insurance, and 
further compounded by a veteran's inability to send his/her children to 
college, the scars left by the damaging effects of this legislation 
could last for generations. This scenario is not an exaggeration. This 
portion of the legislation, as well as section 207(b)(3) below, has 
unintended detrimental consequences. The DAV has long-standing 
resolutions objecting to such changes. Therefore, we must actively 
oppose this bill.
    Section 207(b)(3) of the bill amends title 38, U.S.C., section 110, 
which currently prohibits the reduction of a disability rating that has 
been in force for 20 or more years. This change will allow VA to 
continue to periodically reevaluate a veteran's disability. This change 
expressly severs veterans from protection from reductions in disability 
ratings that have been in effects for a long period of time--20 or more 
years.
    Congress originally enacted the protections provided by title 38, 
U.S.C., section 110 in 1958. See 38 CFR Sec.  3.951(b) (2007). Congress 
further amended section 110, inter alia, in 1964. Apart from the 
general concern for the interests of disabled veterans, Congress 
realized the subsequent positive impact this enactment would have on 
the Administration. In addressing the administration's concerns, 
Congress, inter alia, stated: ``It has in practice, however, worked 
extremely well, and has given no problem in the administration of the 
various veterans' laws. In fact, quite the contrary has been the case. 
It has eased administration and reduced administrative costs.'' 1964 
Acts. House Report No. 1407, see 1964 U.S. Code Cong. and Adm. News, p. 
2833.
    To now revoke the 20-year protection is highly precarious and 
unfair. We believe it will cause more unrest in the nearly 3 million 
veterans receiving compensation than for which anyone is prepared. 
Apart from all future veterans, this provision will affect more than 
any other those disabled veterans that have endured their disabling 
conditions the longest. This oldest group of veterans will suffer more 
unnecessary instability in their lives than any other group. Likewise, 
younger groups of veterans will never achieve such stability. Taking 
away this protection and still calling this an enhanced benefit plan is 
simply inconceivable.
    Many VA adjudicators will inevitably see this change as the 
proverbial suggestion, if not a mandate, to reduce any protected rating 
that can be justified. The downstream result will be that those 
veterans and their families that have come to depend on VA compensation 
the most will lose that compensation at critical times in their lives. 
Surely, this is not the way a grateful nation treats its disabled 
veterans.
                                s. 2683
    S. 2683, introduced by Chairman Akaka on March 3, 2008, would amend 
title 38, U.S.C., to modify certain authorities relating to educational 
benefits for veterans. Section I of the bill, concerning accelerated 
educational assistance payments, clarifies that veterans seeking 
employment in a high technology industry are not required to seek an 
associate degree or higher in order to qualify for the accelerated 
payments. This bill does not involve educational or vocational benefits 
specifically designed for veterans with disabilities, and is therefore 
outside the mission scope of the DAV. However, the bill does provide 
enhancement of educational service provided by VA. The DAV therefore 
does not oppose the bill.
                                s. 2701
     .
    S. 2701, introduced by Senator Ben Nelson on March 4, 2008, would 
direct the secretary of Veterans Affairs to establish a national 
cemetery in the eastern Nebraska region to serve veterans in the 
eastern Nebraska and western Iowa regions. DAV has no mandate from its 
membership on this matter. However, we would not oppose its favorable 
disposition by this Committee.
     .
                                s. 2737
    S. 2737, introduced by Chairman Akaka on March 10, 2008, the 
``Veterans' Rating Schedule Review Act,'' amends title 38, U.S.C., 
section 7252(b), by granting the Court jurisdiction to review 
``whether, and the extent to which, the schedule of ratings for 
disabilities complies with applicable requirements of [title 38, 
U.S.C.,] chapter 11.'' The DAV supports this legislation because, while 
continuing the Court's prohibition from reviewing the content of the 
VA's rating schedule, this amendment would clarify the Court's 
authority to review the rating schedule in so far as ensuring its 
agreement with chapter 11, and therefore its compliance with 
congressional intent.
                                s. 2768
    S. 2768, introduced by Chairman Akaka on March 13, 2008, would 
provide a temporary increase in the maximum loan guaranty amount for 
certain housing loans guaranteed by the Secretary of Veterans Affairs. 
Although DAV has no mandate from its membership on this matter, we 
would not oppose its favorable disposition by this Committee.
                                s. 2825
    S. 2825, introduced by Chairman Akaka on March 13, 2008, would 
amend title 38, U.S.C., to provide a minimum disability rating for 
veterans receiving medical treatment for a service-connected 
disability. This bill provides a compensable rating for any veteran who 
requires continuous prescribed medication or the use of one or more 
prescribed adaptive devices for treatment of a service-connected 
disability. Although DAV does not currently have a resolution on this 
issue, its purpose is beneficial to disabled veterans and DAV would 
encourage this Committee to favorably support its passage.
                                s. 2864
    S. 2864, introduced by Chairman Akaka on April 15, 2008, amends 
title 38, U.S.C., to include improvement in quality-of-life in the 
objectives of training and rehabilitation for veterans with service-
connected disabilities. This bill also repeals the limitations on the 
number of veterans enrolled in a program of independent living service 
and assistance. A disabled veteran's quality-of-life, as well as his/
her independence in life is integral. Many who live without disability 
can easily take these issues for granted. However, a veteran facing a 
lifetime of disability does not have the luxury to do so. This bill 
would require the VA to focus on this important and ever challenging 
struggle in the lives of disabled veterans. The DAV supports this bill.
                                s. 2889
    S. 2889, introduced by Chairman Akaka by request on April 17, 2008, 
would, in pertinent Section 7 and Section 8, make permanent the 
authority to carry out income verifications and increase the rate of 
disability compensation and DIC. DAV is opposed to making permanent the 
authority to carry out income verifications since there are recognized 
savings realized when Congress renews this provision. Those serving can 
be used to enhance other programs for disabled veterans. Under Section 
8, DAV continues its opposition to the rounding down of our annual 
COLA.
                                s. 2951
    S. 2951, introduced by Senator Baucus (D-MT), on May 1, 2008, would 
require reports on the progress of the Secretary of Veterans Affairs in 
addressing causes for variances in compensation payments for veterans 
for service-connected disabilities.
    In May 2005, the VA Office of Inspector General (VAIG) issued a 
report on the variances in VA disability compensation payments. It is 
interesting to note that the VAIG found some key distinctions in 
important areas of claims adjudications between those States with 
higher compensation rates (high cluster) and those States that had the 
lowest compensation rates (lower cluster).
    In the higher cluster States, training was a priority; raters were 
more experienced; medical evaluations were better; there was a lower 
error rate; it took longer to render a decision (more thorough 
decision); fewer pending claims, despite more claims, more veterans on 
the role and more thorough decisions; fewer cases were sent (brokered) 
to other regional officers; and there was a higher percentage of 
represented cases. The converse was true in the lower cluster States.
    It is also important to note that represented veterans in the lower 
cluster States did as well as veterans from higher cluster States. DAV 
supports this legislation to require the Secretary to report on the 
progress or the variances in compensation payments.
                                s. 2961
    S. 2961, introduced by Chairman Akaka on May 1, 2008, would amend 
title 38, U.S.C., to enhance refinancing of home loans by veterans. 
This measure would increase the maximum percentage of loan-to-value of 
refinancing loans subject to guaranty under title 38, U.S.C., section 
3710(b)(8) from 90 percent to 95 percent. DAV has no opposition to this 
worthy bill.
                           draft legislation
     Draft bill introduced by Senator Casey (D-PA) would help prevent 
the unnecessary foreclosures for Servicemembers. This measure proves 
that:

    <bullet> Servicemembers who become seriously injured or ill during 
their military service will be given a 1-year protection from 
foreclosure after their military service ends.
    <bullet> Any servicemember, including those above, who files a 
disability claim with the VA within 1 year of the end of their military 
service, will be protected from foreclosure until 30 days after the VA 
adjudicates their claim.
    <bullet> The definition of ``Serious Injury and Illness'' is taken 
from the Service Members Civil Relief Act; DAV has no objection to this 
bill.
                           draft legislation
    Draft bill introduced by Senator Menendez (D-NJ) would amend title 
38, U.S.C., to direct the Secretary of Veterans Affairs to provide a 
flat allowance for spouses and children of certain veterans who are 
buried in State cemeteries. DAV has no position on this matter.
                           draft legislation
    Title I of the ``Veterans' Benefits Enhancement Act of 2008'' makes 
minor changes to title 38, U.S.C., chapter 36, regarding education 
benefits under that chapter. The DAV has no opposition to such changes. 
Title II of the bill deals with provisions that would, amongst others: 
Permit VA to temporarily stay adjudication of claims while awaiting 
pending court decisions, thereby allowing the Board of Veterans' 
Appeals to decide certain cases out of docket number order. The DAV 
opposes this portion of the bill.
    Section 201 of the bill states that, ``[n]otwithstanding any other 
provision of this title, the Secretary may temporarily stay the 
adjudication of a claim or claims before the Board of Veterans' Appeals 
or an agency of original jurisdiction when the Secretary determines 
that the stay is necessary * * *.'' A VA claimant's only remedy during 
such a stay would then be to petition for review of the action under 
regulation(s) yet to be promulgated by the Secretary. The claimant 
would be required to file such a petition with the United States Court 
of Appeals for the Federal Circuit (Federal Circuit), which could then 
set aside such action only if it determines that the action is 
arbitrary and capricious. The Secretary, in this by-request 
legislation, is essentially requesting unilateral authority to stay 
cases at will, thereby shifting the onerous burden of challenging such 
a stay to a VA claimant.
    The Secretary and Chairman of the Board currently have authority to 
manage the activities of the Board that includes authority to stay 
classes of cases before it for well-articulated reasons of sound case 
management. However, that authority does not include the unilateral 
authority to stay cases pending an appeal to the Federal Circuit of a 
decision by the Court of Appeals for Veterans Claims. Where the 
Secretary or the Chairman of the Board desires to stay the effect of 
any decision of the Court of Appeals for Veterans Claims pending appeal 
to the Federal Circuit, the proper course is to file in the court that 
has jurisdiction over the particular case a motion to stay the effect 
of that case.
    The Secretary's by-request legislation is a result of his 
disagreement with judicial precedent that decisions of the Court, 
unless or until overturned by the Court en banc, the Federal Circuit, 
or the Supreme Court, is a decision of the Court on the date issued. 
Any rulings, interpretations, or conclusions of law contained in such a 
decision are authoritative and binding as of the date the decision is 
issued and are to be considered and, when applicable, are to be 
followed by VA agencies of original jurisdiction, the Board, and the 
Secretary in adjudicating and resolving claims. Ramsey v. Nicholson, 20 
Vet. App. 16, 23 (2006) (citing Tobler v. Derwenski, 2 Vet. App. 8, 14 
(1991)).
    The foregoing notwithstanding, the Ramsey Court concluded that it 
is reasonable for the Board to stay its proceedings in a case that 
arguably falls within the precedent of one pending appeal at a higher 
Court. However, the Court was clear in that the Board cannot choose to 
ignore a decision as if it had no force or effect. Absent reversal, a 
decision is law that the Board must follow. Nonetheless, where the 
Secretary desires a stay, the proper course is to file in the court 
that has jurisdiction over the particular case a motion to stay the 
effect of that case-to do so unilaterally is unlawful. Ramsey, 20 Vet. 
App. at 38-39.
    The Ramsey Court also made clear, in light of explaining the proper 
pathway to lawfully request a stay of cases, that VA's consistent 
practice of refusing to follow the law of the circuit unless it 
coincides with the Board's views (meaning the issuance of unilateral 
stays) ``is intolerable if the rule of law is to prevail.'' Ramsey, 20 
Vet. App. at 24. The Secretary's by-request legislation seeks 
codification of that ``intolerable'' practice.
    The Secretary's request further ignores the reality that VA employs 
a small army of attorneys, any of whom are qualified to file a motion 
for a stay of proceeding in the proper jurisdiction. The vast majority 
of VA claimants, however, do not have such expertise or resources. The 
system currently in place serves an important check and balance 
function. If the Courts issue a decision that VA sternly disagrees 
with, the Secretary has the resources and authority to appeal to a 
higher Court. If the Secretary wishes, he may file a motion with that 
Court for a stay of proceeding on all cases affected by the case on 
appeal. The higher Court may grant such a motion, thereby allowing the 
stay to continue. If the higher court finds the motion unreasonable, 
they may deny the motion and therefore deny the right to a stay. If the 
motion to stay is granted and a VA claimant wishes to challenge the 
stay, he/she may petition for a writ of mandamus, which the Court 
considers under the All Writs Act.
    Despite the foregoing, in accordance with this legislation, the 
Secretary would have carte blanche ability to stay cases at will. Such 
ability would go unchecked until a stay affected a beneficiary with 
enough resources to challenge the stay in the Federal Circuit. Even 
then, the bill contains no language that imposes a time limit on a 
stay. For instance, if VA chooses to appeal a case to the Court of 
Appeals for the Federal Circuit, and therefore stays like cases at the 
agency level and eventually loses the appealed case, there is nothing 
in the bill that would prevent the VA from continuing the stay nearly 
indefinitely while it decides whether to seek a legislative change to a 
judicial precedent of which it disagrees-such as it is expressly doing 
with this by-request legislation. Congress should refuse to award the 
VA such overreaching, and potentially abusive authority.
                           draft legislation
    Senator Vitter (R-LA) has proposed a bill to amend title 38, 
U.S.C., to make stillborn children insurable dependents for purposes of 
the Servicemembers' Group Life Insurance program. The DAV has no 
resolution on this issue, which lies outside the mission scope of the 
organization. DAV has no opposition on this bill.
                           draft legislation
    Senator Boxer (D-CA) has proposed a bill to require a report on the 
inclusion of severe and acute Post Traumatic Stress Disorder among the 
conditions covered by traumatic injury protection coverage under 
Service Members' Group Life Insurance. The VA has long considered an 
injury or disability one that can be either physical or mental. Severe 
cases of PTSD can be as debilitating and life altering as many physical 
disabilities. Therefore, DAV supports this proposed legislation.

    Mr. Chairman, this concludes my testimony on behalf of DAV. We hope 
you will consider our recommendations. I will be pleased to address any 
questions you or other Members of the Committee may wish to ask.

    Chairman Akaka. Thank you very much, Mr. Violante.
    Mr. Weidman, before you give your statement, I would like 
to address the timeliness of your written testimony. I 
understand the Committee did not receive your testimony until 
yesterday evening. A full day and one-half after it was due.
    As I mentioned earlier, it helps our Committee work that we 
receive this on time and late reception of these, of course, is 
unacceptable; and I ask you to abide by the Committee rules.
    So, Mr. Weidman, would you please give your statement.

   STATEMENT OF RICK WEIDMAN, GOVERNMENTAL AFFAIRS DIRECTOR, 
                  VIETNAM VETERANS OF AMERICA

    Mr. Weidman. Duly noted, Mr. Chairman.
    I will comment on and would like to associate my remarks 
with my colleagues to my right. There were many pieces of fine 
legislation here. I'll just touch on things that were not 
touched on this morning.
    We are very much in favor of S. 1718. We're equally 
strongly--and perhaps even more so--in favor of Senator Brown's 
other bill that would essentially re-establish veterans offices 
on campuses around the country and provide money for tutors. It 
will enhance whatever GI Bill we have in effect at any given 
time and help more veterans stay in school to completion.
    S. 2990. Everyone is for greater computer security. But, 
one thing--the VA may use this to come up with their old canard 
that they cannot give detailed information about what is going 
on at the Board and at the Court of Veterans Appeals because it 
may compromise privacy concerns.
    Frankly, we do not think that is the main reason. It is 
lack of transparency. So, if in the Committee report you could 
duly note that, we would strongly recommend that, sir.
    S. 2091. Increasing of judges. We are in favor of it, but 
only if VA makes the commitment to have more staff and better 
management of the caseload that it does have. And, last but not 
least, as a part of that perhaps, or as a separate bill, to 
explore some kind of sanctions on the VA when it does not carry 
out the court's orders.
    It is very often true that the court will order anywhere 
from seven to nine things--and the same thing with the Board--
and VA does only two. What that does is churn claims back and 
forth through the system, which further contributes to the 
backlog.
    So, in regard to the overhaul of the Compensation and 
Pension system, Senator Burr, we appreciate the strong effort 
on your behalf in looking to reform that.
    Most of the problems, however, we believe, do not need a 
different system. You need proper implementation of the system 
we have and holding people accountable for what they are and 
are not doing. To be giving out bonuses, given the shoddy job 
that the VBA is doing today is, to us, simply outrageous; and 
we would like to see it stopped.
    In regard to S. 2309 and the presumption that an injury 
occurred in a war zone is enough for the stressor (if it is 
PTSD) or the incident (if it is a physiological injury). We 
would point out that it is very difficult to document this. I 
served as a medic in I Corps Vietnam and, frankly, the 
paperwork lots of time was acting. In a forced choice between 
filling out the field medical card and saving someone's life, 
the life of that GI who was wounded came first.
    And, it is very often true that you do not have complete 
medical records. I have a lot of contact with the young people 
coming home, particularly a number of young medics, and they 
tell me it is still happening in the field--where there is not 
complete documentation of incidents.
    I would also point out that the re-analysis of the National 
Vietnam Veterans Readjustment Study that was released in August 
of 2006--the Dorwin study--that they went back and found 
documentary evidence in over 90 percent of the veterans on that 
statistically valid random sample of Vietnam veterans. They had 
documentary proof in the way of either after action reports, 
medical records or newspaper clips, or after-action histories 
in the Army and the Navy and Marine Corps archives.
    So, to believe that somehow veterans suddenly lose their 
honor when they get hurt is simply an unacceptable notion to 
us. This bill is very much needed and we strongly support your 
early passage of it. We thank the chairman for your proactive 
action in this regard.
    When it comes to USERRA, S. 2471, we are in favor of 
anything that will improve the enforcement, but we have doubts 
about OSC even before the news that broke in the papers this 
morning about the Office of Special Counsel.
    We have tried enforcement now for years and have changed 
the law and strengthened the law several times since 1991 in 
order to have it work better.
    Perhaps it is time to take a different approach and move to 
incentivize employers. A very small percentage of America's 
employers are paying a cost of this war in that they have 
employees who are Guard and Reserve soldiers who are activated 
not once but multiple times.
    Tax breaks for those employers and making available 
retraining dollars to those employers when they have to train a 
temp to take that individual who has been activated's place; 
and to retrain the person, Guard or Reserve soldier, when he or 
she returns to catch up with what they missed during the 
anywhere from 12 to 15 months they were away, would be 
extraordinarily helpful.
    I see I am out of time. I would be glad to answer any 
questions.
    Let me just end with one comment on S. 22. It is the most 
important thing, the most important thing, that the Congress 
can do for these young men and women returning home today.
    If in our private life we had the opportunity to invest one 
dollar and it was guaranteed that within 10 years we would have 
seven dollars back, it would be a foolish individual indeed who 
would not invest that one dollar. And that is what the return 
would likely be on today's GI Bill, just as it was on World War 
II's GI Bill.
    I thank the chair.
    [The prepared statement of Mr. Weidman follows:]
 Prepared Statement of Richard Weidman, Executive Director for Policy 
          and Government Affairs, Vietnam Veterans of America
    Good morning, Mr. Chairman. On behalf of VVA National President 
John Rowan and all of our officers and members, I thank you for the 
opportunity to share our thoughts on these pieces of pending vital 
legislation with you and the other distinguished Senators and this 
panel. With your permission, I will keep my remarks brief and to the 
point.
          s. 1718--the veterans education tuition support act
    The ``Veterans Education Tuition Support Act,'' amends the 
Servicemembers Civil Relief Act to require an institution of higher 
education, in the case of a servicemember who, because of military 
service, discontinues a program of education at an institution that 
administers a Federal financial aid program, to: (1) refund to the 
servicemember tuition and other fees paid for the portion of the 
program of education for which the servicemember did not receive 
academic credit because of such military service; and (2) provide the 
servicemember an opportunity to reenroll at the institution with the 
same educational and academic status that the servicemember had when 
the program was discontinued because of the military service.
    Vietnam Veterans of America (VVA) strongly supports early enactment 
of this proposal. This proposal will provide simple common sense equity 
for those called to active duty, and is the least that institutions 
should do for those who place their lives on the line for all of us. It 
is a shame that there needs to be a law passed in order to achieve this 
simple goal, but we know from talking to young servicemembers that this 
proposed law is much needed.
                 s. 2090--privacy and security concerns
   s. 2091--increasing the number of judges at the court of veterans 
                                 appeal
    VVA favors enactment of both measures. Increasing the number of 
judges, if it accompanied by hiring of additional personnel to assist 
the judges in their work, should help somewhat to cut down the 
unconscionable delays currently experienced by veterans waiting for a 
decision on their claim before the court.
    VVA also favors strengthening security of records as long as it is 
accompanied by report language that makes it clear that general data on 
cases before the court is to be released into the public domain as 
appropriate. In other words, it must be made clear that VA cannot 
withhold vital data as to what is happening with cases pending before 
the court using their canard of protecting each veteran's privacy. If 
VA were really worried about privacy of the individual veteran, then 
the medical records of individuals would not be wide open (with no 
record) to any physician or other generally authorized person in the 
Veterans Health Administration whether there was a legitimate need for 
the person accessing the data to be looking into that veterans' record 
or not. Still, with the above noted reservation, VVA favors passage of 
S. 2090.
   s. 2138--department of veterans affairs reorganization act of 2007
    VVA favors enactment of this proposal, as the needs and demands of 
construction is a huge job in and of it, and should not be combined 
with any other procurement or management activities. VVA does hope that 
the Committee will take a close look at why regulations fully 
implementing Public Law 109-461, particularly as it pertains to 
procurement utilizing service-disabled veteran-owned small business 
concerns of all sort, including construction.
 s. 2139--national guard and reserve educational benefits fairness act 
                                of 2007
    While VVA favors full equity for National Guard and Reserve 
soldiers who have been activated since 2001 (same hostile fire should 
equal same benefits), the way to achieve parity or fairness regarding 
the educational benefits is not to increase financial contributions of 
Guard and reservists in our view, but rather early enactment of S. 22 
as amended. Should that prove to not occur this session of Congress, 
then VVA would not oppose this bill.
             s. 2309--compensation for combat veterans' act
    VVA strongly favors this bill, and thanks the Chairman for 
advancing this proposal to put an end to any attempt by DOD or VA to 
deny compensation based on MOS or other factors which may not mean much 
given the nature of warfare in Iraq and Afghanistan today. VVA is 
painfully aware of how VA and/or DOD can and sometimes will play this 
``game'' with veterans in regard to exposure to certain conditions 
during military service that can cause illness or injury.
          s. 2471--userra enforcement improvement act of 2007
    VVA favors enactment of this proposed legislation as taking several 
much needed steps to strengthen and improve the USERRA system for 
ensuring re-employment rights of individuals who are members of the 
Reserves or of the National Guard.
    Having noted that we favor this initiative, VVA also suggests to 
the Committee that there is not enough staff at the Veterans Employment 
& Training Service (VETS) of the United States Department of Labor 
(USDOL) who are adequately trained and supervised to do proper 
investigations regarding re-employment. VVA would hope that the 
Appropriations Committee would add to the VETS staff and to the VETS 
training budget enough additional resources to close this gap between 
what needs to be done and what is now happening in many States.
    VVA further suggests that a very small percentage of businesses are 
bearing a disproportionate share of the burden of paying for these wars 
in which we are currently engaged, in that they are the ones who DO 
support their employees who are also Guard and Reserve soldiers when 
they are deployed. These employers pay the cost of lost productivity, 
the cost of hiring and training a temporary employee while the Guard 
soldier or reservist is on active duty, and in many cases the cost of 
re-training the returning service person whose skills have become 
outdated and the cost of helping that person readjust to civilian life 
again.
    Therefore, VVA strongly urges the Congress to consider two options: 
First, to provide tax incentives for those employers who have Guard and 
Reserve soldiers on their payroll who are activated for the 
proportional number of months in a given year that their employee was 
away; and, two, to make available training dollars through USDOL to 
both train the temporary replacement worker and the returning 
servicemember when they come back to the job. These two measures 
together would materially strengthen the support for the National Guard 
and Reserves from the employer community, but we believe it would 
greatly reduce the number of problems with re-employment rights, 
therefore reducing the number of complaints dramatically.
    What we are really suggesting is that we look to better educate the 
employers as to what is their responsibility under the USERRA law 
BEFORE there is a problem and everyone gets emotional, but also that 
the employers' perspective and needs should be taken into account. 
Frankly, VVA believes that providing real incentive for voluntary 
compliance will prove to be far more effective than any or all 
enforcement efforts.
   s. 2550--(hutchison) combat veterans debt elimination act of 2008
    S. 2550 would prohibit the Secretary of Veterans Affairs from 
collecting debts owed to the United States by certain members of the 
Armed Forces or veterans who die as a result of an injury incurred or 
aggravated on active duty in a war or a combat zone after September 11, 
2001. It would except any amounts owed the United States under Federal 
housing and small business loan programs from such prohibition on debt 
collection.
    VVA favors enactment of this measure. We should be providing 
support and assistance to the family, not hounding them with debt 
collectors.
          s. 2573--veterans mental health treatment first act
    This proposal would amend title 38, United States Code (U.S.C.), to 
require a program of mental health care and rehabilitation for veterans 
for service-related Post Traumatic Stress Disorder, depression, anxiety 
disorder, or a related substance use disorder, and for other purposes.
    VVA is not sure of the intent of this act, but believes that it may 
have some merit if it truly strengthens rehabilitation and training 
that will help in the veterans' recovery to the highest state of 
independence and realization of natural talents possible. For veterans 
of working age, that means re-acquiring the ability to obtain and 
sustain meaningful employment at a living wage. VVA looks forward to 
discussing with this proposal further with the sponsor and co-sponsors, 
and making further comments at the hearing on May 21.
 s. 2617--veterans' compensation cost-of-living adjustment act of 2008
    Effective December 1, 2008, this proposal would increase the rates 
of compensation for veterans with service-connected disabilities and 
the rates of dependency and indemnity compensation for the survivors of 
certain disabled veterans.
    VVA strongly favors this proposed legislation.
    VVA also asks that the Committee take a hard look at payments for 
DIC and at payments for ratings of 60 percent and more to consider 
adjusting the compensation rate base, separate and apart from the 
annual Compensation Cost-of-Living (COLA). VVA agrees with the findings 
of the recent Commission that dealt with compensation for service-
disabled veterans that the payments are purchasing substantially less 
today than was the case a decade or two ago, and even the COLA has not 
resulted in maintaining the buying power to properly ``care for him who 
shall have borne the battle and for his widow and his orphan.''
    s. 2683--amends title 38, u.s.c., to modify certain authorities 
relating to educational assistance benefits for veterans, and for other 
                                purposes
    VVA strongly favors this bill, which would increase the monies 
available to the State Veteran Approving Agencies, who essentially are 
the primary quality assurance program for the educational benefits 
program. These State agencies depend on the VA for the grants that 
enable them to do a thorough job of investigating and approving (or 
not) programs of study that can be used by a veteran and still draw 
education benefits.
    The State Approving agency model has worked well for many years, 
and the primary problems experienced with this program has been that 
there simply was not enough money appropriated to get the job done in 
some past years. VVA thanks Senator Akaka for taking steps toward 
assuring that adequate resources are available to keep these programs 
strong, and to ensure the success of the educational benefits are 
available only for programs that are reputable and real in regard to 
the education the veteran will receive for money spent.
               s. 2737--veterans' rating schedule review
    This proposal would authorize the Court of Appeals for Veterans 
Claims to review whether, and the extent to which, the schedule of 
ratings for veterans' disabilities complies with statutory requirements 
applicable to entitlement to veterans' disability compensation for 
service-connected disability or death.
    VVA favors this act, which could provide some potentially useful 
oversight of VA implementation of the laws pertaining to disability 
compensation. It has long galled us that the rating schedule, as just 
one example, for PTSD has little or nothing to do with the definition 
of PTSD in the DSM IV. Frankly the rating schedule seems to be more 
about dementia than Post Traumatic Stress Disorder (PTSD). However, VVA 
must point out that the VA all too often does not follow the orders 
issued by the Court of Appeals for Veterans claims, or only partially 
follows said orders. VVA recommends that a way be found to make it 
clear that VA is to comply with any and all orders of the Court just as 
it would (should) comply with an order from any other Federal judge.
  s. 2768--provides a temporary increase in the maximum loan guaranty 
    amount for certain housing loans guaranteed by the secretary of 
                            veterans affairs
    VVA generally favors this proposed legislation as a temporary 
measure to alleviate some of the pressure on veteran home buyers (and 
those who are potential home loan lenders to veterans) by in effect 
raising the amount guaranteed by VA.
    However, VVA suggests that there are some broader conceptual 
problems that need to be addressed in the VA home loan guaranty program 
to make it more consistent and coordinated with other VA benefits and 
services, including health care. VVA looks forward to discussing 
possible reform of this program with staff on both sides of the aisle.
           s. 2825--veterans' compensation equity act of 2008
    This proposed measure would amend title 38, U.S.C., to provide a 
minimum disability rating for veterans receiving medical treatment for 
a service-connected disability.
    VVA favors passage of this proposal. This change is needed, 
particularly in regard to the conditions of hearing loss and the 
separate condition of tinnitus, which are more often than not rated as 
0 percent even though there is significant ongoing impairment in the 
ability to function normally in the workplace or in just accomplishing 
every day tasks that those with normal hearing take for granted. The 0 
percent rating is often over-used, apparently in order to save money 
instead of properly compensating for the loss of function, limitations 
on earnings, and other factors such as quality-of-life.
      s. 2864--training and rehabilitation for disabled veterans 
                        enhancement act of 2008
    This proposal would amend title 38, U.S.C., to include improvement 
in quality-of-life in the objectives of training and rehabilitation for 
veterans with service-connected disabilities, and for other purposes.
    Vietnam Veterans of America (VVA) strongly favors enactment of this 
proposal at an early date. There are no limitations on the number 
injured on the battlefield, and therefore there should be no artificial 
limitation placed on the number that can qualify for, enroll in, and 
receive independent living services and assistance. In addition, 
quality-of-life should have long been considered to be a factor in the 
receipt of services by service-connected disabled veterans (but was 
not), and it is time that this be rectified.
          servicemember's group life insurance (sgli) and ptsd
    VVA also encourages the Committee to take up the measure introduced 
by Senator Barbara Boxer of California that would include Post 
Traumatic Stress Disorder (PTSD) as among the conditions covered by 
traumatic injury protection coverage under the Servicemember's Group 
Life Insurance in tandem with your distinguished colleagues on the 
Committee on Armed Services. This is a much needed step that will 
finally recognize that PTSD is every bit as debilitating (possibly even 
more so) than traumatic physical injury, and will make a world of 
difference in how many families will remain intact where the returning 
servicemember is suffering from PTSD.
    Thank you, Mr. Chairman for allowing Vietnam Veterans of America to 
provide you and your distinguished colleagues with our comments on so 
many bills under consideration. VVA further thanks you and Senator Burr 
for your consistent strong leadership for veterans.

    I will be pleased to answer any questions.

    Chairman Akaka. Thank you very much, Mr. Weidman.
    I am going to come last with questions and ask the Ranking 
Member, Senator Burr, for his questions.
    Senator Burr. Thank you, Mr. Chairman. Mr. Weidman, let me 
thank you for your comments and suggest to you that I do 
disagree with one statement you made.
    I am thoroughly convinced, having read most of the 
commission reports, that the system that we currently have 
cannot just be fixed and be functional. That is one of the 
reasons that I spent a lot of time trying to redesign for the 
21st Century a disability system.
    Clearly, if we are missing it, as all of you at the table 
know, I have been extremely open to try to modify where you 
have brought new information or new realities to us, and will 
continue to do that.
    I have got very limited time, so I am going to do something 
I hate to do, which you probably hate even more. I am going to 
start with Mr. Blake and I am going to ask about 11 questions. 
I am going to ask for a yes or no answer, and I am going to go 
your way. I am going to have somebody behind me keep up with 
your answers, if I can. I'll start with you, Carl.
    Do you oppose an immediate 36 percent increase in the 
Montgomery GI education benefit?
    Mr. Blake. Principally I would say no.
    Senator Burr. Mr. Cohen.
    Mr. Cohen. NOVA does not have an opinion at this point. I 
need to research it and get back to you.
    Senator Burr. Mr. Hilleman.
    Mr. Hilleman. No, sir.
    Senator Burr. Mr. Kelley.
    Mr. Kelley. No, sir.
    Senator Burr. Mr. Smithson.
    Mr. Smithson. No, sir.
    Senator Burr. Joe.
    Mr. Violante. No, sir.
    Senator Burr. Mr. Weidman.
    Mr. Weidman. No, sir.
    Senator Burr. Do you oppose an immediate 36 percent 
increase in the education benefit for Guard and Reserve 
soldiers who have been deployed since September 11, 2001?
    Mr. Blake. No, sir.
    Mr. Cohen. NOVA has same answer as before.
    Mr. Hilleman. No, sir.
    Mr. Kelley. No, sir.
    Mr. Smithson. No, sir.
    Mr. Violante. The DAV has no opposition.
    Mr. Weidman. No, sir.
    Senator Burr. Do you oppose an immediate 50 percent 
increase in the education benefits for Guard and Reserve 
soldiers who have not yet deployed in the war on terror?
    Mr. Blake. No, sir.
    Mr. Cohen. Same comment.
    Mr. Hilleman. No, sir.
    Mr. Kelley. No, sir.
    Mr. Smithson. No, sir.
    Mr. Violante. No.
    Mr. Weidman. No, sir.
    Senator Burr. Do you oppose an 80 percent increase in the 
education benefits for career military personnel?
    Mr. Blake. I would say, sir, I could not give you a yes or 
no, because we do not have a position as it relates to career. 
We look at a veteran as a veteran.
    Senator Burr. Thank you.
    Mr. Cohen. NOVA has no position on that.
    Mr. Hilleman. Overall 80 percent increase on all education 
benefits available to active duty----
    Senator Burr. Do you oppose an 80 percent increase in 
education benefits to career military personnel?
    Mr. Hilleman. For the entire force, sir?
    Senator Burr. Yes, sir.
    Mr. Hilleman. I would have to take that question and review 
it--take a look at it.
    Senator Burr. Thank you.
    Mr. Kelley.
    Mr. Kelley. Off the cuff AMVETS would say, no; no 
opposition to that.
    Mr. Smithson. My answer is similar to Mr. Blake's in that 
we see all military personnel and veterans as the same.
    Senator Burr. Thank you.
    Mr. Violante. DAV has no position.
    Mr. Weidman. VVA would favor it as long as DOD pays, sir.
    Senator Burr. Do you oppose allowing Guard and Reserve 
personnel to transfer education benefits to a spouse or a 
child?
    Mr. Blake. Principally, no, sir.
    Mr. Cohen. NOVA has no position on that.
    Mr. Hilleman. We do not oppose it, sir. However, we have 
great concerns about how it is managed.
    Mr. Kelley. No, sir.
    Mr. Smithson. No, sir.
    Mr. Violante. DAV has no position.
    Mr. Weidman. It should be a separate program, sir.
    Senator Burr. Do you oppose allowing more regular component 
military personnel to transfer education benefits to a spouse 
and children.
    Mr. Blake. No, sir.
    Mr. Cohen. NOVA has no position on that, sir.
    Mr. Hilleman. As long as that transfer, sir, does not 
impact the veterans education benefit.
    Mr. Kelley. No, sir.
    Mr. Smithson. No, sir.
    Mr. Violante. No position.
    Mr. Weidman. No, sir, not as long as voc rehab would still 
appertain to the individual should he or she become ill or 
disabled as a result of military service.
    Senator Burr. Do you oppose allowing servicemembers to use 
education benefit to pay off student loans?
    Mr. Blake. Do not really have a position, sir.
    Mr. Cohen. NOVA has no position on that, sir.
    Mr. Hilleman. No, sir.
    Mr. Kelley. Currently there is regulation when you enlist 
that you can opt for one or the other. I do not think I would 
have any opposition to it, but there are already some rules in 
place.
    Senator Burr. Thank you.
    Mr. Smithson. We do not have a position on that.
    Mr. Violante. No position, Senator.
    Mr. Weidman. No, sir.
    Senator Burr. Do you oppose allowing graduates of military 
academies to be eligible for some of the Montgomery GI 
education benefits.
    Mr. Blake. Sir, as an academy graduate, I would have to 
reserve judgment on that question.
    Mr. Cohen. NOVA has no position on that, Senator.
    Senator Burr. Thank you.
    Eric.
    Mr. Hilleman. No Sir.
    Mr. Kelley. No, sir.
    Mr. Smithson. We do not have a position on that.
    Mr. Violante. No position, Senator.
    Mr. Weidman. No, sir.
    Senator Burr. Do you oppose allowing post-Vietnam era 
career personnel who declined education benefits previously to 
now access the Montgomery GI bill?
    Mr. Blake. Principally no, sir.
    Mr. Cohen. NOVA has no position on that, Senator.
    Mr. Hilleman. We do not oppose that position, sir.
    Mr. Kelley. No, sir.
    Mr. Smithson. We do not oppose it.
    Mr. Violante. No position, Senator.
    Mr. Weidman. No position, sir.
    Senator Burr. Do you oppose creating a matching program 
that would help more veterans attend school debt-free.
    Mr. Blake. I am not sure I understand the question, sir. A 
matching program? Could you explain that just quickly, please.
    Senator Burr. Well, I would say that probably includes 
Senator Webb's bill in the way that I have asked it because he 
has a match at the end for private schools.
    Mr. Blake. I would have to think about that and get back to 
you, sir.
    Mr. Cohen. NOVA has no position on that, Senator.
    Mr. Hilleman. No, sir.
    Mr. Kelley. No, sir.
    Mr. Smithson. No position.
    Mr. Violante. No position.
    Mr. Weidman. No position. But, we think that any bill, 
whether it is S. 22 or otherwise, should be the same as that 
accorded to my father when he returned home from World War II, 
sir.
    Senator Burr. Thank you.
    The last thing, Mr. Chairman, I realize the red light is 
on.
    Eric, I wanted to go to you with something you said, that 
the Graham bill would next year fall $400 short of the 
requirements needed by a servicemember to attend school. Do you 
take into account in your assessment the $4,700 in Pell money 
that is available.
    Mr. Hilleman. Sir, if you examine Pell grants, they are 
based on prior years' financial income. So, if an individual 
returned off of deployment or they recently separated from 
active duty, their prior active duty military pay would count 
against them for seeking Pell grants approximately for the 
first 2 years that they went after them.
    With the proposed amount that you have in your bill, sir, 
you would be at $14,000 starting fiscal year 2009. The national 
average cost projected for fiscal year 2009 for education at a 
6 percent inflationary rate is estimated to be about $14,400. 
So, you would fall $400 behind in fiscal year 2009, the year 
that it is enacted.
    Senator Burr. So, the answer is, you did not take Pell into 
account because you do not know if Pell qualifies?
    Mr. Hilleman. Pell does not impact GI Bill benefits, sir.
    Senator Burr. That is correct. But, under the current 
structure for the GI Bill benefit, Pell is part of what a 
servicemember can access for their educational needs.
    Mr. Hilleman. That is true, sir. However, Pell grants are 
considered based on income. So, if prior years tax returns for 
a veteran who is recently separated from service or who is 
still in service, they would not qualify for a Pell grant, sir.
    Senator Burr. Do you fear that there might be a service 
personnel that would hit an income limit based upon what we pay 
in the military.
    Mr. Hilleman. I am sorry, I do not understand the question. 
Say again.
    Senator Burr. I will take it up in a written question to 
you.
    Mr. Hilleman. Please, sir.
    Senator Burr. I have abused my time now and I know Senator 
Webb is anxious to refute everything I just asked.
    [Laughter.]
    Chairman Akaka. Thank you, Senator Burr.
    Senator Webb.
    Senator Webb. If only I had the time.
    Well, let me ask you only two follow-on questions to all of 
that. Then I have something else I want to say.
    Do you believe that Senator Burr and Senator Graham's bill 
provides a better readjustment opportunity for those who have 
left the military than S. 22?
    Mr. Blake. No, sir.
    Mr. Cohen. NOVA has no position on that, Senator.
    Mr. Hilleman. No, sir.
    Mr. Kelley. No, sir.
    Mr. Smithson. No.
    Mr. Violante. No, sir.
    Mr. Weidman. No, Senator.
    Senator Webb. Do you believe that S. 22 provides a better 
readjustment benefit for those leaving the military than 
Senator Burr's bill?
    Mr. Blake. Yes.
    Mr. Cohen. NOVA has no position on that, Senator.
    Mr. Hilleman. We believe that S. 22 provides a more robust 
stabilization and transition benefit, sir.
    Mr. Kelley. Yes, sir.
    Mr. Smithson. We believe that S. 22 provides a more 
equitable and comprehensive approach.
    Mr. Violante. Yes, Senator.
    Mr. Weidman. Yes, sir.
    Senator Webb. Thank you very much.
    Now, I would like to take this few remaining minutes left 
to thank all of you and all of the other members of veterans' 
organizations who are not at the table with you for all the 
assistance that you have provided us over the past 16 months in 
coming up with this bill. I appreciate your cooperation. I 
appreciate your input. I appreciate your suggestions.
    I think we were able to make the type of modifications that 
have resulted in a highly responsible piece of legislation, and 
the most important thing to remember here is that your members 
have earned this benefit.
    At a time when this country was in great chaos, when a lot 
of people just did not know what to do, the people that you 
represent stepped forward for the good of the country. Politics 
aside, they marched toward the sound of the guns and into 
danger.
    Our country owes every one of them the ability to have a 
first-class future and that is what this is all about. There is 
no politics in it whatsoever. We did it for the people who came 
out of World War II and we owe it to the people who have been 
serving since 9/11.
    Thank you.
    Chairman Akaka. Thank you very much, Senator Webb.
    To all of our witnesses, if the VA disability system is 
revised from its current form, should veterans of different 
eras be rated by different sets of rules.
    Mr. Blake.
    Mr. Blake. I would have to say on the face of that 
question, Senator, the answer is no, but I think it is more 
complex than simply the statement of that question. It would 
depend upon how this entire thing is laid out.
    Chairman Akaka. Mr. Cohen.
    Mr. Cohen. I do not believe that the VA has the capability 
nor could it develop the capability of administering a far more 
complex system like your question suggests. Because of the 
complexities and the increase in backlog, it would not be a 
good idea. Also, because it would create different classes of 
veterans, it would be a bad idea. They should all be paid and 
considered the same.
    Chairman Akaka. Mr. Hilleman.
    Mr. Hilleman. Mr. Akaka, the VFW has long opposed a dual 
compensation system.
    Chairman Akaka. Mr. Kelley.
    Mr. Kelley. AMVETS also opposes a competing compensation 
system.
    Chairman Akaka. Mr. Smithson.
    Mr. Smithson. The American Legion also opposes such a 
system.
    Chairman Akaka. Mr. Violante.
    Mr. Violante. DAV is in opposition to such a system.
    Chairman Akaka. Mr. Weidman.
    Mr. Weidman. VVA strongly opposes a two-tier system.
    Chairman Akaka. Several of you have indicated that veterans 
with hearing loss who require the use of a hearing aid have a 
decreased quality-of-life. It is my understanding that some 
veterans have lost their jobs as a result of their hearing loss 
being rated as non-compensable.
    Would you agree that such hearing loss can also reduce 
earnings?
    Mr. Violante. DAV would agree with that, Senator.
    Mr. Weidman. VVA would agree with that and add that 
tinnitus in many cases reduces earnings capacity as well, sir, 
rated separately.
    Mr. Kelley. AMVETS agrees also.
    Mr. Smithson. American Legion agrees.
    Mr. Hilleman. We also agree, sir.
    Mr. Blake. Mr. Chairman, in addition looking at average 
impairment of earning it is very clear that on average such a 
hearing loss definitely does decrease earning capacity.
    Chairman Akaka. Now, this question is for all of you.
    Do your organizations endorse VA's guidelines for 
establishing new national cemeteries? This is a national 
cemetery question.
    Mr. Kelley. AMVETS does agree, Senator.
    Mr. Blake. Senator, I would defer to AMVETS as the resident 
expert of the IB on NCA issues.
    Mr. Cohen. Senator, NOVA would defer to our colleagues at 
the table on this issue.
    Mr. Weidman. Mr. Chairman, VVA thinks that the paradigm by 
which we have done citing in the new rules at VA of national 
cemeteries need to be rethought, just as the medical center 
systems which was set up on a paradigm that the majority of 
those serving being from urban areas and population 
concentration. That is not who is in this Army today.
    Forty percent come from towns of 25,000 or less and sothe 
paradigm of delivering medical care and in the future the 
paradigm of where you cite new cemeteries, national cemeteries, 
is going to have to follow the reality of who is serving today 
and what part of the country are they from and where are they 
returning to which is different than what has been in the past, 
sir.
    Mr. Violante. Mr. Chairman, just in response. DAV does not 
have a position on that other than our support in the IB. So, I 
would defer to Mr. Kelley's comment.
    Mr. Smithson. What was the complete question, Mr. Chairman?
    Chairman Akaka. The question on the cemeteries was whether 
your organization endorses VA's guidelines for establishing new 
national cemeteries?
    Mr. Smithson. Yes, we do.
    Chairman Akaka. As you know that the established criteria 
requires an unserved veteran population threshold of 170,000 
within a 75-mile radius.
    So, I thank you so much for your responses, all of you. 
Thank you for being here. We wanted to hear from you on these 
bills before we mark it up and so I thank you for your presence 
and your responses.
    Thank you.
    And we have another panel.
    I would like to welcome Mr. Herman Gerald Starnes, a 
Merchant Marine with service in World War II.
    Also Mr. Charles Dana Gibson, a Merchant Marine with 
service during World War II and a Maritime Historian.
    I want to welcome the third panel.
    Please know that your full testimony will appear in the 
record of this hearing and I am going to ask Mr. Starnes, 
please begin with your testimony.

   STATEMENT OF H. GERALD STARNES, U.S. MERCHANT MARINE WITH 
                  SERVICE DURING WORLD WAR II

    Mr. Starnes. My name is H. Gerald Starnes and I am here 
today as an old veteran in support of Senator Nelson's efforts 
to move forward S. 961, the Belated Thank You to the Merchant 
Mariners of World War II Act of 2007.
    We would like to express our compliments to you, Senator 
Akaka, for getting your bill, S. 1315, passed over a lot of 
opposition to increase veterans' benefits by the Filipinos who 
fought alongside U.S. forces in that war and to Senator Nelson 
for his ``aye'' vote.
    Their situation is very similar to ours, but I must say 
they are a little bit of ahead of us in that they have had 
inadequate compensatory benefits while we have yet to get a 
penny from our government for our part in winning that greatest 
of our country's wars.
    I am speaking for about 2,800 still living veteran alumni 
of the United States Merchant Marine Academy at Kings Point, 
New York, combined with about 8,000 members of the Just 
Compensation Committee of the American Merchant Marine Veterans 
in their legislative effort.
    The U.S. Merchant Marine Academy is the only one of the 
five Federal services academies that sends their cadets into 
wartime combat zones. I was one of those cadets.
    A memorial monument on the campus bears the names of 142 
young men who lost their lives in combat.
    For over six decades, Congress has denied veterans' 
benefits and recognition to thousands of World War II Mariners. 
Records show 260,000 served in harm's way and 106,000 were 
certified to receive the Combat Bar.
    A half billion tons or more of tanks, PT boats, gasoline, 
aviation fuel, trucks, jeeps, amphibious craft, medicine and 
food rations along with thousands of troops were delivered to 
our allies ports and bases all over the world.
    Students of and historical writers of the Merchant Marine 
in the war estimates that 833 ships and 6,834 men were lost. 
Their casualties were in one in 26 compared to the U.S. Marine 
Corps is 1-in-34.
    240 Mariners were killed before Pearl Harbor and 604 became 
POWs. Others died after the War as 54 merchant ships struck 
mines.
    In early 1944 it was becoming obvious to the President and 
the Congress that we and the allies were going to win World War 
II in the coming months.
    Several Members of Congress and the President recalled 
after the 1929 stock market crash and the great depression came 
on, thousands of unemployed World War I veterans marched on the 
Capitol, camped out here in the parks and streets, and demanded 
the service bonus they had been promised for 1945.
    When the bill in Congress to give them a partial early 
bonus payment failed, many of them went home, but perhaps 
10,000 of them remained and became very unruly here in the 
city. Well, these vets were too much for the Capitol Police, 
obviously, and the Army was ordered to drive them out of the 
city and they did that with tear gas and tanks.
    When the news spread, there was a huge citizen outcry from 
all over the country. I was just a little boy and I did not 
know what my dad--World War I veteran with the mustard gas 
injury to his lungs, and his veteran friends were talking 
about. Dad finally got his bonus in 1936--just in time to pay 
for my kid brother's birth and a canvas top and a rebuilt 
engine for his old Model ``A.'' He had a big smile on his face 
for his government had, at last, come to his aid when he needed 
it.
    With the anticipation of some 12 million World War II 
veterans returning home, Congress passed the famous GI Bill of 
Rights. When President Roosevelt signed the bill in June 1944, 
he said, ``I trust Congress will soon provide similar 
opportunities to members of the Merchant Marine who have risked 
their lives time and time again for the welfare of their 
country.'' He died in April 1945 and any thoughts of a Merchant 
Marine bill died with him.
    The GI Bill denied us by Congress entitled the Armed Forces 
veterans, many of whom had never left their chairs in Stateside 
assignments, to 4 years of college, low interest home 
mortgages, job priority guarantees, mustering out pay, VA 
medical benefits, funding for widows and children, 52 weeks 
unemployment insurance and travel pay home.
    President Truman sent us each a tiny little lapel pen and a 
thank you note. The Navy gun crews on merchant ships with whom 
we helped man the guns were entitled to all the GI Bill of 
Rights benefits.
    There are myths and untruths concerning Merchant Mariner's 
compensation benefits as often told to the Veterans' Affairs 
Committees of both the House and the Senate relative to excess 
pay, veterans benefits, civilian or military status, and cost 
estimates.
    Mariners pay was a bit over the military pay, but we 
received pay only when we were signed on a ship as a crewman or 
an officer. If you had signed off a vessel, you were on your 
own for lodging, meals and travel. When signed on, any meals 
that you took ashore, lodging or travel were for your account.
    Not until 1977 could a merchant seaman apply for a benefit 
of any kind. In 1986 a Federal judge in New York ruled that 
Merchant Mariners were victims of discrimination.
    In 1988, 43 years after the war ended we were officially 
recognized as veterans by a paper discharge from the United 
States Coast Guard and limited VA medical attention if we were 
homeless or on Medicaid and a flag and a tombstone.
    All the cadets and officer graduates of the Merchant Marine 
Academy were sworn in as Naval Reserve soldiers and subject to 
Navy discipline and called to active duty.
    According to international law, all Mariners lose their 
civilian status when they man offensive weapons and are subject 
to courts martial by the armed force with whom they serve.
    By an act of Congress in 1941, the Navy mounted guns on 
merchant ships and issued orders to the masters of those 
vessels that directed gunnery training be given to the officers 
and crewmen.
    In 1942, the Chief of Naval Operations, at that time 
Admiral King, directed that naval discipline and control be 
exercised against the Merchant Marine in all theaters of war.
    Our calculations show that the first year cost estimate for 
this bill to be less than several of the current individual 
earmarks and will diminish significantly each passing year due 
to the high death rates of all we World War II veterans--which 
is now somewhere around 100--to $1,500 a day. This bill will 
self-destruct in 10 years at a total cost estimate of about 
half or less than the projected $1.4 billion that has concerned 
many of the Senators.
    All the old Merchant Mariners are over 80 years of age and 
they have all served in combat zones. Many are enfeebled, in 
ill health and in pitiful situations, financially, physically, 
and mentally.
    The economic stress of inflation and higher costs of living 
are especially stressful as they enter the last years of their 
lives, still proud and talkative of their wartime experiences 
at sea during World War I and World War II in defense of this 
country.
    This is our last chance to get any recognition we earned as 
young men years ago.
    Mr. Chairman, may I, as a tired old leader of tired old 
men, with all due respect, take the liberty of suggesting to 
you, sir--and your staff probably have many bills requiring 
your attention--therefore, would you please seriously consider 
having Senator Nelson and his staff turn to fore and aft, port 
and starboard and help you get S. 961 to the Senate floor 
before we all have gone down to ``Davy Jones' Locker.''
    Mr. Chairman, we sincerely thank you and the Committee 
Members for giving us the privilege of listening to our story, 
and we certainly appreciate Senator Nelson's testimony in our 
behalf.
    Thank you all very much.
    [The prepared statement of Mr. Starnes follows:]
              Prepared Statement of Mr. H. Gerald Starnes
    Mr. Chairman, and Members of the Committee, my name is H. Gerald 
Starnes. I am here today as an old veteran in support of efforts to 
move S. 961, a ``Belated Thank You to the Merchant Mariners of World 
War II Act of 2007.'' We would like to express our compliments to 
Senator Akaka on getting S. 1315 passed over some opposition to 
increase veterans' benefits for Filipinos who fought alongside U.S. 
forces in that war and to Senator Nelson for his ``aye'' vote. Their 
situation is very similar to ours, but I must say they are ahead of us 
in that they have had inadequate compensatory benefits while we've yet 
to get a penny from our government for our part in winning that 
greatest of our country's wars.
    I am speaking for about 2,800 still living veteran Alumni of the 
United States Merchant Marine Academy at Kings Point, NY, combined with 
about 8,000 members of the Just Compensation Committee of the American 
Merchant Marine Veterans in this legislative effort. The U.S. Merchant 
Marine Academy is the only one of the five Federal services academies 
that sends their cadets into wartime combat zones. I was one of those 
cadets. The memorial monument on campus bears the names of 142 young 
men who lost their lives in combat.
    For over six decades, every Congress has denied veteran's benefits 
and recognition to thousands of World War II (WWII) Mariners. Records 
show 260,000 served in ``harm's way'' and 106,000 were certified to 
receive the Combat Bar. A half billion tons or more of tanks, PT boats, 
gasoline, aviation fuel, trucks, jeeps, amphibious craft, medicine and 
food rations along with thousands of troops were delivered. These 
cargoes were transported on 5,500 ships the Mariners manned over 
dangerous seas to our and our allies' ports and bases all over the 
world. Students of and historical writers on the Merchant Marine in the 
war, estimate that 833 ships and 6,834 men were lost. Their casualties 
were 1 in 26 compared to the U.S. Marine Corps with 1 in 34. 240 
Mariners were killed before Pearl Harbor, 604 became POW's. Others died 
after the war as 54 merchant ships struck mines.
    With the anticipation of some 12 million WWII veterans coming home, 
Congress passed the famous GI Bill of Rights. When President Roosevelt 
signed the bill in June 1944, he said, ``I trust Congress will soon 
provide a similar opportunities to members of the Merchant Marine who 
have risked their lives time after time for the welfare of their 
country.'' He died in April 1945 and any thoughts of a merchant marine 
bill died with him. The GI Bill denied us by Congress entitled the 
Armed Forces veterans, many of whom had never left their chairs in 
stateside assignments, to 4 years of college, low interest home 
mortgages, job priority or guarantees, mustering out pay, Veterans 
Administration (VA) medical benefits, funding for widows and children, 
52 weeks unemployment insurance and travel pay home. President Truman 
sent each of us a tiny lapel pen and a thank you note. The Navy gun 
crews on merchant ships with whom we helped man the guns were entitled 
to all the GI Bill of Rights benefits.
    Myths and untruths concerning Merchant Mariner's compensation and 
benefits are often told to the Veterans' Affairs Committees of the 
House and Senate relative to excess pay, veterans benefits, civilian or 
military status, and cost estimates:

    <bullet> Mariners pay was a bit over military pay, but they 
received pay only when signed on a ship as a crewman or officer. If you 
had signed-off on a vessel, you were on your own for lodging, meals and 
travel. When signed-on, any meals, lodging and travel you chose to take 
on shore were for your account.
    <bullet> Not until 1977 could a merchant seaman apply for benefits 
of any kind. In 1986 a Federal judge in New York ruled that Merchant 
Mariners were victims of discrimination. In 1988, 43 years after the 
war ended we were officially recognized as veterans by: a paper 
discharge from the USCG; limited VA medical attention if homeless or on 
Medicaid; a flag; and a tombstone.
    <bullet> All the cadets and officer graduates of the Merchant 
Marine Academy were sworn in as U.S. Naval Reserve soldiers and subject 
to Navy discipline and call to active duty. According to international 
law, all mariners lose their civilian status when they man offensive 
weapons and are subject to courts martial by the armed force with whom 
they served. By an act of Congress in Nov. 1941, the navy mounted guns 
on merchant ships and issued orders to the masters of those vessels 
that directed gunnery training be given to the officers and crewmen. In 
1942, Chief of Naval Operations, Admiral King, directed that Naval 
Discipline and Control be exercised against the Merchant Marine in all 
theaters of war.
    <bullet> Our calculations show the first year cost estimate to be 
less than several of the current individual earmarks and will diminish 
significantly each passing year due to the high death rates of all WWII 
veterans now about 1,100-1,500 a day. The bill will self-destruct in 10 
years at a total cost estimate of about half or less than the projected 
$1.4 billion that concerns some Senators.

    All the old Mariners are over 80 years of age and have served in 
combat zones. Many are enfeebled, in ill health and in pitiful 
situations, financially, physically, and mentally. The economic stress 
of inflation and higher and higher costs of living is especially 
stressful as they enter the last years of their lives still proud and 
talkative of their wartime experiences at sea during WWII in defense of 
this country. This is our last chance to get the recognition we earned 
as young men years ago.
    Mr. Chairman, may I, as a tired old leader of tired old men, with 
all due respect, take the liberty of suggesting that you, sir, and your 
staff probably have many bills requiring your attention, Therefore, 
would you please seriously consider having Sen. Nelson and staff ``turn 
too'' fore and aft, port and starboard to help you get S. 961 to the 
Senate floor before we all have gone down to ``Davy Jones' Locker.''

    Mr. Chairman, we sincerely thank you and the Committee Members for 
giving us the privilege of listening to our story. And we certainly 
appreciate Senator Nelson's testimony in our behalf. Thank you all very 
much.

    Chairman Akaka. Thank you very much, Mr. Starnes for being 
here and testifying before this Committee.
    And now we will hear from Mr. Gibson.

  STATEMENT OF CHARLES DANA GIBSON, U.S. MERCHANT MARINE WITH 
      SERVICE DURING WORLD WAR II, AND MARITIME HISTORIAN

    Mr. Gibson. Thank you, sir. Chairman Akaka, Ranking Member 
Burr and distinguished Members of this Committee, I thank you 
for the opportunity to testify today on S. 961.
    In the early fall of 1944, 8 days following my 16th 
birthday, I was at sea en route to Europe aboard the LT 785, a 
seagoing tug, owned and operated by what was commonly referred 
to as the Army Transport Service.
    We were subsequently operational off England, France, 
Holland, and Belgium for a period of about 6 months before I 
returned to the United States.
    I then sailed on the U.S. flag merchant tanker throughout 
the remainder of the period of hostilities. I continued sailing 
through 1946 until 1947, later returning to sea during the 
Korean conflict.
    I have written and published numerous histories concerning 
the maritime services. I was the author of a successful 
application in the 1980's for Army civilian seamen and another 
in 1991 for seamen of the U.S. Coast and Geodetic Survey, both 
of which received veterans' status under Public Law 95-202.
    It should be noted that I, too, would benefit financially 
if either S. 961 or the House companion, H.R. 23, were to 
become law.
    My written testimony transmitted to your staff, which I 
believe you have in front of you, covers in detail many of the 
myths concerning the groups covered by S. 961 and H.R. 23.
    The first of such myths relates to casualties. The claim 
has been made by the proponents for the bill that the Merchant 
Marine suffered over 9,000 battle deaths and that the ratio of 
such deaths exceeded that of the armed services.
    My research has determined that these claims are widely 
exaggerated and completely unsubstantiated and my written 
testimony goes into detail on that.
    The actual battle deaths of the Merchant Marine, together 
with the Army Transport Service, was 6,185 men. That figure, 
when correlated against what was a minimal total wartime force 
of 415,000, results in a ratio of 1-in-67, not--and I repeat--
not the 1-in-26 so wrongly being touted.
    It has also been alleged in this statement--and this is 
stated in testimony to the House on H.R. 23--that the seaman's 
pay stopped as of the loss of their ship. That idea has its 
origins in law, which was overridden by action of the Maritime 
War Emergency Board as of December 1941.
    From that point on, a man's pay plus applicable war zone 
bonuses continued until such time that he was repatriated. In 
the case of seamen made prisoners of the enemy, base pay 
continued until that person was safely repatriated.
    The assertion that disabled or injured men were physically 
protected is also untrue. My written testimony covers these 
points in detail and contains relevant supporting citation.
    Yet another fallacy centers around the means by which our 
veterans approvals were granted in 1988.
    This was not by an act of Congress, or, as one source puts 
it, by the decision of the Supreme Court. In reality, it was an 
administrative approval from the Civilian Military Service 
Review Board, a body appointed by the Secretary of the Air 
Force who had been designated that authority by the Secretary 
of Defense acting under the laws of 1977, that being Pub. L. 
95-202.
    Regarding VA benefits, I would like to make it clear that 
the 1988 approvals put the Merchant Marine and Army Civil 
Service Seamen on exactly the same footings as all veterans of 
the United States Armed Forces. The cutoff date for that 
veteran's recognition--namely, the end of actual hostilities in 
World War II, that being August 15, 1945--was a date based upon 
sound deliberation.
    Following that point in time the Merchant Marine and the 
Army Transport Service could no longer be considered combatant 
entities as that term is interpreted under international law. 
My written testimony also covers the change in labor policy for 
the Merchant Marine that occurred once the shooting stopped.
    At the beginning of the war, the seamen's union pledged a 
no-strike pledge. After the surrender that pledge expired and 
four work stoppages resulted in strikes which lasted in total 
10 weeks. All of these strikes having taken place within a 
period of eligibility also encompassed by S. 961, that is, 
between August 16, 1945 and December 31, 1946. And I walked the 
picket line in one of those strikes.
    Mr. Chairman, although not germane to the agenda of this 
hearing, I would ask the Committee to give consideration to 
granting the holders of the Merchant Marine Mariners medal the 
same access to those special VA benefits which are presently 
available to holders of the Armed Services Purple Heart. My 
understanding is that H.R. 447 addresses that issue.
    In closing, I would like the Committee to know that I am 
proud of my service during the war and of the contribution we 
made toward the winning of that war. In the same vein, I 
believe it is my duty as a responsible citizen to make the 
Committee aware of the facts as it deliberates this 
legislation.
    I would be pleased to answer any questions that you, Mr. 
Chairman, or any other Members of the Committee may wish to 
direct me.
    Thank you.
    [The prepared statement of Mr. Gibson follows:]
             Prepared Statement of Mr. Charles Dana Gibson
    Chairman Akaka, Ranking Member Burr, and distinguished Members of 
this Committee, I thank you for the opportunity to testify today on S. 
961.
    In the early fall of 1944, 8 days following my 16th birthday, I was 
at sea, en route to Europe aboard the LT-785, a seagoing tug, owned and 
operated by what was commonly referred to as the Army Transport 
Service. We were subsequently operational off England, France, Holland, 
and Belgium for a period of about 6 months before I returned to the 
United States. I then sailed on a U.S. flag merchant tanker throughout 
the remainder of the period of hostilities. I continued sailing until 
1947, later returning to sea during the Korean conflict.
    I have written and published numerous histories concerning the 
maritime services. I am the author of a successful application in the 
1980's for Army civilian seamen and another in 1991 for seamen of the 
U.S. Coast and Geodetic Survey to receive veterans' status under Public 
Law 95-202. It should be noted that I, too, would benefit financially 
if either S. 961 or the House companion, H.R. 23, were to become law.
    As a historian whose interests and writings have centered on 
America's military and maritime past, I am amazed at the numbers of 
foundationless myths which seem to have evolved over time into alleged 
facts. My testimony this morning will address merchant seamen 
casualties (including Army Civil Service Seamen) during World War II in 
comparison to the casualty ratios of the Armed Forces; the issue of pay 
to merchant seamen aboard ships captured or destroyed in combat; 
background on the oceangoing merchant marine receiving veterans' status 
in 1988; and the participation of merchant seamen in work stoppages and 
strikes in the fifteen months following the end of hostilities.
    Although not germane to the agenda of this hearing, I would ask the 
Committee to give consideration toward giving the holders of the 
Merchant Marine Mariners Medal the same accesses to special VA benefits 
that are presently available to holders of the Armed Services Purple 
Heart.
                               casualties
    Much of the argument offered in support of the bill now under 
consideration revolves around extravagant claims of excessive losses of 
merchant seamen during the War. I have performed extensive research 
centering on bona fide battle casualties suffered by both merchant 
seamen and the Army's Civil Service seamen. My eventual conclusion has 
been to rely for accuracy upon the published works of Captain Arthur 
Moore and Dr. Robert Browning, Jr. Both authors include in their works 
the ships and crews lost through marine casualty not directly related 
to direct enemy action. Over this past summer, my wife and I did a 
breakdown of both works in order to separate out U.S. merchant ship 
losses and personnel casualties resulting solely from battle causes, 
i.e., enemy action. We did this in order to satisfy ourselves as to the 
ratio of battle deaths to total force. The analysis we performed 
resulted in a tally of 5,755 actual battle deaths enumerated by Captain 
Moore and 5,763 given by Doctor Browning--a difference between them of 
only eight men. I have chosen Doctor Browning's figure on the grounds 
that Doctor Browning, in his capacity as Chief Historian of the U.S. 
Coast Guard, accessed some post operational reports which were not 
utilized by Captain Moore.\1\ To Browning's figure of 5,763 I add the 
recorded battle deaths of U.S. Army Civil Service seamen which comes to 
422 men--both figures taken together total 6,185. This number falls far 
short of the 9,300 mariners being touted by the supporters of H.R. 23 
and S. 961.\2\ They use this as the basis for the assertion that the 
merchant marine suffered the highest casualty rate of any service 
during World War II, equivalent to 1 in 26 killed. The claim that their 
casualty rate surpassed that of the Marine Corps or was greater than 
that of the Armed Forces combined cannot be supported. In any event, 
comparisons are specious given the lack of available data on the 
Merchant Marine.
---------------------------------------------------------------------------
    \1\ Dr. Robert M. Browning, Jr., U.S. Merchant Vessel War 
Casualties of World War II, Naval Institute Press, Annapolis MD, 1996 
(Browning is the chief historian of the U.S. Coast Guard.); Captain 
Arthur R. Moore, A Careless Word . . . A Needless Sinking, American 
Merchant Marine Museum, Kings Point, NY, 1986.
    \2\ Available at www.usmm.org.
---------------------------------------------------------------------------
    To compare Armed Forces casualties against those of the Merchant 
Marine is like comparing apples against oranges. Even if one should 
attempt such a comparison, the calculations must be based upon total 
force--NOT PEAK FORCE. Furthermore, combat-related deaths must be 
distinguished from deaths which were not combat-related. This is easily 
done for the Armed Forces, but it is far more difficult when dealing 
with the numbers for the Merchant Marine. There are some general 
figures available regarding large segments of the Merchant Marine labor 
force which entered oceangoing employment in World War II, but these do 
not add up to the full wartime force. Unknown is a sizable number 
representing men for which we have no ready figures--figures which 
could only be arrived at through an exhaustive search within the 
Merchant Marine personnel files that are held by the U.S. Coast Guard. 
This missing factor concerns those men who entered the Merchant Marine 
Oceangoing labor force following December 7, 1941, through means of 
``letters of intent to employ'' written by shipping companies and/or 
unions and addressed to the U.S. Coast Guard which then issued the 
seaman's certification for one of three entry ratings, i.e., ordinary 
seaman, wiper, or messman. Such men did not go through the apprentice 
training programs that were operated by the U.S. Maritime Service and 
for which we do have the approximate numbers. Another factor to 
consider is that the Merchant Marine was a fluid industry in terms of 
personnel with one- and two-trippers running into the high figures.
    It should not be lost in the discussion that unlike members of the 
Armed Forces, merchant seamen during the war could terminate their 
employment at the end of any voyage. Such short-term employees who 
entered the Merchant Marine prior to August 1945 are not included in 
the peak force statistic of 250,000--which Rear Admiral Land, the 
Administrator of the War Shipping Administration (WSA), gives for one 
point in 1945. It appears that the often quoted 1 in 26 ratio is 
derived at by dividing 9,300 into Admiral Land's 250,000.
    A further caveat enters into the overall picture when one considers 
what was a back and forth flow of seamen between the Merchant Marine 
and the Army Transport Service. One can only guess at that cross-over 
in employment but probably it was not overly imbalanced.
    Admiral Land's peak force figure for the Merchant Marine 
encompasses only oceangoing Merchant Marine personnel and does not 
include those Merchant Marine personnel who were employed upon the 
Great Lakes or other inland waters. It also does not include the shore-
side cadres employed at Maritime Service training installations, nor 
does it include those shore-side employees of shipping companies and/or 
of WSA general agents. The Armed Forces counterparts to those support 
forces were the thousands of uniformed men and women who never left the 
United States but whose numbers are nevertheless included within the 
Armed Forces total force figures. In contrast, therefore, the ``total 
force'' figure given for the Merchant Marine represents only those 
personnel whose service was oceangoing and as such was within waters 
subject to enemy action. In light of the above, it cannot be denied 
that a huge disparity enters into any matrix which attempts to compare 
the percentage of Armed Forces combat losses against the percentage of 
Merchant Marine combat losses.
    According to research dated August 23, 2007, and performed by 
Christine Scott of the Congressional Research Service (CRS), the total 
force number of wartime merchant mariners may exceed 400,000. In a 
report prepared for Congress, she brings out testimony given in 1947 by 
Theodore L. Kingsley, the Executive V-P of the Alumni Association of 
the U.S. Merchant Marine Cadet Corps who stated his estimate that 
400,000 served. She also quotes a maritime industry representative, one 
Seth Levine, who claims that ``there may have been as many as 450,000 
who served in the merchant marine at one time or another during the 
war.'' Another testimony submitted by James V. McCandless, the 
Assistant to the Commissioner of the U.S. Maritime Administration 
stated, ``That 400,000 seamen served in the maritime labor force 
between July 1941, and July 1945.''
    If one accepts a figure of 400,000 merchant seamen added to by my 
rough estimate of at least another 15,000 whose sole wartime sea 
service was for the Army, this total force number--namely, 415,000--
when computed against the total of 6,185 battle deaths resulting from 
my analysis of Moore's and Browning's works as well as Army records 
results in a ratio of 1 in 67 which falls far short of the ratios 
touted by advocates of S. 961. The Army and Army Air battle death ratio 
was 1 in 48; the Navy 1 in 113; the Marines 1 in 34. Battle deaths for 
the total armed services were 1 in 55.\3\
---------------------------------------------------------------------------
    \3\ DOD statistics available at http://siadapp.dmdc.osd.mil/
personnel/CASUALTY/WCPRINCIPAL.pdf.
---------------------------------------------------------------------------
                               pay issues
    Another myth underlying the case for the benefits legislation under 
consideration concerns the alleged callous treatment of American 
merchant mariners by the government during World War II. I specifically 
reference here the erroneous assertion that once a merchant ship was 
lost by enemy action or marine casualty, the pay of its crewmembers was 
suspended, thereby denying these crews compensation while in lifeboats 
or as involuntary guests of the enemy. This mythology has been accepted 
as fact and was cited in recent Congressional testimony before the 
House Committee on Veterans' Affairs.\4\
---------------------------------------------------------------------------
    \4\ Committee on Veterans' Affairs, U.S. House of Representatives, 
Hearing on H.R. 23, the ``Belated Thank You to the Merchant Mariners of 
World War II Act of 2007,'' April 18, 2007.
---------------------------------------------------------------------------
    In truth, an American merchant mariner whose ship was sunk 
continued to accrue base wages plus any applicable Area War Bonus until 
such time that he was repatriated. If he had become a prisoner of the 
enemy (POW or Internee), his base wages continued through his tenure as 
a prisoner, up until the time he was repatriated.
    For those who incurred disabilities due to injury or war related 
illness, their War Risk Insurance would have paid $200 a month up to a 
total of $5,000. After that, should the disability be deemed permanent, 
an additional benefit would have kicked in to the amount of $100 per 
month up to a max of $2,500. If a crewman died as a result of enemy 
action, or later due to external cause while in captivity, his 
dependents would have received a flat sum of $5,000. The Army's Civil 
Service seamen were covered in case of disability or death by Federal 
Employees Compensation.
    The undeniable fact is that merchant seamen serving aboard U.S. 
flag ships, whether employed by the War Shipping Administration or by 
private operators, were compassionately protected in the fiscal sense 
throughout the entirety of World War II. The agency which saw to that, 
as well as regulating bonuses and compensating for the loss of personal 
effects, was the Maritime War Emergency Board which was established in 
December 1941. A history of the board as well as its decisions are 
contained within a monograph from the U.S. Department of Labor, 
entitled History of the War Emergency Board. This document can be 
obtained through the Record Office of the U.S. Maritime Administration 
or from the Library of Congress. The Army's civil service seamen were 
covered in case of disability or death by Federal Employee 
Compensation.
                            veterans' status
    Groups of former merchant seamen lobbying on behalf of the proposed 
bill have made other assertions which are radical departures from 
historical fact. One disseminated myth concerns the application process 
which resulted in the granting of veterans' status in 1988 to the 
oceangoing merchant mariners of World War II, 1941-1945. The proponents 
are not alone in their misconceptions over what was a long and involved 
process. Even the authors of serious writings dealing with the 
experiences of merchant mariners have inadvertently added to what has 
become a morass of error. Some of this has bordered on the ridiculous 
as in Peter Elphick's book, Liberty . . . The Ships that Won the 
War.\5\ Elphick wrote: ``* * * merchant seamen were excluded from 
veterans' benefits. That remained the situation until 1986 when by 
order of the Supreme Court no less, and much too late for many, the 
U.S. Government granted World War II seamen the coveted veterans' 
status.''
---------------------------------------------------------------------------
    \5\ Peter Elphick, Liberty . . . The Ships that Won the War, Naval 
Institute Press, Annapolis, MD, 2001.
---------------------------------------------------------------------------
    Many seem to be under the false impression that the award of 
veterans' status in 1988 (some confuse it as being given in 1977) was 
by an act of Congress. Another version is that it occurred pursuant to 
enactment of the ``Seamen's Act of 1988.'' There is also a belief, 
widely distributed to the media, that the veterans' status given to 
merchant seamen who served at sea between December 7, 1941 and August 
15, 1945, was a ``watered down'' version of the benefits to which Armed 
Forces veterans are entitled.
    The truth is that there was never any court ruling--much less one 
by the Supreme Court in 1986--which granted the 1988 veterans' rights 
to merchant seamen. Neither was there such a thing as the ``Seamen's 
Act of 1988.''
    Factually, 1988 was the year that the Department of Defense (DOD) 
administratively approved the group known as The American Merchant 
Marine in Oceangoing Service During the Period of Armed Conflict, 
December 7, 1941-August 15, 1945, for benefits under title 38, United 
States Code (U.S.C.) (the laws as administered by the Department of 
Veterans Affairs). The enabling statute through which DOD is authorized 
to grant approvals for those benefits is Public Law 95-202, Title IV 
Sec. 401, November 23, 1977, 91 Stat. 1449, appended to title 38 
Sec. 106, U.S.C. Annotated. The applicable benefits which include 
medical care and compensation for service-connected disabilities, as 
well as benefits for the survivors of merchant mariners who lost their 
lives in the war, are substantial and in a considerable number of cases 
have rescued beneficiaries from poverty.
    The language of Public Law 95-202 makes no specific reference to 
the Merchant Marine. Instead, it grants the Secretary of Defense 
authority to receive applications from any civilian group which, in a 
time of war, has rendered contractual, or other employment believed by 
the applicant to have been equivalent to ``active duty'' in the Armed 
Forces. As stated in Public Law 95-202, the Secretary of Defense is 
authorized to promulgate regulations by which such groups could be 
considered. DOD considerations are to follow the guidance of five 
criteria:

    1. Extent to which the group acquired a military capability and was 
critical to a military mission;
    2. The group's subjection to the discipline and control of the 
military;
    3. Inability of group members to resign;
    4. Group assignment to combat zones;
    5. Group expectations that their service might be considered active 
military service.

    For his administration of the review process, the Secretary of 
Defense designated the Secretary of the Air Force who in turn appointed 
a body of officers to be known as the Civilian/Military Service Review 
Board (CMSRB).
    To date, a total of ninety-eight civilian groups have made 
application to CMSRB. Of these, over seventy-six have been formally 
reviewed. Twenty-one primary groups (later added to by a number of 
subgroups for a total of 33 groups) have been recommended for approval 
and were subsequently approved by the designated Undersecretary of the 
Air Force. These groups include the Women's Auxiliary Service Pilots 
(WASPs), the Flying Tigers of the China Theater, Civilian Airline 
Pilots Who flew cargo over ``The Hump'' in the China/Burma Theater, and 
the Civilian Defenders of Wake Island, among others. Of the group 
applications that were turned down (disapproved) prior to 1987, seven--
including two of my early-on authorship--were for World War II seamen. 
During that same period, two World War II seamen groups were approved: 
the Henry Keswick Crew on Corregidor and the U.S. Merchant Seamen who 
served on Blockships in Support of Operation Mulberry.
    On January 19, 1988, the Undersecretary of the Air Force approved 
CMSRB's recommendations. This approval, as is the case of all past 
CMSRB approvals, enables members of the Oceangoing Merchant Marine and 
the Army Transport Service, later Transportation Corps, Water 
Division--that is those who served between December 1941 and August 
1945 to apply individually to the particular branch of the Armed 
Service with which the group had been allied for the issuing of Armed 
Forces discharges. For merchant mariners, the discharges were to be 
issued by the Coast Guard; for my group, the Army mariners, by the 
Army. I have been told that according to Coast Guard records since 1988 
over 98,000 World War II Merchant Mariners have been provided with 
discharge documents (DD-214s). I have no information at hand as to the 
number of Army seamen who have received DD-214s. Upon receipt of the 
discharges, the holders became eligible to receive full entitlements 
currently allowed under title 38, U.S.C.
    In the 1990's, a bill referred to as the ``Veterans' Enhancement 
Act'' was passed by both the House and the Senate and signed into law. 
It gave limited benefits under title 38 (burial rights) to those who 
had Merchant Marine service during the period between August 15, 1945, 
and December 31, 1946. That entitlement is far less than the full 
benefits afforded the seamen who served during the period of armed 
conflict, December 7, 1941-August 15, 1945. To my knowledge the 
``Veterans' Enhancement Act'' is the only Federal legislation in our 
country's history that has granted any veterans benefits, albeit in 
this case restricted ones, to members of a civilian group for their 
employment outside of a period of actual armed conflict.
                           labor relationship
    Another issue that should be understood when considering the 
proposed legislation is the labor relationship the merchant seaman had 
with the War Shipping Administration. A pamphlet provided by the WSA 
during the war entitled ``How to Get Your Bearings--An Information 
Pamphlet for Prospective Merchant Sailors,'' answered the question of 
whether or not merchant seamen were entitled to all the benefits of the 
members of the Armed Forces. The pamphlet says, ``No, a merchant seaman 
is engaged in a civilian capacity on a volunteer contractual basis, 
even though his employer, in some instances may be the United States.'' 
Merchant seamen and the Army's Civil Service seamen had a much 
different relationship with the U.S. Government than those who either 
enlisted or were conscripted into the armed services. In my own 
experience, I never recall anybody during the war, either Army seaman 
or merchant seaman, who believed that he, was a part of the armed 
services.
    The proposed legislation provides benefits to Merchant Mariners who 
served beyond the end of the war and would include Merchant Mariners 
who entered the maritime services after August 16, 1945, but before 
December 30, 1946--who do not have veterans' status. My personal 
knowledge is that CMSRB gave considerable thought to August 15, 1945 as 
the legitimate termination date for veterans' status under the criteria 
established by Public Law 95-202 as well as by the recognized 
understanding of the term combatant under the interpretations of 
international law. Additionally, it should also be noted that, 
according to the Department of Commerce literature in the post-war 1945 
to 1946 period, the maritime seamen's unions and its members 
participated in four labor strikes and work stoppages. During the war, 
the maritime unions had entered into a no-strike agreement with the 
WSA. But after V-J Day the agreement ended. These strikes and work 
stoppages encompassed a period in excess of 10 weeks and involved 
thousands of merchant marine officers and seamen, including myself--all 
of whom would be covered by the presently written S. 961.
    I hope that this information has been helpful to the Committee. As 
a World War II seaman who saw wartime service in both the Army 
Transport Service and the Merchant Marine, I am very proud of my 
service and the significant contribution we made to the war effort. 
But, as a maritime historian, I think it important that the Committee 
have an accurate understanding of the facts.

    Chairman Akaka. Thank you very much, Mr. Gibson.
    Mr. Starnes. Excuse me, Mr. Chairman, can I comment a 
little bit on the numbers.
    Chairman Akaka. Fine.
    Mr. Starnes. The numbers as Senator Nelson announced 
before--because of secrecy, my numbers would be a little bit 
different than Senator Nelson's. His were more than mine. I was 
a little more conservative.
    There is really no way they were ever known, really, and 
put out as a record. So, that is what happens here. These 
numbers are just the best the experts on in can estimate.
    Thank you, sir.
    Chairman Akaka. Thank you very much.
    I am going to ask our Ranking Member, Senator Burr, for any 
questions he may have.
    Senator Burr. Thank you, Mr. Chairman.
    Thank you, Mr. Starnes, for your testimony. Thank you, Mr. 
Gibson, for what I think was an incredibly insightful recant of 
that period and I am reminded that this is not the first time 
Congress has dealt with this. They dealt with it as early as 
1946.
    Mr. Starnes. Excuse me, Senator. I would like to express to 
you, you nominated one of my cousins for the Academy at one 
time.
    Thank you, sir.
    Senator Burr. You are more than welcome. And I am sure I 
will have an opportunity at some point to meet that young man.
    Mr. Starnes. He has done two stints of duty in Afghanistan.
    Senator Burr. Thank him on behalf of the Chairman and 
myself for his service.
    Mr. Starnes. I will do that.
    Senator Burr. Thank you. I have only got one question and 
it is an effort to clarify, Mr. Gibson.
    You stand to benefit financially if this is enacted, but I 
think what I heard you testify and say is, you do not think you 
are owed that $1,000 a month.
    Mr. Gibson. Well, sir, I will put it this way, greed being 
what it is, I sort of hesitate to answer that question.
    In truth, I can say, in a way, that I am opposed to this 
bill simply because it includes, as I have already stated, the 
post-hostility group and it does not cover the other Pub. L. 
95-202 groups.
    And worst of all, I think is the tenure. In other words, 
how about the man who, for instance, signed on a ship for 10 
days--a coast-wise ship--then quit for one reason or another. 
He figured this is not for me. He goes ashore, and under this 
bill, if it is passed, that same man would get $1,000 a month 
for the rest of his life; and I think that is absurd.
    Senator Burr. Well, let me just say, again, I appreciate 
the fact that both of you were willing to come here and to 
share your stories and your requests with us. I know the 
Chairman will take this up as expeditiously as the Committee 
can.
    I have got to say, Mr. Gibson, it is refreshing to actually 
have somebody testify that would be the financial beneficiary 
that calls balls and strikes and says, you know, if you look at 
it the way I see it, there are people that would be included 
that are not deserving of it. That is not something that 
happens frequently up here. I just wanted to point that out and 
to thank you for your honesty and openness on this issue.
    Mr. Gibson. Thank you, Senator.
    Senator Burr. I thank the Chair.
    Chairman Akaka. Thank you very much, Senator Burr.
    Drawing on your own experience during the war, were you 
ever officially told that you would receive post-war veterans 
benefits similar to that of the Armed Forces?
    Mr. Starnes. No, sir, not expressly. This came up later. I 
was in the Academy at the time the President (President Truman) 
died, and word came out somewhat after that. But, no, we did 
not have any expressed promise of it, sir. I will be honest 
with you about that.
    As I said, he had made that statement to the Congress, as I 
understand, but of course, he got sick and was disabled and 
everything and it ended there.
    We did not have any organization at that time put together 
to push it or anything like that. So, we just went on our merry 
way.
    Chairman Akaka. Mr. Gibson, any comment on that?
    Mr. Gibson. Well, as a matter of fact, I agree there. 
During my period I had no knowledge that, you know, such was 
the case.
    Chairman Akaka. Mr. Starnes and Mr. Gibson, Committee staff 
have told me that many who are supporting S. 961 are unaware of 
the VA benefits and services that are currently available to 
them under law.
    Do you believe that VA has provided effective outreach to 
advise World War II Merchant Mariners of their benefit 
eligibility? What can VA do to get the word out?
    Mr. Starnes. I think that is true that they really do not 
know what they are--just exactly what they are. Actually all 
they ever gave us was just a small pamphlet and I still have 
mine. I had it in my files. It did not describe very much, sir, 
as I remember reading it. You are right. A lot of them do not 
know that they have that benefit.
    But, as I understand it, there is some income involved with 
it--if you have a certain amount of income--and I am just 
talking off the top of my head, as I understand it, sir.
    I would like to make one comment about both of us. I would 
be a beneficiary. Well, obviously I do not need that. I have 
done well. But, for every one of us like me and this gentleman 
here who may have enough to go on our own, there are a hundred 
other fellows out there now that are really in bad shape, you 
know, crew members. I was lucky enough to be an officer and get 
paid well.
    I thank you, sir.
    Chairman Akaka. Mr. Gibson.
    Mr. Gibson. My comment is, sir, that the American Merchant 
Marine Veterans of World War II did send quite a bit out--at 
least to their membership--that these benefits were available; 
that is, after the approvals of 1988.
    To my knowledge, I do not think the press really picked it 
up, and, of course, there were people that had no contact with 
the American Merchant Marine veterans groups, as this gentlemen 
just said. They probably never heard of it.
    My own experience, though, I was instrumental in helping 
some people who were in dire need. One was a widow and the 
other two or three people were former veterans. And the VA was 
very responsive, you know, in those cases.
    Mr. Starnes. Senator, could I say one more thing?
    I will use my own experience. When I got that notice from 
the Coast Guard, it was a paper. And I will tell you, honestly, 
sir, that when I looked at it, it looked so non-beneficial that 
I almost threw it away. A lot of them did.
    You see, I was working for General Electric at that time--I 
had a pension coming and was a manager and on good salary and 
all of that--and I saw that as being actually worthless, sir. 
That was my own opinion at that time and a lot of other people 
were the same way.
    We are thinking now, I do not know how many of the veterans 
will have their discharge papers. Those numbers, those high 
numbers are not going to come out. I have talked to several of 
them. They call us all the time wanting to know how to get 
their Coast Guard discharge. So, the numbers will be down. As I 
said, at our ages, we are all over 80 and it will self-
destruct.
    My reason for wanting that money is to get some sort of 
recognition--and the other boys are the same--from our 
government; recognition of what we did back then, which we have 
not really had. We do not have anything in that way at all and 
it is a recognition for what we did.
    That is, those of us, you know, who are doing pretty well. 
But we do need it for a lot of our crewmembers that sailed with 
us.
    Chairman Akaka. Mr. Starnes, let me ask you the question 
about the $1,000 in S. 961 as a payment amount.
    Mr. Starnes. Yes, sir.
    Chairman Akaka. Do you know what the basis for that payment 
amount of $1,000 in S. 961 is?
    Mr. Starnes. Well, sir, I do not. That number came from the 
House in H.R. 23, which they had studied for a long time. That 
is where that number comes from, the House Committee.
    Chairman Akaka. Mr. Gibson, based on your knowledge as an 
historian, and your knowledge and your research concerning 
postwar Merchant Marine benefits, did Congress ever make 
affirmative action to withdraw benefits from the Merchant 
Marines?
    Mr. Gibson. I am not quite certain exactly what you mean, 
sir. I do not think there was any affirmative. I mean, I cannot 
recall any action to withdraw or any--oh, wait, I beg your 
pardon. Let me restate that.
    Yes, sir. Under Public Law 17, which I think was passed in, 
well, in the early 1940's during the war. At the lobby pressure 
of the seaman's unions and the shipping companies, those seamen 
that were employed on U.S. flagships under the United States 
Maritime Commission (later, the War Shipping Administration, 
which was the successor agency to that responsibility), in 
effect, the law withdrew Federal employees' compensation and 
civil service retirement from those employees. It placed them 
then under the U.S. navigation laws, which, in essence, was the 
right to sue and recover in the case of disabilities. Which was 
then overwritten, in turn, when the War Emergency Board came in 
with their insurance programs.
    So, I think Public Law 17 was a definite withdrawal of 
rights; because, say somebody was killed during the period 
right after that, the day before he had been a Federal employee 
and now he was no longer a Federal employee. And the FEC 
benefits had been very good.
    Mr. Starnes. But, as I recall that was specific and it was 
involved--was it not?--in the transition over the war emergency 
tankers that I worked for.
    Mr. Gibson. No. It was specific to the entire Merchant 
Marine. However, sir, this had nothing to do with veterans' 
benefits.
    Chairman Akaka. Let me thank both of you for your 
testimony. It will be helpful to us.
    I noticed that there are witnesses from other panels still 
here, and I want to thank them for remaining here to hear this 
panel and the second panel as well.
    I want you to know we truly appreciate you taking the time 
to share your views with us.
    So, with that, this hearing is adjourned.
    [Whereupon, at 12:23 p.m., the Committee was adjourned.]
                            A P P E N D I X

                              ----------                              

    Prepared Statement of Hon. Max Baucus, U.S. Senator from Montana
    Our veterans made a sacrifice by laying their lives on the line to 
protect the freedoms we enjoy every day as Americans. It is our civic 
duty to make sure our veterans get the care and benefits they need and 
deserve. However, recent news reports stated that veterans in Montana 
with combat-related ailments receive far lower payments, on average, 
from the VA disability system than veterans in almost every other 
State. VA documents also show that veterans in Montana who began 
receiving compensation from the VA between the year 2005 and 2007 
receive, on average, far less than the national average.
    To make certain that Montana's veterans get the disability payments 
they have earned and deserve, I have introduced legislation that would 
require the Department of Veterans Affairs to ensure fairness in the 
disability benefits veterans receive. The bill will require the VA to 
submit periodic reports to the House and Senate Veterans' Affairs 
Committee on the VA's progress in addressing the variance in payments 
paid to disabled veterans across the country.
    The mandatory reports would include a description of how the VA is 
working to improve the quality of examinations for veterans with 
service-connected disabilities and an evaluation of whether the 
Veterans Benefits Administration has sufficient staff to properly serve 
America's veterans. My bill would also require the VA to report on 
differences in the submittal rate of disability claims to the VA among 
various groups of veterans, including rural veterans and veterans who 
served in the National Guard, and describe how the VA is working to 
eliminate such differences. This bill is critical to ensure veteran in 
Montana or anywhere else in the country doesn't get the short end of 
the stick.
    Veterans in Montana are fed up with the disability ratings process 
and this bill surely will not fix all the problems facing veterans in 
Montana. It takes too long for a veteran to get his claim processed, 
and too many Montana veterans don't get the right rating. We must 
continue working to see these problems addressed. But this legislation 
is an important step in the right direction because it will force the 
VA to tell us what it's doing to get this process fixed.
    Three years ago, the Office of Inspector General's (OIG) issued a 
report, Review of State Variances in VA Disability Compensation 
Payments, which confirmed that variances in average annual disability 
compensation payments by State have existed for decades. This issue 
should be examined fully to ensure that those who served our Nation 
receive the benefits they have earned. The question before us today is 
not whether the benefits rating system needs to be fixed, but whether 
the VA will do what it takes to fix the system. I look forward to 
evaluating this and other important pieces of legislation before the 
Committee this morning and I thank the Members of this Committee for 
giving us the opportunity to find a way to better serve our Nation's 
veterans.
                                 ______
                                 
 Prepared Statement of Hon. Barbara Boxer, U.S. Senator from California
    Chairman Akaka, Thank you for holding this important hearing today, 
and for including my bill, S. 2965, on the Committee's agenda. This 
legislation directs the Secretary of Veterans Affairs, in consultation 
with the Secretary of Defense, to issue a report to Congress on the 
feasibility and advisability of covering severe and acute Post 
Traumatic Stress Disorder under the Servicemembers' Group Life 
Insurance (TSGLI) Traumatic Injury Protection Program. I am proud that 
Senator Lieberman has joined me in cosponsoring this bill.
    The TSGLI program, established by Congress in 2005, assists 
severely-injured or incapacitated servicemembers who have suffered a 
traumatic injury in a combat operation. The benefit--ranging from 
$25,000 to $100,000--now covers the short-term costs associated with a 
physical injury such as the loss of an arm or eye. Such support is 
intended to help families cover travel expenses so that they can be 
with their loved ones during recovery, meet other unexpected expenses 
such as lost pay, or give the servicemember a financial head start on 
life after recovery.
    Also covered under the TSGLI program are Traumatic Brain Injuries 
that leave a person with the ``inability to carry out the daily 
activities of living.'' This term is defined by the VA as ``the 
inability to independently perform at least two of the six following 
functions: bathing, continence, dressing, eating, toileting, or 
transferring in or out of a bed or chair with or without equipment.'' A 
servicemember with a TBI who meets these criteria for 15 days receives 
$25,000, with additional pay outs of the same amount if conditions 
remain the same after 30, 60, and 90 days.
    Under current law, the TSGLI program does not cover severe and 
acute PTSD, despite the fact that the VA's own experts have stated that 
``post service mental health problems, such as PTSD and associated 
psychosocial dysfunction, are pernicious and disabling * * *.''
    While the degree to which individuals are disabled due to Post 
Traumatic Stress Disorder can vary widely, we know that certain combat 
veterans with PTSD are so traumatized from their experiences that they 
are unable to carry out the activities of living that most of us take 
for granted each and every day.
    The VA has stated that TSGLI was modeled after commercial 
Accidental Death and Dismemberment policies, although expanded ``to 
address the unique needs of military service.'' The conflicts in Iraq 
and Afghanistan define these unique needs. We must acknowledge the 
severity of these injuries and consider covering severe Post Traumatic 
Stress Disorder under TSGLI.
    A growing number of my colleagues and I have been fighting for 
years now to remove the stigma associated with mental health problems 
within the Armed Forces. We have also fought to make mental health care 
a more accessible and normalized element in evaluating a 
servicemember's overall health. I applaud the work of this Committee, 
which has instituted dramatic improvements in policy, as well as 
substantial increases in resources dedicated to mental health outreach 
and treatment for our Nation's veterans.
    I am hopeful that the VA will report that covering severe and acute 
PTSD under TSGLI is not only feasible, but a critical change necessary 
to bring some comfort and stability to those who have sacrificed so 
much.
                                 ______
                                 
 Prepared Statement of Hon. Amy Klobuchar, U.S. Senator from Minnesota
                                s. 2139
    Mr. Chairman, Thank you for allowing me to add my voice to the 
growing chorus of supporters of legislation that would expand the 
current benefits available to our servicemembers and veterans, 
particularly legislation that would provide more equitable benefits to 
members of our National Guard and Reserve.
    One of the bills the Committee is considering today is S. 2139, the 
National Guard and Reserve Educational Benefits Fairness Act. I 
introduced this legislation in October 2007 in response to what I 
believe is an appalling and unacceptable situation. While Guard and 
Reserve soldiers are being asked to serve as first-class soldiers on 
the battlefield, the benefits they are eligible for following 
demobilization continue to relegate them to second-class veteran 
status.
    For instance, current Title 38 regulations allow members of the 
Selected Reserve to qualify for full Chapter 30 educational benefits 
only if they meet the following three criteria: first, be ordered to 
Active Duty for 730 days or longer; second, serve at least 20 
consecutive months on Active Duty; and third, be qualified in a valid 
Armed Services occupational specialty.
    However, thousands of Guard soldiers have returned from Active Duty 
mobilizations that lasted for longer than 20 months, including extended 
deployments in Iraq or Afghanistan, only to find that while the length 
of their service qualifies them for Chapter 30 benefits, bureaucratic 
procedures cause the length of their orders to fall short of the 730-
day threshold, and thus they are ineligible for full educational 
benefits.
    A specific example of this problem occurred upon the return of the 
1/34th Brigade Combat Team from Iraq in July 2007 after a 16-month 
deployment, the longest deployment of any unit in the Iraq war at that 
point. While nearly 4,000 members of this unit, known as the Red Bulls, 
had served 22 months on Active Duty, roughly half had orders that 
called for Active Duty service for up to 730 days and half did not. 
Thus, despite all having served equal lengths, only half were eligible 
for Chapter 30 benefits. Over 1,100 of these affected soldiers are 
members of the Minnesota National Guard and many of them found 
themselves unable to enroll in school last fall as they had planned.
    Thankfully, after Minnesota National Guard commanders and soldiers, 
along with myself and other colleagues, drew public attention to this 
glaring oversight, Army officials responded by agreeing to have the 
Army Board of Corrections for Military Records amend each affected 
soldier's individual orders to ensure Chapter 30 eligibility. All 
soldiers in the 1/34th BCT who have applied for Chapter 30 benefits 
have been approved, but the delays and bureaucratic obstacles for these 
soldiers to receive their hard-earned benefits should never have 
occurred in the first place.
    I believe the only to way to ensure that additional Guard and 
Reserve units returning from deployments overseas do not encounter 
similar unfairness is to change the current regulations for granting 
Chapter 30 benefits.
    The National Guard and Reserve Educational Benefits Fairness Act 
would amend Chapter 30 of Title 38 to eliminate the 730-day order 
requirement for members of the Selected Reserve, thereby granting 
eligibility for benefits based solely on length of actual service. The 
bill would extend Chapter 30 eligibility to any National Guard or 
Reserve soldier who is mobilized to Active Duty for 20 consecutive 
months after September 11, 2001, serves at least 12 of those 20 months 
in a theater of operations, and satisfies all existing occupational 
requirements for Chapter 30 eligibility.
    I believe that we should be repaying our debt to soldiers based on 
the length of their actual service, not based on bureaucratic 
guidelines for processing orders. Minnesota Guard soldiers and their 
fellow Guard and Reserve soldiers around the Nation have made 
unprecedented sacrifices in Iraq and Afghanistan. They are asked to 
serve as Active Duty soldiers on the battlefield, and they should be 
eligible for Active Duty benefits when they return home.
    I am proud that Senators Coleman, Dorgan, Dodd, Harkin, and Lincoln 
have joined me in cosponsoring this legislation that would advance the 
process of recognizing the critical contributions of the Guard and 
Reserve soldiers to Operation Enduring Freedom and Operation Iraqi 
Freedom and reward their sacrifices through educational benefits, the 
most valuable benefits veterans receive.
    I would like to thank Members of veterans' organizations who are 
testifying before the Committee today, and I appreciate their comments 
on this bill. I would also like to thank Members of the Committee for 
their consideration of this and other legislative proposals to break 
through the current disparity in treatment between Active Duty and 
Selected Reserve benefits. Thank you, Mr. Chairman.
                                 ______
                                 
Prepared Statement of Hon. Bob Dole and Secretary Donna E. Shalala, Co-
Chairs, President's Commission on Care for America's Returning Wounded 
                                Warriors
    Mr. Chairman and Members of the Committee, we are sorry that we 
cannot be with you today to testify in person. We have been 
specifically requested to comment on S. 2674, America's Wounded 
Warriors Act, sponsored by Senator Burr. We commend the Senator for his 
commitment to those who have been injured or wounded in the service of 
our Nation. Please accept our comments as part of this hearing's 
record.
    As you all know, last year, we had the privilege of serving as co-
chairs of the President's Commission on Care for America's Returning 
Wounded Warriors. We have testified previously before this Committee 
regarding the recommendations issued from that effort. We are grateful 
that so many of the recommendations have been adopted or are in the 
process of being implemented.
    Let us briefly remind you what these recommendations include:

    <bullet> Immediately Create Comprehensive Recovery Plans to Provide 
the Right Care and Support at the Right Time in the Right Place;
    <bullet> Completely Restructure the Disability Determination and 
Compensation Systems;
    <bullet> Aggressively Prevent and Treat Post Traumatic Stress 
Disorder and Traumatic Brain Injury;
    <bullet> Significantly Strengthen Support for Families;
    <bullet> Rapidly Transfer Patient Information Between DOD and VA;
    <bullet> Strongly Support Walter Reed by Recruiting and Retaining 
First Rate Professionals through 2011.

    The recommendation that is relevant for today's hearing is our call 
to completely restructure the disability determination and compensation 
systems of the DOD and VA.
    Congress should clarify the objectives for DOD and VA disability 
systems to reflect the goal of returning injured servicemembers to 
optimal functioning in American society. This means that disability 
compensation should be redefined to compensate not only for ``lost 
earnings capacity'' but for the life-long loss in life's quality due to 
service-related disability. It also means that the current VA Schedule 
for Rating Disabilities needs to be changed and updated to reflect 
these concepts.
    Because it is difficult to ask individuals to accept a new system 
``sight unseen,'' we supported a study to determine what changes would 
be necessary and what a quality-of-life payment might include. This 
study is currently underway and should issue findings in August of this 
year.
    We also recommended that the DOD compensate for the loss of a 
military career due to a disability by providing a life-time annuity 
payment commensurate with time served and rank to all servicemembers. 
This concept brings DOD into the 21st century of employment benefits--
benefits important in maintaining an all volunteer force and consistent 
with other current civil service benefits. This recommendation also 
removes the quandary surrounding concurrent receipt and allows the DOD 
to focus on its main job--maintaining our fighting force.
    The Services, by necessity, must retain the ability to determine 
fitness to serve. When a servicemember is found ``unfit'' because of a 
disability, they should be offered a choice to voluntarily separate or 
to retrain for another military position for which they would be 
eligible.
    A single medical examination should be all that is required to 
provide the baseline data to determine fitness for duty and to provide 
for an initial VA disability rating. A demonstration project is 
currently under way that will allow us to assess the effectiveness of 
such a system.
    Disability ratings are currently established by the VA Schedule for 
Rating Disability--a schedule that is far from current. In fact, 
ratings for the signature injuries of this conflict--Post Traumatic 
Stress Disorder and Traumatic Brain Injury--are totally inadequate. We 
recommended that the schedule be kept current. Failure to do so 
potentially disadvantages those disabled veterans.
    We know that it takes time to transition from servicemember to 
veteran, during which there may be a drop in income. This is a 
particular problem for the newly disabled veteran who may require 
months of rehabilitation or re-education in order to enter the work 
force. To help with this, we recommended that the VA provide transition 
pay in the form of living expense support while the veteran is in 
school or rehabilitation, or for a period of 3 months. After the 3 
months are up or rehabilitation or education training is completed, the 
earnings loss payments would begin.
    Again, we recognized that for many this is a difficult concept and 
so we recommended and supported a VA initiated study to flesh out the 
details of such a proposal. This study will also report its findings in 
August.
    S. 2674 accomplishes much of what we recommended. Under the 
provisions of this bill, the military disability retirement system 
would provide for a lifetime annuity for those injured in the line of 
duty and deemed unfit for continued service. The annuity would be 
based, as we suggested, on length of service and rank. The Defense 
Department would no longer be in the disability business, resolving, 
once and for all, the issue of concurrent receipt and the confusion 
surrounding different disability ratings for different purposes.
    We recommended that TRICARE benefits be provided for those 
servicemembers found unfit due to combat-related injuries. S. 2674 
would establish a study to recommend parameters for TRICARE coverage 
under the new system. Certainly, who gets TRICARE is part of the drive 
to have the DOD accept VA ratings for all medical conditions, not just 
the condition that results in a determination of unfit.
    S. 2674 also calls for a study to determine compensation 
appropriately reflecting lost earnings capacity and decreased quality-
of-life due to a service-connected disability. While studies can just 
delay decisions, this study allows the Secretary to use the findings 
from any and all previous studies to address the specific areas defined 
in the bill. We understand that many questions surround adding a 
quality-of-life component to veterans' disability compensation. How 
much, for what, based on each individual or an average of all similarly 
situated, how is it measured, is it applied retroactively, and when 
does it apply, before or after rehabilitation? These questions should 
be answered as quickly as possible and the VA Ratings Schedule for 
Disabilities adjusted not just now, but periodically based on evidence.
    S. 2674 directs the VA to study the appropriate amount and duration 
of transition payment for servicemembers discharged because of a 
service-connected disability and directs the VA to make recommendations 
for appropriate incentives to ensure that a veteran completes a 
vocational rehabilitation program. As we discovered, the average 
medically discharged servicemember has an annual income drop from 
$38,000 to $18,000 during transition to civilian employment. We also 
discovered that the number of individuals rehabilitated through the VA 
Vocational Rehabilitation and Education Program are only a small 
fraction of those who apply. While the Servicemembers' Group Life 
Insurance Traumatic Injury Protection Program (TSGLI) provides some 
financial support for selected injuries, other strategically targeted 
solutions are needed to support these individuals and encourage program 
completion.
    We are well aware that an election year can make the legislative 
process even more challenging. However, insuring the well being of our 
servicemembers and veterans is a bipartisan and bicameral goal. We are 
grateful that our recommendations have been given serious 
consideration, and that you are ready to act.
                                 ______
                                 
 Prepared Statement of Mr. Rick Jones, Legislative Director, National 
               Association for Uniformed Services (NAUS)
    Chairman Akaka, Ranking Member Burr, and Members of the Committee: 
On behalf of the nationwide membership of the National Association for 
Uniformed Services (NAUS), I am pleased to present our views on S. 961, 
the Belated Thank You to Merchant Mariners of World War II Act of 2007. 
We appreciate the opportunity to submit a statement concerning one of 
the injustices done to a group of men--the World War II Merchant 
Mariners--who bravely and honorably gave wartime service to their 
country.
    NAUS commends your attention to this important bill. It fulfills 
the Nation's debt of gratitude in recognition of the heroic service put 
forth during World War II by the thousands of young men who volunteered 
for service in the United States Merchant Marine. These American heroes 
have struggled for more than six decades for acceptance among their 
military brethren and the public. And it is unthinkable that these 
brave men should be given a cold shoulder by the Nation they proudly 
served.
    S. 961, the Belated Thank You to Merchant Mariners of World War II 
Act of 2007, would recognize the contribution made by the men and women 
who served in the United States Merchant Marine in World War II between 
the years 1941 and 1946. It would also provide a compensation of $1,000 
per month to balance a lifetime of ineligibility for veterans' benefits 
and provide those few surviving World War II mariners, whose average 
age today is 83, the status of ``veteran'' under the Social Security 
Act to give a small enhancement of that retirement benefit.
    Let us review a bit of history.
    In 1936, Franklin Roosevelt, the thirty-second President of the 
United States, urged Congress to pass the Merchant Marine Act to man 
and establish a shipping capability to be used for commerce during 
peacetime and converted for use by the Navy during wartime or national 
emergency.
    In a 1935 letter to Congress, Roosevelt wrote, ``* * * in the event 
of a major war in which the United States itself might be engaged, 
American flag ships are obviously needed not only for naval 
auxiliaries, but also for the maintenance of reasonable and necessary 
commercial intercourse with other nations. We should remember lessons 
learned in the last war.''
    In this congressional message the President further stated, ``If we 
are going to keep away from our shores the forces that have convulsed 
the Old World and now menace the New, the job will be done in large 
measure by the ships and the sailors of the Merchant Marine and by the 
working men who build the ships and supply them. If they fail, the 
whole effort fails. And earnest, hardworking Americans, who spend the 
best part of their lives providing for the security and happiness of 
those they love, know that precious security and happiness depend 
exactly on the success of that effort.''
    Passage of this Act proved prescient when, in 1939, war broke out 
in Europe and American interests were threatened.
    With American entrance into the war on the horizon, President 
Roosevelt told the American people in 1941, ``Today, as never before in 
our history, our Merchant Marine is vital to our national welfare. I do 
not mean vital merely in the conventional sense that it makes an 
important contribution, but in the stronger sense that it is a 
crucially decisive factor in our continued existence as a free 
people.''
    Immediately after Pearl Harbor, Merchant Marine activity was needed 
to carry out lend-lease to Britain, to fulfill the terms of the First 
Moscow Protocol, to move troops and supplies to all theaters of war, 
and to ship petroleum. In order to meet the worldwide needs for 
shipping, it became necessary to coordinate the existing private 
shipping facilities and to centralize Federal control over merchant 
shipping.
    The merchant fleet helped build up in the British Isles a 
tremendous arsenal of supplies during 1943 and early 1944 in 
preparation for the invasion of Europe. Huge convoys, some with as many 
as 167 ships, delivered the troops and supplies in shuttle service 
across the Atlantic.
    The invasion of Normandy on June 6, 1944, was the greatest sea-
borne invasion in history. At its head were 32 American merchant ships, 
many of which had previously suffered severe battle damage. These 32 
ships were charged with explosives and were sunk off the beachhead in 
order to form a breakwater for subsequent landing of supplies. 
Following this, 10 oceangoing tugboats, operated by the Merchant 
Marine, towed the famous artificial ports into position, thereby making 
possible the quick landing of tanks, guns, supplies, and heavy 
equipment necessary to hold and expand the beachhead.
    Under the Merchant Marine Act and in a 5-year period from 1941 to 
1946, America built nearly 3,000 Liberty Ships--emergency steel cargo 
vessels with a cargo capacity of approximately 10,000 dead-weight tons 
each--and the number of mariners grew from 55,000 to between 215,000 
and 250,000 mariners and seamen.
    In effect, these men and their ships were responsible for 
transporting the vast majority of overseas military cargo, including 
military and civilian personnel and supplies, to war zone destinations.
    Many of these mariners were recruited specifically to staff ships 
under the control and direction of the U.S. Government to assist the 
World War II effort. These seamen were subject to government control; 
their vessels were controlled by the government under the authority of 
the War Shipping Administration and, like other branches of military 
service, they traveled under sealed orders and were subject to the Code 
of Military Justice.
    Some volunteers joined the Merchant Marine because minor physical 
problems, such as poor eyesight, made them ineligible for regular 
service in the Army, Navy, or Marine Corps. Others were encouraged by 
military recruiters to volunteer for service in the Merchant Marine 
because the special skills offered by these volunteers could best be 
put to use for our country by service in the Merchant Marine. Most 
important, all were motivated by their deep love of country and 
personal sense of patriotism to contribute to the war effort.
    The wartime movement of supplies and the troops was much more than 
a simple ocean cruise. It was hard work and dangerous.
    Members of the Merchant Marine served on ships that engaged the 
enemy, lost their ships because of enemy action, were physically 
wounded or disabled as a result of enemy action, became prisoners of 
war, and served in combat and war zones under threat of attack by enemy 
air or submarine.
    And a cadre of American merchant seamen participated in a number of 
perilous World War II invasions, including the invasions of Normandy, 
Sicily and the Philippines.
    As Members of the Committee know, the Atlantic Ocean was alive with 
German submarines at the start of the war, traveling in ``wolf packs,'' 
ready to sink transport of critical supplies of oil, raw materials and 
food to England and Russia.
    Early in the war, German U-boats sank two of every 12 ships that 
left U.S. ports. In 1942, losses to the merchant fleet equaled 39 
percent of new ship construction in that year. With more successful 
counter to enemy submarines, this ratio was reduced to 11 percent in 
1943, to less than 8 percent in 1944, and to only 4 percent in 1945.
    During the war period, it is reported that more than 8,000 merchant 
seamen lost their lives or were declared missing in action, and an 
additional 609 merchant seamen became prisoners of war. An estimated 
731 vessels were sunk with another 40 ships and crews lost without a 
trace.
    At the conclusion of the war, Merchant Marine vessels played 
another important role: returning home the huge number of armed 
personnel from overseas. Over 3,500,000 men were brought home from 
overseas areas. And after the war ended, they carried food and medicine 
to millions of the world's starving people.
    Regarding the service of the Merchant Marines, Gen. Dwight D. 
Eisenhower, on National Maritime Day, 1945, said, ``The officers and 
men of the Merchant Marine, by their devotion to duty in the face of 
enemy action, as well as natural dangers of the sea, have brought us 
the tools to finish the job. Their contribution to final victory will 
be long remembered.''
    And in the Pacific theatre, Gen. Douglas MacArthur said, ``I wish 
to commend to you the valor of the merchant seamen participating with 
us in the liberation of the Philippines. With us they have shared the 
heaviest enemy fire. On this island I have ordered them off their ships 
and into foxholes when their ships became untenable targets of attack. 
At our side they have suffered in bloodshed and in death. The caliber 
of efficiency and the courage they displayed in their part of the 
invasion of the Philippines marked their conduct throughout the entire 
campaign in the southwest Pacific area. They have contributed 
tremendously to our success. I hold no branch in higher esteem than the 
Merchant Marine services.''
    Mr. Chairman, the National Association for Uniformed Services 
believes that it is now time for the United States to recognize 
properly these individuals for their exceptional contribution and 
strength of effort. They helped preserve the freedoms we enjoy today.
    We ask Congress to support those now almost-ancient mariners whose 
heroic contribution as members of the ocean-going Merchant Mariners 
struggled to help secure the American victory in World War II. On 
behalf of a grateful Nation, we urge you to extend these benefits to 
those once young men who went to sea as crewmembers of the Merchant 
Marine during World War II.
    We note that Canada recently approved a tax-free compensation 
package for its Merchant Navy veterans and surviving spouses. Our 
northern neighbor provides between $5,000 and $24,000 in lump-sum 
payments to eligible Canadian mariners who served during the First and 
Second World Wars and the Korean War.
    Mr. Chairman, we thank you and the Members of this Committee for 
your consideration of this important bill, and we look forward to 
working with you to ensure that a grateful Nation will protect, 
strengthen, and improve benefits and services of those who answer the 
call to duty, especially at a time of crisis and war.
    Again, the National Association for Uniformed Services appreciates 
the opportunity to present a statement on this matter.
    Thank you.
                                 ______
                                 
                                                      May 14, 2008.
Hon. Daniel K. Akaka,
Chairman,
Committee on Veterans' Affairs,
U.S. Senate, Washington, DC.
    Re: S. 961, the ``Belated Thank You to the Merchant Mariners of 
                       World War II Act of 2007''
    Dear Chairman Akaka: On behalf of the undersigned American maritime 
labor organizations, and the active and retired members we represent, 
we are writing to ask that you and your Committee mark-up and favorably 
report S. 961, the ``Belated Thank You to the Merchant Mariners of 
World War II Act of 2007'' as soon as possible. This legislation, 
introduced by Senator Ben Nelson, authorizes certain benefits to 
individuals who served our Nation as members of the United States-flag 
merchant marine during World War II. To date, this legislation has been 
cosponsored by a bipartisan group of fifty-nine (59) Senators. Its 
companion bill, H.R. 23, passed the House of Representatives under 
suspension on July 30, 2007.
    During its consideration of H.R. 23, the House Committee on 
Veterans' Affairs made changes to the legislation that would, among 
other things, reduce its overall cost. For example, the House-passed 
bill eliminated the payment of benefits to survivors' spouses. Second, 
it is no longer self-funded. It sets up a Merchant Mariner Equity 
Compensation Fund and leaves it to Congress to later determine funding 
within its spending caps. Finally, those who have received benefits 
under the Servicemen's Readjustment Act of 1944 (PL 78-346) are not 
eligible for benefits under H.R. 23.
    We support these changes as necessary to address existing budgetary 
constraints, and as a means to expedite and facilitate the enactment of 
this legislation. Consequently, we strongly urge you to consider S. 961 
at your Committee's next legislative mark-up session so that S. 961/
H.R. 23 can be sent to the Senate for its consideration. In so doing, 
you will be telling all the American merchant mariners who together 
suffered one of the highest rates of casualties in World War II, that 
they are not forgotten.
    As General of the Army, Allied Expeditionary Forces in Europe, 
Dwight David 
Eisenhower stated, ``When final victory is ours there is no 
organization that will share its credit more deservedly than the 
Merchant Marine.'' Fleet Admiral Chester W. Nimitz, Commander-in-Chief, 
Pacific Theater, said that ``The Merchant Marine * * * has repeatedly 
proved its right to be considered as an integral part of our fighting 
team.''
    General of the Army Douglas MacArthur, speaking of the merchant 
seamen who supported the liberation of the Philippines, stated that 
``With us they have shared the heaviest enemy fire. On these Islands I 
have ordered them off their ships and into foxholes when their ships 
became untenable targets of attack. At our side they have suffered in 
bloodshed and death * * *. They have contributed tremendously to our 
success. I hold no branch in higher esteem than the Merchant Marine 
Service.''
    Finally, President Franklin Roosevelt eloquently and accurately 
summed up the contributions of America's World War II merchant 
mariners, telling the country and the world that they ``have written 
one of its most brilliant chapters. They have delivered the goods when 
and where needed in every theater of operations and across every ocean 
in the biggest, the most difficult and most dangerous job ever taken.'' 
In fact, when President Franklin Roosevelt signed the GI Bill in 1944, 
he recognized the service and valor of America's mariners, stating 
that, ``I trust Congress will soon provide similar opportunities to 
members of the merchant marine who have risked their lives time and 
time again during war for the welfare of their country.''
    We believe that it is time to do what President Roosevelt hoped 
would be done, and to fully acknowledge the service of America's World 
War II merchant mariners by providing them with the benefit call for in 
this legislation. Again, on behalf of the undersigned American maritime 
labor unions, we ask that you mark-up and favorably report S. 961, and 
to bring S. 961 to the Senate for its consideration.
    We ask that you include this statement in your Committee's hearing 
record on this legislation and we look forward to working with you and 
your staff for the enactment of S. 961.
            Sincerely,
                                             Thomas Bethel,
                             President, American Maritime Officers.
                                             Timothy Brown,
  President, International Organization of Masters, Mates & Pilots.
                                              Donald Keefe,
               President, Marine Engineers' Beneficial Association.
                                          Gunnar Lundeberg,
                           President, Sailors Union of the Pacific.
                                         Anthony Poplawski,
                                 President, Marine Firemen's Union.
                                             Michael Sacco,
                          President, Seafarers International Union.
                                 ______
                                 
            U.S. Merchant Marine Academy Alumni Foundation,
                                                      May 19, 2008.
Hon. Daniel K. Akaka,
Chairman,
Committee on Veterans' Affairs,
U.S. Senate, Washington, DC.
    Dear Mr. Chairman: This letter is in reference to your Committee's 
consideration on May 7, 2008, of S. 961, the ``Belated Thank You to the 
Merchant Mariners of World War II Act of 2007.''
    I am Chairwoman of the U.S. Merchant Marine Academy Alumni 
Foundation. As an organization of alumni of the Federal Academy, we 
very strongly support S. 961 and thank you for taking this bill under 
consideration. Many of our fellow alumni are members of the greatest 
generation and the recognition for their heroics contained in this bill 
is well deserved.
    During the war, many Americans and persons of other nations made 
sacrifices to attain the victory. We graduates of the U.S. Merchant 
Marine Academy are proud of all our maritime colleagues who served in 
the merchant marine; we are especially proud of the midshipmen who gave 
their lives. Every year, we honor the 142 midshipmen who sailed on U.S. 
merchant ships and went down on those ships as they were attacked by 
the enemy. Many other mariners lost their lives. Today, there are 
discussions as to the number of mariners who were exposed to combat. 
While academic discussions may take place, it is incontrovertible that 
sailing on the blue ocean in the face of the enemy was a singular 
heroic act multiplied many times. Due to the passage of time, those who 
were lost in the war, or lost afterwards to injuries sustained in 
action and those who have passed in the intervening years will not 
benefit from actions that we take now. The cadre of those who served is 
dwindling and we support the passage of S. 961 to provide the ``Belated 
Thank You.''
    We note with some pleasure that the veterans' organizations 
testifying before your committee uniformly supported the intent of S. 
961 in providing the recognition to the merchant marine. Several noted 
the level of recognition as being disproportionate. We believe that the 
level is commensurate with the belated aspects of the recognition. Many 
mariners, as noted above, are no longer with us. Providing a meaningful 
level of recognition to those who are able to benefit is fitting.
    We also note the testimony of the Veterans' Administration that S. 
961 calls for ``concurrent eligibility.'' We disagree as the current 
benefits are for burial and medical needs; neither can be duplicated. 
They also note that other groups could claim similar benefits. We have 
reviewed the list identified and do not find any group that has the 
number of persons subjected to combat at the level of the merchant 
marine; moreover, we believe that any other group or persons in a 
situation similar to our colleagues should have the opportunity to 
plead their case. If honorable service was given, it is right to 
provide proper consideration.
    Mr. Chairman, thank you and your committee for taking the time to 
address this long neglected aspect of our Nation's victory in World War 
II. We strongly urge you to take positive action on S. 961.
    We respectfully request that this letter be made a part of the 
hearing record.
            Sincerely yours,
                                              Ivy B. Suter,
                                         Chairwoman; Class of 1978.
                                 ______
                                 
        Prepared Statement of Mr. Ian T. Allison, Santa Rosa, CA
       s. 961, the belated thank you to the merchant mariners of 
                        world war ii act of 2007
    Thank you, Mr. Chairman and Members of the Veterans' Affairs 
Committee. My name is Ian Allison, Co-chairman of the Just Compensation 
Committee, a non-profit unincorporated group of Merchant Marine 
Veterans of World War II registered with the Internal Revenue Service. 
Our 10,800 members have joined together seeking equal treatments for 
all Veterans of World War II who shared the loss of 20 Million people 
on this earth who participated voluntarily or otherwise in the great 
war.
    I would like to submit as evidence at this Veterans' Affairs 
Committee hearing on S. 961 a famous book entitled ``A Careless Word--A 
Needless Sinking'' by Captain Arthur R. Moore. I recognize that at 704 
pages, it is too great to become part of this electronic record and 
acceptance for printing, but I submit it as an exhibit material to be 
maintained in the Committee files for review and use by the Committee.
    The book accounts for 820 American ships, firefighters, tankers, 
passenger and troop ships lost at sea in World War II. Over 9,000 
Merchant Seamen, were either killed or lost in action. 12,000 men were 
wounded or maimed and 786 prisoners of war taken by the enemy. The 
majority of these lost souls lay in Davy Jones' locker at the bottom of 
the sea without markers or tombstones to show their gravesites.
    What depraved men branded these gallant mariners we lost at sea, as 
DRAFT DODGERS? As an Engineer working in the bowels of gasoline 
tankers, plying the waters of the Atlantic and Pacific and facing the 
German and Japanese U-boats, I've never met a fellow soldier, sailor or 
Marine who would trade places with me.
    I would like to tell you the story of one lost ship that I have 
picked at random. The same story can be told of 819 other ships that 
met with death and destruction--the penalties of war.

          THE SS JACKSONVILLE, A T-2 TANKER BUILT AT THE SWAN ISLAND 
        SHIPYARDS BY HENRY KAISER IN PORTLAND, OREGON, IN 1944. ON 
        AUGUST 30, 1944, A TORPEDO HIT THE SHIP JUST AFT OF THE MIDSHIP 
        HOUSE. FIRE BROKE OUT AND THE 80-OCTANE GAS COVERED THE SHIP 
        STEM TO STERN IN FLAMES. A SECOND EXPLOSION BROKE THE SHIP TOW 
        WITH BOTH PARTS STILL BURNING. THE FOREPART SANK QUICKLY, THE 
        STERN SECTION SINKING THE NEXT DAY.
          THERE WERE NO LIFEBOATS OR RAFTS LAUNCHED. OUT OF THE 78 MEN 
        ON BOARD, THE ONLY 2 SURVIVORS JUMPED OVERBOARD INTO THE 
        FLAMING WATER, AND SWAM AWAY FROM THE SHIP. THEY WERE PICKED UP 
        BY A U.S. DESTROYER ESCORT AND TAKEN TO IRELAND.
          FOR THE GRACE OF GOD, THERE GO I. IT COULD HAVE BEEN MY SHIP. 
        I SAILED 3 YEARS DURING THE WAR, IN THE ENGINE ROOM, ON A 
        GASOLINE TANKER BUILT IN PORTLAND, OREGON, BY HENRY KAISER. I 
        CAME OUT UNSCATHED BUT 9,000 OF MY COMRADES DID NOT.

    Why? Why? Why, were the gallant members of the Merchant Marine, who 
suffered the highest casualty rate of the war, with 1 out of every 26 
dying, left out of the 1944 GI Bill of Rights? Some warped minds were 
at work to have engineered this travesty. I can only speculate after 60 
years of thought and observation.
    I have come to the conclusion that in general, these things stirred 
up jealousy and animosity about the Merchant Mariners.

    1. We had no discrimination in our ranks whereby we accepted 
Blacks, Hispanics and aliens into our ranks. Some of them became ship's 
officers on up to the ``4 Stripe'' rank of Captains and Chief 
Engineers. None of the others services were as non-discriminatory as 
the Merchant Marine. Discrimination was still rampant in America during 
the War.
    2. Merchant Mariners didn't wait to be drafted. We were all 
volunteers. Both the Japanese and German Nays took their toll of our 
men both before and after WWII.
    3. Our ALL VOLUNTEER crews of U.S. Merchant Marine ships during 
WWII were union members of one of the many union organizations 
representing unlicensed personnel i.e. Sailors Union of the Pacific 
(SUP); Seafarers International Union (SIU); Cooks and Stewards (MCS); 
and ship officers union, which were Master Mates and Pilots (MM&P). 
None of the other Services in the U.S. Armed Forces had legally 
incorporated organization to represent their interest as to pay, 
transportation, living condition and more. These were all pre-war 
organizations which were a great boon and offered efficiency to the war 
effort.
    I am sure that Members of this Committee, after intelligent review 
of history and facts about World War II, will be convinced of the 
necessity of passing our Senate Bill S. 961.
    I thank you for your time in reading my testimony given this 7th 
day of May, 2008.
                                 ______
                                 
         Prepared Statement of Mr. William Jackson, Oakland, CA
       s. 961, the belated thank you to the merchant mariners of 
                        world war ii act of 2007
    My name is William Jackson. I am 88 years old and have been working 
as a Merchant Mariner since 1935. I still volunteer as Chief Engineer 
on the S.S. Oak Victory, a 1944 Victory ship that is being restored in 
Richmond, California. I am here to ask you to pass S. 961, the 
``Belated Thank You to the Merchant Mariners of World War II Act of 
2007.''
    I had shipped for several years as a busboy on a passenger and 
freight ships. But during the summer of 1937, I received the new U.S. 
Coast Guard identification Z Card and started shipping out of the 
National Maritime Union hall in New York as a messman. Although my home 
was on the West Coast, I shipped out of New York because the National 
Maritime Union had integrated their shipping hall. None of the West 
Coast unions had and didn't until the Fair Practice Employment Act in 
the 1960's. Before the United States officially entered WWII on 
December 7, 1941, I voluntarily sailed on ships into the war zones of 
Africa, Egypt and the Suez Canal. In July 1941, we witnessed two air 
raids while our ship was docked next to a dry-dock where the target of 
the attack, a British cruiser, was being repaired. Before the official 
beginning of the War, there were a number of U.S. ships sunk or 
damaged.
    On December 7, 1941, I was in San Francisco when Pearl Harbor was 
bombed. At first, I decided I would contact my classmate from Oakland 
High School. We had been in R.O.T.C. together, where I had been the 
only African-American person. Together, we went right down to the U.S. 
Army recruiting station. There were a mixture of other races from 
Mexico, China and Native Americans. I noticed that they called all the 
other guys and assigned them and sent them home. I asked them, ``How 
about me?'' This lady said, ``Sorry, but we have no place for African-
American soldiers.'' I felt like my heart had stopped. To think that 
our teachers taught us that we were supposed to be equal citizens, to 
vote, to be loyal and to defend our country in time of war. I became 
very angry and told them ``Don't ever try to draft me. I just returned 
from a war zone with the merchant marine. I'll go back and get a 
ship.'' I was never called up by the Draft Board but I saw more action 
at sea in the North Atlantic and Pacific than lots of men in the Army 
and Navy did. On December 9th, I signed on the S.S. Panama and 
continued to sail. In August 1942, the ship I was on was sunk by enemy 
action. I was hospitalized in Trinidad for 4\1/2\ months without pay as 
was Union policy.
    In February 1943, I refused to sign on as a Steward Department 
crew. I had been granted endorsement as ``wiper,'' the entry level 
rating in the engine room by the U.S. Coast Guard. The National 
Maritime Union supported my cause. I was assigned to position as wiper 
on the S.S. Exceller. I was refused the berth twice by the 1st 
Assistant Engineer, but was finally accepted at the insistence of the 
U.S. Coast Guard and the N.M.U. Late in June 1943, after 4 months of 
abuse by the 1st Engineer, I had earned the time to sit for the next 
rating--Fireman/Watertender. I did and passed. I continued sailing 
throughout the war, and after that, earning ratings of Oiler, Junior 
3rd, and then 2nd Engineer.
    In November 1963, I took an assignment on the S.S. Hope Hospital 
Ship as a 2nd Engineer. This ship would go to 8 different 
underdeveloped countries, stay for 10-11 months and serve as a 125 bed 
hospital training ship, teaching local medical personnel modern 
medicine practices. It had a medical staff of 300 people plus 50 
doctors who rotated every 2 months. The ship's crew totaled 76 men with 
the Engine Room having 26. Our mission was to keep the ship supplied 
with power as there were three operating rooms, ICU, two pediatric 
wards, two women's wards, two men's wards, plus labs, a dental clinic 
and more. During that time, I earned promotions to First Engineer and 
then Chief Engineer. It was the hardest job I ever loved. I officially 
retired in 1985 but returned to serve in Operation Desert Storm for two 
7-month tours.
    The U.S. Merchant Marine was formed by the War Shipping 
Administration to supply manpower to man the vast number of merchant 
ships to carry all the war materials, troops, planes, food, etc., to 
Allies around the world on all fighting fronts. To do this, they needed 
as many as 230,000 seamen--deck, engine room and stewards.
    The merchant marine was the first of all services to integrate. It 
may have taken the union and the U.S. Coast Guard to make the steamship 
company give me the right to sail in the engine room, but it did 
integrate the ships of the merchant marine. And the merchant marine 
service schools were integrated between 1942 and 1943. The merchant 
marine was the first to integrate and make my dreams come true.
    Today, May 7, 2008, I submit this statement to request passage of 
S. 961, the ``Belated Thank You to the Merchant Mariners of WWII Act of 
2007.'' I had a tough time of it in the U.S. Merchant Marines, but did 
win equality on a racial level. Now I am asking for equality with all 
other U.S. veterans for benefits denied the merchant mariners by the GI 
Bill of Rights of 1944.
    Mr. Chairman and the entire Veterans' Affairs Committee, I thank 
you.
                                 ______
                                 
         Prepared Statement of Mr. Mark S. Gleeson, Oakmont, PA
 s. 961--belated thank you to the merchant mariners of wwii act of 2007
    Thank you, Mr. Chairman and Members of the Veterans' Affairs 
Committee. My name is Mark Gleeson and I am a member of the American 
Merchant Marine Veterans of WWII. I joined the American Maritime 
Service is June 1945 fully expecting to be part of the invasion fleets 
invading Japan planned for November 1945. Physical injuries in training 
camp and at sea cut my sea service short. I have my Honorable Discharge 
from the United States Coast Guard under the provisions of Public Law 
105-368. I appear today speaking in favor of S. 961.
    I first applied for my military discharge under the provisions of 
Pub. L. 95-202 in 1989. When this was turned down, I became involved in 
the efforts of Merchant Marine veterans to gain our denied veterans' 
recognition through Federal legislation. The issue at point was when 
did WWII end and who qualified for veteran's recognition. For almost 10 
years I had a title of Vice Chairman of the Merchant Mariners Fairness 
committee, the ad hoc committee that worked with many distinguished 
Members of Congress to finally pass legislation in 1998 granting 
veterans status to about 3000 seamen who had been denied such 
recognition by the Civilian/Military Service Review Board due to their 
interpretation Pub. L. 95-202. I have written a personal chronicle of 
this 10-year legislative struggle.
    In reflection on this chronicle that covers five sessions of 
Congress, it is obvious that the scope of S. 961 cannot be a funding 
problem. It does not fund the varied veterans' benefits, including 
educational, loan, and medical benefits. It acknowledges the service of 
merchant seamen only.
    To this point, the chronicle contains the fact that after four 
previous efforts, the Senate and the House in 1996 passed S. 281 by 
voice vote--a bill that established the start of the Vietnam conflict 
as February 28, 1961, not the August 4, 1964 date following the Tonkin 
Bay incident. This legislation, spearheaded by Senator D'Amato of New 
York, belatedly recognized some 16,000 service men who had been serving 
in Vietnam during that time period. The Congressional Budget Office 
indicated that this act would have no significant impact on the 
Veterans' Affairs Budget. These men fully and richly deserved belated 
government recognition and response for their service, and their 
service-related injuries. We believe the merchant marine veterans of 
WWII also deserve a positive response for their service. Of some 
250,000 seamen at the end of WWII, it is estimated that less than 
10,000 are still alive, and there are fewer each year.
    We ask for your help in passing S. 961. Only those seamen 
recognized by a Federal court decision in 1987 received limited medical 
benefits. The remaining Denied Seamen recognized by Pub. L. 105-368 
receive no medical benefits. All they are entitled to is a tombstone 
and a burial flag. If they want a medal they are entitled to, they must 
pay for it. They must also pay the Coast Guard $30 for their Honorable 
Discharge papers. We believe it is time all eligible WWII Merchant 
Marine Veterans be treated as equal veterans. While S. 961 does not 
grant educational or medical benefits to remaining seamen, it does 
partially compensate them for the benefits they never received. The 
Federal court and Congress have recognized merchant seamen of WWII as 
veterans. We are proud of that. We are not proud that we are still not 
treated a veterans. We read in the chronicle that only a few people we 
contacted in our 10-year legislative effort were knowledgeable about 
what the merchant marine did to help defeat the enemies of democracy. 
It was as difficult then as it is now to explain incidents of history 
and to illustrate that without the men who manned the merchant fleet, 
final victory would not have been possible. Some understanding of 
history is important to appreciate the significance of S. 961.
    Over the years, we found few people who knew that thousands of 
young men were actively recruited by the government to join the 
merchant marine in 1945 so they could man the ships that would invade 
Japan in November 1945. The two planned invasions of Japan would have 
resulted in an estimated one million American casualties. Included in 
these casualties would have been merchant seamen. It is difficult to 
communicate these issues that are now 62 years old. It is also hard for 
us to overcome the effect of misinformation that has been repeated over 
and over and thus, has prevented the passage of S. 961.
    Certain issues have come up year after year to support denying 
merchant seamen the requested relief. Among them are the disparity in 
the pay scales and the contention that there were strikes by merchant 
seamen. With respect to the often-mentioned strike, the truth is that 
the strike resolved around some longshoremen labor issues in the summer 
of 1946 in New York City. This was a dock labor management issue, not a 
merchant seamen issue. What is important to this discussion is that 
during WWII, no ship did not sail, or sailed late due to a strike by 
seamen. Admiral Emory Land, Administrator of War Shipping 
Administration, stated this fact in his last report to Congress on 
January 15, 1946. This fact is never mentioned. Failing to correct the 
misperception that the merchant seamen went on strike is, at least, an 
affront to the men who served and died for their country.
    No invasion failed or was delayed as merchant ship crews reportedly 
took off for coffee hour, or refused to load or unload cargo on the 
weekends. We have found that few people knew that when a ship was sunk, 
and the seaman was in the water, his pay ceased the minute he abandoned 
ship and did not start again until he signed on to a new ship. If he 
was injured, this could have been weeks or months. If he lost all his 
clothing he had to buy new clothing himself, if he survived. He was not 
provided free gear. Yet, seamen came back out of the cold or burning 
water, and sailed again. The pay issue that is used again and again 
against merchant seamen never really existed. Unfortunately these facts 
are not well known.
    The men of the Naval Armed Guard and the merchant seamen sailed 
together on the ships, ate the same food, manned the same guns, fought 
the same enemy, died or were wounded on the same ships. They deserved 
this. The surviving WWII merchant seamen are still waiting.
    We are here again, discussing things that have been settled before 
in our favor both in Federal court and in Federal legislation. We are, 
however, at a disadvantage in presenting facts to Members of Congress 
regarding S. 961. All the other services have historical research 
centers staffed by professional historians, all paid by the government 
that produce data for you, the public, and as records of their 
particular service. Congress also has military liaison personnel 
available who present their version of issues. The merchant marine has 
no such historical center to present credible testimony on our behalf, 
or government personnel to speak for us.
    S. 961 is a belated, yet welcomed, attempt to recognize the efforts 
of men of a service that has its name engraved on the new National 
World War II Memorial, in the same size as the other services. The 
merchant marine's name would not be there, carved forever in stone 
along with other services, if it were not considered a service equal to 
all others.
    Finally, S. 961 could also help in a small way to acknowledge the 
Merchant Marine of WWII as the other services were relegated to menial 
tasks, African-Americans in the merchant marine graduated from the 
United States Maritime Academy at Kings Point. African-American seamen 
shipped out as masters, officers, and crews of ships serving in harm's 
way the entire war.
    The Merchant Marine Veterans of WWII respectfully asks you to 
finally recognize them for their participation in the war, as all other 
services have been previously recognized by their government for their 
wartime service. We ask you to pass S. 961. We believe it is the right 
thing to do, and we believe this is the right time to do it. America 
will respect that.
    Thank you.
                                 ______
                                 
           Prepared Statement of Mr. Burt Young, Lincoln, NE
         s. 961, belated thank you to the merchant mariners of 
                        world war ii act of 2007
    Members of the Veterans' Affairs Committee: It is indeed an honor 
to be able to express our views on S. 961, ``Belated Thank You to the 
Merchant Mariners of World War II Act of 2007.'' We are here because we 
were not treated the same as the other services at the end of WWII. We 
have found we had the highest death rate of any of the services. Our 
death rate was 1 in 26; the Marines were 1 in 32; the Army 1 in 48; the 
Navy 1 in 114; and the Coast Guard 1 in 408. Does that sound like we 
were civilians? Apparently the enemy didn't think so. As my friend 
Captain Matt Drag stated, ``At no time during the war was I called a 
civilian; only afterwards.'' My friend Matt Drag also wrote, ``On Pearl 
Harbor Day, I was third officer aboard an American Merchant Vessel. At 
this time I held a Commission as Ensign in the USNR. At the first Port 
of Call, I reported to naval headquarters for duty. I was told, `Stay 
where you are. That is where we need you.' So, for following orders I 
was cheated out of my veteran recognition and benefits; not only this, 
but for my service to my country. I am insulted by being termed a 
civilian.''
    At a Missouri Valley Merchant Marine meeting in Des Moines, we were 
told there were about 36 in line to be sworn into the Navy. An officer 
came by and said, ``We need three of you to step out of line and join 
the Merchant Marine.'' Look how unfair they have been treated since the 
end of WWII compared to those that stayed in the Navy.
    At the time of the attack, the Merchant Marine had to supply one or 
two men to assist the Navy Armed Guard. When the war ended, the Navy 
Armed Guard walked down the gangway as veterans. The Merchant seamen on 
the same ship were not considered veterans.
    If Congress would have followed the law at the end of the WWII I 
don't think we would have to be here today. I am referring to the 
Merchant Marine Act of 1936. It states, ``The United States shall have 
a Merchant Marine serve as a naval or military auxiliary in time of war 
or national emergency.'' We did our part. Did the government honor 
their part? No, they did not. I ask you with the history you know. Did 
we serve as a naval or military auxiliary in WWII? President Roosevelt 
thought that we did and asked Congress to do likewise for the men of 
the Merchant Marine when the GI Bill was passed. Our military leaders 
felt the same way. I'll quote our military leaders of WWII:

          General of the Army, Dwight D. Eisenhower, ``When final 
        victory is our there is no organization that will share its 
        credit more deservedly than the Merchant Marine.''
          Fleet Admiral Chester W. Nimitz said, ``The Merchant Marine 
        has repeatedly proved its right to be considered as integral 
        part of our fighting team.''
          General A.A. Vandergrift, ``The men and ships of the Merchant 
        Marines have participated in every landing operation by the 
        United States Marine Corps from Guadalcanal to Iwo Jima--and we 
        know they will be on hand with supplies and equipment when 
        American amphibious forces hit the beaches of Japan itself. We 
        of the Marine Corps salute the men of the merchant fleet.''
          Field Marshall Sir Bernard Montgomery, ``Their contribution 
        was just as important as that of the troops.''
          Fleet Admiral Ernest J. King Commander in Chief of the fleet 
        and Chief of Naval Operations, ``Because the Navy shares life 
        and death, attack and victory with men of the United States 
        Merchant Marines, we are fully aware of their contribution to 
        the victory which must come.''
          General of the Army Douglas MacArthur, ``I wish to commend to 
        you the valor of the merchant seamen participating with us in 
        the liberation of the Philippines. With us they have shared the 
        heaviest enemy fire. On these islands I have ordered them off 
        their ships and into foxholes when their ships became untenable 
        targets of attack. At our side they have suffered in bloodshed 
        and in death * * *. They have contributed tremendously to our 
        success. I hold no branch in higher esteem than the Merchant 
        Marine Service.''
          The head of the draft, General Hershey said, ``Service in the 
        Merchant Marines was tantamount to the other Services.''

    I am one of those that started sailing after August 15, 1945 and 
there are those among you who seem to feel that I don't deserve full 
veteran status. I say, nonsense. I do not know any in this group that 
enlisted after August 15, 1945. We all enlisted during a hot shooting 
war with no knowledge of an atomic bomb that might bring an early end 
to the war. When I enlisted on July 13, 1945 at age 17, I was given a 
service number and issued a dog tag. Who has the power to issue service 
numbers besides the United States government during war time?
    I think you will also agree that if you were issued a service 
number and dog tag you would consider yourself part of the Armed Forces 
and expect to be treated honored as a veteran when the war ended. So, 
why aren't our service numbers honored and our training time counted? 
More shameful treatment.
    From the above you can see that President Roosevelt and all of our 
military leaders thought we should be included in sharing the victory 
which we helped win. While the other services were receiving benefits 
we've gone over 42 and 52 years receiving nothing. Passage of this bill 
will help to let people know that our service was appreciated and it 
was something we earned during WWII.

  

                                  <all>

</pre></body></html>
